<html>
<title> - NOMINATION OF ALEXANDER ACOSTA OF FLORIDA TO BE SECRETARY OF LABOR</title>
<body><pre>[Senate Hearing 115-268]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-268
 
   NOMINATION OF ALEXANDER ACOSTA OF FLORIDA TO BE SECRETARY OF LABOR

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING THE NOMINATION OF R. ALEXANDER ACOSTA OF FLORIDA, TO BE 
                           SECRETARY OF LABOR

                               __________

                             MARCH 22, 2017

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
      
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-848 PDF                WASHINGTON : 2018             
 
 
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS
          

                  LAMAR ALEXANDER, Tennessee, Chairman
                  
                  
MICHAEL B. ENZI, Wyoming                       PATTY MURRAY, Washington
RICHARD BURR, North Carolina                   BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia                        ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky                            AL FRANKEN, Minnesota
SUSAN M. COLLINS, Maine                        MICHAEL F. BENNET, Colorado
BILL CASSIDY, M.D., Louisiana                  SHELDON WHITEHOUSE, Rhode Island
TODD YOUNG, Indiana                            TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                           CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                            ELIZABETH WARREN, Massachusetts
LISA MURKOWSKI, Alaska                         TIM KAINE, Virginia
TIM SCOTT, South Carolina                      MAGGIE HASSAN, New Hampshire

             
                                     
                                     
               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                  Evan Schatz, Minority Staff Director
              John Righter, Minority Deputy Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       WEDNESDAY, MARCH 22, 2017

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, Ranking Member, a U.S. Senator from the State 
  of Washington, opening statement...............................     3
Rubio, Hon. Marco, a U.S. Senator from the State of Florida......     5
Cruz, Hon. Ted, a U.S. Senator fro the State of Texas............     6
Collins, Hon. Susan M., a U.S. Senator from the State of Maine...    14
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    16
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    18
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    19
Young, Hon. Todd, a U.S. Senator from the State of Indiana.......    20
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    22
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    24
Hassan, Hon. Margaret Wood, a U.S. Senator from the State of New 
  Hampshire......................................................    25
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    27
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    28
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..    30
Kaine, Hon. Tim, a U.S. Senator from the State of Virginia.......    31
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    34
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    35
Paul, Hon. Rand, a U.S. Senator from the State of Kentucky.......    37

                                Witness

Acosta, Alexander, Nominee to Serve as Secretary of Labor, Miami, 
  FL.............................................................     8
    Prepared statement...........................................    10

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
    Position Statement of Workplace Fairness--Sharon Rusz, 
      Executive Director and Paula Brantner, Senior Advisor......    49
    Wahington Post article by Marc Fisher........................    50
    Letters of Support...........................................    52
    Letters of Opposition........................................    65
    Response by Alexander Acosta to questions of:
        Senator Alexander........................................    81
        Senator Roberts..........................................    81
        Senator Collins..........................................    82
        Senator Murkowski........................................    83
        Senator Young............................................    86
        Senator Cassidy..........................................    86
        Senator Paul.............................................    87
        Senator Murray...........................................    88

                                 (iii)
        Senator Sanders..........................................   109
        Senator Casey............................................   116
        Senator Franken..........................................   123
        Senator Bennet...........................................   127
        Senator Whitehouse.......................................   128
        Senator Baldwin..........................................   134
        Senator Murphy...........................................   134
        Senator Warren...........................................   136
        Senator Kaine............................................   149
        Senator Hassan...........................................   151



  


     NOMINATION OF ALEXANDER ACOSTA TO SERVE AS SECRETARY OF LABOR

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:05 a.m., in 
room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Enzi, Paul, Collins, Cassidy, 
Young, Hatch, Roberts, Murkowski, Scott, Murray, Casey, 
Franken, Bennet, Baldwin, Murphy, Warren, Kaine, and Hassan.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    This morning we're holding a confirmation hearing on the 
nomination of Alexander Acosta to serve as U.S. Secretary of 
Labor.
    Senator Murray and I will each have an opening statement, 
then we'll introduce our witness. We're delighted to have 
Senator Rubio with us. Senator Cruz is coming. After our 
witness testimony, Senators will each have two 5-minute rounds 
of questions.
    Just 10 years ago, in 2007, Steve Jobs announced that Apple 
had reinvented the mobile phone, just 10 years ago. A micro-
blogging company named Twitter gained its own separate platform 
and started to scale globally, and Amazon released something 
called Kindle--all that in 2007, just 10 years ago.
    The same year IBM began to build a computer called Watson 
that within a few years defeated human contestants in the 
Jeopardy TV show, and in 2007 the cost of sequencing a genome 
started falling from $100 million in 2001 to $1,000 in 2015. In 
a new book, New York Times columnist Tom Friedman puts his 
finger on the year 2007, just 10 years ago, as ``the 
technological inflection point.'' He uses the term ``great 
acceleration'' for all the technological, social, 
environmental, and market changes simultaneously sweeping 
across the globe and argues we're living ``through one of the 
great inflection points in history'' as a result.
    Add to that Ball State University's finding that automation 
is responsible for the loss of 88 percent of manufacturing 
jobs; and globalization, add that. Add social, cultural, 
climate changes and terrorism, you get a big mismatch between 
the change of pace and ability of the average American worker 
to keep up and fit into the accelerating forces shaping the 
workplace.
    A few weeks ago a group of Senators sat around in a forum 
and listened to some very smart scientists talk about their 
advances in artificial intelligence. After it was all over one 
Senator asked where are we all going to work? Tom Friedman says 
that probably the most important governance challenge is the 
great,

        ``need to develop the learning systems, the training 
        systems, the management systems, the social safety nets 
        and government regulations that will enable citizens to 
        get the most out of these accelerations and cushion 
        their worst impacts.''

    One of the Federal Government's chief actors in this drama 
of acceleration should be the Secretary of Labor. In fact, as 
many have suggested and the House of Representatives has done, 
the title of the job for which Alexander Acosta has been 
nominated should be changed to be Secretary of the Workforce, 
not Secretary of Labor. Labor union membership in the private 
economy today is down to less than 7 percent. The issue for 
workers today is not whether they belong to a union; it's 
whether they have the skills to adapt to a changing marketplace 
and find and keep a job; to be accurate, to create and keep a 
job. My generation found jobs. This generation is more likely 
to have to create their own jobs.
    In his inaugural address, President Trump said he heard 
forgotten men and women who are struggling to keep up and fit 
into the changing world. In his farewell address, President 
Obama said he heard the same voices, too many families in inner 
cities and in rural counties who have been left behind, he 
said.
    What can we do about it? The most important thing is to 
work with employers and community colleges and technical 
institutes and find ways to increase the number of Americans 
earning post-secondary certificates and 2-year degrees, or 
more. Georgetown University says that by 2020, 65 percent of 
the jobs in this country will require some college or more, and 
at the rate we're going Georgetown predicts the United States 
will lack 5 million workers with an adequate post-secondary 
education by 2020.
    Unfortunately, too many of the Federal Government's actions 
over the last few years have made it harder for the American 
workers to keep up, adjust, create and find, and keep a job. To 
begin with, the Obama administration unleashed a regulatory 
avalanche that held job creators back. President Obama's 
Department of Labor issued 130 percent more final rules than 
the previous administration's Labor Department, an average of 
85 major rules, rules with more than a $100 million impact on 
the economy, compared with President Bush's 62 a year. Take the 
overtime rule. In my State its cost would add hundreds of 
dollars per student in college tuition, and it would force 
small businesses to reduce the jobs that provide stability 
families need. Or the joint employer rule and its attack on 
franchising. Or the fiduciary rule that makes it more expensive 
for the average worker to obtain investment advice. One after 
another, a big wet blanket of cost and time-consuming mandates 
on job creators.
    There's the Equal Employment Opportunity Commission's EEO1 
form, requiring employers to provide to the government 20 times 
as much information as they do today about how they pay 
workers. There is the ridiculously complex 108-question FAFSA, 
which I know the Dean is well aware of, the Federal aid 
application form that turns away from college many of the 
people who ought to be going. The Affordable Care Act, which 
defined full-time work as only 30 hours, forcing employers to 
cut their workers' hours or reduce hiring altogether.
    Many of these, like the persuader rule, which chills the 
ability of employers to retain legal advice during union 
organizing activities, seem designed for the purpose of 
strengthening the membership and power of labor unions.
    We're fortunate today to have a presidential nominee for 
Labor Secretary who understands how a good-paying job is 
critical to helping workers realize the American Dream for 
themselves and for their families.
    Senator Rubio and Senator Cruz will introduce him in 
detail, so I will not, but I do want to recognize that he--
after immigrating from Cuba to Miami--Mr. Acosta's parents 
worked hard to create more opportunities for their son. He's 
the first person in his family to go to college. He's been on 
the NLRB and Assistant Attorney General for the Justice 
Department, a U.S. attorney. He's Dean of Florida International 
University's Law School. His school's president describes him 
as conscientious, thoughtful, says he doesn't overreach, and 
he's already been confirmed three times by the U.S. Senate.
    Mr. Acosta, we welcome you today, and I look forward to 
hearing more on your ideas about how to help American workers 
adjust to the changing conditions in our workforce.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Chairman Alexander.
    Mr. Acosta, thank you for being here, and thank you to you 
and your family for your willingness to serve.
    The Department of Labor is really at the heart of one of 
President Trump's core campaign promises, which was to put 
workers first. DOL prioritizes the best interests of our 
workforce, enforces laws that protect workers' rights and 
safety and livelihoods, and seeks to expand economic 
opportunity to more workers and families across our country. I 
would hope that any president would share those basic goals, 
but especially one who has made so many promises about fighting 
for workers.
    I have to say I was very surprised when President Trump 
selected Andrew Puzder, a fast-food CEO who built his career on 
squeezing workers, as his first nominee for Secretary of Labor. 
We heard story after story from people who worked at his 
restaurants about lost wages and mistreatment, and I was deeply 
concerned that as Secretary of Labor his history of offensive 
comments and marketing campaigns would signal it's acceptable 
to objectify and marginalize women in the workplace. Puzder was 
uniquely unqualified for this role, and I'm frankly relieved he 
won't have the opportunity to serve in it.
    Just because President Trump's first selection for 
Secretary of Labor was so deeply unacceptable, that doesn't 
mean we should lower our standards, because workers and 
families across the country certainly are not. Instead, they've 
made very clear they want a Secretary of Labor who will stand 
up for the core mission of the Department and fight for their 
interests, someone who will be an advocate within this 
administration for workers if President Trump continues down 
the path of breaking promise after promise to those he said he 
would help.
    With this in mind, Mr. Acosta, I have some serious concerns 
about your nomination which I want to ask about today and in 
written followup questions.
    First, the Trump administration has already cemented a 
reputation for flouting ethics rules and attempting to exert 
political pressure over Federal employees. I expect our next 
Secretary of Labor to be someone who can withstand 
inappropriate political pressure and prioritize workers and the 
mission of the Labor Department over, hypothetically speaking, 
President Trump's business associates or Steve Bannon's 
frightening ideology.
    Mr. Acosta, I am concerned. A review of your history 
suggests that when you led the Civil Rights Division at the 
Department of Justice, you at best ignored an extraordinary 
politicization of the work of this critical division, and at 
worst actively facilitated it. A formal investigation by the 
Inspector General showed that under your tenure, hiring in the 
Civil Rights Division systematically favored conservative 
applicants over those who appeared to be more liberal 
regardless of their professional qualifications.
    As Assistant Attorney General, you chose to stay silent on 
a proposed Texas redistricting plan, instead allowing political 
appointees to overrule long-time attorneys who believed the 
plan discriminated against black and Latino voters. The Supreme 
Court later affirmed the plan did violate the Voting Rights 
Act.
    You inexplicably sent a letter defending a Jim Crow-era 
Ohio voter challenge law just 4 days before the 2004 
presidential election, although the Justice Department had no 
role in that lawsuit.
    By the end of your time at the Civil Rights Division, 
prosecutions for crimes related to gender and racial 
discrimination had declined by 40 percent.
    Altogether, these actions suggest a pattern of allowing 
political pressure to influence your decisionmaking on issues 
that should rise above partisanship. To me, this raises 
questions about your commitment to defend the civil rights of 
all workers, which of course is fundamental to the role of 
Secretary of Labor.
    Mr. Acosta, I'm also very interested in hearing more from 
you about your vision for this Department, and specifically 
where you stand on a number of key issues that will be heavily 
engaged in over the coming years. President Trump has spoken 
out against the updated overtime rule which would help millions 
of workers get pay they earned. Our Federal minimum wage has 
fallen far, far behind workers' needs. Women still make less 
than their male counterparts, an economic drain on our country 
that is especially pronounced for women of color. I've also 
heard reports that President Trump's wrongheaded, cruel 
immigration Executive order is causing undocumented workers not 
to come forward for back wages and protections they are owed. I 
feel strongly we need to ensure undocumented workers are safe 
and receive fair treatment, especially in this time of 
heightened fear and uncertainty.
    These are all challenges I expect the Secretary of Labor to 
be committed to working on, and I will be very interested in 
your thinking and plans on each because, again, the Secretary 
must be an independent voice for workers who will push back on 
the President's agenda to hurt working families.
    DOL also plays a pivotal role in making certain there are 
consequences when companies discriminate or threaten employees' 
safety on the job. It supports job training and the development 
of new career pathways for unemployed workers, oversees the 
quality of retirement programs impacting millions of workers 
nationwide, collects and publishes independent foundational 
data about our economy and workforce through the Bureau of 
Labor Statistics, and much more.
    In other words, the ability of this Department to operate 
effectively has enormous impact on workers, on families, and on 
our economy. I'm concerned about President Trump's proposal to 
cut more than 20 percent of the DOL budget. It is difficult to 
see how the Department could maintain, let alone improve its 
performance were such dramatic cuts to go into effect. Under 
the President's budget, workers would pay the price for a 
budget designed to help those at the top, which is 
unacceptable. I will want to hear how you, as someone who will 
be responsible for carrying out the critical work of this 
Department, view the President's proposal.
    I'm looking forward to your testimony and your responses on 
these and many issues, and I hope we receive clear and thorough 
answers. I firmly believe that workers should have a strong 
advocate at the Department of Labor, and that is what I will 
continue to push for.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    We welcome Senator Rubio and Senator Cruz. We'll invite 
each of you to introduce Mr. Acosta, and then I know both of 
you have other commitments. You're welcome to stay or welcome 
to go to your other commitments after that, and we'll move to 
his statement.
    Senator Rubio.

                       Statement of Senator Rubio

    Senator Rubio. Thank you, Mr. Chairman, and thank you to 
the Ranking Member for the opportunity to be before the 
committee today. It is my honor to be able to introduce Mr. 
Acosta, and I wholeheartedly encourage the committee and the 
full Senate to support his nomination to be our next Secretary 
of Labor.
    I begin by saying I know Alex well. As a fellow Floridian, 
as a native of Miami, I've been familiar with his work for 
many, many years. Later I came to know him personally as well, 
and as I said when the President nominated him, I think he is 
an outstanding choice to lead the Department of Labor.
    He has a sterling record of public service to our State and 
country. You'll learn about that today as you'll see not just 
in the materials but in his testimony as well. He was a member 
of the National Labor Relations Board, appointed by President 
George W. Bush from 2002 to 2003. From there he was selected by 
President Bush to serve as the Assistant Attorney General for 
the Civil Rights Division of the U.S. Department of Justice, 
where he also served as the Principal Deputy Assistant Attorney 
General in that office beginning in August 2013.
    The two places I would refer you and the place I've watched 
him most closely and am most proud of his work, the first is he 
was the U.S. attorney in one of the most challenging districts 
in the country, Florida southern district, and I encourage you 
to look at the numerous cases and the complexity of many of 
these cases that fall under their jurisdiction, and in 
particular during his time there.
    Most recently, he served as the Dean of Florida 
International University's College of Law, where he has been 
instrumental in getting the school off the ground after its 
recent founding. He's raised its profile, and it's begun to 
graduate well-prepared young men and women for their careers.
    Florida International University is a place that I know 
well. I actually was an adjunct professor there for over 10 
years. More importantly, it has a unique role in our community, 
where a significant percentage of the students, not just at the 
law school but at the school in general, are the first in their 
family to ever attend or graduate from college. It has a higher 
percentage of such students than virtually any other college or 
university in America, and under his tutelage and under his 
leadership FIU's College of Law has opened that door for 
hundreds of young people who ultimately would have had to do 
what I did, and that is take on significant student loan debt 
in order to get their Juris Doctor degree, and he has elevated 
FIU's ability not just to do that but at a very high level.
    With every challenge that he has confronted throughout his 
distinguished career, Alex has continuously demonstrated his 
ability to effectively tackle the problems at hand with ease. 
He is a brilliant, brilliant legal mind, someone with deep 
knowledge of labor issues and a proven leader and manager. For 
these reasons and many more, I am confident that Alex Acosta 
will serve this Nation admirably, and I am proud to introduce 
him to the committee today, and I urge you to support his 
nomination.
    I thank you, Mr. Chairman. I thank the Ranking Member and 
all the members of this committee for the opportunity.
    The Chairman. Thank you, Senator Rubio.
    Senator Cruz, welcome.

                       Statement of Senator Cruz

    Senator Cruz. Thank you, Mr. Chairman, Ranking Member, 
members of this committee. It is a privilege to be before you 
today and have the opportunity to introduce my friend, Alex 
Acosta. I've known Alex for 25 years. He and I went to law 
school together. We've been friends a long time.
    There's a lot you could know about Alex from looking at his 
resume, looking at his bio. You could know that he's smart, 
that he's academically accomplished, that he's led a life of 
public service, making a difference in the lives of others.
    One of the things, getting to know someone over the course 
of 2\1/2\ decades, is you learn their character, and I can tell 
you that Alex is a man of character, a man who takes very 
seriously fidelity to the law, fidelity to the Constitution, 
and a man who has a passion for justice.
    Alex began his legal career as a law clerk for Justice 
Samuel Alito on the Third Circuit Court of Appeals. He worked 
in a variety of locations, and has three times been confirmed 
by the U.S. Senate. He was confirmed as a board member on the 
National Labor Relations Board. He was confirmed as the 
Assistant Attorney General for the Office of Civil Rights. He 
was confirmed as the U.S. attorney for the southern district of 
Florida.
    All three of those positions are very challenging 
positions. As each of you know, those are not easy assignments. 
Those are assignments that, almost by their nature, guarantee 
that there's going to be conflict, there's going to be 
difficult and important issues presented to whoever is 
entrusted with leading those offices.
    One of the remarkable things about Alex is that he has been 
able to lead each of those offices with an impeccable record, a 
record of distinction, but also a record of inclusion. Alex, in 
leading those offices, has demonstrated an ability to bring 
people together even if they have disparate political or 
ideological backgrounds, to bring them together behind a shared 
vision and a shared commitment to justice. That is an important 
characteristic in any position.
    It's been an important characteristic in his role as the 
Dean at Florida International University School of Law, which 
as Marco described is a school that is expanding opportunity to 
a great many people who would never have had the opportunity 
otherwise. That's yet another demonstration of Alex's passion 
for justice, stepping down as U.S. attorney. He could have 
cashed out. There would have been plenty of law firms in 
Florida that would have offered him a seven-figure check, and 
he could have lived in a nice house and driven a big car and 
had a very, very comfortable life, but he chose instead to be 
Dean of the Law School, to make a difference in the lives of 
students.
    To those of us who have known Alex a long time, that is not 
surprising. That is entirely consistent with the course of his 
entire life.
    I'll also tell you, on a personal level, Alex is a 
surprisingly good poker player, and not nearly as good a squash 
player.
    One additional observation. Alex is a Cuban American. He 
understands firsthand how incredible the miracle of freedom is, 
how incredible this country is, the beacon of freedom that it 
has served to the world. That is an appreciation that I think 
is important in any government position, but as Secretary of 
Labor, the mandate of Secretary of Labor, the kind of Secretary 
of Labor I expect Alex will be, will be a champion for working 
men and women, a champion for people who want jobs, who want 
more jobs, who want higher wages, who want more opportunity, 
someone who will fight for the working men and women of this 
country.
    I will say I take perhaps particular pleasure in the 
observation that I suspect this is one of the first times, if 
not the only time, that this committee has had three Cuban 
Americans seated before it, and it is a testament of the 
opportunity that our wonderful nation provides.
    I commend to you Alex Acosta, who I think will make an 
excellent Secretary of Labor.
    The Chairman. Thank you, Senator Cruz and Senator Rubio. 
Thank you both for coming.
    We'll now move to--you're welcome to go to your other 
hearings at whatever time you choose to.
    Mr. Acosta, we welcome you and your family. You're welcome 
to introduce your family if you'd like. We'd be glad to have 
your statement, and then we'll begin a round or two of 
questions.

STATEMENT OF ALEXANDER ACOSTA, NOMINEE TO SERVE AS SECRETARY OF 
                        LABOR, MIAMI, FL

    Mr. Acosta. Thank you, Mr. Chairman, Ranking Member Murray, 
and members of the committee. I thank you for the opportunity 
to appear before you this morning. I know today is a very busy 
day in the Senate and there are other ongoing hearings, and so 
thank you. It is an honor to be here as President Trump's 
nominee to be Secretary of Labor.
    I want to take a minute to thank Senators Marco Rubio and 
Ted Cruz for their very kind introductions. As both noted, I 
have known them for many years. I appreciate their support and 
I deeply admire and respect their dedication to public service.
    I am also grateful for their support today because my 
family was unable to be here. My wife Jan is an amazing woman, 
a fantastic mother, and I am deeply grateful for her love and 
her unending and unyielding support. My eldest daughter Delia 
is in first grade, and there's something called an IOWA test, 
which is a standardized test that she's undergoing this week. 
My wife is with Delia and with my 5-year-old Rosalia, who will 
be in kindergarten next year. Back in Miami, I don't know if 
they're watching. I know my girls aren't watching. My wife may 
or may not be. I really want to reach out to them and thank 
them for everything that they do for me.
    I want to thank my parents in particular. My parents are 
very important to me not simply because of what they've done 
for me but because my story really begins with them and informs 
my perspective on what it means to be a Secretary of Labor. 
They fled Cuban. They came to the United States seeking 
freedom, and they found it. They met in Miami in high school. 
They fell in love. They married young. My mother was in her 
teens when she found out she was pregnant. Neither attended 
college.
    Growing up, they struggled, not as much as other Americans 
have struggled, but they struggled. My mother started out as a 
typist at a real estate firm. At times, she commuted 90 minutes 
each way for her job. My father served in the Army. Later, he 
tried to start a small business, but he quickly found that his 
lack of higher education, his lack of ability to deal with 
forms and rules made it very difficult for him to be a small 
business owner. He went on to hold various jobs, and he ended 
his working life as an inventory clerk at a cell phone store.
    Our family lived paycheck to paycheck. My grandmother cared 
for me while we grew up, and that was an incredibly helpful and 
loving thing to do because both my parents worked full-time. At 
times my parents went into debt, deep debt, the kind of debt 
they tell you not to go into because credit card interest rates 
are high, but they went into that debt and they took on second 
jobs to make ends meet, and they did that because they wanted 
to give me an education.
    I am here because of them. My success is very much their 
success. They were able to give me these opportunities because 
even though they didn't have a college education, they had 
something very important, and that's a job. Although at times 
they lost their job, they were always able to find another job, 
and that was very important.
    Today Americans are facing the same struggles, but for many 
Americans only worse. My parents had jobs, but not all 
Americans have jobs. Some Americans have seen their jobs go 
overseas. Some Americans have seen their jobs filled by foreign 
workers. I've read and I've seen press reports that not only 
have they been filled by foreign workers, but to add insult to 
injury they've been asked to train their foreign replacements. 
Some Americans have seen that jobs are available, but that 
these available jobs require skills they do not have.
    Helping Americans find good jobs, safe jobs, should not be 
a partisan issue. In my visits with each of you, with each 
member of this committee, it was crystal clear that every 
member of this committee wants Americans to find jobs, good 
jobs, safe jobs, even if you don't all agree on the how.
    I share this goal with you. We may not always agree on the 
how, but at least let us begin by agreeing on the need. If 
confirmed, I hope to benefit from an ongoing dialog with each 
of you as to how we can advance these goals within the context 
of, as the Chairman mentioned, a global economy that is 
changing rapidly with each passing year, and within the 
constraints of limited resources.
    I would like to close with a brief discussion of a few 
items in particular. The first is the skills gap. As I visited 
with members of this committee, I repeatedly heard that in your 
States there are jobs, but the skills too often are not there. 
In one of your States, for example, a community college was 
teaching welding techniques, and it turns out that the 
employers are no longer using that welding technique, so why 
are they teaching an outdated technique? That's not how you 
teach skills.
    We can and we must work to reduce that skills gap. We need 
to make better efforts to align job training with the skills 
the market demands and the increasingly changing market will 
demand of its workers, especially as advancing technology 
changes the types of jobs that are available in our economy.
    The Department of Labor cannot do this alone. It has to 
work with local governments, with industry, with educational 
institutions, public-private partnerships that can have 
substantial positive impact on the American workforce. This is 
the vision of the Workforce Innovation and Opportunity Act, of 
apprenticeship programs, of Job Corps, and of many other 
programs not only at DOL but across government.
    If confirmed, I will work with you to maximize every 
taxpayer dollar that is directed toward job training programs.
    Second, good jobs should also be safe jobs. Congress has 
enacted workplace standard and safety laws. The Department of 
Labor enforces these, and if confirmed, I will work to enforce 
the laws under the Department's jurisdiction fully and fairly. 
As a former prosecutor, my enforcement efforts will always be 
on the side of the law. If enacted by Congress, it should be 
enforced fully, it should be enforced fairly, and it should not 
be enforced in favor or against any particular constituency.
    Finally, the Department of Labor was formed a bit more than 
100 years ago, and it's an interesting history because 
originally it was the Department of Commerce and Labor, and 
then it was split into two. Why was it split? The reason was 
this, that a voice for Commerce and a voice for workers, or the 
workforce, as the Chairman mentioned, within the executive 
branch would promote better decisionmaking.
    I think this concept is absolutely correct. Advocates for 
the American workforce within the administration are important. 
Whether it is those who are working, those who still seek work, 
those who are discouraged or underemployed, or those who have 
retired, if confirmed as the Secretary of Labor, part of my job 
will be to be one of those advocates.
    President Trump has reached out to both business and to 
labor in his first 100 days. I'm proud to have the support of 
several dozen business groups and also of several private-
sector and key public safety unions who remember with respect 
my work at DOJ and the NLRB. They know that while we did not 
always agree, I was always willing to listen and to think and 
to consider and to seek out principled solutions.
    If confirmed, I hope that we, this committee and the 
executive branch, can work together in the same way to address 
the need for good jobs and safe jobs, and in particular access 
to training in the skills that the changing workplace will 
demand of its workforce.
    I thank you for your consideration, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Acosta follows:]
                 Prepared Statement of Alexander Acosta
    Chairman Alexander, Ranking Member Murray, and members of the 
committee: Thank you for the opportunity to appear before you this 
morning. It is an honor to be here as President Trump's nominee for 
Secretary of Labor. I know today is a very busy day in the Senate, and 
I am indebted to the committee for taking time to conduct this hearing.
    I want to thank Senators Marco Rubio and Ted Cruz for their kind 
introductions. I have known both of them for many years. I truly 
appreciate their support and admire their dedication to public service.
    I am especially grateful for their support given that my biggest 
fans--my wife Jan and my two young daughters, Delia and Rosalia--cannot 
be here. Jan is an amazing woman, a fantastic mother, and I am deeply 
grateful for her love and support. She is in Miami because Delia, my 
eldest, has her 1st Grade IOWA tests this week; her sister Rosalia will 
be in kindergarten next year.
    Mr. Chairman, I want, in particular, to thank my father and mother 
because my story begins with that of my parents, and it frames my 
perspective on the important responsibilities I would assume if 
confirmed as Secretary of Labor.
    My parents fled from a Cuban dictatorship in search of freedom. 
They met in Miami, while in high school, fell in love, and married 
young. My mother had me while she was still in her teens. Neither 
attended college.
    Growing up, I saw my parents struggle. My mother started out as a 
typist at a real estate firm. At times, she commuted 90 minutes each 
way to her job. My father served in the Army. Later, he tried to start 
a small business. But he found the growing gap between his skills and 
the demands of being a small business owner too difficult. He went on 
to hold various jobs, ending his working life as an inventory clerk at 
a cell phone store.
    Our family lived paycheck to paycheck. My grandmother cared for me 
while my parents worked full-time. My parents would often go into debt 
and, at times, take a second job to make ends meet and to provide me 
with the best education possible.
    I am here today because of them. My success is their success. Their 
sacrifice and perseverance made my education possible. They were able 
to give me opportunities they did not have because even though they 
didn't attend college, they had something very important--they had 
jobs. And though at times they lost their jobs, they were always able 
to find another job.
    Mr. Chairman, today many Americans are facing the same struggles my 
parents endured, only worse. My parents had jobs; but not all Americans 
have jobs.
    Some Americans have seen jobs go overseas.
    Some Americans have seen jobs filled by foreign workers. Indeed, 
I've read reports that some Americans have been asked to train their 
foreign replacements.
    And some Americans see that jobs are available, but these available 
jobs require skills that they do not have.
    Helping Americans find good jobs, safe jobs, should not be a 
partisan issue. In my visits with each of you, it was crystal clear 
that each Member of this committee wants to help American workers find 
good, safe jobs--even if you do not all agree on how best to realize 
this goal.
    I share this goal with you. We may not always agree on the how, but 
at least let us agree on the need. If confirmed, I hope to have the 
benefit of an ongoing dialog with each of you about how we can advance 
these goals within the context of a dynamic, global economy that is 
changing more rapidly with each passing year, and within the 
constraints of limited resources.
    I would like to close with a brief discussion of a few items in 
particular. The first is the ``skills gap.'' As I visited with Members 
of this committee, I repeatedly heard that in your States the jobs are 
there, but the skills too often are not. In one of your States, for 
example, a community college was teaching welding techniques that 
employers no longer used. Not surprisingly, the students could not get 
a job when they graduated.
    We can and must work to reduce the skills gap. We need to make 
better efforts to align job training with the skills the market demands 
of its workers, especially as advancing technology changes the types of 
jobs available in our economy. The Department of Labor, along with 
local governments, industry, and educational institutions, can partner 
to have substantial positive impact on American workers. This is the 
vision of the Workforce Innovation and Opportunity Act (WIOA), of 
apprenticeship programs, of Job Corps and of many other programs at 
DOL. If confirmed, I will work with you to maximize the impact of every 
taxpayer dollar Congress directs toward job training programs.
    Second, good jobs should also be safe jobs. Congress has enacted 
workplace safety laws. The Department of Labor enforces these, and if 
confirmed, I will work to enforce the laws under the Department's 
jurisdiction fully and fairly. As a former prosecutor, I will always be 
on the side of the law and not any particular constituency.
    Finally, the Department of Labor was formed a bit more than 100 
years ago, when the Department of Commerce and Labor was split into 
two. The intent was this: that a voice for Commerce and a voice for 
Workers within the executive branch would promote better 
decisionmaking.
    I support this concept. An advocate for the American workforce 
within the Administration is important. Whether it is those who are 
working, those who still seek work, those who are discouraged or 
underemployed, or those who have retired, if confirmed as the Secretary 
of Labor, I will advocate for them. I am proud to have the support both 
of several dozen business groups and of several private-sector and key 
public safety unions, who remember with respect my prior government 
work at DOJ and the NLRB. They know that while we did not always agree 
on the outcome, I always listened and sought principled solutions.
    If confirmed, I hope we--this committee and the executive branch--
can work together in the same way to address the need for good jobs, 
safe jobs and access to training in the skills that the changing 
workplace demands.
    Thank you for your consideration, and I look forward to answering 
your questions.

    The Chairman. Thank you, Mr. Acosta.
    We will now begin a round of 5-minute questions, and if 
Senators wish there will be a second round of 5-minute 
questions.
    Mr. Acosta, let's start with the skills gap that you spoke 
about. If we're to think of you, as I think we should, as 
secretary of the workforce, to help workers in this head-
spinning environment that we find ourselves in, adjust to it 
and fit into it, we always spend a lot of money on helping 
people get training. We spend more than $30 billion in Pell 
grants. The average Pell grant is about the same as the average 
community college tuition. We spend a lot of money on student 
loans. Other countries do other things. Germany has an 
apprenticeship system. Some people say our technical institutes 
do a better job than our community colleges.
    If you're the secretary of the workforce, and if you see 
that, according to the Manufacturing Institute, 2 million 
Americans' manufacturing jobs will go unfilled over the next 10 
years due to the skills gap, specifically what are some of the 
things we should be doing about it?
    Mr. Acosta. Senator, thank you for the question. First, let 
me touch on the first part of your comments, which is the 
spending that we spend on education. It's critical, if 
confirmed, that the Department of Labor work very closely with 
the Department of Education, because there is a lot of spending 
that's taking place in Education, and we want to make sure, to 
the extent possible and feasible, that individuals have the 
opportunity to align their education with the skills the 
workplace will demand.
    More specifically to the second part of your question, you 
mentioned apprenticeships. As dean of a law school, I'm a big 
fan of learning by doing. We recently started a program which 
is a full semester internship at a law firm, in addition to the 
public defender's office or a State attorney's office, and the 
students have the opportunity to spend a full semester there 
because they can learn by doing.
    If you look at some of the apprenticeship programs where 
individuals work and they get credit while they are working, or 
some of the other programs that are available in community 
colleges that focus on locational opportunities in partnership 
with individual businesses, those are all options that we 
should be looking at because they're alternative ways of 
educating, they're alternative ways of providing skills; and 
importantly, it is a way for students to acquire skills to be 
used in jobs without taking on the enormous debt that we're 
seeing in some secondary programs right now.
    The Chairman. Let me ask you one other question. The 
overtime rule, fortunately it's not in effect, thanks to a 
court. In my view, it's one of the worst examples of regulation 
by the previous administration. It caused millions of Americans 
to punch time clocks that they didn't want to punch. It raised 
tuition, according to our universities, by hundreds of dollars 
per student because of its cost. It cost my local Boy Scout 
council to have to dismiss counselors. It received widespread 
condemnation around the country, and even in Congress there was 
bipartisan opposition.
    There was a doubling of the threshold. There was an impact 
on non-profits. What are you going to do about the overtime 
rule?
    Mr. Acosta. Senator, Mr. Chairman, as you mentioned, it's 
pending in litigation. Let me offer a few observations.
    First, the overtime rule hasn't been updated, I believe, 
since 2004, and I think it's unfortunate that rules that 
involve dollar values can sometimes go more than a decade, 
sometimes 15 years without updating, because life does become 
more expensive over time.
    The Chairman. Let me press you a little bit. Doubling the 
threshold, applying so heavily the impact of it to non-profits, 
doesn't that concern you?
    Mr. Acosta. Mr. Chairman, it does. The point that I was 
making is that I think it's unfortunate that it goes so long 
without adjusting, because when they are adjusted, you see 
impacts such as the doubling of the amount that does create 
what I'll call a stress on the system, as the Chairman 
mentioned, particularly in areas, both industry and geographic 
areas, that are lower wage historically.
    One of the challenges that we face in addressing the 
overtime rule is since 2004 there's been no change, now there 
is a very large change, and how should that be addressed as a 
policy matter I think is a very difficult decision but a very 
serious one, because the economy does feel a substantial impact 
from such a large change.
    The Chairman. Thank you.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman. Let me follow on 
that.
    As the Chairman mentioned, the Department of Labor did 
finalize the updated overtime rule last year, and that rule 
helped restore the 40-hour work week, which is the cornerstone 
of protection for middle-class workers. Before that overtime 
rule, workers could be asked to put in extra hours--60, 70, 80 
hours a week--without earning a single extra dollar for the 
overtime hours that they spent away from their families. That 
new overtime rule expanded the number of workers who qualify 
for overtime pay, increasing economic security actually for 
millions of families.
    After months of Republicans in Congress and big business 
fighting to block that overtime rule, as you stated, the court 
is now considering the rule and blocking overtime for workers 
from taking effect.
    Let me ask the question a little bit differently. Do you 
believe that workers should be paid overtime for the overtime 
hours that they work?
    Mr. Acosta. Senator, I do believe that workers who are 
entitled to overtime pay should receive pay for their overtime.
    Senator Murray. Will you defend this rule in court?
    Mr. Acosta. Senator, as I was saying in response to the 
Chairman's question, the overtime rule hasn't been updated 
since 2004. We now see an update that is a very large revision, 
and something that needs to be considered is the impact it has 
on the economy, on non-profits, on geographic areas that have 
lower wages.
    I'm also very sensitive to the fact that it hasn't been 
updated since 2004. If confirmed, I will look at this very 
closely.
    Let me also add that a related issue to this is the 
question of whether the dollar threshold is within the 
authority of the Secretary. When Congress passed the statute, 
it provides, in essence, for a duties test. One of the 
questions that's in litigation is does a dollar threshold 
supersede the duties test? As a result, is it not in accordance 
with the law? I mention that because I think the authority of 
the Secretary to address this is a separate issue from what the 
correct amount is, and the litigation needs to be considered 
carefully both with respect to what would be the appropriate 
amount if the rule were to be changed or revised, but also what 
is within the authority of the Secretary to do.
    Senator Murray. OK. This is an issue I'm going to be 
following closely. It's an issue of fairness, and I really do 
believe the Secretary of Labor's job is to make sure that 
workers are treated fairly.
    Let me move on to another issue. You have served as a high-
ranking Federal official, one of the few Cabinet nominees of 
this President who has done so. However, in your time leading 
the Civil Rights Division at the Department of Justice, staff 
under your supervision broke Federal law by systematically 
discriminating against individuals based on their political 
affiliations. An Inspector General investigation found that 
staff on your management team sought out conservative 
candidates and rejected liberal ones. Your staff referred to 
conservatives as ``real Americans'' who were ``on the team,'' 
and according to the IG report your staff called liberal 
Department lawyers commies and pinkos and told a subordinate 
that,

          ``Your division shouldn't be limited to hiring 
        Politburo members who belong to some psychopathic left-
        wing organization designed to overthrow the 
        government.''

    Your deputy said he should get an award for effectively 
breaking the will of liberal staff.
    These were your staffers acting under your supervision. Do 
you take responsibility for the acts of discrimination that 
occurred under your leadership?
    Mr. Acosta. Senator, you're referring to the actions of one 
of the deputies in the division. I believe the Inspector 
General's report found that the other deputies that oversaw the 
other divisions or the other sections of the Civil Rights 
Division did not engage in that conduct. That conduct should 
not have happened. It happened on my watch. It should not have 
occurred. That language should not have been used, and I deeply 
regret it.
    Senator Murray. OK. It leads me to ask you, will you stand 
up to the President or others in the Administration if they ask 
you to use political views on statements and hiring decisions?
    Mr. Acosta. Senator, political views on the hiring of 
career attorneys or staff should not be used, and the answer to 
your question is if I am asked to do that, I will not allow it. 
I'm very aware of the Inspector General's report, of the impact 
it had on that section, and I would not allow that to happen.
    Senator Murray. OK. I appreciate that very much. Thank you.
    The Chairman. Thank you, Senator Murray.
    Senator Collins, and then Senator Bennet.

                      Statement of Senator Collins

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Acosta, first of all, thank you for sharing your 
inspiring personal story. It really is a story of opportunity 
in America, and in many ways that is the mission of the 
department that you've been nominated to lead, to create more 
opportunities for American workers.
    The Department has a program known as the Trade Adjustment 
Assistance Program that helps Americans who, through no fault 
of their own, have lost their jobs as a result of foreign and 
often unfair competition. In Maine, for example, we've lost 
more than 38 percent of our manufacturing jobs. That's nearly 
31,000 jobs in total over the last 17 years.
    The Trade Adjustment Assistance Program has been crucial in 
helping many Maine workers, who have been hit very hard by mill 
closures and shuttered factories, get the skills that they need 
for the jobs in higher demand industries. For example, in 
fiscal year 2015, 740 Mainers benefited from TAA, and more than 
70 percent of those who went through TAA-provided education or 
re-training found employment within 3 months of completing the 
program.
    The so-called skinny budget that was released last week 
proposes large cuts in the Department of Labor, but it's 
unclear what happens to TAA. What is your view on that program?
    Mr. Acosta. Senator, thank you for the question. I 
appreciate the way you set up the question because you provided 
data. If confirmed, something that I think I would need to do, 
and do very quickly because budget season has already begun, is 
assess the efficacy of the job training programs. Budgets are 
to be determined. The skinny budget has been submitted. 
Congress will have the final say on the ultimate budget, but 
dollars are going to be more scarce. That is the reality, and 
so we're going to have to make difficult decisions.
    You've provided data that shows how successful that program 
has been, and I think the principles that need to be used to 
guide the spending are how successful is the program, does the 
program address particular needs such as the needs of displaced 
individuals who have lost their jobs because of, for example, 
the closing of a mill. In that context, the rate of return on 
the investment of taxpayer dollars in the skills I think is 
particularly high, because if you have someone who has been 
doing a job most of their life and that job no longer exists, 
and now you provide them the skills to do another job, they're 
going to hold that job for a long time, and they're going to 
become part of our economy again, and they're going to be 
paying taxes. That rate of return on those programs I think is 
very strong.
    Based on your information, I hope that program remains 
because it sounds like it's incredibly successful, at least in 
your State. Let me add, there's also room for differences 
within States where some program might make sense in Maine but 
it might not make sense in another State, and I think we need 
to be very sensitive that one-size-does-not-fit-all.
    Senator Collins. Thank you for that response.
    Despite the success of the TAA program, there still is a 
category of workers in my State who are older workers who are 
in many ways the forgotten story of this economic recovery. 
Older workers are having increasing difficulties in finding 
employment. In Maine, almost half of the private industry 
workers are over 44 years old, and our paper mills, which have 
lost more than 1,500 jobs over the past 3 years alone, have a 
disproportionately high number of older workers. For many of 
them, working the paper mills has been the only job they have 
ever known. Their families have worked there for literally 
generations, and it's very difficult to tell someone who is 54 
years old, who has done this his entire life or her entire 
life, that they need to retrain for a new job or leave a 
community that's been their home their entire life.
    If confirmed, what ideas do you have for helping older 
workers in my State and others who have lost jobs due to mill 
closures and other factors?
    Mr. Acosta. Senator, very briefly, because I see the clock, 
I will just say that I think those ideas can't come from 
Washington. What Washington needs to do is go to them and ask 
them what ideas do they see in their local area and then work 
with them and the local governments to address that, because I 
don't think we here in Washington can understand what they're 
going through in their small town in Maine.
    Senator Collins. Thank you.
    The Chairman. Thank you, Senator Collins.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Mr. Acosta, congratulations to you on your nomination, and 
thank you for your willingness to serve.
    I want to press you a little bit on what Senator Collins 
was just asking you. Let me come back to that in 1 second.
    In Colorado we are trying to establish an apprenticeship 
program throughout our universities, community colleges, school 
districts and businesses, and I'd like to invite you if you're 
confirmed to come out there and meet with the people that are 
working on that project to see how the Department of Labor 
might help them or help us do that better.
    Mr. Acosta. Gladly.
    Senator Bennet. Good. Thank you.
    Virtually this entire campaign was about bringing back jobs 
and wages to places in America where people who suffered huge 
economic dislocation because of, some would argue, trade, some 
might say automation, but the dislocation has been real. Median 
family income has fallen in many places, and there's a 
hopelessness about what the economy is going to bring.
    With respect to you, I'm not sure the answer that it's all 
up to local communities suffices. The President ran for 
president saying he was going to make that huge difference, he 
was going to bring those jobs back.
    Apart from training, which I stipulated when we talked 
about it in my office is an enormously important thing that we 
need to do better and we're wasting billions of dollars not 
training people for jobs that exist in the 21st century, 
putting that aside, what's the plan?
    Mr. Acosta. Senator, thank you for the question, and let me 
first make the point that one of the reasons that I said it's 
important to go to the local communities is because when the 
Senator and I met in private, she gave me information about the 
educational background and the abilities and the other 
opportunities in that area, and that is, by definition, going 
to be different than what's available in Colorado. I do think 
it's important to visit Colorado and visit Maine and understand 
the different areas.
    Going to your point, we need to look at several different 
levels for job creation. The President has made clear that 
every Cabinet agency should review regulations for unneeded 
regulatory burden. Small businesses produce--depending on whose 
numbers you look at--between 7 and 8 new jobs, 7 and 8 out of 
10 new jobs. Efforts to encourage small business will foster 
job creation.
    It's important to look at the issue I highlighted about 
foreign workers taking American jobs, particularly in those 
circumstances I highlighted, where Americans are being asked to 
train their foreign replacements. That is not the intent of the 
H1B. As a matter of fact, there's an attestation that has to be 
made that you are not affecting the working conditions of an 
American worker when you do that. One question I would have is 
how often is that happening and is that something we should be 
looking at with a greater degree of care?
    We also need to work with public-private partnerships. I 
know that there is a lot of discussion about an infrastructure 
program, and an infrastructure program will certainly bring 
back a lot of jobs. For all of these, it's not just the jobs as 
part of an infrastructure program or jobs that are developed 
for small business, but as individuals get jobs, they spend 
money. Then those individuals that spend money go to 
restaurants, and you have this multiplier effect throughout the 
economy that I think is incredibly valuable.
    Let me finally touch on education. I do think it's 
important to touch on education because the economy is changing 
rapidly, and our educational institutions cannot ignore what 
the workplace is going to be demanding going forward.
    Senator Bennet. Mr. Acosta, I also just wanted, for the 
record, to note that, and I appreciate this, you've been a 
supporter of immigration reform in the past with Senator Rubio 
as part of the Gang of Eight here who passed the Senate bill on 
immigration, and part of what you observed in 2012 was that the 
current system allowed the abuse of immigrant workers. Do you 
still feel that way, and do you still support immigration 
reform?
    Mr. Acosta. Senator, there is a need to have immigration 
laws that are transparent and clear, and I do think that we 
have an issue of abuse with immigrant workers. When workers are 
not part of the system, the system can abuse them. I also think 
it's important that we enforce our immigration laws, and I 
don't see enforcement of immigration laws as separate from 
immigration reform.
    Senator Bennet. Mr. Chairman, I realize I'm 15 seconds 
over. I apologize.
    Along those lines as well, you mentioned the H1B program. 
We have huge difficulties with the H2A and H2B program being 
administered in a way that's actually useful to workers and to 
businesses. I look forward to having a chance to talk with you 
about that at a later time.
    Thank you, Mr. Chairman, for holding this hearing.
    The Chairman. Thank you, Senator Bennet.
    I was going to call on Senator Hatch, but he's not here, so 
I'll call on Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman.
    Thank you for being here again.
    A couple of questions that I've heard so far during this 
hearing have to do with the overtime rule. Moving from $23,600 
to about $47,000, according to some studies, would cost about a 
half-a-million jobs in the economy, so your comments seem to be 
a mixed bag. According to Tammy McCutchen, who was an hourly 
and wage person at the Department of Labor under the Bush 
administration, moving it up from $23,000 to maybe $32,000 
would make sense based on the previous formula that's been used 
for decades. What would be your approach?
    Mr. Acosta. Senator, thank you for the question. If you 
were to do a cost-of-living adjustment--and, as I mentioned, 
the world has gotten more expensive and salaries have changed 
since 2004--if you were to apply a straight inflation 
adjustment, I believe that the figure if it were to be updated 
would be somewhere around $33,000, give or take.
    I think the question that I will have to face if I were to 
become Secretary of Labor is, No. 1, what to do with the 
litigation; No. 2, if we determine that the rule as it 
currently stands should not be the rule that eventually takes 
place within this litigation context, what would be the correct 
amount. I understand that there's a desire on the part of 
members of this committee for me to State this is exactly what 
I would do, but this is an incredibly complicated rule. This is 
something that gets updated about every 15 years.
    For me to sort of on the fly at a hearing State with 
certainty, I don't think it's the responsible approach. What I 
would say is, No. 1, I understand the extreme economic impact 
that a doubling has in certain parts of the economy. I 
understand that it goes beyond a cost-of-living adjustment. I 
understand as well that because of the size of the increase, 
there are serious questions as to whether the Secretary of 
Labor even has the power to enact this in the first place, 
which is what a lot of the litigation--not a lot--which is what 
the basis of the litigation is. Those are issues that I would 
want to consult with the individuals at Labor and at Justice 
that are overseeing the litigation before determining.
    Senator Scott. I certainly hope that you have already 
invested a lot of time contemplating what you would do as the 
next Secretary, as opposed to not having invested any time in 
that conversation, which will be a very important conversation 
between the overtime rule and the fiduciary rule. These are 
things that you should be contemplating already.
    Let's move to a different topic. Senator Bennet has 
mentioned it, perhaps Chairman Alexander, and the Ranking 
Member as well have talked about the importance of 
apprenticeship programs. South Carolina is perhaps the leading 
State, at least one of the leading States in the country, on 
the success of our apprenticeship programs. I'd love to hear 
how you would encompass or integrate into your objectives going 
forward an apprenticeship model, taking into consideration the 
one that Corey Booker and myself have sponsored, over 17,734 
apprenticeships and 6,400 participating programs in South 
Carolina. We have companies throughout the country in South 
Carolina, from BMW, Boeing, Continental, General Electric, Blue 
Cross Blue Shield, Bosch, also industries like health care and 
finance, that all integrated in South Carolina and involve 
apprenticeship programs. I'd love to hear your model.
    Mr. Acosta. Senator, first let me say that South Carolina 
really is a model of apprenticeship programs. Some of the 
qualities that make it so successful are the integration or the 
public-private partnerships where employers are not involved in 
name but they're really deeply involved in directing. These are 
the types of apprenticeships we need. This is what the 
workforce is demanding, and I think that involvement of 
employers is very, very important.
    I know that South Carolina at the State level also provides 
incentives for employers to engage in apprenticeships and to 
hire apprentices, and particularly when someone is learning, 
when someone is quite literally an apprentice, my understanding 
is that makes the South Carolina program particularly 
noteworthy and attractive for an employer to hire an 
apprentice.
    Senator Scott. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Scott.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman.
    Welcome, Mr. Acosta. Congratulations on the nomination.
    One of the first responsibilities--and you alluded to it a 
moment ago in terms of the fact that it's budget season. One of 
the first responsibilities of the Secretary is going to be 
identifying where to cut, frankly, because President Trump's 
budget calls for a $2.5 billion cut to the Department of Labor, 
a 21 percent decrease from current enacted levels. This is 
really significant. President Trump's budget only specifies 
$500 million of cuts, mostly to seniors seeking job training, 
and leaves about $2 billion unspecified.
    I'd like to ask you how are you going to approach this 
incredible task of making this math work. You could eliminate 
15 Job Corps centers for vulnerable youth. You could eliminate 
the entire Employee Benefit Security Administration, charged 
with protecting workers' retirement funds from fraud, or get 
rid of the Women and Apprenticeship Grant Program. How are you 
going to approach this? Are you going to do 20 percent across 
the board? Are you going to cut various bureaus? What are you 
going to do?
    Mr. Acosta. Senator, thank you for the question. First let 
me say that as the nominee I haven't had the opportunity to 
provide input yet into the budget process, and if confirmed 
it's something I'm going to have to take on very quickly 
because it's moving.
    My personal perspectives--and again, Congress will make 
ultimate decisions on this, and so Congress may have a 
different view. My personal perspective is this should not be 
across the board, and at the same time it shouldn't focus on 
particular programs because that's a little bit too--because 
programs aren't quite that--how can I put this?
    Let me come at it this way. You mentioned, Senator, the Job 
Corps centers. There are some Job Corps centers in some States 
where the Job Corps centers are highly successful, and for 
those States those Job Corps centers work exceedingly well 
given the population, given the geographic diversity of that 
State. Those Job Corps centers, from my understanding, are 
working well.
    There are some other Job Corps centers that have a history 
of violence associated with them that concerns me. As a matter 
of fact, the Department of Labor has looked at some of those 
Job Corps centers and has identified some of those issues. This 
requires an analysis on a few levels----
    Senator Baldwin. I want to just cut you off because we have 
limited time. You're not going to look at across the board, and 
what I think I hear you saying, to summarize, is that you 
wouldn't eliminate programs per se, but you would look at 
success. I think you said that earlier in a response to the 
Trade Adjustment Assistance question for Senator Collins.
    Mr. Acosta. That would be fair.
    Senator Baldwin. What troubles me is in areas where we're 
not seeing success, is pulling it away and not offering those 
programs the answer, or is it going in and fixing and adjusting 
and providing those opportunities? If you pull it away, you've 
left people high and dry in training and many other areas.
    Mr. Acosta. Senator, I understand your question, and I 
think we don't disagree. First it's a question of what is 
success, right? Because if you have a particularly troubled 
area, a little bit of movement can be success. Second, just 
because you pull--if there's a Job Corps center in a particular 
geographic area that isn't working, that doesn't mean you pull 
away from that geographic area. That just means that maybe in 
that area the money is better spent on another program than on 
the Job Corps center.
    I don't think it would be right to abandon any one area. 
That's why it needs to be an analysis based on the program and 
the geography to ask what does this State need, what does this 
part of that State need, and really look at it on a local 
basis.
    The Chairman. Thank you, Senator Baldwin.
    Senator Young.

                       Statement of Senator Young

    Senator Young. Welcome, Mr. Acosta. Great to be here with 
you today.
    I'd like to first get your thoughts on how we can better 
link our unemployed Americans to job opportunities. As 
Secretary of Labor, this is something you'll have direct 
oversight over. There are already programs out there to help 
facilitate these linkages. Less than half the available 
workforce has the appropriate training to fill available jobs. 
Some communities are innovative in serving local need.
    In my own State, we have Jeffersonville, IN. They partnered 
with Ford for their next-generation learning program. This 
partnership engages businesses, educators, community leaders, 
various other stakeholders to enhance the workforce system 
throughout the region, which is in southern Indiana. It's going 
to connect high school graduates to relevant post-secondary 
education that will directly filter into businesses around that 
community.
    Every member here can no doubt cite localized, specific 
examples of creative solutions to this linkage issue, which is 
so important if we're going to have flexible, effective labor 
markets, which in turn leads to faster economic growth and 
higher wage growth. Perhaps you could speak to how you as 
Secretary of Labor will foster this sort of engagement and 
maybe serve as a conduit for information related to best 
practices so that folks back in the States and our localities 
can scale up what's working.
    Mr. Acosta. Senator, thank you for the question. It's 
interesting that even in this hearing, several members are 
pointing to successes in their particular States. And you're 
right, those need to be compiled and put into best practices so 
that they can be duplicated.
    The other point that I would identify is not only are these 
successes based on local partnerships, but they're based on 
public-private partnerships. It's not the Department of Labor 
going in on its own. It is businesses working at a local level 
with educational institutions and with other local entities to 
align the training opportunities with what the workforce--the 
employers--are demanding, and that partnership I think is so 
critical.
    Going back to Senator Baldwin's question of wouldn't you be 
walking away from a particular area if a program isn't working, 
the point I was trying to make is, no, if there's a program 
that's not working in a particular State, if there's a program 
that's not working in Indiana, for example, but there's a 
program that's working fabulously well, then we should look at 
that program that's working fabulously well and perhaps double 
down on that program if that program is going to address the 
needs that were otherwise addressed by the program that isn't 
working.
    Senator Young. I like to hear common sense from my would-be 
Secretary of Labor. That strikes me as common sense. That's a 
good thing. I look forward to working with you to 
operationalize that concept through programs or policies and so 
forth.
    In my remaining time, perhaps I could pivot to the gig 
economy. The availability, the preference for so many of our 
workers to take multiple part-time jobs, to do freelance work, 
is just the way so much of our economy is moving. It's creating 
unique challenges for our workers, and we, from a public policy 
standpoint, are going to have to adapt to these challenges.
    One of those challenges is for parents, their daycare 
responsibilities, if, in fact, they either require a job 
outside of the home or they wish to work outside of the home. I 
have four young children. We have some flexibility, my wife and 
I in our lives, and some family members that help out. We 
figured out a way to make it work. A single father who is 
caring for a few children works the night shift of Walmart, I 
don't know how they do it. I don't know where they find 
acceptable, available daycare for their children.
    I'm not asking you to solve this problem, but could you at 
least speak to this problem as perhaps the next Secretary of 
Labor and how you might explore innovative ways to deal with 
it, partnering with our States and localities to make the gig 
economy work for more people?
    Mr. Acosta. Senator, thank you. The gig economy is 
something that the Department of Labor needs to address, and at 
several levels the rules at DOL aren't designed--they haven't 
caught up to the gig economy. They assume a more traditional 
workplace. It goes beyond the issue that you raised to several 
issues within the Department of Labor.
    It's incredibly important. There are individuals in my 
office who are single parents, and I see them, and they have to 
juggle. They have the means to juggle, and it's still 
incredibly difficult. It's something that we're going to have 
to talk about and address, but it has to be at the local level.
    The Chairman. Thank you, Senator Young.
    Senator Warren, and then Senator Hatch.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    Mr. Acosta, you are the President's second choice for 
Secretary of Labor, and I'll be honest, I'm glad it's not his 
first choice, Andrew Puzder, who is sitting here today. It is 
hard to imagine a candidate who would be worse than a man who 
made his fortune by squeezing workers on wages and benefits, a 
man who repeatedly broke the laws that he would be charged with 
enforcing, a man who bragged about replacing his workers with 
robots who would never sue him for race or sex discrimination. 
That said, the test for Secretary of Labor is not are you 
better than Andrew Puzder. The test is will you stand up for 
150 million American workers, and that starts by making sure 
that workers are safe on their jobs.
    A Department of Labor rule to protect 2.3 million American 
workers from exposure to lethal, cancer-causing silica went 
into effect last summer. SI just want to know, Mr. Acosta, will 
you promise not to weaken the silica rule in any way, and not 
to delay future compliance by even a single day?
    Mr. Acosta. Senator, as you mentioned, the silica rule went 
into effect. I should, however, make clear that the President, 
through an executive action, has directed all Cabinet 
secretaries to put together a group to review all rules within 
each Cabinet agency.
    Senator Warren. I'm aware of that.
    Mr. Acosta. And to examine them.
    Senator Warren. This is a rule that has gone into effect.
    Mr. Acosta. Yes, Senator.
    Senator Warren. I just want to make sure you're not going 
to delay this rule any further.
    Mr. Acosta. Senator, I understand. The point I'm trying to 
make is that the President has directed each Cabinet officer to 
review all rules and to make determinations if any rules should 
be revised. Based on that executive action, I cannot make a 
commitment without--because the Department of Labor has been 
ordered to review all rules.
    Senator Warren. I want to understand what that means when 
you say Department of Labor has been ordered to review all 
rules. You're about to be named as Secretary of Labor, and your 
name goes on the bottom line for enforcing the law. Either 
you're going to stand up for 150 million American workers, 
including people who are being poisoned by silica, or you're 
not, and I think that's a fair question for us to ask. Are you 
going to stand up for the people? Finally we have a rule in 
place so that people will not be poisoned by silica.
    You're saying that's just open and you don't want to give 
an answer one way or the other on how you look at that?
    Mr. Acosta. Senator, what I'm saying is that the rule is in 
effect, but there is an order--the rule, the final rule was 
promulgated, but there is an order, an executive action, asking 
all Cabinet officers----
    Senator Warren. You can't give us your own sense of whether 
or not the silica rule is something that ought to be enforced? 
You're going to do this review, and you're telling me you can't 
say whether or not we ought to just take out rules that will 
cause people to die?
    Mr. Acosta. Senator, I am not advocating taking out rules. 
I am making the point----
    Senator Warren. Can I take that, then, that you will 
enforce that rule?
    Mr. Acosta. Senator, all Cabinet officers have been asked 
to review----
    Senator Warren. You've said that, and I've heard it.
    Mr. Acosta. Fair enough.
    Senator Warren. I'm trying to ask for your opinion, and 
you're telling me, evidently, that you want to be Secretary of 
Labor but you have no opinion on whether or not high on your 
list of priorities would be to protect a rule that keeps people 
from being poisoned.
    Mr. Acosta. Senator, high on the list of priorities will be 
to protect the safety of workers with appropriate rules.
    Senator Warren. You will decide what appropriate rules are, 
but you don't want to give a hint right now?
    Mr. Acosta. Senator, there is an entire staff at the 
Department of Labor----
    Senator Warren. Yes, there is, and they've already looked 
at this rule, and they already have comments on this rule, and 
they already received comments from the public about this rule, 
and they strongly support this rule. I raised this rule with 
you when we talked about it 2 weeks ago, so this should be no 
surprise that I'm asking you about this.
    Mr. Acosta. I gave the same answer, and I look forward to 
hearing from that staff, if confirmed, their views on this 
rule.
    Senator Warren. And following their advice?
    Mr. Acosta. If that advice is appropriate, yes.
    Senator Warren. You will decide if it's appropriate? I 
think we've got how this dance works.
    Let me ask you another question. Another huge 
responsibility of the Secretary of Labor is to make sure that 
workers are paid fairly, and last December a new Labor 
Department rule requiring employers to pay their workers 
overtime when they work more than 40 hours a week was set to go 
into effect. It would mean a raise for 4.2 million people. Lots 
of employers were preparing to comply, but just days before the 
deadline a Texas judge blocked the rule, siding with giant 
companies over American workers.
    Will you commit to appealing the judge's ruling to protect 
these workers?
    Mr. Acosta. Senator, as I previously mentioned, I will 
commit to examining both the rule and the legal basis of the 
judge's decision.
    Senator Warren. Let me stop you there. I appreciate that 
because that's exactly what you said to me 2 weeks ago. You've 
had time to take a look at it, and it's not a long ruling, to 
read the ruling and to look at the comments, to look at what 
went behind this. It's time now for an answer. Are you going to 
appeal it or not?
    Mr. Acosta. Senator, again, the Department of Labor has 
staff that spent a long time working on this rule. It is also 
in litigation. It would be important to consult with the legal 
officers at DOL regarding the position that they're taking in 
litigation----
    The Chairman. We're a minute over, Senator.
    Senator Warren. All right. I'll quit there, but I'll say, 
Mr. Acosta, the Department advisors have already made clear 
their position. I just want to know if you're going to follow 
through on it. They have prepared an appeal. That, evidently, 
at least by measuring their actions, is their advice. I just 
want to know that you're going to be part of that.
    The Chairman. We'll have time for a second round of 
questions.
    Senator Warren. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Hatch.

                       Statement of Senator Hatch

    Senator Hatch. Thank you, Mr. Chairman.
    Mr. Acosta, welcome. Happy to see you again. We know that 
you've given this government a lot of effort in the past, and I 
know that once confirmed you'll do a very good job in this 
particular position.
    The Office of Federal Contract Compliance Programs protects 
workers and potential employees of Federal contractors from 
employment discrimination. It is my observation that the OFCCP 
is using statistical analysis rather than equal consideration 
and opportunity in evaluating contractor hiring practices and 
is falling short of addressing real employment discrimination.
    In the fiscal year 2016 Labor HHS appropriations bill, the 
committee pointed out,

          ``OFCCP appears to prioritize specific quota results 
        rather than equal consideration and opportunity because 
        of its reliance on statistical analysis in evaluating 
        contractor hiring practices.''

    How would you go about leading the Office to enforce non-
discrimination standards on actual evidence of actual 
discrimination rather than on statistical generalizations?
    Let me add just one more question. How do you propose 
promoting actual discriminatory treatment instead of presumed 
discrimination based solely on statistical benchmarks that may 
not be uniformly equitable?
    Mr. Acosta. Senator, thank you for your question, and let 
me say that I remember appearing before your committee in a 
room very similar to this, and thank you for the courtesies 
that you extended me at that time as well. I think it was two 
floors down.
    The issue that you raise is the use of disparate impact in 
employment cases within OFCCP. The disparate impact is a valid 
and legally acceptable part of liability in employment 
litigation. Without more, I would hesitate to say that OFCCP 
shouldn't use acceptable tools that are generally considered 
valid in employment contexts in enforcing the Executive order 
that it is charged with enforcing.
    Senator Hatch. OK. Utah has several large employers in 
health care and financial services. I hear all the time from 
these businesses about the need for skilled workers, and I've 
heard you talk about your ideas of how can we modernize one 
such model, apprenticeship. I'm working with Ranking Member 
Murray on promoting and supporting employers with 
apprenticeships. In addition to apprenticeship efforts, what 
role do you see DOL playing in encouraging other employer-led 
training best practices?
    Mr. Acosta. Senator, thank you. DOL needs to take a 
leadership role in compiling best practices and working with 
employer groups to encourage employers. As you were asking the 
question, I had a remembrance of a project that we had with the 
Restaurant Association around disability compliance, and we 
worked with the Restaurant Association when I was with the 
Civil Rights Division to encourage restaurants to comply with 
the ADA. The point that we made to them is that compliance can 
make business sense.
    Working with associations that have access to employers to 
encourage apprenticeship programs, to encourage job training 
programs, to learn from them what needs to be done and what can 
be done I think is important. This can't just be government. It 
has to be in partnership with employers.
    Let me also add that I don't think the Department of Labor 
can do this alone. The Department of Education is such a key 
player in this, and in all candor their funding is somewhat 
deeper than the Department of Labor's funding. It's very 
important to break down the silos, to not have this department 
doing this and that department doing that, but to really work 
together as one executive branch addressing these issues.
    Senator Hatch. Thank you.
    Mr. Chairman, my time is almost up.
    The Chairman. Thank you, Senator Hatch.
    Senator Hassan.

                      Statement of Senator Hassan

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
Murray.
    Good morning, Dean Acosta. Nice to see you here.
    I will just add support to the comments you've heard from 
just about everybody on the committee about the importance of 
job training. It's critical to the State of New Hampshire, as 
is our Job Corps center, which is one of the newest, if not the 
newest, Job Corps centers in the country. I had the opportunity 
to be at its first graduation just recently, and it was great 
to see the lives that were changed through that Job Corps 
center. I hope you will do everything, should you be confirmed, 
to support both job training and our Job Corps centers.
    I wanted to focus a little bit on the importance of OSHA to 
the men and women who constitute our country's workforce. 
Strong and targeted enforcement by the Labor Department not 
only saves lives but also saves valuable resources for 
employers. A substantial body of empirical evidence 
demonstrates that OSHA inspections reduce injury rates at 
inspected workplaces and lowers workers compensation costs to 
the tune of billions of dollars annually.
    The Federal Occupational Safety and Health Administration 
has about 45 percent fewer inspectors today than it had in 
1980, when the workforce was almost half of current levels. In 
New Hampshire, we have only seven OSHA inspectors to oversee 
safety and health at 50,000 worksites. With these numbers, it 
would take OSHA 122 years to inspect every workplace in New 
Hampshire just once.
    President Trump's budget blueprint proposes to cut DOL's 
budget by 21 percent. Can you commit that if confirmed as 
Secretary of Labor, you will advocate for and seek funding that 
will maintain OSHA's enforcement budget at no less than current 
levels?
    Mr. Acosta. Senator, I can certainly commit that I--let me 
come at it this way. I would be very concerned in a situation 
like you mentioned, where there are only seven inspectors, 
because going from seven to six has a substantial impact.
    Senator Hassan. Right.
    Mr. Acosta. Can I commit to no less than current levels? 
That's a very precise statement. Something is going to have to 
give somewhere in the budget. My background is a law 
enforcement background. Worker safety is incredibly important. 
I mentioned it in my opening statement for a reason, and I 
would have a lot of concern if the number of inspectors in any 
one area fell to the point where they could not do their job.
    Senator Hassan. Thank you. I want to move on to the area of 
making sure that we are including more people who experience 
disabilities in this country in the workforce. Section 14(c) of 
the Fair Labor Standards Act authorizes employers to pay sub-
minimum wages to workers who experience disabilities. 
Oftentimes, this type of employment occurs in a secluded 
environment, some might say a segregated environment, known as 
a sheltered workplace.
    In 2015, with the support of the New Hampshire business 
community, New Hampshire was the first State to eliminate the 
payment of sub-minimum wage, and there have been efforts in 
Congress as well to end this practice.
    First of all, do you support this practice of paying people 
who experience disability sub-minimum wage?
    Mr. Acosta. Senator, I certainly support the authority of 
any State to eliminate that. With respect to at the Federal 
level, this is a very difficult issue because you don't want to 
disrespect individuals in any way by--the very phrase ``sub-
minimum wage'' is a disrespectful phrase. Yet, you want to 
provide incentives or systems to ensure that individuals that 
might not otherwise have a job have access to a job and are 
trained into a job. That's a very difficult balance that I'm 
happy to have a further discussion about.
    Senator Hassan. I hope we can, because I think it isn't the 
phrase ``sub-minimum wage'' that is disrespectful; it is 
disrespectful and, frankly, discriminatory to pay people who 
are qualified to do a job sub-minimum wage on the basis of the 
fact that they experience a disability. It's going to be really 
important that we continue this conversation. If you go back 
and look at the work of the National Governors Association, for 
instance, around this, it was employers who came to us and said 
this is a population that's doing the job, why are we paying 
them, why are we allowed to pay them sub-minimum wage? I would 
look forward to working with you on that.
    I do have additional questions, but I understand we'll have 
a second round. Thank you, Mr. Chairman.
    The Chairman. That's correct. Thank you, Senator Hassan.
    Senator Roberts.

                      Statement of Senator Roberts

    Senator Roberts. Thank you, Mr. Chairman.
    Mr. Acosta, thank you for coming by on your courtesy visit. 
Thank you for being here today. You were certainly well 
introduced. I think you should be confirmed.
    I'm going to take a little bit different tack here than 
some of my colleagues. I'm not going to ask you about President 
Trump or whether or not you will follow his Executive orders. 
Despite what some may think to be contrary to current law, I'm 
not going to ask about the budget, I'm not going to ask you 
about the campaign, and I'm certainly not going to ask you 
whether you are for death by silica.
    I've got a different view. Many folks here, not only on 
this committee, with a lot of exceptions, but in Washington 
look at this through a telescope, and we have an entire 
regulatory agenda, and it is intended for job safety, it's 
intended for non-discrimination. I can just go down the entire 
alphabet soup of agencies we have here--clean water, clean air, 
et cetera, et cetera.
    When it gets down to 105 counties in Kansas, people wonder 
what in the heck is going on. Here come regulations that 
they've never seen before, and I know this because I go to town 
hall meeting after town hall meeting after town hall meeting. I 
don't get the questions saying so-and-so is running a business 
where my safety--if I go in there, or if I'm a customer--is 
endangered, or his workforce is endangered.
    They hold up the piece of paper, maybe two and three, and 
say, ``what is this regulation?'' I don't understand it. They 
do not have, normally, a CPA or an attorney or somebody to 
figure out exactly why they have received that.
    I used to work for my predecessor in the House. I'm one of 
these people who are below the swamp; they can't drain me out.
    [Laughter.]
    My job was to go out and figure out what this new animal 
was, called OSHA. We had the first OSHA person go out, way out 
west. They went out to Sharon Springs. Sharon Springs is not 
the end of the world, but you can see it from there. We have 
Mt. Sunflower. It's 4,000 feet high. The trick is not to climb 
it. The trick is to find it so you can see it out there on the 
high prairie.
    The OSHA person was supposed to go out to Goodland, KS but 
just missed it. I don't know how you could do that, but he fell 
short, but could stay all night, and looked high and low for 
somebody, somebody, anybody that he could walk in and say, 
``hey, you're not performing your job right.'' He went into a 
manufacturer on canvas webbing that goes on the top of grain 
trucks, and they had a stamping machine in there that put a 
hole in the canvas webbing, obviously to tie the rope to put it 
over the grain truck.
    They fined him--him, one person. I think the fine was 
$1,000. He came to the courthouse, and he was giving my 
predecessor a hard time, and he says I've got just the guy who 
will take care of it. Roberts, you go over there and take care 
of that. I go over and I look at this stamping machine, and the 
fine was because it endangered a person's leg, the way it was 
constructed, and it was constructed so that a wounded veteran 
from Korea who had lost a leg could pull the stamping machine. 
Obviously, that was not explained to the OSHA inspector.
    Mr. Molstead, who ran that company 40-some years ago, never 
paid the fine. Multiply that by thousands in the entire 
business community. I don't need to go down all of the 
regulatory agenda and the job losses and the red tape and the 
paperwork. What I want to know is can we get a cost/benefit 
yardstick that makes sense where you have the regulatory cost 
and obviously the regulatory benefit?
    You're on the benefit side. The small business community is 
on the other side. I want to know what is your overall 
philosophy on regulation on behalf of an awful lot of people in 
Kansas who feel that they are being ruled and not governed. I 
can tell you if they're in business in a small community on the 
town square and they're not performing their job right and 
they're discriminating against people and they're just pretty 
much bad news and it's a bad workplace, they're out of 
business. That's just the way it works.
    Can you give me your overall philosophy on regulation?
    Mr. Acosta. Senator, briefly, because I noticed the clock, 
I'd make two points. No. 1, the President, through execution 
action, has ordered--and it is important that we eliminate 
regulations that are not serving a useful purpose, because they 
are impeding small business. Small business is what creates 
jobs in this country, 7 out of 10 jobs by best estimates. If 
we're going to create jobs, we need to free up small business. 
That would be my big-picture view on regulation.
    The Chairman. Thank you, Senator Roberts.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Acosta, thank you for your willingness to serve. Good 
to see you again.
    Just a followup on Senator Warren's line of questioning, a 
point of clarification. During this pending review in which 
you've been charged to look at all regulations, determine which 
ones are appropriate according to your standards and the 
President's standards, you still have an obligation to enforce 
existing regulations.
    The silica rule, for instance, will be enforced by your 
department pending this review?
    Mr. Acosta. Senator, we would enforce all rules that are in 
effect pending that review, yes.
    Senator Murphy. Including the silica rule.
    Mr. Acosta. I believe--I'm hesitating only because of one 
item that I remember, to the extent it is in effect. I know it 
was promulgated. Assuming there is no stay, then yes.
    Senator Murphy. OK. Second, to followup on Senator 
Baldwin's questioning regarding funding, I get a little worried 
when I hear you talk about accepting a lower level of funding 
for job training. The President's budget has winners and 
losers. There's a lot more money for defense. There's money for 
a wall, and that comes at the expense of other programs. We 
would hope that you would be an advocate for the programs that 
the Department of Labor funds.
    In Connecticut, for example, the plus-up in defense dollars 
doesn't do us the maximum amount of good without the Department 
of Labor dollars. We can build additional submarines at 
Electric Boat, but if we don't have the workforce pipeline 
necessary to staff the supply chain, those jobs will go 
overseas. At the Eastern Connecticut Manufacturing Pipeline, 
it's not about mismatched resources. It's simply about not 
having enough resources. We have a 92 percent placement rate in 
manufacturing jobs from the pipeline program. Three thousand 
people are trying to sign up, and they can only take a couple 
of hundred a year. The consequence of not fulfilling that need 
is that the jobs will just go to other countries because we 
can't hire the folks here.
    Let me ask you Senator Baldwin's question in a little 
different way. Do you support the 20 percent cut that's been 
proposed to your department?
    Mr. Acosta. Senator, thank you for rephrasing, because I 
never said that I accepted when I was speaking, or I don't 
recall saying I accepted when I was speaking with Senator 
Baldwin. I wrote myself a note when the budget, the skinny 
budget came out, and it was a quote from the OMB director. He 
said, to paraphrase, ``we've got $20 trillion in debt.'' It's 
not enough that a program sounds good. A program has to be 
shown to be good. I wrote myself that note because, if 
confirmed as Secretary of Labor, one of the things that I want 
to do--and I forget which of your colleagues had great data, 
but I want to go through these programs and compile the data, 
because for a lot of these programs I believe the rate of 
return on investment of taxpayer dollars is quite significant 
and would pay for itself very readily in money saved and taxes 
paid by the fact that individuals have jobs.
    I readily embrace that as part of the job, and if 
confirmed, I'm certainly going to speak up and present all that 
information and advocate.
    Senator Murphy. You'll find an abundance of programs that 
are underfunded that will allow you to make that case.
    Last, I appreciate the number of times in which you've made 
references to the intersection between the Department of 
Education and the Department of Labor. The fact of the matter 
is, as Senator Alexander pointed out, most of the workforce 
training in this country is funded by the Department of 
Education.
    You and I had the chance to talk in my office about the 
migration of public dollars away from not-for-profit education 
to for-profit education and really the stunning lack of results 
we're getting from for-profit job training programs. One-third 
of for-profit graduates are today making less than a minimum 
wage over the course of a year. Twelve percent of students are 
attending for-profit schools, but 36 percent of students who 
have loan defaults today come from those for-profit schools.
    I know you've thought about this in the context of your 
work in graduate education in Florida. Shouldn't there be a 
role for the Federal Government to ask more of all centers of 
job training, not just the ones you fund but of colleges as 
well, and demand results, results that we're not getting today 
from a lot of these for-profit operations?
    Mr. Acosta. Senator, I have thought of it in the context of 
law. In law schools, the accrediting agencies are looking more 
for results. It's less about the input and more about the 
output. What is the bar passage rate? What is the job rate? 
What you are seeing is that some of the for-profit law schools 
are facing challenges and have faced challenges with the 
Department of Education because they haven't--because the 
results are not necessarily on par.
    To the extent that these are--well, I don't want to go 
beyond--to the extent that these are Department of Labor 
programs, I certainly would want to see the results and the 
metrics to make sure that it is being done appropriately.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Murphy.
    Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    Thank you, Mr. Acosta, for being willing to go through this 
process and serve. You have a tremendous amount of background. 
I have a number of areas that I'm interested in. The Senator 
from New Hampshire, of course, mentioned Job Corps, and she was 
the next-to-the-last State to finally have one Job Corps 
center. We were the last State to have one Job Corps center, 
and ours is in the middle of a reservation inhabited by two 
warring tribes, with high unemployment. They're working 
together to get kids into this Job Corps, and it's making a 
huge difference. They're doing energy industry training, and 
that's heavy equipment and mechanics and welding and other 
things that are tied to the economy, so their job placement is 
tremendous. I'm hoping that you'll take a look at that.
    Another pet thing that she happened to mention was the OSHA 
inspectors. Something that we keep overlooking is the VPP 
program where we allow big companies to hire an inspector, a 
trained inspector to come in and look at their business, and if 
there's anything the matter, they have to fix it immediately. 
If they do that, they continue to be a VPP company. There isn't 
any provision for the small companies, though. I've suggested 
that the small companies ought to be able to hire an expert for 
their particular type of business.
    One of the high places for injuries is in the printing 
industry. If all the newspapers in Wyoming went together and 
hired somebody, they would really like to be able to have 
somebody come in and inspect their premises, and if there's 
anything that's found wrong they fix it right away, and then 
they still get to be a part of this program. I hope that you'll 
take a look at that.
    She also mentioned the sub-minimum wage. Senator Harkin and 
I worked on that for years while I was the chairman of this 
committee. We knew that the purpose of that was to be able to 
get an evaluation for people that haven't been evaluated so 
they could find their place in the workforce. It was not 
intended to be a lifetime sub-minimum wage. We tried to do some 
things to eliminate that possibility and get people who are 
trained into the workforce.
    Are there any of those three things that you'd like to 
comment on?
    Mr. Acosta. Senator, thank you. I will gladly followup on 
the programs that you have mentioned. It's important that we 
think outside the box and that we--on the private enforcement 
matter, I would just say I think there can be a role for that, 
but we need to ensure that it's under appropriate guidelines.
    Senator Enzi. OK. Thank you.
    At the start of the Obama administration, the Department of 
Labor's Wage and Hour Division ended the longstanding practice 
of providing opinion letters but answered questions about the 
specific applications of the labor laws. These letters were 
made public and they were a useful tool for employers and 
employees alike who were trying to understand the law. A 
typical administration issued dozens of these letters each 
year. The last administration, though, replaced opinion letters 
with administrator's interpretations that only give broad 
opinions on a subject chosen by the agency, leaving many 
specific details unanswered. They only issued a total of seven 
interpretations during the entire Obama administration. Many 
employers and employees who were trying to comply with complex 
labor and hour laws and regulations and who want to be in 
compliance would like to see a return to the opinion letter 
system.
    Will you commit to restoring the most robust and 
interactive compliance assistance system so folks can spend 
less time trying to decipher the law and more time complying 
with the law and growing successful businesses and creating new 
jobs?
    Mr. Acosta. Senator, there's a value to opinion letters, 
and I think the value comes from the fact that they're grounded 
in a specific set of facts and not in broad legal premises. I 
see no reason why I would not encourage opinion letters.
    Senator Enzi. Thank you. One of the innovations we're 
seeing right now is the on-demand economy, the Uber, the Lyft, 
the Air BNB and other services where users can connect to goods 
and services more directly through an app on their phone or 
through a Web site.
    What kind of information or data do we need to ensure that 
we properly understand that segment of the economy? Do you 
think the Bureau of Labor Statistics is able to capture that 
information?
    Mr. Acosta. Senator, I do not know if the Bureau of Labor 
Statistics is capturing that information. I think that's a very 
important question and one that I will followup on if 
confirmed.
    Senator Enzi. Thank you. I have some other questions. I'll 
submit them. Thank you.
    The Chairman. Thank you, Senator Enzi.
    Senator Kaine.

                       Statement of Senator Kaine

    Senator Kaine. Thank you, Mr. Chairman.
    Thanks, Dean Acosta. I appreciated our visit in your office 
and appreciate your public service.
    The committee needs to ask about, and you're entitled to 
respond to, an article that appeared in the Washington Post 
online version last night and this morning, and I'm just going 
to read the opening to it. I'm going to ask you some questions 
because you deserve an opportunity to address it.
    ``Labor nominee Acosta Cut Deal with Billionaire Guilty in 
Sex Abuse Case.'' Just the first three paragraphs, and then 
I'll introduce the article into the record.

          ``There was once a time before the investigations, 
        before the sexual abuse conviction, when rich and 
        famous men loved to hang around with Jeffrey Epstein, a 
        billionaire money manager who loved to party. They 
        visited his mansion in Palm Beach, FL. They flew on his 
        jet to join him at his private estate on the Caribbean 
        island of Little St. James. They even joked about his 
        taste in younger women. President Trump called Epstein 
        a terrific guy back in 2000, saying that `he's a lot of 
        fun to be with. It's even said that he likes beautiful 
        women as much as I do, and many of them were on the 
        younger side.' ''

          ``Now Trump is on a witness list in a Florida court 
        battle over how Federal prosecutors handled allegations 
        that Epstein, 64, sexually abused more than 40 minor 
        girls, most of whom were between the ages of 13 and 17. 
        The lawsuit questions why Trump's nominee for Labor 
        Secretary, former Miami U.S. attorney Alexander Acosta, 
        whose confirmation hearing is scheduled to be on 
        Wednesday, cut a non-prosecution deal with Epstein a 
        decade ago rather than pursuing a Federal indictment 
        that Acosta's staff had advocated.''

    I'd like to introduce the article for the record, Mr. 
Chairman.
    The Chairman. It will be introduced.
    [The information referred to may be found in Additional 
Material.]
    Senator Kaine. I'd like to ask you about this. First, a 
couple of questions. My understanding is that there is a 
pending civil lawsuit filed by a couple of the victims in that 
case seeking to argue that they should have been given notice 
prior to the plea deal being entered into. Is that your 
understanding as well?
    Mr. Acosta. My understanding is that there is a pending 
civil lawsuit. The Department of Justice has defended the 
actions of the office in that matter under both President Bush 
and President Obama's administrations.
    Senator Kaine. The opening that I read suggests that you 
decided as U.S. attorney to cut a non-prosecution deal, that 
part of the decision was that that non-prosecution deal be held 
private, not appear in the public record, and there's an 
allegation that I just read that you did not pursue a Federal 
indictment even though your staff had advocated that you do so. 
Is that accurate?
    Mr. Acosta. That is not accurate. Let me address that one 
of the difficulties with matters before the Department of 
Justice is that the Department of Justice does not litigate in 
the public record or in the media and litigates in court. Let 
me set forth some facts.
    This matter was originally a State case. It was presented 
by the State attorney to the grand jury in Palm Beach County. 
The grand jury in Palm Beach County recommended a single count 
of solicitation not involving minors, I believe, and that would 
have resulted in zero jail time, zero registration as a sexual 
offender, and zero restitution for the victims in this case.
    The matter was then presented to the U.S. attorney's 
office. It is highly unusual, and as I was speaking to some of 
your colleagues that have been involved in prosecutions, they 
mentioned that they don't know of any cases personally where a 
U.S. attorney becomes involved in a matter after it has already 
gone to a grand jury at the State level.
    In this case we deemed it necessary to become involved, and 
we early on had discussions within the office, and we decided 
that a sentence or--how shall I put this--that Mr. Epstein 
should plead guilty to 2 years, register as a sex offender, and 
concede liability so the victims could get restitution. If that 
were done, the Federal interest would be satisfied and we would 
defer to the State. That was very early on in the case.
    I say that because the article goes on to talk about a view 
that the U.S. attorney's office was not aggressive in this 
matter.
    Senator Kaine. Can I read one other statement from the 
article,

          ``Federal prosecutors detailed their findings in an 
        82-page prosecution memo and a 53-page indictment, but 
        Epstein was never indicted.''

    And then there's a quote, ``The agreement you described 
will not be made part of any public record, the deal between 
Epstein and Acosta says.'' The document was unsealed as part of 
the civil suit in 2015.
    The Chairman. I'm going to give you, Senator, time to ask 
your question and the nominee time to answer the question, even 
though it goes over the 5 minutes.
    Senator Kaine. Thank you.
    Mr. Acosta. Senator, again to address your question, I 
can't discuss the details of the case, but let me take it 
generally. It is pretty typical in a prosecution for an 
indictment, a draft indictment, to be written. That doesn't 
necessarily mean that that draft indictment is filed because 
that draft indictment does not consider often the strength of 
the underlying case.
    As part of any plea, it is not unusual to have an 
indictment that says these are all the places we can go, yet at 
the end of the day, based on the evidence, professionals within 
a prosecutor's office decide that a plea that guarantees that 
someone goes to jail, that guarantees that someone register 
generally, and that guarantees other outcomes is a good thing.
    Senator Kaine. Was that a consensus decision in your 
office?
    Mr. Acosta. It was a broadly held decision, yes.
    Senator Kaine. I'm over my time, Mr. Chairman. I may come 
back to this in a second round. Thank you.
    The Chairman. OK. Do you feel like you've had time to 
sufficiently answer?
    Mr. Acosta. Mr. Chairman, I think I have.
    The Chairman. We can come back to it if you'd like to.
    Senator Murkowski, thank you for waiting.

                     Statement of Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you, Mr. Acosta, for the time that you gave me in my 
office a week or so ago.
    The issue of Job Corps has been raised by a couple of my 
colleagues, and we had an opportunity also to speak about that, 
and I've indicated to you that I think the Job Corps that we 
have in Alaska has been successful. We have seen good support 
in that those who graduate are actually finding jobs in the 
area that they're trained for. I noticed that the President's 
skinny budget doesn't really look as favorably on Job Corps as 
I might or as Senator Enzi might.
    I would ask you, you indicated that evaluating the Job 
Corps centers not by the percent of graduates but by the 
percent of students who get jobs for which they're trained is 
something that you would be looking to, and I would again urge 
you in that vein as you're looking at Job Corps and other job 
training.
    Mr. Acosta. Understood, Senator.
    Senator Murkowski. Let me bring up the issue of our 
fisheries and the seasonal employment aspect of it. As we have 
discussed, we have a limited labor pool in Alaska made more 
complicated and difficult because of the very compressed season 
in the summer where our fisheries are going full tilt, and a 
reality that for us to be able to meet the immediacy of the 
demand for that labor pool it's been important to rely on these 
H2B visas.
    What we have seen, unfortunately, is that we've got a 
processing bottleneck that has been left unresolved. Our 
processors have been in a situation where they're not able to 
buy fish from the fishermen. That ripple-back effect is really 
very, very detrimental to our seafood industry.
    Current H2B regulations State employers cannot submit 
applications for H2Bs prior to 90 days before the first date of 
employment. Then the number of workers that have requested each 
application are counted against that cap. What we see is, 
because Alaska's fishing season is later, that cap is used up 
by the time our employers and those in the industry are 
requesting their H2B visas. Add that to the slow processing 
times and it has really been complicated and very, very 
difficult.
    I would just urge you, as you review the situation with the 
H2B visas, I would urge that you seek permanent solutions to 
this. We recognize that there are perhaps some administrative 
remedies that could be made immediately that could help States 
like Alaska and others that face this same seasonal aspect to 
our labor force but later in the season. I would just ask this 
morning if you will commit to review the way that these semi-
annual caps are structured that really leave Alaska's fish 
processors at a clear disadvantage simply due to the timing of 
their season. Whether it's quarterly caps rather than halves, 
maybe that is the fix, but I would ask that you not only look 
at that but also commit to working with me to ensure that we 
have more timely processing of these H2B applications.
    We also had an opportunity to discuss the unused worker 
applications and the prospect of being able to return those to 
the available pool. Whether or not there's an audit of that to 
determine how much is out there, again a commitment that you 
will be working with us, because we've got a situation where if 
we can't get the workers, the fishermen can't fish, the tender 
stock tendering, the dollars that pass over at the fuel dock 
stops, the welding shops aren't working, the grocery stores 
aren't working, the gear stores aren't working. Everything 
shuts down in a very small economy.
    Can you speak to where we are with your view on these 
visas?
    Mr. Acosta. Senator, I am happy to commit to work with you 
on all the issues you raised. I have a concern, which is what 
you articulated, because your local economy in Alaska is 
dependent on these workers, and if you're out of cycle, that is 
not the fault--that is not your fault.
    Senator Murkowski. Right.
    Mr. Acosta. You have my commitment to look and understand 
why this hasn't been adjusted and if possible to find an 
appropriate solution.
    Senator Murkowski. I thank you for that. I would also urge 
that this be placed as a very high and an immediate priority--
--
    Mr. Acosta. Absolutely.
    Senator Murkowski [continuing]. Because of the timing that 
we are up against currently.
    Mr. Acosta. I fully understand, and I'm glad to do that.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    Mr. Acosta, thank you for coming to my office for a visit. 
We talked a lot about workforce training, which I plan to get 
to in a moment. But now I want to talk about pensions.
    If you're confirmed, you'll be the leading Federal official 
charged with protecting the pensions of more than 10 million 
Americans. Among those are 400,000 Central States members 
across the country, including 20,000 in Minnesota. The pension 
fund faces insolvency and could run out of money in less than a 
decade.
    Last December I spoke with over 300 retirees in Minnesota. 
These are middle-class workers, warehouse workers, truck 
drivers and other demanding blue-collar jobs. They are very 
worried about what will happen if Central States goes insolvent 
and their pensions are slashed. Many of them are disabled or 
too elderly to return to work. If this looming crisis isn't 
addressed, these workers could lose their homes, their ability 
to pay for prescription drugs, and the ability to put food on 
the table.
    If confirmed as Secretary of Labor, you'll be the chair of 
the Pension Benefit Guaranty Corporation, which ensures pension 
funds like Central States. Based on current projections, PBGC 
Multiemployer Fund may actually run out of money before the 
Central States plan runs out of money. That's two major 
insolvencies totaling nearly $60 billion. If you're confirmed, 
that means one of the largest pension crises in American 
history could land on your desk.
    Yes or no, have you or the Trump administration proposed a 
plan to make the PBGC's Multiemployer Pension Insurance Fund 
solvent?
    Mr. Acosta. I have not proposed a plan. I have not seen a 
plan that's been proposed that has worked in the past decade.
    Senator Franken. OK. What about a plan to help the Central 
States fund?
    Mr. Acosta. Again, Senator, I have not proposed a plan.
    Senator Franken. OK. How about this? Yes or no, will you 
commit to ensuring that no one will have their pension benefits 
cut from what they're receiving right now?
    Mr. Acosta. Senator, this is an issue that this Congress 
has been working on for years, that the prior administration 
tried to address and had difficulty addressing. I wish I could 
commit to that. That has a $60 billion price tag, as you 
mentioned, and if you expand it further to include city and 
State pension funds, you're talking about an approximately $2 
trillion price tag.
    This is a fundamental issue that we've got to think about, 
and it's not just the executive branch but the executive branch 
working with Congress, because these workers worked, they have 
expectations. I fully understand that. I get it. I also 
understand that this is an issue that has not yet been solved, 
and if I could come up with a solution right on the spot, I 
wish I could.
    Senator Franken. Thank you. During his campaign, President 
Trump said that he would help working Americans. We have a 
situation where hundreds of thousands of these workers or 
retirees may lose their pensions. There are a number of ways 
this could be paid for and we could fulfill the promise that 
was made to these workers. We should raise the funds needed to 
support these workers by closing the carried interest loophole 
that benefits Wall Street and private equity managers. By 
closing this loophole, which even President Trump wants to get 
rid of, we would raise more than enough money to fix the 
Central States fund, and I just would urge that.
    I'll move on to workforce development. Last Friday during a 
press conference with Germany's Chancellor Angela Merkel, the 
President said,

          ``Germany has done an incredible job training the 
        employees and future employees and employing its 
        manufacturing and industrial workforce. It's crucial 
        that we provide our American workers with a really 
        great employment outlook.''

    In this case, I completely agree with the President.
    I see I'm getting down to my time, so let's just kind of 
review what we talked about. Will you, if you're confirmed, 
work with me on making sure that we follow some of Germany's 
and Switzerland's models and that we do focus--and we talked 
about some of the funding cuts. Will you work with me to make 
sure that we have a robust plan to train our workers for the 
jobs of the present and the future?
    Mr. Acosta. We discussed it during our meeting, and I will 
recommit to working with you on that, yes.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken. We'll have time 
for a second round if you want to follow that up.
    Senator Paul.

                       Statement of Senator Paul

    Senator Paul. Congratulations, Mr. Acosta, on your 
nomination. As you know, we're in a big, huge national debate 
over what to do with healthcare, how to fix healthcare, and 
there is an aspect of it that may cross your desk and that you 
can actually participate in.
    The Chairman and others have mentioned how really the 
biggest problem we have is in the individual market. It's about 
11 million people, maybe another 10 or 20 million people who 
don't have insurance that might get individual market. The 
problem with the individual market is it's a crummy place to 
be. You're kind of by yourself hanging out there. If you get 
sick, you're worried about your prices rising, et cetera. It's 
better to be in a group plan.
    If you had your choice to be in the individual market or be 
in a group plan, you'd rather be in a group plan, which gets to 
the Department of Labor. The Department of Labor gets to 
approve--let's see if I can quote it here--whether an 
association, a health association, ARISA group plans, qualify 
as a health plan under single large cap. The definition is they 
have to be bound together by a commonality of interest.
    I would think that gives a significant degree of latitude. 
I'm not a lawyer and I haven't read the whole statute, but my 
encouragment is to get really involved with this because 
imagine this: Imagine that the AARP, which has over 30 million 
members, what if they formed a health association and they had 
one person negotiating with the insurance company? All of a 
sudden, it's 33 million people negotiating instead of you and 
your wife. This could really change the whole insurance market. 
It might be changed simply by having someone at the Department 
of Labor say that everybody in the AARP has a commonality of 
interest.
    This is one of those things where the law may not even need 
to be changed but we could expand health associations simply by 
having someone there who says, ``gosh, what a great idea this 
would be.'' I just wanted to bring it to your attention. I 
don't expect you to have a full-blown answer on this, but I 
would love it if you would assign someone to look into it and 
that really within a month of being approved I hope somebody 
can come back to us and talk to my office and anybody else 
interested about how we can expand these health associations 
and maybe announce it so everybody knows there are State 
associations.
    Many of them--like I was at the Chamber recently, and they 
have 2,000 members. I'd like to see all of the Chambers in the 
whole country get one buying representative, and then you have 
this enormous leverage. It's a whole game-changer in the 
marketplace, and there's no mandate, there's no law, there's no 
subsidy, there's nothing other than enabling people to 
organize, similar to the prospect of what labor did. When labor 
wanted to organize to have leverage against management, they 
organized. Consumers ought to be able to organize, and anything 
we can do or you can do to help that, I would appreciate it. If 
you'd like to make a comment, that would be great too.
    Mr. Acosta. Senator, let me just agree to, commit to that. 
The timeline of 30 days is very reasonable.
    The Chairman. Thanks, Senator Paul.
    We have time for additional questions if you'd like to. 
Senator Enzi, do you have any additional questions?
    Senator Enzi. I don't.
    The Chairman. Senator Murray.
    Senator Murray. I do. Thank you very much.
    Mr. Acosta, thank you. Women in this country earn about 80 
cents on the dollar of what men earn, resulting in a gap of 
nearly $10,470 each year. This is true actually across 
professions, ages, and education levels, and the gap in pay is 
far worse for women of color. The marketplace alone will not 
fix this problem.
    Do you believe there is a pay gap? If so, do you agree that 
it hurts women and families?
    Mr. Acosta. Senator, I have seen data that reflects the 
statement that you made, and to the extent that that pay gap is 
there, it shouldn't be.
    Senator Murray. What steps, if you're confirmed, will you 
take as Labor Secretary to address that pay discrimination?
    Mr. Acosta. Senator, certainly gender discrimination, which 
includes pay discrimination, should not occur. I know that 
there is a Women's Bureau within the Department of Labor, and I 
certainly would as a first instance consult them and charge 
them with looking at this issue.
    Senator Murray. Will you commit to maintaining the budget 
for that Women's Bureau?
    Mr. Acosta. Senator, ultimately I make recommendations as 
to the budget. The recommendations go to OMB. Ultimately they 
are issued by the President and decided by this Congress. I 
cannot make a commitment as to what the budget may or may not 
look like at the end of the day. I can only talk for my own 
views and recommendations.
    Senator Murray. Do you think it should be a priority?
    Mr. Acosta. I certainly do think it's important to have an 
office----
    Senator Murray. As Secretary, will you fight for keeping 
that, or----
    Mr. Acosta. It's important to have an office within the 
Department of Labor that focuses on women's issues. I know that 
there is a lot of focus on women entrepreneurship as well 
that's very important, and I am happy to look at that closely 
and try to make sure that that is available.
    Senator Murray. Will that be a priority for you?
    Mr. Acosta. Senator, I can certainly say--I hesitate with 
the word ``priority'' because if everything becomes a priority, 
then things are no longer priorities. I can certainly say it is 
a priority. We talk about small businesses, and women running 
small businesses is a great thing, and that's something the 
Department of Labor should focus on and encourage.
    Senator Murray. OK.
    Mr. Acosta. Certainly I can say that that would be a 
priority.
    Senator Murray. I appreciate that. I worry because your 
answer was you look at it, you make recommendations, then OMB, 
all this. Either you as Secretary say this is a priority for me 
or not.
    Mr. Acosta. I'm happy to say it's a priority. I believe in 
a unitary executive, and so I don't think any Cabinet secretary 
can make commitments because ultimately we have a boss.
    Senator Murray. That's what worries me. I would just say 
that you answered that by saying you would go to the Women's 
Bureau to give your advice on this. If it's not there, that's 
going to be a problem.
    Let me go to another question. It's one about an issue that 
happened in 2004, and I want to go back and have you have a 
chance to answer this, because just days before the 
presidential election back in 2004 you made a controversial 
decision to weigh in on an Ohio case about voting rights and 
access. That was a departure from standard practice of the 
Department of Justice so close to an election, and you wrote to 
an Ohio judge saying that laws like Ohio's, which allowed one 
voter to challenge another, helped election officials enforce 
the law.
    At the time you sent the letter that the Ohio Republican 
Party had announced plans to use the law to place 3,500 
challengers in polling places around the State on election day. 
Experts testified a disproportionate number of challengers were 
to be placed in predominantly African American precincts. You 
wrote the letter even though the Justice Department had no role 
in this case. The Justice Department was not a party to the 
case, and it had not filed a motion to intervene.
    Mr. Acosta, you involved the Department of Justice in a 
case in which it had no role days before an election and with 
full knowledge that the law was going to be used to mount 
challenges in ways that suppressed the vote of African 
Americans in the State where the electoral outcome determined 
the outcome of the election. I wanted to ask you if you regret 
the decision to send that letter in 2004.
    The Chairman. Mr. Acosta, the time is up, but you may take 
whatever time you need to answer the question.
    Mr. Acosta. Senator, let me first start by--sorry, I should 
have brought glasses. There is a sentence that is very 
important from that letter, and you paraphrased it.

          ``Thus, a challenged statute permitting objections 
        based on United States citizenship, residency, precinct 
        residency, and legal voting age, like those at issue 
        here, are not subject to facial as opposed to as-
        applied challenges under the Act because these 
        qualifications are not tied to race.''

    I would say, first, we provided amicus information in part 
because the Ohio statute, as I recall, did not have a 
provisional voting requirement, and early on in the letter we 
say that if you're going to have a challenge statute, you need 
to have a provisional voting requirement under HAVA, which was 
enacted by this Congress. It was the first major election where 
HAVA came into play.
    Second, I read that sentence because that sentence was put 
there with intentionality, and it was put there to make clear 
that we were not weighing in on how this was being applied in 
Ohio. We were not taking a position on what was being done in 
Ohio specifically. It was on its face these are permitted, but 
we are not taking a position as applied. We did not take a 
position as to how this was being applied in Ohio.
    Senator Murray. OK. That was a very legal answer to a 
question. In your own words, do you regret sending that letter?
    Mr. Acosta. Senator, as an attorney for the Department of 
Justice, sometimes you have to do things that are unpopular but 
are legally correct. The letter is legally correct. I wish the 
letter was not interpreted the way it's interpreted, but the 
letter is legally and substantively correct, and sometimes 
lawyers have to do what is legally correct.
    Senator Murray. OK. I'm way over my time, but let me just 
finish by saying as Secretary of Labor, I want to know if you 
will--and you don't have to answer it, it's just a concern I 
have--bow to political pressure, which I have seen under this 
Trump administration a tremendous amount of political pressure, 
and you'll have to stand up for workers, and that's why I raise 
this issue and others, because that will be your job.
    Mr. Acosta. May I answer, Mr. Chairman?
    The Chairman. Yes.
    Mr. Acosta. Senator, I've heard that, and I've heard that 
concern a lot, and let me say this. I'm a lawyer. I've been a 
prosecutor. I have prosecuted UBS, the international bank, and 
as a result of that prosecution they changed Swiss law. I 
prosecuted major drug cartels for 200,000 kilos, the heads of 
the Cali drug cartel for 200,000 kilos of cocaine. I have been 
in public service the better part of my professional career, 
and I've seen pressure, and I don't for a second believe that 
senior officials would or should bow to inappropriate pressure.
    We work for the President. He is our boss. All Cabinet 
officials, as I believe--in preparation for this hearing I 
watched Secretary Chao's hearing, and she made the point that 
we all work for the President and we all will ultimately follow 
his direction unless we feel that we can't, and if we can't, 
then we resign, and that's our choice.
    Senator Murray. Thank you.
    The Chairman. Thank you, Senator Murray.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman. I didn't have any 
questions but Senator Murray stepped on a nerve that I'm very 
sensitive to, and that's the disparity in women's pay.
    I'm interested in the disparity of anybody's pay and know 
that there's a Federal law that says if you're doing the same 
job in the same company, you're supposed to be getting the same 
pay. As I travel around Wyoming, I explain to people that if 
they're not in those circumstances getting paid the same 
amount, let me know and I will help them take it to court.
    On the other hand, if I have a female engineer working for 
a coal company making a lot of money, and the guy that runs the 
meal room makes a lot less money, he doesn't have a case. 
That's a different job. What we've got to do is get people 
moving up the ladder to where they're getting paid what they 
ought to be getting paid.
    In this hearing room, one of my favorite hearings was a 
young lady that wanted to try something non-traditional, and 
she became a brick mason. When they started as a brick mason 
she got to do pavers out on yards and in courtyards and things 
like that. After she'd done that for a while, she got to build 
some of the fountains in New York City, and she was so prolific 
at it that she got to hang the marble on the outside of 
skyscrapers.
    I asked her what her job progression had been through these 
different things, and I can tell you that hanging marble on 
multiple stories pays a lot better than a U.S. Senator. That's 
what we want to have for people.
    In Wyoming, we have something called Climb Wyoming, and 
it's for single moms who want to get into a non-typical job. In 
Gillette, my hometown, the jobs that they're trained for is a 
warehouse supervisor or a truck driver. They're amazing people 
that pick up these skills, and they make more money than some 
of the men in our community. I got to speak at one of the 
graduations. It was for the truck drivers, and I was amazed at 
how much they can make even if because of the family they can 
only work around town. I think they started at $18 an hour just 
around town. If they were able to make day trips out and back 
and still comply with the needs of their family, it went to 
$25. If they were willing to take long-distance trips, it 
really went up.
    When I was at the graduation for them I said, ``you can do 
something that I can't do.'' They said, ``what?'' I said, 
``back up a semi-trailer.'' That's one of the requirements for 
it, and they can do that. Women have more concentration than 
men do. They have more multi-tasking skills than men do. 
Consequently we ought to be encouraging them into the markets 
where they make more than the men do, and that's one of the 
things that I think if you can encourage through Job Corps and 
the other training sessions, I hope you'll do that, and I'm 
asking you if you will.
    Mr. Acosta. Fair enough, Senator. Yes.
    Senator Enzi. Thank you.
    The Chairman. Thank you, Senator Enzi.
    We'll go to Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Dean, I would like to close the loop on the previous 
discussion. I have a question about the Bureau of Labor 
Statistics.
    I asked you whether the agreement not to prosecute 
federally in exchange for an agreement on other matters was 
something that was a consensus within your office, and I think 
your testimony was that it was the generally held position of 
your office. I've not been a prosecutor, although I've 
practiced law.
    The Chairman. It was broadly held----
    Senator Kaine. Yes, broadly held position of the office. 
Thank you.
    I want to just read this.

          ``In 2007, Acosta signed a non-prosecution deal in 
        which he agreed not to pursue Federal charges against 
        Epstein or for women who the government said procured 
        girls for him. In exchange, Epstein agreed to plead 
        guilty to a solicitation charge in State court, accept 
        a 13-month sentence, register as a sex offender, and 
        pay restitution to the victims identified in the 
        Federal investigations. This agreement will not be made 
        part of any public record''--the deal between Epstein 
        and Acosta says.

    What is the reason why a deal of this kind has the 
specification that it will not be made part of any public 
record?
    Mr. Acosta. Senator, I wish I could respond to that. You're 
asking for--I hesitate not because of concerns but because this 
is a matter that's pending litigation. Let me try to answer 
your question----
    Senator Kaine. Then maybe you can answer it generally. I 
understand.
    Mr. Acosta [continuing]. In a different way. There are 
times when in negotiating an outcome, there are agreements that 
are made that are ancillary. What we sought and what we 
presented at the very beginning was 2-years plus registration, 
plus individuals being able, victims being able to----
    Senator Kaine. Seek restitution.
    Mr. Acosta [continuing]. Seek restitution. What was 
obtained was 18 months plus registration, plus individuals 
being able to----
    Senator Kaine. This says 13 months.
    Mr. Acosta. The agreement called for 18 months. As it was 
applied by the State of Florida, it ended up being 13 months, 
which is a separate issue.
    Ultimately, there are other provisions that are part of 
that, and that is part of the give and take of a negotiation.
    Senator Kaine. I understand your concern since the matter 
is still pending, but as a general matter, if something is 
allowed to be part of the public record, then more people 
become aware of it. In this case there were allegations that, I 
guess eventually, somewhat more than three dozen women had been 
victimized by the individual. If something is allowed to be 
public, it informs the public and provides opportunities for 
people to come forward. If something is prohibited from being 
part of any public record, it has a way of making it more 
difficult for people to bring forward claims. Isn't that 
accurate?
    Mr. Acosta. Senator, something that I think has changed 
over time is trust of government, and that's relevant to the 
issue that you raised because there was a time when keeping 
something--when having something confidential was less of an 
issue. The public expectation today is that things be very 
public. If there is something that I have learned or thought 
about it's how careful someone should be when something is not 
made public, because often a very positive outcome--again, not 
talking about this case but generally--a very positive outcome 
can become a negative outcome not because of a change in the 
underlying substance but because by something not looking 
public it is looked at with suspicion.
    Senator Kaine. This is a question. The U.S. attorney 
position is a position of great power, and you're dealing with 
a lot of people who are in very vulnerable positions. The 
Secretary of Labor position is a position of great power, and 
you'll also be responsible for situations when there are a lot 
of vulnerable people. This is why I've been asking this 
question. Let me ask one other one.
    During the campaign, President Trump often ridiculed the 
BLS unemployment numbers, calling them ``phony'' or ``a hoax.'' 
Will you commit to keeping the Bureau of Labor Statistics 
independent and maintain and defend the integrity of its 
conclusions and data?
    Mr. Acosta. Senator, I'll answer your question, but if I 
could circle back, I just want to make one final point.
    Senator Kaine. Mm-hmm.
    Mr. Acosta. At the end of this case, I received a telephone 
call from the special agent in charge of the FBI who had been 
part of this entire process and had been at the meetings and 
had been involved, and he called to just say congratulations, 
this was really hard fought and well won. I say that because 
this truly was a point of pride.
    There was a New York Times article that was written 
concurrent to this that said, ``But then the United States 
Attorney's Office in Miami became involved.'' Initially, the 
Epstein team was elated Mr. Epstein would avoid prison. Then 
the U.S. Office became involved, and last summer Mr. Epstein 
got an ultimatum, ``plead guilty to a charge that would require 
to register him as a sex offender, or the government would 
charge him with sexual tourism.''
    Senator Kaine. Since you've added on, then I want to add 
on. You are aware that Mr. Epstein served that 13 months, he 
was allowed out during the day. He had to sleep at a county 
jail, but he was basically allowed to move and go around the 
community and do whatever he wants, and then that became a 
subject of significant criticism.
    Mr. Acosta. I am on record condemning that, and I think 
that was awful.
    Senator Kaine. You would say that was a problem with the 
way the State administered the State sentence.
    Mr. Acosta. Yes, and I think it was wrong.
    Senator Kaine. OK. How about on the Bureau of Labor 
Statistics?
    Mr. Acosta. On the Bureau of Labor Statistics, briefly, the 
Bureau of Labor Statistics has kept statistics for decades, and 
it has a procedure. It's a transparent procedure that makes 
clear how they calculate, that publishes for public comment any 
changes that may take place, and that procedure is very 
important because BLS keeps data that is used not just for 
today but for the future, and that process is very important.
    Senator Kaine. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Kaine.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Mr. Acosta, so far you've refused to answer my questions, 
hiding behind an Executive order that President Trump issued 
asking agency heads to review pending regulations. I'm not 
asking you how you will respond to President Trump's Executive 
order. I'm asking you about what your priorities will be if 
you're confirmed as Secretary of Labor. You'll be called on for 
your judgment, and hard-working Americans want to know what 
your values are, what it is that you prioritize.
    So far, you've said you can't commit to enforcing a rule to 
protect 2.3 million Americans from exposure to lethal, cancer-
causing silica, and you won't commit to appeal an injunction to 
the Labor Department's overtime rule that would give 4.2 
million Americans a $1.5 billion raise in a single year.
    Let me try a third one. Let's see if you'll protect workers 
saving for their retirements from financial advisors who would 
cheat them. On April 10, a Labor Department rule is set to go 
into effect that would require advisors to recommend retirement 
products that are in the customer's best interest instead of 
products that give advisors the highest commissions or the 
fanciest prizes.
    Those conflicts of interest now cost Americans $17 billion 
every year. President Trump has said he is currently working on 
a 60-day delay of the April 10 implementation date.
    My question is, if you are confirmed before this delay is 
finalized, will you promise to stop it?
    Mr. Acosta. Senator, there is an executive action that 
addresses with specificity the fiduciary rule, and it has asked 
the Department of Labor to look at the rule and to assess 
specific questions. Will the rule reduce the investment options 
available to investors I believe was one of them. Will the rule 
increase litigation? Will the rule financially impact retiree 
investors? The executive action, as I recall, directs the 
Secretary of Labor and the Department of Labor to repeal or 
revise the fiduciary rule if any of the criteria laid out in 
that Executive order is found. That criteria really regulates 
and determines the Department of Labor's approach to the 
fiduciary rule.
    Senator Warren. That's the question I'm asking you. We 
know, for example, that a 60-day delay is estimated to cost 
Americans about $3.7 billion that they're just going to get 
cheated out of by unscrupulous retirement counselors, and 
that's money they'll never get back. That is gone to them.
    That's the question I'm trying to ask, about where your 
values lie, how you see what this retirement rule does, how 
committed you are to protecting the American investor here, and 
retirees, so they have a chance to retire with some dignity.
    Mr. Acosta. Senator, I don't have access to the specific 
numbers that you have, but if the question is, do I think it's 
important to protect the American retiree?, absolutely. I 
understand that, particularly with the demographic changes that 
we're seeing, retirees are shifting from 401(k)'s to IRAs, and 
that the protections under IRAs----
    Senator Warren. Sir, let me stop you there. You say you 
think it's important to protect--because the Chairman rightly 
will catch me for being over time. You think it's important to 
protect retirees. It's important to protect retirees. We've got 
a rule here that will protect retirees, documented, to the 
terms of $17 billion a year. I just want to know generally, do 
you support this rule? Do you think this rule is a good idea?
    Mr. Acosta. Senator, with respect, the rule goes far beyond 
simply addressing the standard of conduct that investment----
    Senator Warren. How does it go beyond addressing the 
standard of conduct of investment advisors? I've read this 
rule. This is about the standard of conduct, and it says the 
standard of conduct is an investment advisor can no longer 
recommend products that are going to earn a whole lot more 
money for the investment advisor at the cost of giving a worse 
product to the person, the retiree, the investor. That's all 
it's about. That is what it's about, is that conduct.
    That's the question I'm asking. On behalf of millions of 
retirees around this country, do you support this rule?
    Mr. Acosta. Senator, with respect, there is an executive 
action that directs how the Department of Labor will approach 
this rule. If I'm confirmed as Secretary of Labor, I believe 
and support my following Executive orders of the President, who 
would be my boss.
    Senator Warren. I have to say, Mr. Acosta, this has really 
been frustrating. You have dodged every one of my questions. 
None of these were trick questions. I asked you exactly these 
questions when you were in my office 2 weeks ago, and you said 
in all three cases not that you would hide behind an Executive 
order from Trump; you said you would get me answers to these.
    I understand that you may not want to answer my questions, 
but there are about 150 million American workers who are pretty 
interested in the answers to these questions. These are 
questions that determine whether or not they can go to work 
every day without worrying about getting lung cancer at their 
workplace, whether they're going to be paid fairly for their 
work so they'll have enough money to put food on the table and 
send their kids to college, and whether after a lifetime of 
back-breaking work they're going to have a chance to retire 
with some dignity.
    If you can't give me straight answers on your views on 
this, not hide behind an Executive order but your views on this 
and commit to stand up for workers on these obvious and very 
important issues, then I don't have any confidence you're the 
right person for this job.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Acosta, we'll go to Senator Murray, but I 
wouldn't have any confidence in you for the job if you did 
answer the question that way, because I have a completely 
different view than Senator Warren does. The fiduciary rule 
deprives millions of Americans of an opportunity for advice. We 
have a different point of view, and I'll ask you this question: 
Have you been asked, have you been directed by the President, 
should you be confirmed, to review regulations once you're 
Secretary of Labor?
    Mr. Acosta. Senator, I have been directed pursuant to the 
executive action.
    The Chairman. Are you the Secretary of Labor yet?
    Mr. Acosta. I am not, sir.
    The Chairman. No. Would it be presumptuous of you to 
announce--I wonder how many regulations you may be reviewing as 
a result of that direction. Do you have any idea?
    Mr. Acosta. Senator, I do not because I haven't spoken to 
individuals at the Department of Labor about that issue because 
I'm not yet confirmed.
    The Chairman. Under the fiduciary rule you've got specific 
directions about how to conduct the review should you be 
confirmed.
    Mr. Acosta. That is correct.
    The Chairman. If you are confirmed, you will conduct the 
review according to the directions of the President of the 
United States, and then you'll try to deliver a fair opinion. 
Is that correct?
    Mr. Acosta. That is correct.
    The Chairman. I might not like it, and the Senator from 
Massachusetts may not like it. I hope she doesn't like it 
because I hope you come down on the side that I am. It's 
thoroughly reasonable for you to review a regulation according 
to the President of the United States' direction after you're 
Secretary of Labor. That's my own opinion.
    Senator Murray.
    Senator Murray. Mr. Chairman, let me just say that it's 
critical that workers have a true advocate in the Department of 
Labor, a Secretary of Labor. I have some questions and I know 
some of my other colleagues do as well. I hope we get clear, 
thorough responses on that.
    Mr. Chairman, I do want to ask unanimous consent to enter 
15 letters from 105 organizations expressing concerns with Mr. 
Acosta's nomination to lead the Department of Labor into the 
record.
    The Chairman. They will be included.
    [The information referred to may be found in Additional 
Material.]
    The Chairman. I will ask consent to introduce 19 letters of 
support----
    [Laughter.]
    Senator Murray. Does that mean I trumped you?
    [Laughter.]
    The Chairman. Nineteen letters of support representing 85 
groups, business groups, including some labor unions, in 
support of your nomination.
    [The information referred to may be found in Additional 
Material.]
    We've had a good, thorough opportunity to ask questions. 
Are there further questions? Senator Kaine? Senator Warren? 
Senator Murray?
    [No response.]
    I have one question, then we'll conclude the hearing. Thank 
you for being here.
    I talked at the very beginning about Tom Friedman's book, 
which I found really very good in trying to capture a lot of 
the conditions that probably surrounded the last election, 
which is the head-spinning acceleration of so many different 
forces, especially causing American workers to not be able to 
fit into the workplace.
    One area where American workers are still able to fit into 
the workplace is our franchisees. There are hundreds of 
thousands. The number is about 700,000 Americans who have 
franchises. In other words, they have an opportunity, typically 
in their hometown, to take a restaurant franchise or some other 
franchise, and typically work 12 hours a day for many years, 
and often it's a family working that long for many years, and 
it's a way that you can still live in your own community and 
work in your own community and be reasonably independent and 
move your way into the middle class.
    In my way of thinking, the prior administration's Joint 
Employer definition that was first established by the National 
Labor Relations Board begins to up-end the whole concept of 
franchising and to threaten it, making it more likely that a 
large company would decide not to have franchises but to just 
own all the stores itself. A restaurant company that had 800 
restaurants, for example, instead of having 700 franchises 
might just say, under the broad Joint Employer definition 
that's in the NLRB and that seems to be spreading in the 
Department of Labor, it makes more sense for the parent company 
to own it, depriving hundreds of thousands of Americans to be a 
franchise owner.
    Let me ask you these questions. In order to be treated as 
the employer of an employee, shouldn't the business person have 
direct and immediate control over an employee?
    Mr. Acosta. That is one of the traditional criteria, 
Senator.
    The Chairman. Do you believe that indirect control or even 
unexercised potential to control working conditions could make 
a franchisor and a franchisee joint employers?
    Mr. Acosta. That would be an untraditional approach.
    The Chairman. Do you think that the person who hires, 
fires, pays, sets work hours, and issues directions to 
employees should be considered the employer?
    Mr. Acosta. I'm sorry, that hires, fires----
    The Chairman. Hires, fires, pays, sets work hours, and 
issues directions----
    Mr. Acosta. Yes. That is----
    The Chairman [continuing]. To employees should be 
considered the employer?
    Mr. Acosta. That is the usual approach, Senator.
    The Chairman. Thank you, Mr. Acosta, for your patience and 
for your answers and for your willingness to subject yourself 
to a confirmation session. All in all, it went very well. Part 
of the reason may be your experience, the fact that you've been 
before the U.S. Senate three times, nominated by the President 
of the United States, and you've been confirmed by the Senate. 
I have no doubt that you will be this time. I look forward to 
working with you as the Secretary of America's workforce at a 
time when many Americans are trying to find a way to fit into 
work, and hopefully working together with Congress we can make 
that easier.
    This committee has a broad array of views, but many times 
in the past, very important times, we've been able to take our 
differences of opinion and come to a consensus such as our law 
to fix No Child Left Behind, which President Obama called a 
Christmas miracle, and our 21st Century CURES Act was passed 
last year, which Senator McConnell called the most important 
bill of the last Congress.
    Maybe some of the most important work we can do during the 
next couple of years would have to do with helping the American 
workforce adjust to the head-spinning conditions in which we 
all find ourselves and fit more easily into the workplace. I 
know that's a concern of the Senator from Virginia. He's talked 
to me many times about that. Both of us used to be Governors. 
We understand that most of that work, much of that work has to 
be done, as you said in your response to the Senator from 
Maine, we have to understand what it's like in Culpepper and 
Nashville before we issue orders from here. Nevertheless, we 
can have a national interest in it.
    If the Senators wish to ask additional questions of our 
nominee, questions for the record are due by the close of 
business tomorrow, March 23. For all other matters, the hearing 
record will remain open for 10 days. Members may submit 
additional information for the record within that time.
    Thank you very much for being here today.
    The committee will stand adjourned.
    Mr. Acosta. Thank you for the courtesy.
    [Additional Material follows.]

                          ADDITIONAL MATERIAL

   Position Statement by Workplace Fairness--Sharon Rusz, Executive 
              Director and Paula Brantner, Senior Advisor
    As the Senate HELP Committee prepares for the confirmation hearing 
of Alexander Acosta as Secretary of Labor, Workplace Fairness weighs in 
on what he must prioritize to be a suitable selection for the post.
    There are three points of particular interest to Workplace Fairness 
and the working people that we serve.

    <bullet> A Labor Secretary must guard against politicized hiring in 
the Labor Department.
    <bullet> A Labor Secretary must aggressively pursue investigation, 
litigation, and enforcement against employers who violate workers' 
rights.
    <bullet> A Labor Secretary must commit to providing comprehensive, 
up to date, easy to understand information to the public about workers' 
rights in the workplace and procedures for pursuing remedies.

    While Mr. Acosta's positions in the Civil Rights Division at DOJ 
and NLRB called for him to recognize and protect the rights of 
minorities and other under-served communities, his involvement 
politicized hiring at DOJ, and his lack of any real record on workers' 
rights issues are concerning.
    In light of these things, and the many questionable appointments 
already being made by the Trump administration, Mr. Acosta must assure 
us that the Department will engage in nonpartisan hiring in order to 
most effectively pursue its mission. Mr. Acosta must further provide 
assurances that he will act to protect and advance the rights of 
workers by aggressively pursuing enforcement actions against employers 
who take advantage of workers, especially those who are most 
vulnerable. Immigrants and members of the LGBT community, for example, 
are already seeing frightening signs of animosity from the Trump 
administration that have had a chilling effect on the likelihood that 
these workers will speak up and pursue justice when their employers 
violate their rights. The Labor Secretary must be sensitive to these 
concerns and take steps to address them, lest employers be allowed to 
run roughshod over the most underserved people in the workforce.
    The Department of Labor's mission is to promote worker welfare and 
assure workers' benefits and rights. In order to effectively protect 
workers and their rights, the Secretary of Labor must also place a high 
level of importance on continuing to provide workers with 
comprehensive, accessible information about their rights in the 
workplace, and transparency about the aims and goals of the Department 
going forward. It is key to the Department's mission that workers know 
their rights, and more importantly, know what steps to take to make a 
complaint when their rights are violated. Under a new presidential 
administration, workers and workers' advocates must be kept apprised of 
rules changes, and changes in guidance and enforcement actions. But 
just as importantly, the Department must continue to provide 
information about all of the established laws and regulations that it 
enforces.
    With the recent spate of agencies removing large sections of 
content from their websites, workers and their advocates are concerned. 
Removing vital legal and procedural information from the Department's 
website would have a detrimental effect on the enforcement of the laws 
that protect workers because they may not understand their rights, or 
know how to seek remedies for employer violations. We must be assured 
that as Secretary of Labor, Mr. Acosta would recognize the need to keep 
the people he is charged with protecting informed about their rights, 
their employers' obligations, and how they can go about making 
complaints.
                                 ______
                                 
                        about workplace fairness
    Workplace Fairness is a nonprofit organization that provides 
information, education and assistance to individual workers and their 
advocates nationwide and promotes public policies that advance employee 
rights.
    Our goals are that workers and their advocates are educated about 
workplace rights and options for resolving workplace problems and those 
policymakers, members of the business community and the public at large 
view the fair treatment of workers as both good business practice and 
sound public policy.
    Workplace Fairness works toward these goals by:

    <bullet> Making comprehensive information about workers' rights--
free of legal jargon--readily available to workers and to advocates and 
organizations that assist workers;
    <bullet> Providing resources to support the work of legal services 
organizations, community-based organizations, law schools and private 
attorneys that provide free legal information and services to low-
income workers; and
    <bullet> Presenting the employee perspective in publications, 
policy debates & public discussion.

    The award-winning workplace fairness website, 
www.workplacefairness.org, has newly updated information throughout the 
site, as part of the web's most comprehensive resource educating 
workers about their legal rights in the workplace.

                 [The Washington Post, March 21, 2017]

Labor Nominee Acosta Cut Deal With Billionaire Guilty in Sex Abuse Case

                            (By Marc Fisher)

    There was once a time--before the investigations, before the sexual 
abuse conviction--when rich and famous men loved to hang around with 
Jeffrey Epstein, a billionaire money manager who loved to party.
    They visited his mansion in Palm Beach, FL. They flew on his jet to 
join him at his private estate on the Caribbean island of Little Saint 
James. They even joked about his taste in younger women.
    President Trump called Epstein a ``terrific guy'' back in 2002, 
saying that, ``He's a lot of fun to be with. It is even said that he 
likes beautiful women as much as I do, and many of them are on the 
younger side.''
    Now, Trump is on the witness list in a Florida court battle over 
how Federal prosecutors handled allegations that Epstein, 64, sexually 
abused more than 40 minor girls, most of them between the ages of 13 
and 17. The lawsuit questions why Trump's nominee for labor secretary, 
former Miami U.S. attorney Alexander Acosta, whose confirmation hearing 
is scheduled to begin Wednesday, cut a non-prosecution deal with 
Epstein a decade ago rather than pursuing a Federal indictment that 
Acosta's staff had advocated.\1\
---------------------------------------------------------------------------
    \1\ Read the non-prosecution deal Acosta made with Epstein.
---------------------------------------------------------------------------
    Although Epstein's friends and visitors once included past and 
future presidents, rock stars, and some of the country's richest men, 
he is no longer a social magnet. Epstein pleaded guilty to a Florida 
State charge of felony solicitation of underage girls in 2008 and 
served a 13-month jail sentence. Politicians who had accepted his 
donations, including former New Mexico Governor Bill Richardson and 
former New York Governor Eliot Spitzer, have scurried to give them 
back. (Harvard University kept a $6.5 million gift, saying it was 
``funding important research'' in mathematics.)
    But Epstein's unusually light punishment--he was facing up to a 
life sentence had he been convicted on Federal charges--has raised 
questions about how Acosta handled the case.
    Former Palm Beach police chief Michael Reiter, whose department 
conducted the initial investigation into Epstein's behavior, said in a 
civil lawsuit deposition that Epstein got off easy.
    ``That wasn't an appropriate resolution of this matter,'' Reiter 
said, arguing that the charges leveled against Epstein were ``very 
minor,'' compared with what the facts called for. In a letter to 
parents of Epstein's victims, Reiter said justice had not been served.
    Prosecutors in Acosta's Miami office who had joined the FBI in the 
investigation concluded, according to documents produced by the U.S. 
attorney's office, that Epstein, working through several female 
assistants,

          ``would recruit underage females to travel to his home in 
        Palm Beach to engage in lewd conduct in exchange for money. . . 
        . Some went there as much as 100 times or more. Some of the 
        women's conduct was limited to performing a topless or nude 
        massage while Mr. Epstein masturbated himself. For other women, 
        the conduct escalated to full sexual intercourse.''

    Epstein has a near-legendary reputation in New York financial 
circles as a money manager who made many millions for his clients. 
Although he never graduated from college, he taught advanced math at 
the Dalton School, one of the city's top private schools, and went on 
to be a successful trader at Bear Stearns before starting his own firm, 
J. Epstein & Co., which managed the finances of clients who had a 
minimum of $1 billion in assets.
    Federal prosecutors detailed their findings in an 82-page 
prosecution memo and a 53-page indictment, but Epstein was never 
indicted. In 2007, Acosta signed a non-prosecution deal in which he 
agreed not to pursue Federal charges against Epstein or four women who 
the government said procured girls for him. In exchange, Epstein agreed 
to plead guilty to a solicitation charge in State court, accept a 13-
month sentence, register as a sex offender and pay restitution to the 
victims identified in the Federal investigation.
    ``This agreement will not be made part of any public record,'' the 
deal between Epstein and Acosta says. The document was unsealed by a 
Federal judge in a civil lawsuit in 2015.
    Reiter said in the 2009 deposition that Federal prosecutors in 
Miami told him, ``that typically these kinds of cases with one victim 
would end up in a 10-year sentence.'' Reiter said he was surprised not 
only by the decision to pull back from prosecuting the case, but also 
by the light sentence and liberal privileges granted to Epstein during 
his jail term.
    Acosta did not return a call seeking comment. He explained his 
decision in a ``To whom it may concern'' letter that he released to 
news organizations 3 years after the decision:

          ``The bottom line is this: Mr. Jeffrey Epstein, a 
        billionaire, served time in jail and is now a registered sex 
        offender. He has been required to pay his victims restitution, 
        though restitution clearly cannot compensate for the crime.''

    Acosta wrote that the case against Epstein grew stronger over the 
years because more victims spoke out after Epstein was convicted.
    Acosta is Trump's second nominee to be Secretary of Labor; the 
first, Andrew Puzder, withdrew last month after Senate Republicans 
questioned his past employment of an undocumented housekeeper. Support 
for Acosta seems strong, as some Democrats and union leaders have 
joined with Senate Republicans in praising the nominee, who has been 
confirmed for Federal positions three times in the past.
    In the 2011 letter explaining his decision in the Epstein case, 
Acosta said he backed off from pressing charges after ``a year-long 
assault on the prosecution and the prosecutors'' by ``an army of legal 
superstars'' who represented Epstein, including Harvard Law professor 
Alan Dershowitz; Kenneth Starr, who as independent counsel led the 
investigation that brought about President Bill Clinton's impeachment; 
and some of the Nation's most prominent defense attorneys, such as Roy 
Black, Gerald Lefcourt and Jay Lefkowitz.
    ``The defense strategy was not limited to legal issues,'' Acosta 
wrote, ``Defense counsel investigated individual prosecutors and their 
families, looking for personal peccadilloes that may provide a basis 
for disqualification.''
    Dershowitz said in an interview that no such effort to rattle the 
prosecutors ever took place. ``That's just dead wrong,'' he said. ``I 
would never participate in anything of that kind. Of course we 
investigated the witnesses but not Acosta's deputies. That's absurd.''
    Acosta's ``intention was to indict, and he fought hard and tried to 
get the best deal he could,'' Dershowitz said. '``We out-lawyered 
him.'' Epstein did not return a call seeking comment.
    Conchita Sarnoff, the author of ``TrafficKing,'' a book on the 
Epstein case, said in an interview that Acosta told her a few years 
after his decision not to prosecute that ``he felt incapable of going 
up against those eight powerful attorneys. He felt his career was at 
stake.''
    In his letter about the decision, Acosta, who has been dean of the 
law school at Florida International University since 2009, acknowledged 
that,   ``some prosecutors felt that we should just go to trial, and at 
times I felt that frustration myself.'' He also complained that Epstein 
``received highly unusual treatment while in jail,'' including being 
allowed to serve much of his sentence in the county jail rather than a 
State prison, and being permitted to leave the jail 6 days a week to 
work at home before returning to jail to sleep.
    ``The treatment that he received while in State custody undermined 
the purpose of a jail sentence,'' Acosta said.
    Dershowitz said Acosta ``was very anxious to prosecute'' Epstein, 
but ``we persuaded them that they didn't have enough evidence of 
interstate transportation'' of the underage girls to warrant Federal 
charges.
    But Reiter, the former police chief, said the FBI had evidence 
``from flight logs or something'' that an underage victim ``was 
transported on an aircraft of Mr. Epstein.''
    ``Some may feel that the prosecution should have been tougher,'' 
Acosta wrote. ``Evidence that has come to light since 2007 may 
encourage that view.'' But the prosecutor argued that his office's 
investigation allowed State prosecutors to strengthen their charges 
against Epstein. And Acosta said that those who disagree with his 
decision ``are not the ones who at the time reviewed the evidence 
available for trial and assessed the likelihood of success.''
    The deal Acosta made with Epstein precluded any new Federal 
prosecution based on offenses he may have committed between 2001 and 
2007, but in Florida, Trump is on the witness list in a civil case in 
which two attorneys accuse Federal prosecutors of having deceived 
Epstein's victims by failing to inform them that they would not charge 
Epstein.
    Lawyers for the women argue that they had a right under the Federal 
Crime Victims' Rights Act to know about Acosta's deal with Epstein. 
They say Acosta sought to keep the deal under wraps to avoid ``the 
intense public criticism that would have resulted from allowing a 
politically connected billionaire'' to escape from Federal prosecution.
    Although Trump and Bill Clinton flew on Epstein's plane and visited 
his homes, neither President has been accused of taking part in the 
sexual misdeeds. But lawyers for Epstein's victims say Trump 
nonetheless may have useful information. Trump banned Epstein from his 
Mar-a-Lago Club in Palm Beach ``because Epstein sexually assaulted an 
underage girl at the club,'' Bradley Edwards, an attorney who 
represents three of the young women, said in court documents.
    Lawyers involved with the various Epstein cases said there is 
virtually no chance that the President will be required to testify in a 
matter in which both sides agree his involvement was tangential.
    Trump and Clinton are both among the dozens of names that appeared 
in a ``black book'' of Epstein's phone contacts that his houseman, 
Alfredo Rodriguez, obtained. Rodriguez, who died in 2015, was convicted 
of obstruction of justice in 2010 after he tried to sell the book for 
$50,000 to lawyers representing Epstein's victims. In the book, 
Rodriguez circled the names of contacts he said were involved in sexual 
misbehavior at Epstein's properties. There were no circles around the 
names of Trump, Clinton or other boldfaced names such as former Israeli 
prime minister Ehud Barak, former British prime minister Tony Blair, 
and celebrities Mick Jagger, Michael Jackson, David Frost and Jimmy 
Buffett.
    Rodriguez spent 18 months in prison, 5 months longer than Epstein 
served in jail.
    Epstein has continued to move among his homes in New York City, 
where he owns one of the largest private residences in Manhattan, Palm 
Beach and the Caribbean.
                                 ______
                                 
                           Letters of Support
                                Corry & Associates,
                                          Denver, CO 80204,
                                                     March 3, 2017.
Hon. Lamar Alexander, Chairman,
U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Office Building,
Washington, DC 20510.

    Dear Mr. Chairman and committee members: This letter is to express 
strong support for R. Alexander Acosta as Secretary of the U.S. 
Department of Labor. I know Mr. Acosta on both a professional and 
personal level.
    Mr. Acosta is first-rate nominee to lead the Department. I have 
been a practicing litigator for over 20 years, politically active, 
served as Counsel to the U.S. House Judiciary Committee, and graduated 
from Stanford Law School. In these capacities over decades, I have been 
acquainted with thousands of bright and accomplished people. Mr. Acosta 
rises above even the most qualified people for his exceptional brain, 
combined with a large heart, and unparalleled creativity. There is no 
person better than Mr. Acosta for this job, and respectfully, he should 
have a swift hearing and confirmation.
    Thank you for your attention to this matter. My office phone is 
(303) 634-2244 and my e-mail is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c795a8a58795a8a584a8b5b5bee9a4a8aa">[email&#160;protected]</a> if you have further 
questions or need additional information.
            Sincerely,

                                 Robert J. Corry, Jr., Esq.

                            Delta Industries, Inc.,
                           Jackson, Mississippi 39215-1292,
                                                    March 15, 2017.

Hon. Mitch McConnell, Majority Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Charles Schumer, Democratic Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Washington, DC 20510.

    Dear Majority Leader McConnell, Minority Leader Schumer and 
Senators Alexander and Murray: My name is Dave Robison and I work for 
Delta Industries located in Jackson, MS. We manufacture and deliver the 
ready mixed concrete that builds our Nation's heavy highway system and 
residential and commercial construction, creating jobs and accelerating 
economic growth. I applaud President Donald Trump's selection of R. 
Alexander Acosta to head the U.S. Department of Labor.
    I support the President's nomination for Labor Secretary because 
Mr. Acosta knows and has seen first-hand the negative consequences of 
overregulation and enforcement from the National Labor Relations Board 
(NLRB), having served as a member. During his tenure on the NLRB, Mr. 
Acosta drafted more than 125 opinions in which he demonstrated a 
balanced approach to both employers and employees. It is only fitting 
that someone with Mr. Acosta's background lead the Labor Department--
the agency responsible for ensuring the Nation's labor and safety laws 
are properly balanced to benefit our Nation's most valuable asset, the 
American workforce.
    Most notably I am confident that Mr. Acosta's nomination will 
garner bipartisan support. He has been previously confirmed by the U.S. 
Senate three times with bipartisan support--for the NLRB, as Assistant 
Attorney General, and as U.S. attorney for the southern district of 
Florida. Mr. Acosta's nomination to serve as Secretary of Labor should 
garner the same bipartisan support.
    I respectfully ask you to support Mr. Acosta as the next Secretary 
of Labor so that he can immediately begin helping the American economy 
get to work.
            Sincerely,

                                              Dave Robison,
                                  President, Delta Industries, Inc.

       International Association of Fire Fighters,
                                 Washington, DC 20006-5395,
                                                 February 24, 2017.

Hon. Lamar Alexander, Chairman,
Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington DC 20510.

Re: IAFF Support of the Nomination for R. Alexander Acosta

    Dear Chairman Alexander and Ranking Member Murray: I am writing to 
express the strong support of International Association of Fire 
Fighters, which represents over 304,000 members, for the nomination of 
Alexander Acosta as the Nation's 27th Secretary of Labor.
    On a personal level, I have worked with every Secretary of Labor 
since John Dunlop in the Ford administration. I believe that Mr. Acosta 
possesses the appropriate qualifications, experience and temperament to 
fulfill the obligations and responsibility of the office.
    Mr. Acosta is truly an American success story. The son of Cuban 
immigrants, he has achieved success in multiple governmental positions, 
the private sector and in academia. While the majority of IAFF members 
are not covered under the National Labor Relations Act, we are familiar 
and appreciative of his history of issuing balanced rulings during his 
service as a commissioner of the National Labor Relations Board.
    I first became acquainted with Mr. Acosta when he was the Assistant 
Attorney General of the Civil Rights Division at the Department of 
Justice. We had several sensitive issues regarding promotions and 
hiring issues. Mr. Acosta approached the issues in fair and 
dispassionate fashion. I was very impressed with his acumen and 
professionalism.
    Subsequently, he built a stellar reputation as the U.S. attorney 
for southern Florida successfully prosecuting high several profile 
cases on political corruption, terrorism, drug trafficking and 
financial crimes. Mr. Acosta had the longest tenure in that capacity 
since anyone since the early 1970s.
    In closing, the IAFF urges your committee to act favorably of the 
nomination of this eminently qualified nominee and work to ensure the 
rapid confirmation of R. Alexander Acosta as Secretary of Labor.
            Respectfully,

                                    Harold A. Schaitberger,
                                                 General President.

                     Miles Sand And Gravel Company,
                                   Puyallup, WA 98372-2516,
                                                    March 15, 2017.

Hon. Mitch McConnell, Majority Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Charles Schumer, Democratic Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Washington, DC 20510.

    Dear Majority Leader McConnell, Minority Leader Schumer and 
Senators Alexander and Murray: My name is Jerry Trudeau and I work for 
Miles Sand and Gravel Company located in Puyallup, WA. We manufacture 
and deliver the ready mixed concrete that builds our Nation's heavy 
highway system and residential and commercial construction, creating 
jobs and accelerating economic growth. I applaud President Donald 
Trump's selection of R. Alexander Acosta to head the U.S. Department of 
Labor.
    I support the President's nomination for Labor Secretary because 
Mr. Acosta knows and has seen first-hand the negative consequences of 
overregulation and enforcement from the National Labor Relations Board 
(NLRB), having served as a member. During his tenure on the NLRB, Mr. 
Acosta drafted more than 125 opinions in which he demonstrated a 
balanced approach to both employers and employees. It is only fitting 
that someone with Mr. Acosta's background lead the Labor Department--
the agency responsible for ensuring the Nation's labor and safety laws 
are properly balanced to benefit our Nation's most valuable asset, the 
American workforce.
    Most notably I am confident that Mr. Acosta's nomination will 
garner bipartisan support. He has been previously confirmed by the U.S. 
Senate three times with bipartisan support--for the NLRB, as Assistant 
Attorney General, and as U.S. attorney for the southern district of 
Florida. Mr. Acosta's nomination to serve as Secretary of Labor should 
garner the same bipartisan support.
    I respectfully ask you to support Mr. Acosta as the next Secretary 
of Labor so that he can immediately begin helping the American economy 
get to work.
            Sincerely,

                                             Jerry Trudeau,
                                Vice President and General Manager.

                               MMC Materials, Inc.,
                                             Ridgeland, MS,
                                                    March 15, 2017.

Hon. Mitch McConnell, Majority Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Charles Schumer, Democratic Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Washington, DC 20510.

    Dear Majority Leader McConnell, Minority Leader Schumer and 
Senators Alexander and Murray: My name is Stanley Mangum and I work for 
MMC Materials, Inc. based in Ridgeland, MS, with locations throughout 
Mississippi. We manufacture and deliver the ready mixed concrete that 
builds our Nation's heavy highway system and residential and commercial 
construction, creating jobs and accelerating economic growth. I applaud 
President Donald Trump's selection of R. Alexander Acosta to head the 
U.S. Department of Labor.
    I support the President's nomination for Labor Secretary because 
Mr. Acosta knows and has seen first-hand the negative consequences of 
overregulation and enforcement from the National Labor Relations Board 
(NLRB), having served as a member. During his tenure on the NLRB, Mr. 
Acosta drafted more than 125 opinions in which he demonstrated a 
balanced approach to both employers and employees. It is only fitting 
that someone with Mr. Acosta's background lead the Labor Department--
the agency responsible for ensuring the Nation's labor and safety laws 
are properly balanced to benefit our Nation's most valuable asset, the 
American workforce.
    Most notably I am confident that Mr. Acosta's nomination will gamer 
bipartisan support. He has been previously confirmed by the U.S. Senate 
three times with bipartisan support--for the NLRB, as Assistant 
Attorney General, and as U.S. attorney for the southern district of 
Florida. Mr. Acosta's nomination to serve as Secretary of Labor should 
garner the same bipartisan support.
    I respectfully ask you to support Mr. Acosta as the next Secretary 
of Labor so that he can immediately begin helping the American economy 
get to work.
            Sincerely,

                                            Stanley Mangum,
                                                    Vice President.

      National Council of Chain Restaurants (NCCR),
                                      Washington, DC 20005,
                                                    March 20, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of the 
National Council of Chain Restaurants, I am writing in support of 
President Donald Trump's nomination of Alexander Acosta to be Secretary 
of Labor.
    Mr. Acosta has served with distinction in important policy and 
leadership roles over the course of his career, including his current 
service as Dean of the Florida International University College of Law. 
In addition to his strong professional and academic credentials, Mr. 
Acosta has also consistently demonstrated a commitment to public 
service as a member of the National Labor Relations Board, as an 
Assistant Attorney General in the Department of Justice and as U.S. 
attorney for the southern district of Florida.
    As you know, the U.S. Department of Labor has an important mission 
and broad policy portfolio which affects a wide array of stakeholders, 
including chain restaurant businesses and their highly valued 
employees. Mr. Acosta understands the challenges faced by small 
businesses around the country in navigating an oftentimes complex web 
of statutory and regulatory requirements imposed by the Federal 
Government.
    Once confirmed, Mr. Acosta will be an advocate for Federal policy 
at the U.S. Labor Department which benefits all stakeholders--including 
chain restaurants, small businesses, and most importantly, their 
millions of team members in local communities around the United States.
    We look forward to the March 22 HELP Committee hearing which will 
review Mr. Acosta's qualifications and then to prompt Senate 
consideration of this important nomination. Thank you for your 
consideration of these views.
            Sincerely,

                                           Robert J. Green,
                                                Executive Director.

 National Ready Mixed Concrete Association (NRMCA),
                                   Silver Spring, MD 20910,
                                                    March 15, 2017.

Hon. Mitch McConnell, Majority Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Charles Schumer, Democratic Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Washington, DC 20510.

    Dear Majority Leader McConnell, Minority Leader Schumer and 
Senators Alexander and Murray: The National Ready Mixed Concrete 
Association (NRMCA) applauds President Donald Trump's selection of R. 
Alexander Acosta, Dean of the Florida International University College 
of Law, to serve as Secretary of the U.S. Department of Labor.
    NRMCA represents an industry with more than 2,250 companies and 
subsidiaries that employ more than 125,000 American workers who 
manufacture and deliver ready mixed concrete. The Association 
represents both national and multinational companies that operate in 
every congressional district in the United States. The industry 
includes approximately 70,000 ready mixed concrete trucks and 5,000 
ready mixed concrete plants.
    NRMCA supports the President's nomination for Labor Secretary 
because Mr. Acosta knows and has seen first-hand the negative 
consequences of overregulation and enforcement from the National Labor 
Relations Board (NLRB), having served as a member. During his tenure on 
the NLRB, Mr. Acosta drafted more than 125 opinions in which he 
demonstrated a balanced approach to both employers and employees. It is 
only fitting that someone with Mr. Acosta's background lead the Labor 
Department--the agency responsible for ensuring the Nation's labor and 
safety laws are properly balanced to benefit our Nation's most valuable 
asset, the American workforce.
    Most notably we are confident that Mr. Acosta's nomination will 
garner bipartisan support. He has been previously confirmed by the U.S. 
Senate three times with bipartisan support--for the NLRB, as Assistant 
Attorney General, and as U.S. attorney for the southern district of 
Florida. Mr. Acosta's nomination to serve as Secretary of Labor should 
garner the same bipartisan support.
    NRMCA respectfully supports Mr. Acosta as the next Secretary of 
Labor so that he can immediately begin helping the American economy get 
to work.
            Sincerely,

                                           Kerri Leininger,
                            Executive Vice President of Government 
                                             and Political Affairs.

                  National Retail Federation (NRF),
                                      Washington, DC 20005,
                                                    March 21, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of the 
Nation's retail industry, I write to share the National Retail 
Federation's strong support for the nomination of Alexander Acosta to 
be the next Secretary of Labor.
    NRF is the world's largest retail trade association, representing 
discount and department stores, home goods and specialty stores, Main 
Street merchants, grocers, wholesalers, chain restaurants and Internet 
retailers from the United States and more than 45 countries. Retail is 
the Nation's largest private sector employer, supporting one in four 
U.S. jobs--42 million working Americans. Contributing $2.6 trillion to 
annual GDP, retail is a daily barometer for the Nation's economy.
    Over the past 8 years, the retail industry and employers across the 
country have faced a crushing regulatory burden driven by ideological 
whims rather than economic realities. The previous Department of 
Labor's sweeping actions on Federal overtime rules, joint employer 
relationships, and many other issues have created immense uncertainty 
for employers and stifled economic growth. Both job creators and 
employees will benefit from a more balanced approach to workforce 
policies and a Secretary of Labor who puts the needs of American 
businesses and workers before partisan politics.
    Mr. Acosta's diverse experiences in both public service and the 
private sector position him well to be an effective and pragmatic 
leader at the Department of Labor. The new Labor Secretary will play a 
critical role in implementing the President's regulatory reform 
Executive orders, and NRF looks forward to working with Mr. Acosta once 
confirmed on a pro-growth agenda that supports innovation, investments 
in the workforce, and American competitiveness.
    Given Mr. Acosta previously has been confirmed by the Senate on 
three occasions with bipartisan support, NRF urges members of this 
committee and the Senate to support the nominee and move toward 
confirmation without delay.
            Sincerely,

                                              David French,
                                             Senior Vice President,
                                              Government Relations.

 National Stone, Sand & Gravel Association (NSSGA),
                                            Alexandria, VA,
                                                   March 21,, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
648 Hart Senate Office Building,
Washington, DC 20510.

    Dear Chairman and Ranking Member: As the Committee on Health, 
Education, Labor, and Pensions prepares to vote on the nomination of 
Alex Acosta to serve as Secretary of Labor, the National Stone, Sand 
and Gravel Association (NSSGA) would like to express its strong support 
for his nomination.
    NSSGA represents stone, sand and gravel producers who are 
responsible for the essential raw materials found in every building, 
road, bridge and public works project. The emphasis on the regulatory 
reform at the Department of Labor is one of our highest priorities.
    Mr. Acosta's accomplishments are numerous and impressive. He served 
as a Commissioner of the National Labor Relations Board, was the first 
Hispanic to hold the rank of Assistant U.S. Attorney General, and was 
named assistant U.S. attorney for the southern district of Florida. Mr. 
Acosta's record of pioneering leadership can be put to great use as 
Secretary of Labor in looking out for American workers, so many of whom 
have been forgotten and left behind.
    Furthermore, Mr. Acosta's appreciation for appropriate government 
action ensures that someone with the knowledge of the issues impacting 
our industry including the negative impacts and untended consequences 
of government regulations is at the helm of the department. This is 
particularly important to us given the central role played by the Labor 
Department's Mine Safety and Health Administration (MSHA). It is 
critical that MSHA significantly improve its approach to achieving its 
mission so that the agency can regulate and enforce for genuine safety, 
versus sometimes undercutting workplace safety.
    NSSGA appreciates your consideration of these views. Please contact 
me if you have any questions or would like any additional information. 
I can be reached at (703) 526-1060/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd2d5d0d7d1ccd0d1ffd1ccccd8de91d0cdd891">[email&#160;protected]</a>
            Sincerely,

                                        Michael W. Johnson,
                                                   President & CEO.

             North America's Building Trade Unions,
                                      Washington, DC 20006,
                                                 February 27, 2017.

Hon. Lamar Alexander, Chairman,
Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senators Alexander and Murray: North America's Building Trades 
Unions believe that Alexander Acosta is a qualified candidate to serve 
as the next U.S. Secretary of Labor.
    He has served in three presidentially appointed, Senate-confirmed 
positions, and was a respected member of the National Labor Relations 
Board. Combined with his experience as the Assistant Attorney General 
for the Civil Rights Division of the U.S. Department of Justice, Mr. 
Acosta holds the necessary knowledge and experience to further the 
Department of Labor's stated mission,

          ``To foster, promote, and develop the welfare of the wage 
        earners, job seekers, and retirees of the United States; 
        improve working conditions; advance opportunities for 
        profitable employment; and assure work-related benefits and 
        rights.''

    Our unions look forward to working with Mr. Acosta to preserve 
strong and existing community wage and benefit standards, 
apprenticeship programs, and rigorous safety standards in the 
construction industry that have historically brought immediate, and 
widespread, benefits to American workers and the American economy.
    North America's Building Trades Unions believe Alexander Acosta is 
someone who deserves serious consideration for the position of 
Secretary of Labor.
    Thank you for your consideration of our views on this matter,
            Sincerely,

                                             Sean McGarvey,
                                                         President.

                  North American Concrete Alliance,
                                            March 15, 2017.

Hon. Mitch McConnell, Majority Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Charles Schumer, Democratic Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Washington, DC 20510.

    Dear Majority Leader McConnell, Minority Leader Schumer and 
Senators Alexander and Murray: The North American Concrete Alliance 
(NACA) applauds President Donald Trump's selection of R. Alexander 
Acosta, Dean of the Florida International University College of Law, to 
serve as Secretary of the U.S. Department of Labor.
    NACA is a coalition of concrete-related associations dedicated to 
addressing industrywide priorities in the areas of research, education 
and government affairs. NACA places an emphasis on advocating for 
increased and efficient Federal investment in surface transportation 
and infrastructure funding and the impact it has on job creation.
    NACA supports the President's nomination for Labor Secretary 
because Mr. Acosta knows and has seen first-hand the negative 
consequences of overregulation and enforcement from the National Labor 
Relations Board (NLRB), having served as a member. During his tenure on 
the NLRB, Mr. Acosta drafted more than 125 opinions in which he 
demonstrated a balanced approach to both employers and employees. It is 
only fitting that someone with Mr. Acosta's background lead the Labor 
Department--the agency responsible for ensuring the Nation's labor and 
safety laws are properly balanced to benefit our Nation's most valuable 
asset, the American workforce.
    Most notably we are confident that Mr. Acosta's nomination will 
garner bipartisan support. He has been previously confirmed by the U.S. 
Senate three times with bipartisan support--for the NLRB, as Assistant 
Attorney General, and as U.S. attorney for the southern district of 
Florida. Mr. Acosta's nomination to serve as Secretary of Labor should 
garner the same bipartisan support.
    NACA respectfully asks you to support President Trump's nomination 
of R. Alexander Acosta to serve as Labor Secretary.
            Sincerely,

American Concrete Pavement Association, American Concrete Pipe 
    Association, American Concrete Pressure Pipe Association, American 
    Concrete Pumping Association, Concrete Foundations Association, 
    Concrete Reinforcing Steel Institute, National Concrete Masonry 
    Association, National Precast Concrete Association, National Ready 
    Mixed Concrete Association, Precast/Prestressed Concrete Institute, 
    and Portland Cement Association.

                             Port Aggregates, Inc.,
                                    Lake Charles, LA 70601,
                                                    March 15, 2017.

Hon. Mitch McConnell, Majority Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Charles Schumer, Democratic Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Washington, DC 20510.

    Majority Leader McConnell, Minority Leader Schumer and Senators 
Alexander and Murray: My name is Andrew Guinn and I work for Port 
Aggregates, Inc. located in Lake Charles, LA. We manufacture and 
deliver the ready mixed concrete that builds our Nation's heavy highway 
system and residential and commercial construction, creating jobs and 
accelerating economic growth. I applaud President Donald Trump's 
selection of R. Alexander Acosta to head the U.S. Department of Labor.
    I support the President's nomination for Labor Secretary because 
Mr. Acosta knows and has seen first-hand the negative consequences of 
overregulation and enforcement from the National Labor Relations Board 
(NLRB), having served as a member. During his tenure on the NLRB, Mr. 
Acosta drafted more than 125 opinions in which he demonstrated a 
balanced approach to both employers and employees. It is only fitting 
that someone with Mr. Acosta's background lead the Labor Department--
the agency responsible for ensuring the Nation's labor and safety laws 
are properly balanced to benefit our Nation's most valuable asset, the 
American workforce.
    Most notably I am confident that Mr. Acosta's nomination will 
garner bipartisan support. He has been previously confirmed by the U.S. 
Senate three times with bipartisan support--for the NLRB, as Assistant 
Attorney General, and as U.S. attorney for the southern district of 
Florida. Mr. Acosta's nomination to serve as Secretary of Labor should 
garner the same bipartisan support.
    I respectfully, ask you to support Mr. Acosta as the next Secretary 
of Labor so that he can immediately begin helping the American economy 
get to work.
            Sincerely,

                                              Andrew Guinn,
                                                     Chairman, CEO.

             San Jose Police Officers' Association,
                                        San Jose, CA 95112,
                                                 February 16, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman and Senator Murray: I am writing on behalf of the 
San Jose Police Officers' Association in support of the nomination of 
R. Alexander Acosta as Secretary of Labor. He is a committed public 
servant who has served with distinction in several positions. He has 
always served with ability and integrity, demonstrating care and 
concern for people of all walks of life. He is a strong supporter of 
law enforcement and of promoting positive relations between police and 
the communities they serve. We are confident that he will bring the 
same qualities and skills to the position of Secretary of Labor.
    Alex's parents fled Communist Cuba for a better life in the United 
States and pursued the American dream by working hard at menial jobs. 
They did this in order to provide greater opportunities for their son. 
This example of work ethic and determination inspired and enabled him 
to earn both his undergraduate and law degrees from Harvard.
    Mr. Acosta has a history of distinguished public service. He was a 
member of the National Labor Relations Board, where he participated in 
or authored more than 125 opinions. Following the NLRB, he was 
Assistant Attorney General for the Civil Rights Division at the U.S. 
Department of Justice and was the first Hispanic to hold the rank of 
Assistant Attorney General.
    Mr. Acosta's government service was primarily spent serving as the 
U.S. attorney for the southern district of Florida. He was the longest 
serving U.S. attorney in the district since the 1970s and this district 
has one of the three heaviest criminal dockets of any U.S. attorneys' 
office. It consists of five offices across south Florida and requires 
considerable managerial skills. As U.S. attorney, Mr. Acosta dealt with 
prosecutions of the Cali Drug Cartel, FARC rebels, and the Jose Padilla 
for terrorism case. Under his leadership, his office also targeted 
white collar crime, prosecuting several bank-related cases, including a 
landmark case against Swiss bank UBS. This legally complex case 
resulted in UBS paying $780 million in fines, and for the first time in 
history, the Swiss banking giant provided the United States with the 
names of individuals who were using secret Swiss bank accounts to avoid 
U.S. taxes. Mr. Acosta also had excellent relations with State and 
local law enforcement throughout his time as a U.S. attorney.
    Again, I sincerely support the nomination of Alex Acosta as 
Secretary of Labor and I firmly believe he will serve with the 
integrity and skill the position requires. I respectfully urge your 
consideration of our recommendation.
            Sincerely,

                                                Paul Kelly,
                                                         President.

               Seafarers International Union (SIU) 
                         of North America, AFL-CIO,
                                    Camp Springs, MD 20746,
                                                 February 17, 2017.

Hon. Lamar Alexander, Chairman,
Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of the 
Seafarers International Union (AFL-CIO), I am writing to you today to 
express the SIU's support for Alexander Acosta to serve as the Nation's 
27th Secretary of Labor.
    Having worked closely with eight Labor Secretaries over the last 
five presidential administrations, I have come to respect the unique 
challenges and responsibilities that come with being at the helm of the 
U.S. Department of Labor (DOL). It is a job that calls for experiences, 
hard work, dedication, and the willingness to make tough decisions that 
aren't always popular.
    Throughout his distinguished career, Mr. Acosta has demonstrated 
all these traits and more. He is, like many of his predecessors in this 
position, an American success story, and his success demonstrates to 
all Americans the value of hard work and the opportunities that 
American provides its citizens--opportunities you can find nowhere else 
in the world.
    Like me, Mr. Acosta is a son of immigrants, and he has built a 
distinguished career in government service. He served on the National 
Labor Relations Board under President George W. Bush, a role that gave 
him ample insight into the relationship between employers and labor 
representatives that will serve him well at DOL. He also served as 
Assistant Attorney General for the Civil Rights Division in the U.S. 
Department of Justice, and as a U.S. attorney for the southern district 
of Florida, where he prosecuted a variety of crimes from drug 
trafficking and terrorism to public corruption. Given the critical role 
DOL plays in the enforcement of labor laws, his experience at NLRB and 
as a prosecutor make him uniquely qualified to lead the Labor 
Department.
    President Trump should be applauded for this nomination, as he has 
found in Mr. Acosta a dedicated, qualified public servant who has 
served with distinction in a variety of challenging roles. His record 
is one of defending the rights of people from all walks of life. The 
SIU is confident Mr. Acosta will serve with integrity and distinction 
as Secretary of Labor, as he has whenever he's been called upon for 
public service.
    I look forward to working with him in the future, and I thank you 
for your consideration of the views of the SIU on this matter. As 
always, if I can be of service to you, please do not hesitate to call 
upon me.
            Sincerely,

                                             Michael Sacco,
                                                         President.

            Sergeants Benevolent Association (SBA),
                                        New York, NY 10013,
                                                 February 16, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman and Senator Murray: I am writing to inform you of 
my union's support for the nomination of R. Alexander Acosta to be 
Secretary of Labor. Mr. Acosta has distinguished himself in several 
prior government positions and is an inspiring American success story. 
His parents fled Communist Cuba for a better life in the United States. 
His parents pursued the American dream by working hard at menial jobs 
in order to provide greater opportunities for their son. Their hard 
work paid off as Alex inherited their work ethic and determination, 
which enabled him to earn both his undergraduate and law degrees from 
Harvard.
    Mr. Acosta has a history of distinguished public service. He was a 
member of the National Labor Relations Board, where he participated in 
or authored more than 125 opinions. Following the NLRB, he was 
Assistant Attorney General for the Civil Rights Division at the U.S. 
Department of Justice and was the first Hispanic to hold the rank of 
Assistant Attorney General.
    Most of Mr. Acosta's government service was spent serving as the 
U.S. attorney for the southern district of Florida. He was the longest 
serving U.S. attorney in the District since the 1970s. This district 
that has one of the three heaviest criminal dockets of any U.S. 
attorneys' office. It consists of five offices across south Florida and 
requires considerable managerial skills. As U.S. attorney, Mr. Acosta 
dealt with prosecutions of the Cali Drug Cartel, PARC rebels, and the 
Jose Padilla for terrorism case. Under his leadership, his office also 
targeted white collar crime, prosecuting several bank-related cases, 
including a landmark case against Swiss bank UBS. This legally complex 
case resulted in UBS paying $780 million in fines, and for the first 
time in history, the Swiss banking giant provided the United States 
with the names of individuals who were using secret Swiss bank accounts 
to avoid U.S. taxes. Mr. Acosta also had excellent relations with State 
and local law enforcement throughout his time as a U.S. attorney. Since 
leaving this position. he has remained a strong supporter of law 
enforcement and promoting positive relations between police and the 
communities they serve.
    Alex Acosta is a committed public servant who has served with 
distinction in several positions. He has always served with ability and 
integrity and demonstrated care and concern for people of all walks of 
life. We are confident that he will bring the same qualities and skills 
to the position of Secretary of Labor.
    Thank you for your consideration of our views on this matter.
            Very Respectfully,

                                                Ed Mullins,
                                                         President.

                                 Sioux Corporation,
                                  Beresford, SD 57004-1500,
                                                    March 15, 2017.

Hon. Mitch McConnell, Majority Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Charles Schumer, Democratic Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Washington, DC 20510.

    Majority Leader McConnell, Minority Leader Schumer and Senators 
Alexander and Murray: My name is Jack Finger and I work for Sioux 
Corporation, located in Beresford, SD. We manufacture and deliver 
industrial equipment used to produce ready mixed concrete that builds 
our Nation's heavy highway system and residential and commercial 
construction, creating jobs and accelerating economic growth. I applaud 
President Donald Trump's selection of R. Alexander Acosta to head the 
U.S. Department of Labor.
    I support the President's nomination for Labor Secretary because 
Mr. Acosta knows and has seen first-hand the negative consequences of 
overregulation and enforcement from the National Labor Relations Board 
(NLRB), having served as a member. During his tenure on the NLRB, Mr. 
Acosta drafted more than 125 opinions in which he demonstrated a 
balanced approach to both employers and employees. It is only fitting 
that someone with Mr. Acosta's background lead the Labor Department--
the agency responsible for ensuring the Nation's labor and safety laws 
are properly balanced to benefit our Nation's most valuable asset, the 
American workforce.
    Most notably I am confident that Mr. Acosta's nomination will 
garner bipartisan support. He has been previously confirmed by the U.S. 
Senate three times with bipartisan support--for the NLRB, as Assistant 
Attorney General, and as U.S. attorney for the southern district of 
Florida. Mr. Acosta's nomination to serve as Secretary of Labor should 
garner the same bipartisan support.
    I respectfully ask you to support Mr. Acosta as the next Secretary 
of Labor so that he can immediately begin helping the American economy 
get to work.
            Sincerely,

                                     John W. Finger (Jack),
                                                 President and CEO.

                                          Spurlino,
                                      Middletown, OH 45044,
                                                    March 17, 2017.

Hon. Mitch McConnell, Majority Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Charles Schumer, Democratic Leader,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Washington, DC 20510.

    Majority Leader McConnell, Minority Leader Schumer and Senators 
Alexander and Murray: My name is Jim Spurlino and I own Spurlino 
Materials located in Middletown, OH with operations in Ohio, Kentucky, 
and Indiana. We manufacture and deliver the ready mixed concrete that 
builds our Nation's heavy highway system and residential and commercial 
construction, creating jobs and accelerating economic growth. I applaud 
President Donald Trump's selection of R. Alexander Acosta to head the 
U.S. Department of Labor.
    I support the President's nomination for Labor Secretary because 
Mr. Acosta knows and has seen first-hand the negative consequences of 
overregulation and enforcement from the National Labor Relations Board 
(NLRB), having served as a member. During his tenure on the NLRB, Mr. 
Acosta drafted more than 125 opinions in which he demonstrated a 
balanced approach to both employers and employees. It is only fitting 
that someone with Mr. Acosta's background lead the Labor Department--
the agency responsible for ensuring the Nation's labor and safety laws 
are properly balanced to benefit our Nation's most valuable asset, the 
American workforce.
    Most notably, I am confident that Mr. Acosta's nomination will 
garner bipartisan support. He has been previously confirmed by the U.S. 
Senate three times with bipartisan support--for the NLRB, as Assistant 
Attorney General, and as U.S. attorney for the southern district of 
Florida. Mr. Acosta's nomination to serve as Secretary of Labor should 
garner the same bipartisan support.
    I respectfully ask you to support Mr. Acosta as the next Secretary 
of Labor so that he can immediately begin helping the American economy 
get to work.
            Sincerely,

                                              Jim Spurlino,
                                                         President.

                      Workforce Fairness Institute,
                                             March 9, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman, Ranking Member and members of the U.S. Senate 
Committee on Health, Education, Labor, and Pensions: The Workforce 
Fairness Institute (WFI), an organization devoted to educating workers, 
their employers, employees and citizens about issues affecting the 
workplace, writes today in strong support of the nomination of 
Alexander Acosta as U.S. Secretary of Labor. We urge the committee to 
give him swift consideration and coordination for this important role, 
so that he can get to work rolling back years of Obama-era 
overregulation and red tape.
    Mr. Acosta is a man with an extremely accomplished legal record. A 
former Assistant Attorney General in the George W. Bush administration, 
a U.S. attorney for the southern district of Florida, as well as a 
former clerk for Supreme Court Justice Samuel Alito, his reputation for 
pragmatism and fairness precedes him. That, coupled with his previous 
service as a member of the National Labor Relations Board (NLRB), make 
him an excellent choice to take the helm of the Department of Labor and 
unravel many of the misguided policies of the previous administration.
    Mr. Acosta understands firsthand the balance between promoting 
free-market, pro-growth policies that create jobs and grow our economy 
while protecting workers' rights and enforcing strong labor laws and 
protections. There's no question he has the background and expertise to 
serve the American people well. WFI respectfully requests that the 
committee weigh in and consider these facts, and vote to confirm Mr. 
Acosta at the earliest possible opportunity.
            Sincerely,

                                         Heather Greenaway,
                                      Workforce Fairness Institute.

                                            March 20, 2017.

    Dear Chairman Alexander, Ranking Member Murray and members of the 
committee: On behalf of the undersigned organizations, we write to 
express our strong support for R. Alexander Acosta, Dean of the Florida 
International University College of Law, who is nominated to serve as 
Secretary of the U.S. Department of Labor (DOL).
    Businesses continue to face a great deal of uncertainty due to 
regulatory overreach by the previous administration. President Trump 
has issued numerous, vitally important Executive orders aimed at 
quickly addressing the regulatory challenges facing the business 
community and to ensure employers can focus on creating jobs and 
growing the economy.
    Mr. Acosta is a dedicated public servant who has spent years 
wrestling with complex legal issues, and he has proven management and 
Federal agency experience. He is well-qualified to lead this important 
agency as it protects American workers, implements the President's 
Executive orders, and strives to meet the President's goals of 
eliminating job-crushing regulations, keeping government agencies 
accountable, and getting Americans back to work.
    Given Mr. Acosta has been confirmed by the U.S. Senate three times 
with bipartisan support--for the National Labor Relations Board, as an 
Assistant Attorney General, and as U.S. attorney for the southern 
district of Florida--we are confident there will be bipartisan support 
for his nomination to be the Secretary of Labor.
    For these reasons, America's job creators urge the committee to 
support Mr. Acosta's nomination, and we urge swift consideration and 
approval.
            Sincerely,

Aeronautical Repair Station Association, Air Conditioning Contractors 
    of America, American Apparel & Footwear Association, American 
    Bakers Association, American Beverage Association, American 
    Concrete Pressure Pipe Association, American Fire Sprinkler 
    Association, American Foundry Society, American Fuel & 
    Petrochemical Manufacturers, American Home Furnishings Alliance, 
    American Hotel & Lodging Association, American Moving & Storage 
    Association American Staffing Association, American Supply 
    Association, Americans for Tax Reform, American Trucking 
    Associations, AmericanHort, Argentum, Asian American Hotel Owners 
    Association, Associated Builders and Contractors, Associated 
    Equipment Distributors, Associated General Contractors, Auto Care 
    Association, Center for Worker Freedom, Coalition of Franchisee 
    Associations, Colorado Association of Commerce and Industry, 
    Franchise Business Services, Heating, Air-conditioning & 
    Refrigeration Distributors International (HARDI), HR Policy 
    Association, Independent Electrical Contractors Insured Retirement 
    Institute, International Foodservice Distributors Association, 
    International Franchise Association, International Warehouse 
    Logistics Association, Leading Builders of America, Manufacturer & 
    Business Association, Metals Service Center Institute, Montana 
    Retail Association, MSPA Americas, National Association of Home 
    Builders, National Association of Manufacturers, National 
    Association of Professional Employer Organizations, National 
    Automobile Dealers Association, National Christmas Tree 
    Association, National Club Association, National Council of Chain 
    Restaurants, National Federation of Independent Business, National 
    Franchisee Association, National Grocers Association, National 
    Lumber and Building Material Dealers Association, National Precast 
    Concrete Association, National Ready Mixed Concrete Association, 
    National Restaurant Association National Retail Federation, 
    National Roofing Contractors Association, Plastics Industry 
    Association, Private Care Association, Retail Industry Leaders 
    Association, Small Business & Entrepreneurship Council, SNAC 
    International, Southeastern Lumber Manufacturers Association, The 
    Fertilizer Institute, The Vinyl Institute, Tile Roofing Institute, 
    Tree Care Industry Association, Truck Renting and Leasing 
    Association, United Motorcoach Association, U.S. Chamber of 
    Commerce, Water & Sewer Distributors of America, and Wine & Spirits 
    Wholesalers of America.
                         Letters of Opposition
          AFR Americans for Financial Reform (AFR),
                                            March 20, 2017.
Hon. Lamar Alexander, Chair,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chair Alexander and Ranking Member Murray: On behalf of 
Americans for Financial Reform and 50 faith, consumer advocate and 
labor organizations, we write to reiterate our strong view that the 
Department of Labor's fiduciary rule, which requires those who give 
retirement savings advice to put their clients best interest first must 
be allowed to go into effect as planned in April; and to urge you to 
ask the nominee for U.S. Secretary of Labor, Alex Acosta, to affirm his 
commitment to the rule being implemented on time.
    For far too long, brokers have been able to put their own financial 
interests ahead of their clients, steering retirement savers into 
investments that serve the broker's bottom line rather than the 
clients. This conflicted advice costs working families more than $17 
billion in retirement savings annually.* The DOL fiduciary rule is a 
responsible solution to this problem and will mean workers and families 
get actual advice, not misleading sales pitches when investing their 
hard-earned retirement savings.
---------------------------------------------------------------------------
    * https://obamawhitehouse.archives.gov/the-press-office/2016/04/06/
fact-sheet-middle-class-economics-strengthening-retirement-security.
---------------------------------------------------------------------------
    As you know, the DOL promulgated the final fiduciary rule after 
conducting a thorough, thoughtful, and transparent multiyear process. 
The final fiduciary rule is the product of more than 6 years of 
research, consideration of more than 300,000 comments, 4 days of 
hearings, and hundreds of meetings. Now, at the behest of Wall Street, 
the Trump administration has suddenly proposed to delay the rule--a 
move that would cost retirees tens of millions of dollars a day.
    Due diligence requires this committee to ask the nominee what he 
will do with regard to the fiduciary rule: will he follow the evidence 
and protect the interests of investors by allowing it to go into effect 
as planned, or will he support the delay and then the demise of this 
fundamentally important investor protection?

            Sincerely,

Americans for Financial Reform; American Association of University 
    Women (AAUW); Americans for Democratic Action (ADA); American 
    Federation of Teachers Colorado; ACTION reUnion 2017, TN; Allied 
    Progress; Aquinas Institute of Theology; Bread & Roses Missouri; 
    Catholic Charities of St. Louis, MO; Coalition on Human Needs; 
    Committee for the Fiduciary Standard; Communication Workers of 
    America; Consumers Union; Economic Policy Institute Policy Center; 
    Eliot Unitarian Chapel; Empower Missouri; Denver Area Labor 
    Federation, AFL-CIO; Gethsemane Lutheran Church, MO; Interfaith 
    Alliance of Colorado; Institute for Science and Human Values; John 
    C. Danforth Center on Religion and Politics, MO; LiUNA 110; 
    Metropolitan Congregations United, MO; Missouri Alliance for 
    Retired Americans, Education Fund; Missouri Jobs with Justice; 
    NAACP; National Consumers League; National Employment Lawyers 
    Association; National Employment Law Project; Presbytery of 
    Giddings, MO; St. Louis Episcopal Service Corps, MO; St. Louis 
    Metropolitan Clergy Coalition, MO; State Representative Tracy 
    McCreey, MO; UNICOM-ARC, MO; UNITE HERE LOCAL 74; United Church of 
    Christ, MO; Westminster Presbyterian Church, MO; Woodstock 
    Institute; and Workplace Fairness, MO.

         Americans Federation of Teachers (AFT),\1\
                                            March 16, 2017.

Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator: On behalf of the 1.6 million members of the American 
Federation of Teachers, I write to urge the Health, Education, Labor, 
and Pensions (HELP) Committee to thoroughly question and examine the 
record of Alexander Acosta as the nominee for secretary of labor. 
President Trump may well have nominated Acosta because his history in 
government appears to make him easily confirmable, but regardless of 
Acosta's previous confirmations by the U.S. Senate, the American people 
deserve a full airing of his record and his views on matters of 
importance to working Americans.
---------------------------------------------------------------------------
    \1\ The American Federation of Teachers is a union of professionals 
that champions fairness, democracy, economic opportunity, and high-
quality public education, healthcare and public services for our 
students, their families and our communities. We are committed to 
advancing these principles through community engagement, organizing, 
collective bargaining and political activism, and especially through 
the work our members do.
---------------------------------------------------------------------------
    The mission of the Department of Labor is:

        ``to foster, promote, and develop the welfare of the wage 
        earners of the United States, to improve their working 
        conditions, and to advance their opportunities for profitable 
        employment.''

    The American people deserve to know how Alexander Acosta plans to 
carry out this mission, and specifically, how he will ensure all 
workers have jobs that are safe, secure and fair, and provide dignified 
wages.
    Working Americans deserve to know Acosta's views on employer-
provided health benefits, retirement security, the minimum wage, and 
the gender and racial wage gaps.
    AFT members, in particular, are interested in hearing Acosta's 
views on ensuring workers' health and safety; protecting workers' 
retirement savings; upholding the Obama administration's overtime rule; 
paid family leave initiatives; trade; career and technical education 
and programs to build prospective employees' skills; and collective 
bargaining.
    The AFT is committed to supporting the interests of the workers we 
represent. We believe it is incumbent upon the HELP Committee to ask 
tough questions and critically examine Acosta's record to determine 
whether he can uphold the Nation's commitment to the rights of all 
workers.
    Thank you for considering the AFT's views on this matter.

            Sincerely,

                                          Randi Weingarten,
                                                         President.

          Committee on Education and the Workforce,
                             U.S. House of Representatives,
                                 Washington, DC 20515-6100,
                                                    March 21, 2017.

Hon. Lamar Alexander, Chaimian,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20515.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
648 Senate Dirksen Office Building,
Washington, DC 20515.

    Dear Chairman Alexander and Ranking Member Murray: We write 
regarding President Trump's nomination of R. Alexander Acosta to serve 
as the Secretary of the Department of Labor (DOL). As you know, the 
DOL's mission is ``to foster, promote and develop the welfare of the 
wage earners[.]'' As Democratic Members of the Committee on Education 
and the Workforce, we have a strong interest in ensuring that the next 
Secretary of Labor will carry out this critical mission. During Mr. 
Acosta's upcoming confirmation hearing, we urge you to question Mr. 
Acosta about how he plans to accomplish the DOL's core functions. In 
particular, we urge you to ask Mr. Acosta about his views on key issues 
affecting workers and their families across the country, including 
enforcement of wage and hour, safety and health, and workplace 
nondiscrimination laws, the promotion of workforce training, and the 
administration of benefit programs over which the DOL has jurisdiction. 
Finally, we urge you to ask Mr. Acosta to explain the steps he will 
take to ensure that politicized hiring of career employees does not 
occur on his watch.
                     supporting robust enforcement
    As Secretary of Labor, Mr. Acosta will oversee the agencies and 
offices that protect workers' wages, help ensure workers and miners 
return home safely each day from their jobs, safeguard hard-earned 
retirement benefits, and ensure that injured longshore workers and coal 
miners receive timely workers' compensation benefits. We urge you to 
ask Mr. Acosta how he will accomplish the goals of achieving safe and 
healthy working conditions, stopping wage theft, ending discrimination, 
and ensuring employers meet their responsibilities in the 
administration of employee benefits, including group health plans. 
Furthermore, we urge you to ask Mr. Acosta what he will do to ensure 
that companies doing business with the Federal Government are educated 
about their obligations to their employees under our Nation's workplace 
laws.
               strengthening workforce training programs
    We also urge you to thoroughly investigate Mr. Acosta's plan to 
build and develop a highly skilled workforce. A recent study from the 
Georgetown University Center on Education and the Workforce found that 
by 2020 the United States will not have enough skilled workers to meet 
the demands of our economy.\1\ The study estimates that 65 percent of 
all jobs in the economy will require post-secondary education and 
training beyond high school, and that there will be a shortage of 5 
million workers to fill these jobs. In addition, last month, two dozen 
chief executives from the manufacturing industry met with the 
administration to express their concern about the lack of highly 
skilled workers to fill manufacturing jobs. According to one of the 
CEOs who attended that meeting, The jobs are there, but the skills are 
not.''\2\
---------------------------------------------------------------------------
    \1\ Recovery: Job Growth and Education Requirements through 2020. 
Georgetown University Center on Education and the Workforce. June 26, 
2013. https://cew.georgetown.edu/wp-content/uploads/2014/11/
Recovery2020.ES_.Web_.pdf.
    \2\ AP, Factory CEOs Tell Trump: Jobs Exist, Skilled Applicants 
Don't. LA Times. Feb. 23, 2017, available at http://www.latimes.com/
business/la-fi-manufacturing-trump-20170223-story.html.
---------------------------------------------------------------------------
    Equipping workers with the skills and training necessary to compete 
for good jobs is critical to achieving broadly shared economic 
prosperity. In the 113th Congress, Members worked in a bipartisan 
manner to pass the Workforce Innovation and Opportunity Act (WIOA). 
This law, along with strategic investment in our Nation's opportunity 
youth and registered apprenticeship programs, can help build a highly 
skilled workforce and close the so-called skills gap. We urge you to 
question Mr. Acosta about how he will promote national skills building 
and successful, evidence-based training models at both the State and 
national level.
                             raising wages
    While worker productivity has increased by more than 70 percent 
over the past 40 years, wages have not kept pace.\3\ In fact, wages for 
the bottom 90 percent of income earners have only grown by 15 
percent.\4\ Working people deserve a Secretary of Labor who is 
committed to ensuring that hardworking people are paid fairly. We urge 
you to question Mr. Acosta about his support for the Department of 
Labor's overtime rule and raising the Federal minimum wage.
---------------------------------------------------------------------------
    \3\ Lawrence Mishel, Elise Gould, and Josh Bivens. Wage Stagnation 
in Nine Charts. Economic Policy Institute. January 6, 2015. http://
www.epi.org/publication/charting-wage-stagnation/.
    \4\ Id.
---------------------------------------------------------------------------
   avoiding politicized hiring of career employees and inappropriate 
           political interference with core agency functions
    Many have raised concerns about politicized hiring practices in the 
hiring of career employees during Mr. Acosta's tenure at the Department 
of Justice. A Department of Labor Office of the Inspector General (01G) 
report from 2008 found that while Mr. Acosta led the Civil Rights 
Division, personnel decisions in the agency were marked by stark 
politicization.\5\ The OIG found that actions taken during Mr. Acosta's 
tenure violated Department of Justice policy and Federal law.\6\ We 
urge a thorough investigation of these issues, as well as an 
exploration of Mr. Acosta's record of service at both the DOJ and NLRB.
---------------------------------------------------------------------------
    \5\ An Investigation of Allegations of Politicized Hiring and Other 
Improper Personnel Actions in the Civil Rights Division. U.S. 
Department of Justice Office of the Inspector General and the U.S. 
Department of Justice Office of Professional Responsibility. July 2, 
2008. https://oig.justice.gov/special/s0901/final.pdf.
    \6\ Id.
---------------------------------------------------------------------------
    Furthermore, we urge you to question Mr. Acosta about the steps he 
will take to prevent political interference with the career DOL staff 
's ability to enforce our workplace protection laws, as well as supply 
accurate, non-biased information about the state of jobs and the 
economy. We note that under the new Administration, the DOL has issued 
almost no press releases on its enforcement activity under our safety 
and health or wage and hour laws. Failing to publicize enforcement 
efforts greatly diminishes their potential to deter future violations. 
In addition, White House Press Secretary Sean Spicer said the jobs data 
produced by the Bureau of Labor Statistics (BLS) under the Obama 
administration ``may have been phony in the past, but it's very real 
now.''\7\
---------------------------------------------------------------------------
    \7\ Madeline Conway, Spicer Claims That Jobs Numbers ``May Have 
Been Phony'' Before, But Now They're Very Real, Politico. Mar. 1, 2017. 
http://www.politico.com/story/2017/03/trump-monthly-jobs-numbers-sean-
spicer-235936.
---------------------------------------------------------------------------
    Criticizing the integrity of BLS data without supplying any basis 
for that criticism is cause for grave concern, given that key actors 
rely on that data to make economic decisions. We urge you to question 
Mr. Acosta about his positions on making enforcement actions public and 
the integrity of BLS data.
    Thank you for your commitment to ensuring our next Secretary of 
Labor will fulfill the Department's critical mission of protecting, 
supporting, and defending working people.

            Sincerely,

Robert C. ``Bobby'' Scott, Ranking Member; Susan A. Davis, Member of 
    Congress; Raul M. Grijalva, Member of Congress; Joe Courtney, 
    Member of Congress; Marcia L. Fudge, Member of Congress; Jared 
    Polis, Member of Congress; Gregorio Kilili Camacho Sablan, Member 
    of Congress; Frederica S. Wilson, Member of Congress; Suzanne 
    Bonamici, Member of Congress; Mark Takano, Member of Congress; Alma 
    S. Adams, Member of Congress; Mark DeSaulnier, Member of Congress; 
    Donald Norcross, Member of Congress; Lisa Blunt Rochester, Member 
    of Congress; Raja Krushnamoorthi, Member of Congress; Carol Shea-
    Porter, Member of Congress; and Adriano Espaillat, Member of 
    Congress.

                 Communications Workers of America,
                                      Washington, DC 20001,
                                                    March 15, 2017.

    Dear Senator: On behalf of the 700,000 members and officers of the 
Communications Workers of America (CWA), I am writing to express deep 
concern about the nomination of R. Alexander Acosta to serve as 
Secretary of the Department of Labor. Given Mr. Acosta's troubling 
history regarding civil rights and equal protection under the law, I 
urge you to oppose his nomination.
    CWA has long advocated for the protection of equal rights for all 
Americans in the workplace, in the electoral process, and a wide range 
of other areas. Unfortunately, Mr. Acosta's record of service at the 
Department of Justice raises serious concerns about his ability to 
protect the equal rights guaranteed by the Constitution and Federal law 
to all Americans. The Department of Labor is one of the most important 
entities in protecting all workers' fundamental rights, so it is deeply 
troubling that a nominee for Secretary of Labor would have such a poor 
record on these issues.
    Two concerns in particular stand out regarding Mr. Acosta's 
commitment to enforcing guarantees of equal protection. First, Mr. 
Acosta wrote an unsolicited letter to an Ohio judge in 2004 justifying 
the practice of voter caging, in which Ohio Republicans engaged in 
dubious practices as part of an attempt to disenfranchise voters who 
were predominately African American or Latino. The practice ``was 
widely seen as a Republican strategy to disenfranchise minorities,'' 
according to news reports.
    Second, Mr. Acosta's record overseeing the Department of Justice's 
Civil Rights Division during a time of deep politicization and 
dysfunction is very worrisome. Under his leadership, the Division 
replaced myriad career staff with clearly unqualified replacements on 
the basis of their political leanings, despite the fact that many of 
these hires did not have a demonstrated interest in the mission of 
DOJ's Civil Rights Division. A 2008 DOJ Inspector General report found 
that Mr. Acosta ``had sufficient information . . . to have raised red 
flags warranting closer supervision,'' but ``took no action to 
investigate'' or bring problems to the attention of supervisors. This 
pattern of problematic hires dramatically undermined the Civil Rights 
Division's enforcement ability to the point that literally years of 
hard work were required to reinvigorate the Division.
    As millions of working men and women strive to make ends meet, it 
is imperative that the Department of Labor be on their side, working to 
protect their rights and help them live out their dreams. It does not 
appear that Mr. Acosta would, if confirmed, fight for workers' rights 
and help expand the middle class. Therefore, I ask you to oppose his 
nomination.
    Thank you in advance for your consideration.

            Sincerely,

                                             Chris Shelton,
                                                         President.

                                              Shane Larson,
                                              Legislative Director.

                                             Demos,
                                            March 10, 2017.

U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Alexander, Ranking Member Murray, and Members of the 
Senate Committee on Health, Education, Labor, and Pensions: Demos 
expresses concern about the appointment of R. Alexander Acosta as 
Secretary of Labor and urges the members of the Senate Committee on 
Health, Education, Labor, and Pensions to vote against his 
confirmation. Mr. Acosta's record of undermining voting rights and 
overseeing politicized hiring at the Department of Justice as well as 
and his lack of experience and expertise on the Department of Labor's 
core mission make the nominee a poor choice to lead the U.S. Department 
of Labor.
    Demos is a public policy organization working for an America where 
we all have an equal say in our democracy and an equal chance in our 
economy. Mr. Acosta raises concerns on both sides. The work of the 
Department of Labor is critical to the ability of all Americans to 
benefit from equitable economic opportunity, yet Mr. Acosta has little 
history of defending the rights of working people. At the same time, 
Mr. Acosta's efforts on voting rights have undermined Americans' 
ability to exercise an equal voice in our democracy.
    In his capacity as Assistant Attorney General for the Justice 
Department's civil rights division, Mr. Acosta intervened to oppose a 
lawsuit against an anti-democratic law allowing unwarranted challenges 
to Americans' right to cast ballots in Ohio. Writing to the judge in 
the case, Mr. Acosta promoted a weakened interpretation of the Voting 
Rights Act, asserting that civil rights concerns did not apply despite 
blatant efforts to disenfranchise African American voters with a 
challenge list that:

        ``targeted predominantly minority, urban, and Democratic 
        districts. It was estimated that `in Ohio, all of the precincts 
        in about a dozen counties that contain 91 percent of the 
        State's black population--including urban areas like Cleveland, 
        Cincinnati, Dayton, Toledo, and Akron' were targeted by 
        Republican challengers.''\1\
---------------------------------------------------------------------------
    \1\ Liz Kennedy, et al., ``Bullies At The Ballot Box: Protecting 
The Freedom To Vote Against Wrongful Challenges and Intimidation,'' 
Demos, 2012. http://www.demos.org/publication/bullies-ballot-box-
protecting-freedom-vote-against-wrongful-challenges-and-intimidation.

    This troubling voting rights record raises further questions about 
Mr. Acosta's judgment when combined with the politicized hiring process 
that occurred on Acosta's watch at the Department of Justice. As 
detailed by the Office of Inspector General's 2008 report, the Civil 
Rights Division headed by Mr. Acosta violated Justice Department policy 
and Federal law, improperly using political affiliations to assess job 
candidates and career attorneys.\2\
---------------------------------------------------------------------------
    \2\ ``An Investigation of Allegations of Politicized Hiring and 
Other Improper Personnel Actions in the Civil Rights Division,'' Office 
of the Inspector General & Office of Professional Responsibility, U.S. 
Department of Justice, 2008. https://oig.justice.gov/special/s0901/
final.pdf.
---------------------------------------------------------------------------
    Finally, Mr. Acosta's lack of experience and expertise on the 
Department of Labor's core mission is cause for concern. The Labor 
Department's mission is

        ``to foster . . . the welfare of the wage earners of the United 
        States, to improve their working conditions, and to advance 
        their opportunities for profitable employment.''

    One hundred and twenty million working Americans depend on the 
Department of Labor to enforce the Nation's most basic laws on the 
minimum wage, child labor, and workplace safety. Yet Mr. Acosta has 
little or no experience in this area.
    Today a quarter of the Nation's working households depend on the 
pay of low-wage workers including Americans working in the retail, home 
health care, and food service industries. On its current path, the 
economy is set to generate still more low-paying jobs: analysis of U.S. 
Department of Labor statistics reveals that 28 percent of the new jobs 
being created over the next decade will be in occupations paying median 
hourly wages below $12 an hour. Only proactive employment policies and 
strong enforcement by the Department of Labor can change the trend 
toward an economy based on low paying jobs.
    The next Secretary of Labor will also be responsible for rules 
critical to the well-being of working people which have been delayed by 
the current administration including:

    <bullet> The expansion of access to overtime pay, which would raise 
incomes for 12.5 million salaried workers across the country;
    <bullet> The fiduciary rule, which requires financial advisors and 
brokers to act in the best interest of people saving for retirement. 
Demos estimates that Americans savers would pay nearly $25 billion less 
every year as a result of lower fees if the fiduciary rule goes into 
effect as written.\3\
---------------------------------------------------------------------------
    \3\ Robert Hiltonsmith, ``Why the Fiduciary Rule Matters,'' Demos, 
2015. http://www.demos
.org/publication/why-fiduciary-rule-matters.

    Given these pending rules, and the reality that the Department of 
Labor is likely to face substantial cuts to its enforcement budget in 
the coming fiscal year, it is critical that the Secretary of Labor 
stand up for the rights of working Americans. Nothing in Alexander 
Acosta's record suggests that he will.
    We urge you to vote against confirming Alexander Acosta as 
Secretary of Labor.

            Sincerely,

                                              Tamara Draut,
                               Vice President, Policy and Research.

                               Make It Work ACTION!
                                            March 10, 2017.

Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senators: We write to express our concerns about the choice of 
Alexander Acosta for Secretary of Labor. Our vision for a Labor 
Secretary is one who will carry out the Department of Labor's (DOLs) 
mission to,

        ``foster, promote and develop the welfare of wage earners, job 
        seekers, and retirees of the United States; improve working 
        conditions; advance opportunities for profitable employment and 
        assure work-related benefits and rights.''

    The DoL has a particular opportunity to continue to be a leader in 
advancing women in the workforce. We have not seen evidence in Mr. 
Acosta's record that he will be such a leader.
    The Make it Work Campaign works to advance economic security for 
women, men and families across the country. Working families, and 
especially women, are increasingly experiencing deep economic 
instability between women and men being paid differently for their 
work, the increasing costs of child and elder care, the lack of paid 
family leave and low wages. America is ready for common sense workplace 
policies and ambitious solutions that will help people across the 
country ``make it work.''
    We need a Labor Secretary who understands the daunting challenges 
working families face and who supports raising the minimum wage (two-
thirds of minimum wage earners are women), guaranteeing paid family and 
medical leave to all workers, the right to earn paid sick days, fair 
scheduling practices and equal pay for equal work. These issues are at 
the crux of working families' economic security, and especially women's 
economic security. President Trump's Cabinet nominees have not 
demonstrated this type of commitment to date. We need to know more 
about whether Mr. Acosta will work to boost the financial stability of 
women and working families and protect our rights. Please contact Make 
it Work Action's policy director Julie Kashen at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8e2ddc4c1cde8c5c9c3cdc1dcdfc7dac3cbc9c5d8c9c1cfc686c7dacf">[email&#160;protected]</a> with any followup questions. Thank you.

            Sincerely,

                                            Vivien Labaton,
                                  Co-Executive Director/Co-Founder.

                                          Tracy Sturdivant,
                                  Co-Executive Director/Co-Founder.

National Center for Lesbian Rights (NCLR) and Pride 
                                             @Work,
                                            March 10, 2017.

Hon. Lamar Alexander, Chair,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chair Alexander and Ranking Member Murray: We write today on 
behalf of the National Center for Lesbian Rights and Pride at Work and 
all those we serve to express our concerns about the nomination of 
Alexander Acosta as U.S. Secretary of Labor. NCLR is an organization 
committed to advancing the civil and human rights of LGBTQ persons and 
their families through litigation, legislation, policy, and public 
education. Pride at Work is a nonprofit organization that represents 
lesbian, gay, bisexual, transgender, and queer (LGBTQ) union members 
and their allies.
    Like many working people, we know many LGBTQ people are struggling 
to make ends meet. In fact, LGBTQ people face a higher rate of poverty 
than non-LGBTQ people,\1\ LGBTQ working people need a labor secretary 
who not only supports strong nondiscrimination protections but also the 
right to unionize, fair and equal pay, and worker safety. Workers 
should not have to decide between taking care of their health or that 
of a loved one and getting paid, and our Nation's Secretary of Labor 
should fight day and night for that principle.
---------------------------------------------------------------------------
    \1\ ``Beyond Stereotypes: Poverty in the LGBT Community'', The 
Williams Institute-UCLA School of Law (2012), http://
williamsinstitute.law.ucla.edu/headlines/beyond-stereotypes-poverty-in-
the-lgbt-community/.
---------------------------------------------------------------------------
    With the recent attempts to roll back protections for LGBTQ 
individuals, it is essential to have a labor secretary who will defend 
the rights of LGBTQ working people. Unfortunately, we do not know Mr. 
Acosta's views on LGBTQ issues. Therefore, it is critical that the 
Senate HELP committee does its due diligence in vetting Mr. Acosta 
thoroughly on LGBTQ employment discrimination and all other issues 
affecting LGBTQ workers. Workers deserve a labor secretary who will 
stand up for all of them and their families.

            Sincerely,

                                National Center for Lesbian Rights,
                                                 and Pride at Work.

              National Education Association (NEA),
                                      Washington, DC 20036,
                                                    March 21, 2017.

U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.

    Dear Senator: On behalf of the 3 million members of the National 
Education Association and the 50 million students they serve, we urge 
you to ensure that Alexander Acosta, President Trump's nominee for 
Secretary of Labor, is committed to the U.S. Department of Labor's 
mission: to foster, promote, and develop the welfare of the wage 
earners, job seekers, and retirees of the United States; improve 
working conditions; advance opportunities for profitable employment; 
and assure work-related benefits and rights.
    It is critical for the Secretary of Labor to be committed to 
fairness and civil rights for all workers. Every day across the 
country, men and women go to work hoping to do an honest day's work and 
provide for their families. Their contributions have made the U.S. 
economy one of the strongest in the world and, over time, created a 
stable middle class.
    A strong labor force is the foundation of a strong middle class. 
Unfortunately, the worker voice in the workplace has eroded over the 
past few decades and so has the stability of the middle class. Now more 
than ever, America needs to invest in policies that shore up and help 
rebuild the middle class.
    The Department of Labor is charged with addressing a range of 
issues related to those goals, including workplace safety, retirement 
security, and civil rights. We urge the committee to vet Mr. Acosta 
thoroughly in these areas, especially with regard to his tenure at the 
U.S. Department of Justice as Assistant Attorney General for Civil 
Rights and his commitment to the U.S. Department of Labor's mission.
    Thank you for your consideration.

            Sincerely,

                                                 Marc Egan,
                                  Director of Government Relations,
                                    National Education Association.

         National Partnership For Women & Families,
                                      Washington, DC 20009,
                                            March 14, 2017.

Hon. Lamar Alexander, Chair,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chair Alexander and Ranking Member Murray: On behalf of the 
National Partnership for Women & Families and the activists and 
supporters with whom we stand, I write today to encourage rigorous 
questioning and a thorough review of the record of R. Alexander Acosta, 
the nominee to be U.S. Secretary of Labor. The Secretary of Labor 
should be a dedicated and powerful champion for workers and committed 
to the enforcement and advancement of policies that promote the best 
interests of working people. This includes fighting for fair wages, 
safe workplaces, equal pay, paid sick days, paid family and medical 
leave and equal employment opportunities. We will listen carefully to 
Mr. Acosta's responses at his upcoming confirmation hearing to evaluate 
whether he can be trusted to defend and protect the interests of 
working people, and especially workers in low-wage occupations and in 
dangerous industries, women workers and workers of color. We urge you 
to do the same, and if you are not satisfied that he will stand up for 
working people's best interests, to reject his nomination.
    The National Partnership for Women & Families is a nonprofit, 
nonpartisan organization dedicated to promoting fairness in the 
workplace, reproductive health and rights, access to quality health 
care, and policies that help women and men meet the dual demands of job 
and family. For more than 45 years, we have worked to advance policies 
that create opportunities for women in the workforce and greater 
economic security for women and their families. The National 
Partnership has worked tirelessly to secure updated wage and hour 
protections for millions of America's workers, new equal employment 
opportunity protections for Federal contract employees, and vigorous 
enforcement of the Fair Labor Standards Act and the Family and Medical 
Leave Act--all of which are under the jurisdiction of U.S. Department 
of Labor.
    We have three primary areas of concern that we urge the committee 
to probe during Mr. Acosta's hearing.
    First, we are concerned about Mr. Acosta's failure to exercise 
oversight over a subordinate who engaged in highly politicized and 
ideological hiring of civil service employees during Mr. Acosta's 
tenure as the Assistant Attorney General for Civil Rights at the 
Department of Justice. An investigation and subsequent report by the 
Department of Justice's Office of the Inspector General found that Mr. 
Acosta was aware of, and did too little to stop, his subordinate's 
efforts only to consider or hire attorneys with conservative 
credentials, and reject candidates and attorneys with liberal 
credentials.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Justice U.S. Department of Justice Office of 
the Inspector General Office of Professional Responsibility. (2008, 
July 2). An Investigation of Allegations of Politicized Hiring and 
Other Improper Personnel Actions in the Civil Rights Division. 
Retrieved 3 March 2017, from https://oig.justice.gov/special/s0901/
final.pdf.
---------------------------------------------------------------------------
    During Mr. Acosta's confirmation hearing, we urge you to question 
Mr. Acosta vigorously about the safeguards and protocols he will 
institute and maintain at the Department of Labor to ensure that the 
department's policy, research, regulatory and enforcement work is not 
compromised or undermined by partisan or ideological litmus tests for 
civil servants.
    Second, the committee must rigorously probe Mr. Acosta's views on 
the role of the Department of Labor in investigating and enforcing laws 
that disproportionately impact women, people of color and vulnerable 
workers. We are concerned by reports that during Mr. Acosta's tenure at 
the Department of Justice, the Civil Rights Division brought 
significantly fewer employment discrimination cases than in prior 
administrations.\2\ The division also reportedly moved away from filing 
high-impact cases challenging discriminatory policies affecting large 
numbers of people.\3\
---------------------------------------------------------------------------
    \2\ National Women's Law Center. (2004, April). Slip-Sliding Away: 
The Erosion of Hard-Won Gains for Women Under the Bush Administration 
and an Agenda for Moving Forward. Retrieved 13 March 2017, from http://
www.nwlc.org/sites/default/files/pdfs/AdminRecordOnWomen
2004.pdf.
    \3\ Ibid.
---------------------------------------------------------------------------
    During Mr. Acosta's confirmation hearing, we urge you to identify 
what Mr. Acosta's approach will be to investigating allegations of 
violations of wage and hour laws, workplace safety laws and other 
fundamental workplace protections, including those enforced by the 
Office of Federal Contract Compliance Programs (OFCCP). We ask you to 
hold Mr. Acosta accountable for explaining what his strategic 
enforcement priorities will be. And we urge you to ask Mr. Acosta to 
pledge that he will advocate for current or increased funding levels 
for the Department of Labor, including for wage and hour investigation 
and enforcement activities, which since 2009 have successfully 
recovered nearly $1.6 billion back wages for more than 1.7 million 
workers across the country.\4\
---------------------------------------------------------------------------
    \4\ Perez, T. E. (2017, January). Department of Labor. Memorandum 
to the American People. U.S. Department of Labor Publication. Retrieved 
13 March 2017, from https://www.dol.gov/sites/default/files/dol-exit-
memo.pdf.
---------------------------------------------------------------------------
    Third, we urge you to probe Mr. Acosta's views on the need for new 
or expanded protections and supports that recognize workers' dual 
obligations to their jobs and to their families. In recent years, the 
Department of Labor has provided funding and technical assistance to 
States interested in exploring the creation of paid family and medical 
leave programs. The department commissioned important research that 
revealed the gaps in employer compliance and employees' barriers to 
using the Family and Medical Leave Act (FMLA). The department updated 
Fair Labor Standards Act regulations to guarantee more salaried workers 
access to overtime pay. The department created new common-sense 
protections requiring that Federal contractors' employees be paid a 
higher minimum wage and have access to earned paid sick days; it also 
adopted new nondiscrimination provisions for LGBT workers and 
protections against retaliation for workers who discuss their 
compensation with coworkers. Each of these policies helps to advance 
the interests of workers and their families and promotes their economic 
security.
    In order to assess Mr. Acosta's commitment to these policies and to 
improving the lives of millions of working people, the committee should 
discern what types of investments Mr. Acosta will pledge to make as 
labor secretary and obtain his commitment to defend against rollbacks. 
For example, will he commit to vigorous enforcement of the FMLA? Will 
he support FMLA expansions? Will he invest in strong, comprehensive and 
sustainable solutions to America's paid family and medical leave 
crisis, including support for a national law that guarantees women and 
men access to paid family and medical leave for all FMLA reasons and 
continued Department of Labor funding for State paid leave analyses? 
Will he pledge to maintain and enforce department rules governing 
overtime pay, paid sick days, LGBT nondiscrimination and fair pay? The 
answers to these questions will help the committee--and the Nation--
assess whether Mr. Acosta's views reflect those of the vast majority of 
voters who support these policies or whether his views are outside the 
mainstream and out of step with the workers whose interests he must 
serve.
    We hope you agree that the next Secretary of Labor must strongly 
support the mission of the department, which is,

          ``No foster, promote, and develop the welfare of the wage 
        earners, job seekers, and retirees of the United States; 
        improve working conditions; advance opportunities for 
        profitable employment; and assure work-related benefits and 
        rights.''

    We urge you to ask probing questions and to demand clear answers to 
determine whether Mr. Acosta will faithfully execute this mission. If 
he will not, we ask you to reject his nomination.

            Sincerely,

                                             Debra L. Ness,
                                                         President.

                             National Urban League,
                                        New York, NY 10005,
                                                    March 10, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: As President and 
CEO of the National Urban League, and on behalf of its 88 affiliates in 
36 States and the District of Columbia, I am writing to seek assurance 
that Alexander Acosta, nominee for Secretary of the U.S. Department of 
Labor (DOL), will make full and effective implementation of the 
bipartisan Workforce Innovation and Opportunity Act (WIOA), enacted 
into law in 2014, a top priority for our Nation's workforce. Given the 
lack of information on Mr. Acosta's views and record on workforce 
development policy, we urge that you conduct a thorough assessment of 
how he plans to assure that adults and youth having the greatest 
barriers to employment in today's economy have access to the services 
of WIOA.
    The National Urban League is the Nation's largest historic civil 
rights and urban advocacy organization dedicated to economic 
empowerment in African American and other underserved communities. 
Every day, we strive to meet our 2025 Goal of insuring that ``Every 
American has access to jobs with a living wage and good benefits.'' 
With the Black unemployment rate remaining at about twice the white 
rate across time at every level of education and the income gap 
remaining unchanged--now at 60 percent, the work of the Department of 
Labor's Employment and Training Administration (ETA) is of critical 
importance to our urban communities. As you are fully aware, it took 
more than a decade to reach a bipartisan reauthorization of our 
Nation's only Federal workforce development system. This landmark law 
increases focus on vulnerable workers, expands education and training 
programs, helps disadvantaged adults and youth earn while they learn, 
and aligns planning and accountability. However, after years of eroded 
funding, the new law remains sorely underfunded to fulfill its promise 
to meet the needs of both our labor force and the business community. 
For example, since 2010, Congress has cut funding to employment and job 
training programs by over $1 billion.\1\
---------------------------------------------------------------------------
    \1\ National Skills Coalition. Accessed at http://
www.nationalskillscoalition.org/federal-policy/federal-funding.
---------------------------------------------------------------------------
    During his nomination hearing, the National Urban League will be 
looking forward to learning whether Mr. Acosta is fully committed to 
effectively implementing the WIOA law. Specifically, we urge that the 
committee probe his views on the following:

    <bullet> What are Mr. Acosta's views on WIOA and is he committed to 
its full implementation?
    <bullet> As we move into the budget and appropriations process, 
will he commit to aggressively seeking the funding that is needed to 
effectively implement WIOA so that every unemployed and under-employed 
adult and youth have access to the training, education and skills 
necessary for employment in jobs with a living wage and good benefits?
    <bullet> Given that today's youth will become tomorrow's adults, 
summer jobs programs give young people an introduction to the labor 
market by exposing them to practical experiences and skills that are a 
critical foundation for future jobs in this challenging and competitive 
labor market. For many Black teenagers, it is an opportunity to gain 
valuable experiences and tap into a network that they may have little 
access to otherwise. In light of this important program for youth, will 
Mr. Acosta commit to expanding the summer jobs program for youth beyond 
WIOA so that every youth in need of a summer job will be able to obtain 
one?

    The National Urban League will be assessing how Mr. Acosta responds 
to our concerns about his views and plans for fulfilling the promise of 
WIOA and we urge the committee to fully commit to the same on behalf of 
the millions of adults and youth that rely on this law to survive and 
thrive in a 21st century labor market.

            Sincerely,

                                            Marc H. Morial,
                             President and Chief Executive Officer.

                       National Women's Law Center,
                                            March 15, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Senators Alexander and Murray: The National Women's Law Center 
(the Center), an organization that has advocated on behalf of women and 
girls for 45 years, writes to express its concern regarding the 
nomination of R. Alexander Acosta as Secretary of Labor. The Secretary 
of Labor is the Nation's most senior official tasked with ensuring the 
well-being and rights of working people and advancing their employment 
opportunities, and is therefore of great importance to women and their 
families. The Secretary of Labor directs the Department of Labor's 
interpretation and enforcement of a number of laws vital to women's 
economic security and right to be free from workplace discrimination, 
such as the Fair Labor Standards Act, the Occupational Safety and 
Health Act, the Family and Medical Leave Act, the Affordable Care Act, 
and Executive orders prohibiting employment discrimination by Federal 
contractors and setting labor standards for Federal contractors' 
employees, including protection of the right to earn paid sick days. 
These policies are essential to closing the gender wage gap: they 
remove barriers to women's employment opportunity, including sex 
discrimination; raise women's wages; allow women to meet caregiving 
responsibilities without sacrificing their employment; and ensure 
women's health and safety so they can continue to support their 
families.
    Mr. Acosta's record, particularly during his tenure as Assistant 
Attorney General for Civil Rights at the Department of Justice from 
2003-05, raises serious questions about his commitment to implementing 
and enforcing labor, employment and civil rights protections of 
critical importance to working people, and particularly to women, free 
from improper political influence. We urge the committee to use the 
opportunity presented by Mr. Acosta's confirmation hearing to conduct a 
rigorous examination of Mr. Acosta's record and thoroughly vet this 
nominee.
    Mr. Acosta oversaw the Department of Justice's Civil Rights 
Division at a time when it engaged in highly politicized and 
ideological hiring and case assignments. An investigation and 2008 
report by the Department of Justice's Office of the Inspector General 
and Office of Professional Responsibility found that while Acosta 
served as Assistant Attorney General for Civil Rights, a senior 
official directly under his supervision, Bradley Schlozman, violated 
the Civil Service Reform Act by considering and, indeed, prioritizing 
political and ideological affiliations in hiring and transferring 
attorneys and assigning cases in the Civil Rights Division. Acosta had 
delegated hiring authority to Schlozman, who sought to punish attorneys 
with affiliations with progressive organizations or connections to the 
Democratic party and elevate attorneys with conservative views or 
Republican party credentials. The report concluded that Acosta and 
others in the division ``had sufficient information about Schlozman's 
conduct to have raised red flags warranting closer supervision of 
him,'' and that they instead took no action and failed to sufficiently 
supervise Schlozman.\1\
---------------------------------------------------------------------------
    \1\ U.S. Dep't of Justice, Office of the Inspector General and 
Office of Professional Responsibility, An Investigation of Allegations 
of Politicized Hiring and Other Improper Personnel Actions in the Civil 
Rights Division 50, 52 (July 2, 2008), https://oig.justice.gov/special/
s0901/final.pdf.
---------------------------------------------------------------------------
    As the agency responsible for enforcing many of the laws that 
ensure safe and fair employment practices, the Department of Labor has 
a heightened responsibility to ensure its own labor and employment 
practices are unimpeachable. We urge the committee to question Mr. 
Acosta about this issue at his hearing, and obtain his commitment to 
ensuring that these politicized screenings, hirings, transfers, and 
workplace practices are not repeated at the Department of Labor, and 
that employees at the Department of Labor comply with all labor and 
employment laws, including the Civil Service Reform Act. Furthermore, 
Mr. Acosta should be asked to provide details about the specific 
oversight processes he would implement to ensure that Labor Department 
officials are complying with all relevant labor and employment laws.
    Mr. Acosta's tenure at the Civil Rights Division was also marked by 
a troubling stepping back of Federal civil rights enforcement efforts. 
For example, significantly fewer employment discrimination cases, and 
fewer employment discrimination pattern and practice cases, were 
brought during the George W. Bush administration than in prior 
Administrations.\2\ Given this record, the committee must call upon Mr. 
Acosta to affirm that as Secretary of Labor, he will not scale back or 
undermine Department of Labor enforcement efforts and that he will 
ensure that decisionmaking about case selection and litigation strategy 
to enforce labor and employment protections is free from improper 
political influence. This is of particular importance to the Office of 
Federal Contract Compliance Programs (OFCCP) and the Wage and Hour 
Division's efforts to protect vulnerable workers, including women, 
immigrants, people of color, LGBT individuals, and workers in low-wage 
jobs.
---------------------------------------------------------------------------
    \2\ U.S. Gov't Accountability Office, U.S. Department of Justice, 
Information on Employment Litigation, Housing and Civil Enforcement, 
Voting, and Special Litigation Sections' Enforcement Efforts from 
fiscal years 2001 Through 2007 (Oct. 2009), http://www.gao.gov/
new.items/d1075.pdf: Nat'l Women's Law Ctr., Slip-Sliding Away: The 
Erosion of Hard-Won Gains for Women Under the Bush Administration and 
an Agenda for Moving Forward 13-14 (Apr. 2004), http://www.nwlc.org/
sites/default/files/pdfs/AdminRecordOnWomen2004.pdf.
---------------------------------------------------------------------------
    OFCCP implements and enforces an array of executive actions 
governing Federal contractor workplaces, including protections for 
employees of Federal contractors who discuss their pay, and the non-
discrimination requirements in Executive Order 11246 and its recently 
updated sex discrimination regulations, which provide crucial 
protections against pay discrimination, sexual harassment, 
discrimination on the basis of gender identity, and pregnancy 
discrimination. OFCCP also oversees the collection of pay data from 
Federal contractors to root out pay discrimination. Mr. Acosta must 
commit to ensuring OFCCP's robust implementation and enforcement of 
such anti-discrimination protections and initiatives. The committee 
should also obtain a pledge from Mr. Acosta to increase the number of 
enforcement actions brought by the Department of Labor challenging 
employment discrimination, especially systemic discrimination that 
affects large numbers of workers, particularly women and people of 
color.
    The Wage and Hour Division enforces a variety of laws critical to 
women's economic security and health, including wage and hour 
protections in the Fair Labor Standards Act, and leave provisions in 
the Family and Medical Leave Act and the current Department of Labor 
rule ensuring that employees of Federal contractors can earn paid sick 
days. The overrepresentation of women in low-wage jobs, including 
minimum wage and sub-minimum wage positions, as well as the fact that 
women--and in particular women of color--continue to bear the burden of 
caregiving, are important drivers of the gender wage gap. Because 
women, and in particular women of color and immigrant women, are 
overrepresented in low-wage jobs, they have a particular stake in 
raising the minimum wage and in robust overtime protections; are 
especially vulnerable to wage theft and retaliation; and are less 
likely to have access to important supports like paid family and 
medical leave and paid sick leave. It is essential that the Wage and 
Hour Division receives the resources it needs to protect low-wage 
workers, and that it uses those resources to enforce workers' rights 
affirmatively, rather than relying on complaint-driven enforcement as 
in the George W. Bush administration, which left workers vulnerable to 
exploitation.\3\ The committee must call upon Mr. Acosta to affirm that 
he will commit the Division to this affirmative enforcement and defend 
the Division against any attempts to undermine its ability to conduct 
vigorous implementation and enforcement activities.
---------------------------------------------------------------------------
    \3\ U.S. Gov't Accountability Office, Wage And Hour Division's 
Complaint Intake and Investigative Processes Leave Low Wage Workers 
Vulnerable to Wage Theft (Mar. 25, 2009), http://www.gao.gov/assets/
130/122107.pdf.
---------------------------------------------------------------------------
    Additionally, we urge you to probe Mr. Acosta's understanding of 
the importance of various labor and employment policies for reducing 
barriers to women's workplace opportunity and promoting their economic 
security. For instance, the committee should explore whether Mr. Acosta 
appreciates the implications of increasing the Federal minimum wage, 
ensuring tipped workers are entitled to the same cash minimum wage as 
other workers, and expanding eligibility for overtime pay for closing 
the gender wage gap. Likewise, the committee should determine whether 
Mr. Acosta recognizes the critical role that access to paid family, 
medical and sick leave programs play in helping women maintain 
employment while ensuring their own health and fulfilling caregiving 
responsibilities. We urge you to thoroughly explore Mr. Acosta's views 
on these matters during his confirmation hearing.
    In conclusion, the Center urges the committee to review thoroughly 
these troubling aspects of Mr. Acosta's record during his hearing, to 
identify how he will ensure that personnel and enforcement decisions at 
the Department of Labor will be free from the political interference 
that characterized his leadership at the Civil Rights Division, to seek 
to ensure that he commits to vigorous enforcement of the labor and 
employment protections that the Department of Labor oversees, with a 
focus on the needs of the most vulnerable workers, and to establish his 
understanding of labor and employment policies critical to the economic 
security of women and families.

            Sincerely,

                                     Marcia D. Greenberger,
                                                      Co-President.

                                    Public Citizen,
                                      Washington, DC 20003,
                                                    March 10, 2017.

Hon. Lamar Alexander, Chairman,
U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: Public Citizen 
is a national, nonprofit public interest organization with more than 
400,000 members and supporters nationwide that advocates for public 
health and safety interests before legislative bodies, executive branch 
agencies, and the courts. On behalf of Public Citizen, I am writing to 
urge you to thoroughly examine R. Alexander Acosta as President Trump's 
nominee for U.S. Secretary of Labor.
    In November, American voters made it clear that they want the 
government to uplift the working class, and in many ways this idea was 
a central theme of the election. However, a 2008 U.S. Department of 
Justice (DOJ) report calls into question Mr. Acosta's ability to be an 
effective advocate for working people. The report revealed the 
politicization of hiring practices within DOJ's Civil Rights Division 
during Mr. Acosta's tenure.\1\ Public Citizen has serious concerns 
about the findings of this report.
---------------------------------------------------------------------------
    \1\ https://oig.justice.gov/special/s0901/final.pdf.
---------------------------------------------------------------------------
    Mr. Acosta must address his record in DOJ leadership in addition to 
his stance on critical issues affecting working families. Among other 
issues, the committee should question the nominee on the following 
matters:

    <bullet> Is Mr. Acosta committed to enforcing U.S. Department of 
Labor (DOL) rules, such as the recently issued silica, beryllium, and 
electronic recordkeeping rules?
    <bullet> Will Mr. Acosta advocate for appropriate funding and 
staffing levels for the U.S. Occupational Health and Safety 
Administration?
    <bullet> As head of the DOL, will Mr. Acosta actively pursue new 
public protections to make worksites safer nationwide?

    American workers deserve a U.S. Secretary of Labor who fights for 
their rights in the workplace and believes in the American working 
public. We ask the committee to press Mr. Acosta on his commitment to 
advocating for workers across the country and vigorously enforcing DOL 
regulations. Leading DOL is a serious responsibility that requires a 
commitment to advocating for our Nation's workers. The committee must 
use its role in the confirmation process to determine whether Mr. 
Acosta is the correct candidate to take on this important task.
    Thank you for your consideration.

            Sincerely,

                                              Lisa Gilbert,
                         Director, Public Citizen's Congress Watch.

            The Leadership Conference on Civil and 
                                      Human Rights,
                                      Washington, DC 20036,
                                                    March 10, 2017.
Hon. Lamar Alexander, Chair,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chair Alexander and Ranking Member Murray: On behalf of The 
Leadership Conference on Civil and Human Rights, a coalition of more 
than 210 national organizations committed to promoting and protecting 
the civil and human rights of all persons in the United States and the 
68 undersigned organizations, we are writing to urge that you conduct a 
thorough review of the prior record of Alex Acosta as you consider his 
nomination for U.S. Secretary of Labor.
    As organizations that are committed to advancing the civil and 
human rights of all workers in America, we believe it is essential for 
this committee to scrutinize Mr. Acosta's tenure as the Assistant 
Attorney General for Civil Rights at the Department of Justice. During 
that period from 2003-05, there is no question that hiring was 
politicized and that Department rules were broken. This is well-
documented in the 2008 report of the Office of the Inspector General 
and the Office of Professional Responsibility of the Department of 
Justice.\1\ Their report finds clear evidence of violations of Federal 
civil service law and department policy prohibiting discrimination in 
Federal employment based on political and ideological affiliations by a 
top Civil Rights Division official, Bradley Schlozman.
---------------------------------------------------------------------------
    \1\ ``An Investigation of Allegations of Politicized Hiring and 
Other Improper Personnel Actions in the Civil Rights Division.'' U.S. 
Department of Justice. January 13, 2009. https//oig.justice
.gov/special/s0901/final.pdf.
---------------------------------------------------------------------------
    The report also includes the following with regard to the specific 
actions and inactions by Mr. Acosta:

          ``We believe that AAGs Acosta (and others) had indications of 
        potential problems in Schlozman's actions and judgment, and 
        that each had sufficient information about Schlozman's conduct 
        to have raised red flags warranting closer supervision of 
        him.''\2\
---------------------------------------------------------------------------
    \2\ Ibid. Pg. 50.

---------------------------------------------------------------------------
    In conclusion, the report notes that,

          ``Acosta and Kim did not sufficiently supervise Schlozman. In 
        light of indications they had about Schlozman's conduct and 
        judgment, they failed to ensure that Schlozman's hiring and 
        personnel decisions were based on proper considerations.''\3\
---------------------------------------------------------------------------
    \3\ Ibid. Pg. 52.

    Concerns about the politicization of the work of the Civil Rights 
Division is further exemplified by Spencer v. Blackwell, a case 
relating to voter suppression of African American voters in Ohio just 
before the 2004 election.\4\ Although the Justice Department was not a 
party in the case, and despite the fact that there was substantial 
evidence that the proposed ``voter caging'' scheme to challenge voters 
disproportionately affected African American voters, Acosta took the 
unusual step of writing a letter to the court taking the position that 
the practice was not prohibited by the Voting Rights Act.\5\ 
Fortunately, the Justice Department position was rejected, but Mr. 
Acosta should be asked to explain his rationale for taking this unusual 
step in a controversial case just before an election--contrary to 
general Department policy.
---------------------------------------------------------------------------
    \4\ Spencer v. Blackwell, Case No. 04CV738. Filed October 27, 2004. 
http://moritzlaw.osu.edu/electionlaw/litigation/spencer.php.
    \5\ Acosta, R. Alexander. ``RE: Spencer v. Blackwell, Case No. 
04CV738.'' U.S. Department of Justice, Civil Rights Division. October 
29, 2004. https://www.brennancenter.org/sites/default/files/analysis/
10-29-04%200hic%20Challenge%20Letter%20-%20Acosta.pdf.
---------------------------------------------------------------------------
    Mr. Acosta, if confirmed, will preside over a very large department 
with 17,000 employees.\6\ The American public, and Department of Labor 
workers, must be reassured that the civil service will not be 
politicized under Mr. Acosta's watch and that the laws the Department 
is mandated to implement and enforce will be carried out effectively. 
Due diligence requires that this committee probe the nominee about what 
steps he will commit to take to ensure that this type of politicization 
of the hiring process does not happen at the Department of Labor. For 
example:
---------------------------------------------------------------------------
    \6\ ``United States Department of Labor [DOL].'' Leadership 
Directories. https://lo.bvdep.com/OrgDocument.asp?OrgId=-
l&LDIBookId=19&&LDIOrgId=153606&LDISecld=180&FromRecent
=0&Save=1&Position=1#O153606.

    <bullet> How will he ensure that there is no political interference 
with the Office of Federal Contract Compliance (OFCCP) career staff in 
their work to vigorously enforce Executive Order 11246 and its non-
discrimination requirements for Federal contractors and subcontractors?
    <bullet> How will he ensure that there is no political interference 
with the Wage and Hour Division career staff in their work to 
vigorously enforce the law against wage theft and other violations of 
the Fair Labor Standards Act?
    <bullet> How will he ensure that the Bureau of Labor Statistics and 
its professional staff continue to report the employment and related 
numbers free of any political interference?

    At a minimum, we expect the nominee for Secretary of Labor to 
answer these questions. It is also important to probe his views on 
labor issues of great importance to American workers, particularly to 
low-wage African American, Asian, and Hispanic workers, women, and 
workers with disabilities who are struggling to make ends meet and to 
sustain their families.
    Fundamental to the Labor Department's mission is protecting the 
welfare, health, and safety of workers and insuring compliance with 
labor standards and ensuring that those most vulnerable, particularly 
migrant workers, are treated fairly. We urge that you seek Mr. Acosta's 
views on the record on these and the other critical economic issues 
listed below:

    <bullet> Raising the minimum wage to $15 per hour;
    <bullet> Litigation position on the overtime rules that were 
supposed to take effect on December 1, 2016, but were enjoined by a 
Federal court in Texas in November and which the Department of Labor 
appealed to the Fifth Circuit Court of Appeals but recently received an 
extension of time to reconsider its position;
    <bullet> Implementing and enforcing the requirement of earned paid 
sick days for employees of Federal contractors;
    <bullet> Continuing to support State and national efforts to 
develop paid family leave programs and promote pay equity; and
    <bullet> Implementing the fiduciary rule, which requires those who 
give retirement savings advice to avoid conflicts of interest, 
utilizing the standard of the best financial interests of the client.

    In sum, we urge the HELP Committee to explore these issues 
vigorously in its confirmation hearing on the nomination of Alex Acosta 
to be Secretary of Labor and to secure specific commitments on the 
record about how, if confirmed, he will ensure that neither the hiring 
practices nor the policy and enforcement work of the Department of 
Labor will be politicized. The Leadership Conference and the 
undersigned organizations will be monitoring his actions and, if 
confirmed, hold him accountable for these commitments. We urge the 
committee to do the same. If you have any questions, please contact 
June Zeitlin, Director of Human Rights Policy at The Leadership 
Conference, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b716e627f6762654b68627d626779626c637f782564796c">[email&#160;protected]</a> or at 202-263-2852.

            Sincerely,

The Leadership Conference on Civil and Human Rights; 9to5, National 
    Association of Working Women; AFL-CIO; American Association for 
    Access, Equity and Diversity; American Association of University 
    Women (AAUW); American Civil Liberties Union; American Federation 
    of Government Employees; The American Federation of State, County 
    and Municipal Employees (AFSCME); American Federation of Teachers; 
    Americans for Democratic Action (ADA); Asian Pacific American Labor 
    Alliance, AFL-CIO (APALA); Bend the Arc Jewish Action; Center for 
    Law and Social Policy (CLASP); Communications Workers of America; 
    CREDO; Daily Kos; Demos; Domestic Worker Legacy Fund; Economic 
    Policy Institute Policy Center; Equal Justice Center (Texas); Equal 
    Justice Society; Equal Pay Today!; Equal Rights Advocates; Family 
    Equality Council; Family Values @ Work; Farmworker Justice; Fight 
    for $15; Food & Water Watch; GLSEN; Interfaith Worker Justice; Jobs 
    With Justice; Labor Project for Working Families in partnership 
    with Family Values @ Work; Lambda Legal; Lawyers' Committee for 
    Civil Rights Under Law; Legal Aid at Work; Main Street Alliance; 
    MALDEF (Mexican American Legal Defense and Educational Fund); 
    Massachusetts Law Reform Institute; NAACP; NAACP Legal Defense and 
    Educational Fund, Inc.; National Asian Pacific American Women's 
    Forum; National Association of Human Rights Workers; National Bar 
    Association; National Black Justice Coalition; National Center for 
    Transgender Equality; National Council of Churches; National 
    Council of Jewish Women; National Domestic Workers Alliance; 
    National Education Association; National Employment Law Project; 
    National Employment Lawyers Association; National Hispanic Media 
    Coalition; National LGBTQ Task Force Action Fund; National 
    Partnership for Women & Families; National Women's Law Center; 
    Oxfam America; Policy Matters Ohio; PolicyLink; Pride at Work; 
    Public Citizen; Santa Clara County Wage Theft Coalition; Sargent 
    Shriver National Center on Poverty Law; SEIU; UltraViolet; United 
    Steelworkers; The Voter Participation Center; Women's Voices Women 
    Vote Action Fund; Workplace Fairness; and YWCA USA.

                                        Workplace Fairness,
                                           Silver Spring, MD 20910.
                                 ______
                                 
Response by Alexander Acosta to Questions of Senator Alexander, Senator 
  Roberts, Senator Collins, Senator Murkowski, Senator Young, Senator 
                       Cassidy, and Senator Paul
                           senator alexander
    Question 1. The Davis-Bacon Act requires Federal contractors and 
subcontractors to pay employees a prevailing wage determined by the 
Department of Labor from a voluntary local area wage survey. The law 
has already been extended to more than 60 Federal statutes that provide 
construction funding, despite numerous government watchdog reports that 
uncovered errors, fraud and bias in Davis-Bacon wage survey data and 
questioned the statistical integrity and methodology of the wage 
determination process. There is a growing body of evidence and an 
increasing public awareness that Davis-Bacon artificially inflates the 
costs of Federal and federally assisted construction projects, and 
creates barriers to participation for small and minority-owned 
businesses. These costs result in American taxpayers receiving far less 
than they would in a true, market-based system. This waste of Federal 
dollars means fewer projects, and in turn, fewer workers employed than 
would have been otherwise.
    Will you commit to review the accuracy of Davis-Bacon wage rate 
calculations and, if you find it lacking, to taking steps to improve 
their accuracy?
    Answer 1. If confirmed, I look forward to being briefed on the 
Davis-Bacon Act and these concerns as we develop the Department's 
policies and priorities. I also understand the Office of Inspector 
General testified they are looking into the Davis-Bacon wage survey 
program and want to ensure the program operates efficiently and 
effectively, so that taxpayers get the best value and workers are paid 
the proper wages.

    Question 2. Disability insurance provides Americans with crucial 
income protection from unexpected disability due to illness or injury. 
Access to disability insurance depends on affordability, which is 
directly affected by regulatory, administrative, and litigation costs. 
In December, the Department of Labor issued a final regulation 
regarding disability insurance claims administration. I have heard 
concerns that this regulation will significantly increase the cost of 
disability insurance by encouraging litigation and will inappropriately 
apply Affordable Care Act claims procedures to disability plans.
    Will you commit to reviewing this regulation and working with the 
disability insurance community to ensure that Americans will continue 
to have access to affordable, high quality disability insurance?
    Answer 2. I certainly support making high-quality disability 
insurance as affordable as possible while also ensuring that claims are 
processed timely and fairly. If confirmed, I expect to be briefed on 
this regulation and I look forward to working with Congress as we 
develop the Department's regulatory policies and priorities. As I noted 
in my hearing, the President has directed each Cabinet officer to 
review all rules and to make determinations if any rules should be 
revised.
                            senator roberts
    Question 1. Mr. Acosta, as you are aware, contract negotiations 
which lapse can result in a slow down at our ports, which in turn 
effects our agriculture community. The importance of resolving these 
conflicts expeditiously is not only important for the direct parties 
involved, but for our agriculture industry and so many others who rely 
on exporting and importing goods. A shutdown or even a slowdown to our 
port system can cost the economy billions of dollars by halting or 
delaying the export of agriculture products to other countries or the 
import of goods to stores across our country.
    Should a situation arise, putting our economy at risk, will you--if 
asked--lend your assistance to finding a quick and effective solution?
    Answer 1. Yes. If confirmed, I would lend my assistance to help 
resolve a port slow down or strike. The stakes for our economy are too 
high not to resolve any conflicts expeditiously.

    Question 2. Mr. Acosta, there is significant bipartisan support on 
the committee for encouraging employee ownership of businesses through 
Employee Stock Ownership Plans (ESOPs). The data shows that ESOPs 
create jobs, generate economic activity, and promote retirement 
savings. However, the important benefits of ESOPs are being undermined 
by the Department of Labor, which, under the prior administration, 
unfairly targeted the ESOP community with overly aggressive enforcement 
tactics. In particular, the Department has engaged in abusive subpoena 
practices for document production and testimony, often without 
previously contacting any representative of the sponsoring company of 
the subject ESOP, and almost always seeking duplicative information 
from the professionals who provide services to ESOPs. These abusive 
subpoena tactics have caused needless and very significant expense to 
produce multiple copies of the same documents, and it is not clear that 
there is any cause for the subpoenas being issued.
    Can you commit to reviewing the Department's ESOP enforcement 
practices and working with the ESOP community to encourage employee 
ownership?
    Answer 2. I strongly support empowering Americans in all aspects of 
their working endeavors. A well-run ESOP, like other employment-based 
retirement plans, can provide valuable benefits to participating 
workers, and I believe that Congress and the Department have a shared 
responsibility to take steps to make sure that ESOPs fulfill their 
important mission of providing benefits and enhancing employee 
ownership. If confirmed, I expect to be briefed on ESOPs and I look 
forward to working with Congress as we develop the Department's 
regulatory policies and priorities to expand opportunity.

    Question 3. Mr. Acosta, the Bureau of International Labor Affairs 
(ILAB) leads the Department of Labor's efforts to ensure workers across 
the globe are treated fairly. Their mission is to improve global 
working conditions, raise living standards, protect workers' rights, 
address workplace exploitation and ensure a fair playing field for 
American workers.
    Should you be confirmed, how do you see ILAB playing into your 
overall agenda at DOL?
    Answer 3. If confirmed, I will consult with the Bureau staff and 
seek input from Congress and other agencies on these important issues 
to ensure that ILAB continues its mission. A fair playing field for 
American workers is certainly a priority for me, and I strongly support 
promoting human rights and free markets for the benefit of workers 
generally.
                            senator collins
                       temporary employment visas
    Question 1. H-2B visas, which certify foreign nationals to work 
temporarily in the United States, are heavily relied upon by Maine's 
tourism and hospitality businesses that are in need of seasonal, 
temporary workers--beyond the number that they can hire in our State 
and region.
    The H-2B program is especially important to Maine's tourism sector, 
which is Maine's second biggest industry. For a State with just 1.3 
million people, hosting 25 times that number over the course of a year 
is a challenge. Most of these visitors come in the summer, which makes 
it all the more important for restaurants and hotels in Maine to have 
their H-2B visa applications processed in a timely fashion.
    Unfortunately, for too many businesses in Maine, DOL's processing 
of these visas is taking too long, even for workers who receive a visa 
every year. Combined with the low unemployment rate in our State, the 
effect of DOL's processing delays could be catastrophic for Maine's 
businesses--many of which have contacted me to express concern that the 
66,000 numerical cap for H-2B visas for this year was reached last 
week.
    If confirmed, how would you try to reduce the processing times for 
these visas?
    Answer 1. I recognize the difficulty that many employers face in 
this area and the potential repercussions for vital industries across 
the country. As I noted in the hearing, I understand how important this 
is for Maine and other States and look forward to working together to 
fix this issue if confirmed.

                    job training and apprenticeships
    Question 2. As we've discussed, I'm a big supporter of job training 
and apprenticeship programs that match workers' training with the 
skillsets in demand. I have met with numerous business owners in Maine 
who have jobs available but cannot find qualified and trained workers 
to fill them.
    Apprenticeships allow companies to retain expertise while 
developing the skills of younger workers, and make possible the 
seamless transfer of skills from one generation to the next, which is 
essential to Maine's trade-related industries.
    In 2015, I introduced a bill with Sen. Cantwell that would have 
given employers a $5,000 tax credit to provide apprenticeship programs 
to train workers in high-demand mechanical, technical, health care, or 
technology fields. We are planning to reintroduce this bill very soon.
    If confirmed, how would you help American workers acquire the 
skills that employers need?
    Answer 2. I share your belief that quality apprenticeship programs 
are a valuable and effective job training tool and expanding access to 
effective apprenticeship programs is a major facet of positioning our 
workforce to meet the needs of a changing economy. Apprenticeship and 
other work-based learning models that share strong public-private 
partnerships, active employer engagement training, and offer workers 
the opportunity to earn while you learn are critical to ensure 
employers get technically capable workers. Furthermore, the concept of 
providing employers with incentives to invest in such programs is a 
concept of great interest to me, and one in which I would like to work 
with you and other members of the committee. There are numerous 
examples throughout the Nation of industry, local academic and training 
institutions and government partnering effectively to train and place 
workers in growth sectors. If confirmed, I believe my role will be to 
make sure this model can be accessed in more communities and by 
displaced workers who will need to transition to new and growing 
industries.
                           senator murkowski
    Question 1. In Alaska, we are seeing increasing coordination and 
leverage of private sector workforce development funds. For example, 
Alaska Native Corporations, labor unions, health care employers, and 
other diverse private sector entities are working together to expand 
training funding that augments public sector investments.
    What would you do as Secretary to maximize and encourage private 
sector funding?
    Answer 1. The private sector and local non-profit leaders and labor 
unions are often much more in touch with the markets in their 
communities and can be much more agile in allocating resources than we 
can in Washington, DC. I believe that public-private partnerships like 
the ones that you describe can be a major part of the future of 
workforce development. There are numerous examples throughout the 
Nation of industry, local academic and training institutions and 
government partnering effectively to train and place workers in growth 
sectors. If confirmed, I believe my role will be to make sure this 
model can be accessed in more communities and by displaced workers who 
will need to transition to new and growing industries.

    Question 2. The President's ``skinny budget'' request proposes to 
close Job Corps centers that do a ``poor job'' of educating and 
preparing students for jobs. The request does not detail how centers 
would be evaluated to determine if they do a ``poor job'' or not. When 
we spoke one-on-one, you suggested evaluating Job Corps centers not by 
their percentage of graduates but by the percentage of students who get 
jobs for which they are trained.
    Given the President's proposal, do you have an estimate of how many 
Job Corps centers might be closed under this rubric?
    Answer 2. As a nominee, I did not participate in the budget process 
so I am unfamiliar with any specific proposals that are assumed in that 
proposal. If confirmed, I expect to be briefed on the Job Corps program 
and the performance of each of the more than 100 Job Corps centers. I 
look forward to learning more about the center in your State that you 
had mentioned as well as others, and our focus will be on helping Job 
Corps centers best provide to students the vital services and training 
central to their core mission. Finally, to be clear, performance must 
also include an assessment of the challenges faced in a particular 
region.

    Question 3. The President's ``skinny'' budget request also proposes 
to decrease Federal support for job training and employment service 
formula grants and shift the responsibility to States, localities, and 
employers. In addition, it proposes to reduce funding for unspecified 
``ineffective, duplicative, and peripheral job training grants''.
    What are your thoughts about how these proposals would impact the 
Administration's plan to increase American job training in States like 
Alaska that have serious budget deficits, and States where Job Corps 
centers are closed due to poor performance?
    Answer 3. As a nominee, I was not able to participate in the budget 
process so I am unfamiliar with any specific proposals that are assumed 
in that proposal. The President proposes the budget and it is 
ultimately Congress that determines funding. If confirmed, I look 
forward to participating in that process, so that I can understand the 
goals, performance and resource needs of programs such as these in 
order to help the President develop budget proposals that will 
accomplish the Department's mission and goals and deliver the greatest 
value to the American people. If confirmed, I also expect to be briefed 
on the Job Corps program and the performance of each of the more than 
100 Job Corps centers. I look forward to learning more about the center 
in your State as well as others, and our focus will be on helping Job 
Corps centers to best provide to students the vital services and 
training central to their core mission.

    Question 4. You may have read about international trends in which 
companies in the United States and abroad are turning to apprenticeship 
for training their employees in health care, advanced manufacturing, 
IT, aviation, maritime, and other occupations. On a bipartisan basis, 
both Congress and the USDOL have supported expansion of apprenticeship, 
and Alaska has worked very closely with USDOL in this regard. Major 
employers expanding apprenticeship in our State include nearly all of 
our largest hospitals, our largest provider of health care to Alaska 
Natives, the Alaska Air Carriers Association, multiple maritime 
shipping companies, many construction employers, and others.
    Can you commit to continuing the Department of Labor's critical 
support for Registered Apprenticeship?
    Answer 4. As I stated at the confirmation hearing, I feel strongly 
that apprenticeship programs can deliver great value, both for workers 
and industry. There are numerous examples throughout the Nation of 
industry, local academic and training institutions and government 
partnering effectively to train and place workers in growth sectors. If 
confirmed, I believe my role will be to make sure this model can be 
accessed in more communities and by displaced workers who will need to 
transition to new and growing industries.

    Question 5. Alaska has the lowest income inequality in America and 
some of the country's highest median wages. That is partly a result of 
strong labor laws, including the Federal Davis-Bacon Act and the 
State's Little Davis-Bacon Act.
    Will you fully support enforcing Federal prevailing wage laws, 
since they are essential to sustaining our middle class?
    Answer 5. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly, including the 
Federal Davis-Bacon Act.

    Question 6. As we discussed in our previous meeting, Job Centers 
are important not only for employers seeking American workers, but also 
as a source of industry-required job training for job seekers through 
Workforce Innovation and Opportunity Act (WIOA) funds. In Alaska, we 
supplement Federal training dollars with State training funds through 
the State Training and Employment Program (STEP). These training funds 
are particularly important for an increasingly dynamic economy in which 
workers can expect to change jobs and even industries multiple times in 
the course of a career.
    Will you work to sustain the Wagner-Peyser and Workforce Innovation 
and Opportunity Act funding that is essential for these job training 
efforts?
    Answer 6. As I noted at the confirmation hearing, I feel strongly 
that well-managed and targeted job training programs, and particularly 
quality apprenticeship programs, can deliver great value, both for 
workers and industry. It is also important to ensure States and local 
business have input into those programs because needs are different 
across the country. There are numerous examples throughout the Nation 
of industry, local academic and training institutions and government 
partnering effectively to train and place workers in growth sectors. If 
confirmed, I believe my role will be to make sure this model can be 
accessed in more communities and by displaced workers who will need to 
transition to new and growing industries, and I will work to sustain 
funding for these types of efforts.

    Question 7. Concerns have been raised about your oversight of the 
Civil Rights Division of the Department of Justice, specifically 
regarding your oversight of personnel practices impacting career 
attorneys. The joint report of the Office of Inspector General and 
Office of Professional Responsibility stated that you, ``[and other 
senior officials] had indications of potential problems in Schlozman's 
actions and judgment'' and ``had sufficient information about 
Schlozman's conduct to have raised red flags warranting closer 
supervision of him.'' The report also noted that you, ``did not take 
sufficient action in response to the information'' that DAAG Scholzman 
had forwarded an ``inappropriate, racially insensitive e-mail to other 
Department officials''.
    How can I be confident that the actions leading to criticisms about 
your oversight and management of the Division will not be repeated at 
the Department of Labor if you are confirmed as Secretary?
    Answer 7. As I indicated at my hearing before the committee, the 
conduct described in the Inspector General's report was wrong and 
should not have taken place. The IG concluded that I was not aware of 
the misconduct. Nonetheless, it occurred on my watch as Assistant 
Attorney General. I am now well aware of what happened, and committed 
to ensure it is not repeated. Indeed, if confirmed, I will make it 
abundantly clear that such conduct will not be tolerated. Since that 
time, I am a more hands-on manager. I have also learned to better 
oversee and monitor subordinates while not micromanaging their 
performance. As U.S. Attorney, for example, I regularly walked around 
the office to learn what the Assistant U.S. Attorneys were doing. This 
day-to-day contact was important, and helped me better understand and 
monitor day-to-day activity.

    Question 8. Nationwide, Job Corps centers are operating at 80 
percent of their contracted capacity in part because of an inefficient 
procurement system and costly and unnecessary regulations and policies.
    Will you commit to expediting the reduction of unnecessary 
regulations and improving procurement and other policies to increase 
Job Corps' efficiency and effectiveness?
    Answer 8. Thank you for bringing this important issue to my 
attention. As presented, the answer to this question is yes. The 
efficiency and effectiveness of Job Corps centers is crucial. I expect 
to be briefed on Job Corps centers' operating capacity and evaluation 
metrics in order to better understand how they are currently 
performing, and how we can create the conditions for them to be more 
effective and efficient.

    Question 9. Does the Department of Labor have a role in addressing 
wage stagnation, especially among entry-level and low-wage employment? 
If so, what is that role?
    Answer 9. A growing economy combined with improved job training for 
in demand skills that drive productivity enhancements is the best way 
to improve real wages for entry and low wage workers generally. 
Advancing technologies will change the types of jobs that are available 
in our economy. As I discussed at the hearing, we need to make better 
efforts to align job training with the skills the market demands today 
and in the future. If confirmed, I look forward to working with you 
further on this issue.

    Question 10. Linking to Employment Activities Pre-Release (LEAP) is 
an example of a positive U.S. DOL prison-to-workforce program to help 
returning citizens gain employment after incarceration.
    What are your plans to strengthen prison-to-workforce programs 
given that having a job is the most important factor in determining 
whether a returning citizen will commit more crimes?
    Answer 10. Programs that help reintegrate citizens into the economy 
post-incarceration are very important and of interest to me. I am 
informed that the Department has several programs that focus in this 
area, and I look forward to being briefed on all of them. Thank you for 
making me aware of your appreciation of this program and this issue. I 
look forward to working with you and other members of the committee on 
continuing and possibly improving efforts to help citizens reintegrate 
into the workforce post-incarceration.
                             senator young
    Question 1. Employee Stock Ownership Plans (ESOP) have 
traditionally enjoyed bipartisan support in both Democratic and 
Republican administrations. More than 50 ESOPs are headquartered in my 
home State of Indiana, with many more employing residents. ESOPs allow 
members of both rural and urban communities to build retirement wealth 
as employee owners. These members would not be afforded the same 
opportunities without the presence of ESOPs.
    If you are confirmed as the Secretary of Labor, will you continue 
the tradition of support of ESOPs and work with me on issues 
surrounding ESOPs?
    Answer 1. I strongly support empowering Americans in all aspects of 
their working endeavors. A well-run ESOP, like other employment-based 
retirement plans, can provide valuable benefits to participating 
workers, and I believe that Congress and the Department have a shared 
responsibility to take steps to make sure that ESOPs fulfill their 
important mission of providing benefits and enhancing employee 
ownership. If confirmed, I expect to be briefed on ESOPs and I look 
forward to working with Congress as we develop the Department's 
regulatory policies and priorities to expand opportunity.

    Question 2. In most recent years under the previous Administration, 
ESOPs have been plagued with lawsuits. In fact, the number of lawsuits 
against ESOPs quadrupled. This is due to many inaccurate valuations of 
privately held companies that did not take into account the unique 
ownership of ESOPs. Furthermore, I have heard from ESOPs in my State 
that many field audits conducted by the Employee Benefit Security 
Administration were inefficient, time consuming and hostile. I 
certainly believe that appropriate enforcement action is necessary to 
ensure compliance with the law, but I do not believe that ESOPs should 
be unfairly scrutinized.
    If you are confirmed as the Secretary of Labor, will you work with 
me to examine the enforcement process and explore ways to increase 
efficiency and predictability?
    Answer 2. I strongly support empowering Americans in all aspects of 
their working endeavors. A well-run ESOP, like other employment-based 
retirement plans, can provide valuable benefits to participating 
workers, and I believe that Congress and the Department have a shared 
responsibility to take steps to make sure that ESOPs fulfill their 
important mission of providing benefits and enhancing employee 
ownership. If confirmed, I expect to be briefed on ESOPs and I look 
forward to working with Congress as we develop the Department's 
regulatory policies and priorities to expand opportunity and address 
your concerns.
                            senator cassidy
    Question 1. In Louisiana, our unemployment rate is stagnant at 
around 6.0 percent. Well above the national average of 4.8 percent. 
There is much talk about creating jobs and growing the economy. As you 
may know, there are approximately 47 Federal employment and training 
programs administered by the Department of Labor, and other departments 
and Federal agencies. Federal taxpayers spend billions of dollars on 
these programs (some of which are mandatory spending), yet unemployment 
remains high and there is a constant struggle to find qualified 
workers.
    The Workforce Innovation and Opportunity Act (WIOA) consolidated 
many of the Federal programs administered by the Department of Labor 
and set performance accountability measures to access their 
effectiveness at the State and local level. However, we won't have the 
first set of data until this summer. As Secretary, will you commit to 
analyzing such data quickly to ensure these programs are effective and 
held accountable for preparing people for jobs? What immediate steps 
will you take if inefficiencies are found?
    Answer 1. If confirmed, I expect to be briefed on the data and 
performance metrics you mention in order to understand how effective 
these programs are at all levels. I commit to analyzing the data as 
quickly as possible. If there are instances where programs are failing 
to meet performance accountability measures, I expect to work both 
internally at the Department and with you and other members of the 
committee to hold those in charge accountable and to pursue policies 
and reforms that will increase performance and deliver more value to 
workers and the economy.

    Question 2. As Secretary, will you commit to working with this 
committee and the other departments and agencies to review how best to 
coordinate all education, employment and job training programs? 
Particularly, will you review how we can best bring career and 
technical education (CTE) and the Temporary Assistance for Needy 
Families (TANF) employment services in line with the department's job 
training programs? Please explain your thoughts and recommendations for 
coordinating these programs?
    Answer 2. Yes. As I mentioned at the hearing, I expect to work 
closely and coordinate with the Department of Education whenever 
possible. The missions of the two Departments are so closely aligned, 
and I believe closer and more effective coordination will allow us to 
provide better services and outcomes for those served by both 
Departments. If confirmed, I expect to be briefed on how Department of 
Labor programs interact with Department of Education programs, as well 
as other Departments like Health and Human Services in order to ensure 
that optimal coordination is taking place.

    Question 3. Do you agree that all programs (across all agencies and 
departments) should share similar performance accountability measures? 
To allow us to compare apples to apples on what is working? What are 
your recommendations on how best to make this happen?
    Answer 3. I certainly support evaluating programs for their results 
in an objective manner, but it may be difficult to have the same 
performance measures across all agencies. Each enforcement agency, for 
example, at DOL may have different metrics because of the nature of 
their responsibilities and legal authorities. Increased compliance with 
the law arguably is a great metric to consider but can be hard to 
measure, particularly in the case of discrimination prevention. 
Similarly, consumer-
driven job training may be more difficult to measure as opposed to job 
placement of Job Corps graduates. If confirmed, I will consult with 
staff and review the performance metrics DOL agencies have been using 
to see if there might need to be changes and also coordinate with other 
departments to develop better measures where possible.

    Question 4. While the department does make data on these programs 
publicly available on their website, the most current information is 
not always available in a timely manner. Also, people in need of job 
training services are not looking at the data on the outcomes, only 
that the services are available. Will you commit to reviewing the 
department's data systems to ensure they are working effectively with 
information available in a timely manner? Also, will you commit to 
having this information publicly available through an online searchable 
database for all programs that is accessible to Congress, stakeholders, 
and taxpayers?
    Answer 4. If confirmed, I will look into these matters and discuss 
with DOL staff how to make such information more readily available.

    Question 5. We really must do a better job of coordinating all 
Federal programs across the board to ensure they are effective and a 
good use of taxpayer dollars. Many of these programs have been around 
for decades and we must ensure they are working to meet today's 
workforce needs.
    Answer 5. I strongly agree.
                              senator paul
    Question 1. Under the Obama administration, DOL exempted or 
significantly decreased labor union reporting requirements regarding 
conflicts of interest and financial disclosures. The forms eliminated 
or decreased are T-1 (Trust Annual Reporting), LM-2 (labor organization 
annual report), and LM-30 (conflict of interest disclosure reports). 
Would you work to ensure that there is appropriate transparency and 
disclosure conducted on the part of labor organizations as required by 
law?
    Answer 1. If confirmed, I look forward to discussing these issues 
with the staff of the Department's Office of Labor-Management Standards 
to determine whether the level of disclosure that currently exists is 
fulfilling the mandate Congress set in the Labor-Management Reporting 
and Disclosure Act.

    Question 2. If confirmed, would you consider revoking the June 20, 
1995, letter of the Wage & Hour Administrator which declined to use the 
Agency's resources to enforce Davis-Bacon Act violations for union job 
targeting programs?
    Answer 2. If confirmed, I look forward to being briefed on the 
Davis-Bacon Act and the use of job targeting programs under it as we 
develop the Department's regulatory policies and priorities, and I will 
enforce the laws under the Department of Labor's jurisdiction fully and 
fairly.

    Question 3. Do you agree with the Department of Labor's Wage 
Appeals Board rulings in 1991 that the practice of deducting union dues 
from employee wages and returning them to an employer through union job 
targeting programs on Davis-Bacon Act prevailing wage jobs, is unlawful 
conduct under the anti-kickback provisions of the Davis-Bacon Act?
    Do you intend to enforce the Davis-Bacon Act provisions that bar 
the ``kickback'' of any portion of a worker's Davis-Bacon wages to an 
employer from a union-sponsored job target fund?
    Do you agree that union job target funds undermine competition as 
the Department of Labor's Wage Appeals Board indicated?
    Answer 3. If confirmed, I look forward to being briefed on the 
Davis-Bacon Act and the use of job targeting programs under it as we 
develop the Department's regulatory policies and priorities and will 
work to enforce the laws under the Department of Labor's jurisdiction 
fully and fairly.

    Question 4. President Obama's Executive Order 13502 encourages 
Federal agencies to require project labor agreements (PLAs) on Federal 
construction projects exceeding $25 million in total cost. PLAs have 
been shown to increase cost of Federal construction projects by 12-18 
percent (Beacon Hill, 2009), and give unionized contractors an unfair 
advantage.
    If confirmed, will you work with the President to ensure the best 
qualified applicants have a fair opportunity to win these contracts?
    Answer 4. The decision as to whether to maintain, amend, or rescind 
Executive orders belongs to the President, but I will certainly provide 
advice if asked by the President. I support the right of construction 
contractors to use PLAs where appropriate.

    Question 5. In 2012, paid Official Time (OT) taken by Federal 
employees to represent unions cost the American taxpayer $157.2 million 
in salary and 3.4 million hours.
    Would you commit to taking a serious look at the use of OT and its 
impact on the Federal workforce and stewardship of taxpayer dollars? If 
appropriate, would you support elimination of ``official time'' off for 
Federal union and member activity paid at government expense?
    Answer 5. I believe Congress with the President would need to act 
to make substantial changes to the availability of official time, but I 
certainly understand your concerns and will look into them at the 
Department of Labor if confirmed.

    Question 6. Do you believe that Regulations under the Davis-Bacon 
Act (DBA) and the Service Contract Act (SCA) could be streamlined so 
employer prevailing wage responsibilities are the same under both 
statutes? For example, DOL regulation state that fringe benefits cannot 
be included in wages paid under the SCA unless the employer expressly 
states a single amount includes fringes. 29 C.F.R. Sec. 4.170(a), 
4.177(a), while DBA regulations state the opposite. 29 C.F.R. 5.2(p).
    Answer 6. If confirmed, I look forward to being briefed on the 
Davis-Bacon Act and Service Contract Act as we develop the Department's 
regulatory policies and priorities.

    Question 7. A September 2016 Enterprise-wide Enforcement memorandum 
from the Solicitor of Labor for contractor covered workplaces expands 
OFCCP coverage to all business owned by a corporation doing business 
with the Federal Government.
    Do you believe this memorandum to be appropriate?
    Answer 7. I have not reviewed that particular memorandum, but, if 
confirmed, I look forward to being briefed on the matter and 
investigating the legal basis. I am aware that there were concerns with 
attempts in the prior administration to enforce responsibilities under 
a number of statutes that went beyond the scope of the historical 
norms.
 Response by Alexander Acosta to Questions of Senator Murray, Senator 
   Sanders, Senator Casey, Senator Franken, Senator Bennet, Senator 
 Whitehouse, Senator Baldwin, Senator Murphy, Senator Warren, Senator 
                        Kaine and Senator Hassan
                             senator murray
    Question 1. Will you continue the work the Department of Labor has 
instituted to expand registered apprenticeship and other successful 
training programs for American workers looking to succeed in the 21st 
century economy? How exactly will you do that? And can you commit to 
sustaining or expanding funding for these programs?
    Answer 1. Apprenticeship programs are a valuable and effective job 
training tool and expanding access to effective apprenticeship programs 
is a major facet of positioning our workforce to meet the needs of a 
changing economy. There are numerous examples throughout the Nation of 
industry, local academic and training institutions and government 
partnering effectively to train and place workers in growth sectors. If 
confirmed, I believe my role will be to make sure apprenticeships can 
be accessed in more communities and by displaced workers who will need 
to transition to new and growing industries, and I commit to working to 
sustain these types of programs.

    Question 2. What policies would you pursue around worker 
automation? Around health and safety? Predictable and regular 
schedules? Providing workers a path to the middle class?
    Answer 2. A growing economy combined with improved job training for 
in demand skills is among the best ways to grow the middle class. 
Advancing technologies, including automation, will change the types of 
jobs that are available in our economy. As I discussed at the hearing, 
we need to make better efforts to align job training with the skills 
the market demands today and in the future. In this way, workers can 
acquire skills that empower them to hold high quality jobs that are not 
automated. Encouraging economic growth and adoption of new technologies 
along with flexibility and creativity in the workplace will help 
improve health and safety and scheduling for workers. If confirmed, I 
look forward to reviewing policies under the Department of Labor's 
jurisdiction that can affect these areas and hope to benefit from an 
ongoing dialog with Congress as to how we can make improvements.

    Question 3. The World Economic Forum forecasted a net loss of 5.1 
million jobs by 2020 in the 15 leading economies, much of which will be 
due to automation and robotics. Do you think the government should help 
workers who have lost jobs to automation? What should that role be?
    Answer 3. I believe the Department plays a key role in providing 
training and career pathways to workers who are likely to be displaced 
by automation and robotics in the years to come. This may be the most 
profound challenge before the Department in the next decade. We need to 
better align job training with the skills the market demands of its 
workers, especially as advancing technology changes the types of jobs 
available in our economy. The Department of Labor, along with State and 
local governments, industry, and educational institutions, can partner 
to have substantial positive impact on American workers. If confirmed 
as Secretary of Labor, I look forward to working with you and Members 
of the committee to maximize the impact of every taxpayer dollar 
Congress directs toward job training programs.

    Question 4. According to the National Safety Council, agriculture 
is the second most dangerous occupation in the United States. Yet under 
lax labor laws, hundreds of thousands of children work long hours in 
U.S. agriculture, risking pesticide poisoning, heat illness, injuries 
from knives and heavy equipment, and life-long disabilities. Children 
working in tobacco farming also risk acute nicotine poisoning. The 
National Research Council and Institute of Medicine have reported that 
children working in agriculture in the United States make up only 8 
percent of the population of working minors overall, yet account for 40 
percent of work-related fatalities among minors. Exemptions for 
agriculture under the Fair Labor Standards Act (FLSA) allow child 
farmworkers to work at younger ages, for longer hours, and under more 
hazardous conditions than other working youths. Teens have to be at 
least 14 to work in an office or fast-food restaurant, and can only 
work for 3 hours on a school day. But in agriculture, children can work 
at age 12 with no limit on the number of hours that they work, as long 
as they do not work during school hours. While other employment sectors 
prohibit hazardous work before age 18, child farmworkers can perform 
hazardous duties at age 16. In 2014, the Unites States' largest tobacco 
companies recognized the dangers of nicotine exposure and other hazards 
in tobacco farming by adopting policies prohibiting children under age 
16 from working on farms in their supply chains. Yet Federal law and 
regulations provide no special protections for children working in 
tobacco farming. Agriculture is the second most dangerous occupation in 
the United States. What action will you take to address the double 
standards in the Fair Labor Standards Act that allow children working 
in agriculture to work at younger ages, for longer hours, and under 
more hazardous conditions than other working youth?
    Answer 4. I appreciate and share your concerns regarding the safety 
and health of children and young workers. If confirmed, I will fully 
and fairly enforce child labors laws designed to ensure children are 
protected from illegal employment in hazardous occupations and that 
those children who are eligible to work have safe and appropriate work 
experiences. If confirmed, I expect to be briefed on matters pertaining 
to children in the workplace, including agricultural work and tobacco 
farming, and hope to benefit from an ongoing dialog with Congress as to 
how we can advance the goal of child safety in the workplace.

    Question 5. Do you believe that children should be protected from 
nicotine exposure? If so, what action will you take to address the fact 
that under existing law and regulations, 12-year-olds can work legally 
on tobacco farms for 40 or 50 hours per week?
    Answer 5. If confirmed, I expect to be briefed on matters 
pertaining to children in agricultural work, including tobacco farming. 
I would need to consult with the Department of Labor staff to get more 
information to address your question specifically.

    Question 6. Women of color are far more likely than white women to 
be a victim of intimate partner violence, stalking, or sexual assault, 
and to need to take time off from work to seek assistance. Do you 
support Federal legislative proposals to create job-protected safe 
leave for survivors of gender-based violence? Do you think the 
Department of Labor has a role to play in providing protection and 
support to assist women with remaining in the workforce when they 
experience gender-based violence? What will you do to ensure that 
survivors of domestic or sexual violence have access to job-protected 
safe leave to seek services related to gender-based violence?
    Answer 6. Violence of all forms, including gender-based violence, 
is wrong. Further, gender-based violence can cause psychological issues 
that impact employment. I believe expanding job-protected leave would 
require congressional action and, if confirmed, I look forward to 
working with the President and Congress as discussions regarding leave 
occur.

    Question 7. In 2004 you wrote a letter 4 days before the election 
telling a Federal judge that it would ``undermine'' election law 
enforcement to not let citizens contest the credentials of other 
voters, and denied that this had racial motivations despite being a 
part of a larger plan to place poll monitors in predominantly African 
American neighborhoods. Additionally, in 2008 you came under scrutiny 
for allegedly improperly factoring ideological positions in hiring 
practices. Are you committed to enforcing anti-discrimination laws? 
Building off of this, do you believe it's time for the Nation to pass 
an anti-discrimination law to protect individuals from workplace 
discrimination based on their sexual orientation and gender identity?
    Answer 7. I am committed to enforcing the anti-discrimination laws 
that Congress has passed, and any that you and your colleagues in 
Congress pass in the future. I believe discrimination in the workplace 
based on sexual orientation or gender identity is wrong, although I 
support religious entities' freedom to hire consistent with their 
faith.

    Question 8. Do you believe that workers should have the right and 
opportunity to bargain collectively for higher wages and better working 
conditions through organizing with their coworkers?
    Answer 8. The right to collectively bargain is clearly established 
in law, as is the right of workers to decide whether to join a union or 
to refrain from joining a union. The decision of whether to join a 
union should be left to the individual. If they believe that joining 
together to bargain collectively will benefit their situation then they 
should do so.

    Question 9. Will you, as Secretary of Labor, advocate for, support, 
and defend workers' right to advocate for workplace improvements and 
bargain collectively?
    Answer 9. The right to collectively bargain is clearly established 
in law, as is the right of workers to decide whether to join a union or 
to refrain from joining a union. The decision of whether to join a 
union should be left to the individual. If they believe that joining 
together to bargain collectively will benefit their situation then they 
should do so, and I would support that choice.

    Question 10. Do you think collective bargaining is an appropriate 
means of increasing the share of the Nation's wealth that goes to 
middle-class Americans?
    Answer 10. The right to collectively bargain is clearly established 
in law, as is the right of workers to decide whether to join a union or 
to refrain from joining a union. The decision of whether to join a 
union should be left to the individual. If they believe that joining 
together to bargain collectively will benefit their situation then they 
should do so. If they believe collective bargaining would improve their 
share of the Nation's wealth, they should pursue their right to do so.

    Question 11. Do you think the Federal Government should take action 
to foster collective bargaining?
    Answer 11. The right to collectively bargain is clearly established 
in law, as is the right of workers to decide whether to join a union or 
to refrain from joining a union. The decision of whether to join a 
union should be left to the individual. If they believe that joining 
together to bargain collectively will benefit their situation then they 
should do so.

    Question 12. If members are not required to pay dues, do you think 
the Federal Government should pay the cost of union representation?
    Answer 12. The Federal Government should not pay for the cost of 
union representation.

    Question 13. Do you agree that labor unions are important to 
achieving and maintaining fairness and balance in our economy?
    Answer 13. The right to collectively bargain is clearly established 
in law, as is the right of workers to decide whether to join a union or 
to refrain from joining a union. This reflects a congressional judgment 
that providing this right can help maintain balance in our economy.

    Question 14. Given the overwhelming business opposition to the Fair 
Pay and Safe Workplaces EO, and your public stance on regulations, how 
will you address the issue of making sure that only responsible 
entities that comply with labor laws get government contracts?
    Answer 14. I understand that government agencies have suspension 
and debarment authorities and that the Department of Labor possesses a 
similar authority in the context of some of its statutes, including the 
Service Contract Act. If confirmed, in cases of willful and repeat 
violators, I would not hesitate to exercise that authority as 
Secretary.

    Question 15. Do you think that contractors receiving Federal tax 
dollars should be required to pay middle-class wages?
    Answer 15. I am informed that the Department sets certain wage 
rates on Federal contracts based on congressional mandate and 
statistical formulas by sector that flow from those mandates. Congress 
has the authority to make a decision to increase those rates across the 
board, and I will enforce the statutes Congress passes.

    Question 16. The Department you have been selected to lead is 
responsible for setting health, safety, and fairness standards for many 
construction projects and construction apprenticeships. It is well-
documented that women working in construction face extreme rates of 
sexual harassment and denigration. Indeed, a study by the Department of 
Labor itself reported that 88 percent of women construction workers 
experience sexual harassment at work. Construction has often been 
referred to as ``the industry that time forgot'' due to the overt 
discrimination faced by women who try to get hired into this field and 
the overwhelming hostility and harassment they face on the job if they 
are hired. As a result, the percentage of constructions jobs held by 
women has been stuck at less than 3 percent for more than a generation. 
Many Federal contracts are for construction work and the Labor 
Department has played an important role in addressing harassment and 
discrimination by Federal construction contractors and opening 
opportunities for women and people of color. Given President Trump's 
expressed commitment to infrastructure, Federal construction contracts 
could increase--which means the Labor Department's role in enforcing 
these protections against harassment and discrimination will be more 
important than ever. Can we expect you to implement and enforce 
critical anti-harassment protections for construction projects and 
apprenticeship programs, and continue the efforts begun in the present 
administration to ensure that mega construction projects funded by 
Federal dollars provide real opportunities to women?
    Answer 16. Sexual harassment and overt discrimination are illegal. 
As I noted in my hearing, if confirmed, I would enforce the laws 
Congress has written fully and fairly, including for apprenticeship and 
contracting programs, and for large scale construction projects.

    Question 17. OFCCP updated its sex discrimination rules last year 
to implement Executive Order 11246 for the first time in more than a 
generation. The rules now explicitly address sexual harassment and 
pregnancy discrimination for the first time. If you are confirmed, will 
you commit that the Department will uphold these regulations? Will you 
commit that OFCCP will implement and enforce these protections for 
employees of Federal contractors?
    Answer 17. I strongly support equal employment opportunity and 
preventing sexual harassment and pregnancy discrimination. As I noted 
in my hearing, if confirmed, I would enforce the law fully and fairly, 
including the aspects of Executive orders and their implementing rules.

    Question 18. After President Obama's Executive order allowing 
employees of Federal contractors to accrue up to seven paid sick days 
per year, the Department of Labor issued a final rule implementing 
these policies. If confirmed, will you urge President Trump to maintain 
this Executive order and commit to enforce and implement these 
protections to ensure employees of Federal contractors can access these 
benefits?
    Answer 18. The decision as to whether to maintain, amend or rescind 
Executive orders belongs to the President. As I noted in my hearing, if 
confirmed, I would enforce the law fully and fairly, including 
Executive orders that apply to the Labor Department or give the 
Department additional enforcement responsibilities.

    Question 19. According to the Journal of Occupational and 
Environmental Medicine, working sick costs the national economy $160 
billion annually in lost productivity. Currently there is an Executive 
order granting paid sick days to Federal contract workers to help avoid 
the spread of disease. Under your DOL, will you pursue efforts to 
expand this pro-business, pro-public health and pro-worker standard to 
all workers?
    Answer 19. I believe any attempt to expand paid sick leave would 
require congressional action, and if confirmed I look forward to 
participating in any discussion that occurs on paid sick leave.

    Question 20. Unemployment rates are higher for people with 
disabilities than other groups. According to the U.S. Bureau of Labor 
Statistics, in 2015 the unemployment rate for people with disabilities 
was approximately 11 percent, which is nearly double the unemployment 
rate for people without disabilities. Overseeing policies and 
priorities that impact our Nation's workforce development system is 
among the many responsibilities of the Secretary of Labor. One of the 
target areas of Public Law 113-128 (the bipartisan Workforce Innovation 
and Opportunity Act or WIOA) was to expand opportunities for people 
with disabilities to enter the workforce by creating a more accessible 
workforce system and expanding opportunities for training or 
apprenticeships. How will you as Secretary build on the opportunities 
created by WIOA to empower more people with disabilities to enter the 
workforce?
    Answer 20. I certainly support increasing the labor force 
participation rate of disabled individuals and helping them lead 
successful and self-sustaining lives. Such efforts contribute to our 
economy, and as important, to individual self-esteem. If confirmed, I 
expect to be briefed on programs at the Department that serve the 
disabled in order to understand how they are succeeding in 
accomplishing their mission.

    Question 21. The Office of Disability Employment Policy sponsors 
and disseminates valuable research and studies into effective practices 
for employment of people with disabilities as well as serves as an 
important coordinating office for cross-Federal agency collaborations 
on disability employment. Will you commit to preserving and 
strengthening this vital tool for economic self-sufficiency for 
Americans with disabilities? Will you work with Congress to ensure that 
the Office of Disability Employment Policy, the Office of Federal 
Contract Compliance Programs, and the Civil Rights Center has the 
funding and resources necessary to meet their objectives? What, if any, 
reforms would you make to these offices?
    Answer 21. I certainly support increasing the labor force 
participation rate of disabled individuals and helping them lead 
successful and self-sustaining lives. The Office of Federal Contract 
Compliance Programs and the Civil Rights Center also have important 
roles in promoting and protecting equal opportunity. As a nominee, I 
have not participated in the current budget discussions. If confirmed, 
I commit to working with Congress to ensure those offices can meet 
their objectives.

    Question 22. Section 501 of the Rehabilitation Act prohibits 
employment discrimination against people with disabilities in the 
Federal sector. President Trump has stated that it is important that 
the final regulations under section 501 are enforced, and that the 
Administration ``will work with Congress to set an example of the 
importance and value of hiring people with disabilities.'' What will 
you do to support the President on this issue and ensure that people 
with disabilities have increased opportunities for employment in the 
Federal Government? What would you propose to President Trump to 
fulfill this campaign promise?
    Answer 22. As I noted in my hearing, if confirmed, I will work to 
enforce the laws under the Department of Labor's jurisdiction fully and 
fairly. I certainly support increasing the labor force participation 
rate of disabled individuals and helping these individuals lead 
successful and self-sustaining lives. Such efforts contribute to our 
economy, and as important, to individual self-esteem.

    Question 23. The Department of Labor plays a crucial role in the 
implementation, enforcement, and public education of the Americans with 
Disabilities Act (ADA). As stated in the text of the Act, the purpose 
of the ADA is to

        ``provide a clear and comprehensive national mandate for the 
        elimination of discrimination against individuals with 
        disabilities in addition to defining a central role for the 
        Federal Government in enforcing the standards of the ADA on 
        behalf of individuals with disabilities.''

    In an effort to undercut the 26-year old law, some in Congress have 
proposed legislation to impose a 180-day waiting period before a person 
with a disability can take action to enforce their rights to gain 
access to a business, public building, educational institution, or 
other covered entity. Do you support the intent of this legislation to 
remove incentives for businesses and other places of public 
accommodation to comply with the ADA's accessibility requirements?
    Answer 23. I strongly support the ADA. I have not reviewed that 
particular piece of legislation, but I look forward to working with you 
and the rest of the Congress on protecting opportunities for the 
disabled.

    Question 24. Section 14(c) provision of the Fair Labor Standards 
Act, enacted in 1937, authorizes employers to pay sub-minimum wages to 
workers who have disabilities. In his campaign's response to a 
questionnaire from the American Association of People with 
Disabilities, the National Council on Independent Living and the REV UP 
Campaign, President-elect Trump stated,

          ``People with disabilities have the right to be paid on 
        parity with all others in the workforce so they may earn a fair 
        days wage for a fair day's work. My administration will work 
        with Congress to ensure that labor laws treat people with 
        disabilities fairly.''

    Do you plan to phaseout the nearly 80 year-old Section 14(c) of the 
Fair Labor Standards Act? If not, what are your plans for subminimum 
wage employment for people with disabilities? What will you do to 
address the underemployment and wage gaps experienced by people with 
disabilities, especially people with the most significant disabilities? 
Will you commit to increasing the number of people with disabilities in 
competitive integrated employment?
    Answer 24. I understand the Fair Labor Standards Act 14(c) 
exemption is statutory and is an area of concern and interest for many 
Members of Congress. If confirmed, I want to ensure that individuals 
with disabilities, who might not otherwise have a job, have access to a 
good job and are trained for these jobs. While I would need to 
thoroughly review any particular program or statutory exemption before 
I committed to supporting or opposing it, I certainly support 
increasing the labor force participation rate of disabled individuals 
and helping these individuals lead successful and self-sustaining 
lives. Such efforts contribute to our economy, and as important, to 
individual self-esteem.

    Question 25. Accurate data is crucial to measuring the health of 
the economy, including unemployment rates, as well as shedding light on 
pay practices and discrimination, yet President Trump has criticized 
the Bureau of Labor Statistics. What would you do to ensure that the 
government continues to collect and distribute accurate, timely, 
actionable data from businesses?
    Answer 25. Accurate data are crucial. The Bureau of Labor 
Statistics has a long history of transparent methodology, and the 
process for modifying that methodology occurs openly and with ample 
opportunity for robust public input, including from Congress. I am 
committed to such transparency, and to the integrity of BLS's mission.

    Question 26. What steps will you take and what concrete mechanisms 
will you put in place to hold your own appointees and senior staff 
accountable for ensuring that there is no political interference in the 
work of the Department?
    Answer 26. I believe all incoming political and senior career 
appointees receive mandatory ethics training and annual ethics training 
thereafter. As I noted at the hearing, if confirmed, I would enforce 
the law fully and fairly without regard to political pressure. I will 
expect that same commitment from all my subordinates.

    Question 27. Do you agree that the process for screening and hiring 
employees at the Department of Labor should be free from improper 
political influence?
    Answer 27. As I noted at the hearing, the use of political views in 
the hiring of career attorneys or staff should not be used. The Federal 
Government has merit selection processes that should be followed in 
civil service hiring.

    Question 28. For almost a century, the Women's Bureau of the 
Department of Labor has sought to advance the interests of women in the 
workplace, through research, public education, policy development, and 
advocacy. For example, today the Women's Bureau provides informational 
resources to aid women seeking to enter high-paying, traditionally 
male-dominated jobs in construction, transportation, and protective 
services; offers one stop know-your-rights guides on issues ranging 
from equal pay to pregnancy discrimination; and funds research on best 
practices for establishing State and local paid family and medical 
leave insurance programs, among many other initiatives. Despite the 
important work the Women's Bureau does to ensure equal opportunity for 
women on the job, the Bush administration sought to dismantle it. The 
outcry from the public saved the Women's Bureau, which has continued to 
provide valuable tools for women seeking to enforce their workplace 
rights and expand their workplace opportunities. Do you commit that 
under your leadership the Women's Bureau will receive the resources it 
needs to fulfill its mandate of safeguarding and advocating for the 
interests of working women, and that you will defend against any 
attempts to reduce its budgets, or staffing, or otherwise undermine its 
ability to do its work? In addition, since 2014, the U.S. Department of 
Labor's Women's Bureau has made $3.15 million in grants available for 
the development and implementation of State and local paid family and 
medical leave programs. Under your leadership, would the Department of 
Labor continue to fund such grants, such as supporting progress on paid 
leave in the United States, a policy area President Trump has expressed 
support for?
    Answer 28. The mission of the Women's Bureau is important. If 
confirmed, I commit to work with Congress on this matter.

    Question 29. Will you keep in place the Wage and Hour Division's 
Administrator's Interpretation No. 2016-1 (``Joint employment under the 
Fair Labor Standards Act and Migrant and Seasonal Agricultural Worker 
Protection Act''), which clarified the standards for finding joint 
employment status between multiple employers under the FLSA and MSPA? 
If not, why?
    Answer 29. If confirmed, I look forward to being briefed on Wage 
and Hour Division matters as we develop the Department's policies and 
priorities.

    Question 30. How do you plan to enforce existing employment laws, 
such as FLSA minimum wage and overtime protections, in today's 
workforce given the large numbers of workers who are hired through a 
staffing agency but report to work at another company's premises every 
day?
    Answer 30. As I noted at the hearing, if confirmed, I will work to 
enforce the laws under the Department of Labor's jurisdiction fully and 
fairly. I look forward to being briefed on this issue, as this is a 
growing trend in our economy.

    Question 31. The President has said that the current minimum wage 
is too low, suggesting that it should be raised to $10 an hour. Do you 
agree with your future boss that the current minimum wage is too low?
    Answer 31. The minimum wage is set federally by Congress but also 
in States and localities by their respective governments. I recognize 
that cost-of-living and other economic factors vary greatly across the 
United States and that many States and localities have increased the 
minimum wage above the Federal floor. I would evaluate a proposed 
Federal minimum wage increase carefully to see whether the economic 
benefits outweighed the costs. Ultimately it is Congress' decision 
whether to raise the Federal rate; the Department of Labor has no 
authority to act unilaterally. I will faithfully enforce whatever rate 
Congress enacts.

    Question 32. A majority of all employees being paid minimum wage 
are women. Kellyanne Conway's polling company found in a 2014 poll that 
Americans believe that companies should raise wages and improve working 
conditions for workers by nearly a 10-1 margin. Do you think that we 
should raise the Federal minimum wage? If so, to what? If not, what is 
your reasoning for not advocating for a widely popular policy? How do 
you respond to working families who are long overdue for a pay raise? 
Should it be tacked to cost-of-living increases in the future? Should 
there continue to be a separate tipped minimum wage? Should it be 
increased as well?
    Answer 32. The minimum wage is set federally by Congress but also 
in States and localities by their respective governments. I recognize 
that cost-of-living and other economic factors vary greatly across the 
United States and that many States and localities have increased the 
minimum wage above the Federal floor. I would evaluate a proposed 
Federal minimum wage increase carefully to see whether the economic 
benefits outweighed the costs. Ultimately it is Congress' decision 
whether to raise the Federal rate; the Department of Labor has no 
authority to act unilaterally. I will faithfully enforce whatever rate 
Congress enacts.

    Question 33. Do you believe that employers should pay a wage 
sufficient for its workers to live on without needing to rely on 
government benefits? Is it fair for employers to pay wages so low that 
their workers are eligible for government benefits like food stamps?
    Answer 33. As I said at the hearing, I know every member of the 
HELP Committee wants Americans to find jobs, good jobs, safe jobs, even 
if there is a difference of opinion as to how to achieve that goal. If 
confirmed, I hope to benefit from an ongoing dialog with the committee 
as to how we can advance that goal.

    Question 34. Some States like California and New York have already 
enacted a minimum wage of $15 per hour. Under Federal law, workers in 
these States are generally entitled to 1\1/2\ times the $15 minimum 
wage for overtime. Will you carry out strong enforcement of workers' 
overtime rights in those States?
    Answer 34. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly.

    Question 35. The Federal minimum wage for tipped workers is only 
$2.13 per hour and it's been frozen at that level since 1991. Tipped 
workers are twice as likely to live in poverty and three times as 
likely to need food stamps when they make the Federal minimum wage of 
only $2.13, yet in States where tipped workers get higher base wages, 
tipped workers are not nearly so disadvantaged. Do you support phasing 
out the subminimum wage for tipped workers?
    Answer 35. The minimum wage is set federally by Congress but also 
in States and localities by their respective governments. I recognize 
that cost-of-living and other economic factors vary greatly across the 
United States and that many States and localities have increased the 
minimum wage, including the minimum wage for tipped employees and the 
allowance for a tip credit, above the Federal floor. If confirmed, I 
look forward to working with the President and Congress as discussions 
regarding the Federal minimum wage and tipped minimum wage occur.

    Question 36. There are a number of States that have recently raised 
their minimum wages through ballot initiative. All won by overwhelming 
margins in the popular vote. Governor Paul LePage is vowing to fight 
the raise in Maine, and has stated that the Maine Department of Labor 
will not enforce parts of it. This could become precedent for other 
Republican Governors to try to nullify the will of the voters when it 
comes to the minimum wage. Please describe your understanding of the 
concept of the rule of law, and your respect and deference to the clear 
will of the voters on this issue.
    Answer 36. I am not familiar with the specific circumstances of the 
enactment of Maine's minimum wage law or of Governor LePage's position 
on it. I certainly believe in the rule of law. More specifically, no 
individual or constituency is above the law, and if confirmed as 
Secretary of Labor I will enforce Federal laws including the Federal 
minimum wage.

    Question 37. There has been a lot of discussion about worker 
classification as ``independent contractors'' in the so-called ``gig'' 
or ``on-demand'' economy, with some arguing that these workers are 
independent businesspeople, even though their work is (1) in large part 
dictated by the companies, (2) wages are often set by the companies, 
and (3) they can be disciplined for poor performance or for refusing 
jobs. How do you view these workers and these jobs, in the context of 
the broad definitions of ``employee'' found in the laws you will be 
expected to enforce, especially the Fair Labor Standards Act?
    Answer 37. An important role of the Department of Labor is to 
ensure that employers who want to do the right thing have clear 
compliance guidance from the Department. The use of independent 
contractors is a legal and valuable business practice. However, in some 
circumstances, when an employer incorrectly labels a worker as an 
independent contractor instead of an employee, the employer may not be 
abiding by their responsibilities to compensate the worker according to 
the requirements of the law. Employees incorrectly classified as 
independent contractors may be denied access to critical benefits and 
protections they are entitled to by law. This incorrect classification 
may also generate losses to the Federal Government and State 
governments in the form of lower tax revenues, as well as to State 
unemployment insurance and workers' compensation funds. Employers who 
deliberately misclassify workers undercut law-abiding employers who are 
making contributions to these systems and paying their workers 
properly. If confirmed, I look forward to being briefed on matters 
pertaining to the classification of employees and will work to enforce 
the laws under the Department of Labor's jurisdiction, including these 
employment laws, fully and fairly to ensure the protection of workers. 
If businesses are found to be incorrectly classifying workers, I will 
fully and fairly enforce the relevant laws.

    Question 38. A 2012 GAO report found that on average it takes OSHA 
nearly 8 years to develop and finalize needed safety and health 
standards. The most recent standards issued took much longer. The final 
standard to protect workers against deadly silica dust took nearly 19 
years from start to finish, and the rulemaking to protect workers in 
general industry from fall and slip hazards--leading causes of injury 
and death--took nearly 40 years. Do you agree that taking 10-20 or even 
40 years to develop and issue safety and health rules on major hazards 
is way too long? As Secretary of Labor, will you commit to seeing that 
the standards setting process can be made more timely and effective to 
protect workers against deadly workplace hazards?
    Answer 38. I agree that taking 10, 20, or 40 years to develop 
standards is too long. If confirmed, I look forward to discussing this 
and many other issues with the Department's OSHA staff, to help ensure 
the safety of all workers. I understand that OSHA regulations are 
difficult to promulgate and that many take a number of years as you 
noted. If confirmed, I will work to ensure that necessary regulations 
in this area are promulgated as quickly as possible while also 
complying with the requirements in law for such regulations.

    Question 39. Do you think it should be illegal for an employer to 
retaliate against a worker for exercising her rights under the 
Occupational Safety and Health Act, the Fair Labor Standards Act, or 
other labor and employment laws? Will you commit to maintaining a 
vigorous enforcement program to protect workers against illegal 
retaliation?
    Answer 39. Illegal retaliation should not be tolerated. If 
confirmed, I will work with the Department's staff to ensure that 
employers follow the law in this area and will work to maintain a 
vigorous enforcement program to protect workers from adverse employment 
actions based upon exercising a right they possess under these laws.

    Question 40. OSHA's existing safety standard for the containerized 
storage of flammable and combustible liquids--29 C.F.R. 
Sec. 1910.106(d)--incorporates the 1969 version of a fire code (NFPA 
30--Flammable and Combustible Liquids Code) that has been updated 15 
times since then based on advancements in research and technology, such 
as improvements in containers and sprinkler systems used in warehouses. 
Last year, the International Association of Fire Fighters, the National 
Volunteer Fire Council, and the bipartisan leadership of the 
congressional Fire Services Caucus wrote to Labor Secretary Tom Perez 
urging OSHA to update this existing safety standard in order to better 
protect the lives of firefighters and workers. Last fall, the 
Industrial Packaging Safety Alliance (``PackSafe'') filed a Petition 
for Rulemaking requesting that OSHA's existing safety standard for the 
containerized storage of flammable and combustible liquids--29 C.F.R. 
Sec. 1910.106(d)--be updated to include the most recent version of NFPA 
30. If you are confirmed, will OSHA give full consideration to the 
Petition for Rulemaking filed by the Industrial Packaging Safety 
Alliance (``PackSafe'') on October 31, 2016 through an open and 
transparent rulemaking process that allows all stakeholders to weigh-
in?
    Answer 40. If confirmed, I look forward to reviewing the safety 
standards to help ensure the safety of all workers. The Occupational 
Safety and Health Act of 1970 requires OSHA to ensure safe and 
healthful working conditions and I am committed to carrying out this 
mission. Where necessary, OSHA will promulgate appropriate and feasible 
rules to address workplace hazards. OSHA has many other tools at its 
disposal to carry out the obligations of the Act and to address new 
workplace hazards as they emerge, including conducting training and 
education, and providing compliance assistance to employers and 
employees. If confirmed, I will direct the Department staff to give 
full consideration to any petitions for rulemaking that are received 
and will work to ensure that all rulemaking processes are transparent 
and allow full stakeholder input.

    Question 41. Would you recommend that the President sign Joint Res. 
83, which is a ``congressional Review Act'' resolution to block OSHA's 
Volks Rule, a regulation that enables OSHA to hold employers 
accountable for failing to keep accurate records of workplace injuries 
and illnesses that harm workers? If OSHA cannot hold employers 
accountable for failing to keep accurate records, how can OSHA help 
protect workers from the risk of serious injury or death on the job?
    Answer 41. If confirmed, I look forward to discussing this issue 
with the Department's OSHA staff as we look for ways to ensure that 
employers are fully complying with their responsibilities to record 
injuries and illnesses that occur in the workplace.

    Question 42. Workers often do not report injuries to their bosses 
due to fear of retaliation. OSHA's final electronic recordkeeping rule 
includes a provision prohibiting employers from establishing programs 
that discourage workers from reporting their injuries. Do you support 
laws protecting whistleblowers from retaliation in the workplace?
    Answer 42. No employee should be subjected to illegal retaliation 
in the workplace for exercising a legal right they possess. The rights 
of whistleblowers must be protected.

    Question 43. In March 2016, the U.S. Occupational Safety and Health 
Administration (OSHA) released a final rule to reduce workers' exposure 
to respirable crystalline silica. The rule is expected to save over 600 
lives, prevent more than 900 new cases of silicosis each year, and 
generate net benefits of $7.7 billion each year. As Secretary of Labor, 
will you be committed to implementing this life-saving rule?
    Answer 43. The President, through an executive action, has directed 
all Cabinet secretaries to review all rules within each Cabinet agency. 
If confirmed, this responsibility will fall to me. As part of that 
responsibility I look forward to discussing this and many other issues 
with the staff of the Department's Occupational Safety and Health 
Administration.

    Question 44. Both the Bush administration and the Obama 
administration developed special inspection programs to further direct 
scarce agency inspection resources to target the worst violators--those 
employers who demonstrate indifference to the OSH Act by committing 
willful, repeated, or failure to abate violations. These programs for 
severe violators include inspection activities such as mandatory 
followup inspections and increased company awareness of OSHA 
enforcement. Do you support special enforcement initiatives for the 
worst violators with followup inspections and company-wide enforcement 
for similar hazards?
    Answer 44. If confirmed, I will work with the staff of the 
Department's Occupational Safety and Health Administration to ensure 
that all workers are protected. I agree that the worst offenders of 
health and safety standards should be targeted for increased scrutiny.

    Question 45. The Fair Labor Standards Act has been the law since 
1938. It is needed to prevent child labor abuse and to guarantee basic 
wage and hour standards like minimum wage and overtime pay for American 
workers. Do you believe that any existing FLSA rules should be 
repealed? If so, what are they?
    Answer 45. The Fair Labor Standards Act (FLSA) has been the law of 
the land for nearly 80 years and provides important overtime and 
minimum wage protections to workers, protections for children who are 
in the workforce, and recordkeeping requirements. As I noted in the 
hearing, the FLSA does require updating from time-to-time, especially 
when it involves dollar values. If confirmed, I look forward to being 
briefed by Department staff on the FLSA and the history of the 
Department's updates to the FLSA as we develop the Department's 
regulatory policies and priorities.

    Question 46. Would you use your statutory authority to interpret 
section 213 of the Fair Labor Standards Act, exempting various 
employees from the provisions of section 206 (minimum wage, and 
overtime) broadly, exempting more employees from protection of the 
minimum wage and overtime provisions, or narrowly, requiring employers 
to pay the minimum wage and overtime to more employees?
    Answer 46. There are many exemptions to the Fair Labor Standards 
Act's overtime and minimum wage requirements. If confirmed, I will work 
to enforce the laws under the Department of Labor's jurisdiction fully 
and fairly, including the Fair Labor Standards Act and any exemptions 
thereunder. I look forward to being briefed by Department staff on the 
Fair Labor Standards Act, its exemptions, and the Department's 
precedent of interpreting and enforcing the statute as we develop the 
Department's regulatory policies and priorities.

    Question 47. At your confirmation hearing, you stated that it was 
unclear whether the Secretary of Labor has the authority under the Fair 
Labor Standards Act (FLSA) to set a salary threshold in defining and 
delimiting the so-called ``white collar'' exemption from the FLSA's 
overtime pay requirements. A salary threshold has been used as part of 
the test for exemption by every Secretary of Labor since the FLSA was 
first enacted in 1938. Every Secretary of Labor to date has been quite 
clear on the fact that the Secretary of Labor does, indeed, have the 
authority to set and enforce a salary threshold.
    Do you believe that the Secretary of Labor has the authority under 
the FLSA to set a salary threshold in defining and delimiting the 
``white collar'' exemption?
    If confirmed, will you defend the authority of the Secretary of 
Labor to set a salary threshold in court, if that authority is 
questioned or challenged?
    If you answered ``No'' to either of these questions, please explain 
in detail (i) the legal basis for your conclusion and (ii) what you 
would base the ``white collar'' exemption on if you believe you would 
be unable to set a salary threshold as Secretary of Labor.
    Answer 47. The district court decision enjoining the rule 
specifically stated that,

          ``[t]he Department exceeds its delegated authority and 
        ignores Congress' intent by raising the minimum salary level 
        such that it supplants the duties test.''

    Texas v. DOL, 4:16-cv-00731 (E.D. Tex. Nov. 22, 2016), at p. 13. 
Thus, there is a question as to whether a salary threshold change 
without a coextensive duties test is viable, and if it is, at what 
point does it ``supplants'' the duties test. I think the authority of 
the secretary to address this is a separate issue from what the correct 
amount is. The litigation needs to be considered carefully, both with 
respect to what would be the appropriate amount if the rule were to be 
changed or revised, but also what is within the authority of the 
secretary to do.

    Question 48. You stated at your confirmation hearing,

          ``I think it's unfortunate that rules that involve dollar 
        values can sometimes go more than a decade--sometimes 15 
        years--without updating, because life does become more 
        expensive over time.''

    The final overtime rule addressed this issue through an automatic 
updating mechanism, increasing the salary threshold every 3 years to 
keep pace with inflation. Will you commit to requiring regular, 
automatic updates to the overtime salary threshold every 3 years, as is 
required by the updated overtime rule?
    Answer 48. The Fair Labor Standards Act's overtime salary threshold 
has not been updated since 2004. When a rule involves dollar values, I 
believe waiting more than a decade to update that rule is unfortunate. 
I do not know if every 3 years, specifically, is the best solution, but 
I look forward to being briefed by Department staff on the Fair Labor 
Standards Act and the history of the Department's updates to the law as 
we develop the Department's regulatory policies and priorities.

    Question 49. DOL's own research and that of other academics shows 
that somewhere between 15 and 30 percent of employers' policies violate 
the FMLA, will you commit to addressing these violations?
    Answer 49. If confirmed, I commit that I will work to enforce the 
laws under the Department of Labor's jurisdiction fully and fairly, 
including the Family and Medical Leave Act.

    Question 50. Paid leave policies that only apply to birth mothers 
are inadequate for today's workforce, where more women are working, 
fathers are providing more care for children and the population is 
aging rapidly. Creating a policy solution that applies only to women 
who give birth would create barriers to women's employment, promote 
stereotypes and undermine the progress that the United States has made 
in terms of gender fairness. Would you oppose a maternity-leave only 
policy and instead encourage the President to consider addressing paid 
leave for both women and men? For both parental as well as family and 
personal medical needs?
    Answer 50. I recognize that many States, localities, and private 
sector employers on a voluntary basis, have implemented paid leave laws 
and policies. I believe attempts to expand paid leave federally would 
require congressional action. As I mentioned in the hearing in the 
context of the gig economy, promoting workplace flexibility is 
something I support, particularly for working parents with young 
children. If confirmed, I look forward to working with the President 
and Congress to work through the issues raised in your question.

    Question 51. Will you support an update to the FMLA law to allow 
parents to attend meetings at their children's schools?
    Answer 51. As I mentioned in the hearing in the context of the gig 
economy, promoting workplace flexibility is something I support, 
particularly for working parents with young children. Amending the 
Family and Medical Leave Act would require congressional action. If 
confirmed, I look forward to working with the President and Congress as 
these discussions occur.

    Question 52. There are well-documented health disparities in the 
LGBTQ community, due to a range of factors, including a higher 
likelihood of being uninsured, discrimination and lack of cultural 
competency among health care providers, and the negative health impact 
of social stigma and discrimination. Due to such disparities, LGBTQ 
people likely have a higher need for inclusive paid leave policies. 
Fortunately, States are passing paid leave laws to meet this need. 
California, New Jersey, and Rhode Island have paid family and medical 
leave programs in place, while New York and Washington, DC approved 
such programs in 2016. The State of California has had a statewide paid 
family leave program in place for more than a decade. Research has 
found that the program has substantial economic and health benefits for 
working families without burdening businesses. Even the California 
Society for Human Resource Management found the law ``does not pose as 
many burdens as employers feared it would'' and ``is less onerous than 
expected.'' During this period, California's economic growth has 
outpaced the national average and its economy is now the sixth largest 
in the world. In recent years, the Department of Labor has provided 
small grants to States and localities that have allowed them to analyze 
and conduct feasibility studies on paid family and medical leave 
policies. As Secretary, will you direct the agency to continue to 
invest in State-paid family and medical leave analysis grants? Will you 
ensure that reports resulting from these grants are released to the 
public? Will you pledge to support States considering and adopting paid 
family leave measures?
    Answer 52. I would need to review any particular grant program 
before I committed to supporting it. If confirmed, I look forward to 
learning more about the program. I do believe research is important and 
that results of such research should be made public. Further, I support 
an individual State's right to adopt leave measures.

    Question 53. In addition to these paid family and medical leave 
laws, paid sick days laws are now in effect--or soon will be--in 7 
States and 32 localities. Research from the longest standing laws shows 
that they are working well and are not burdensome for employers. For 
example, both Seattle and San Francisco saw positive job growth after 
their paid sick days laws took effect. In San Francisco, the first city 
with a paid sick days standard, the local Chamber of Commerce's vice 
president stated that its impact on businesses was ``minimal'' and that 
``[b]y and large, [paid sick days] has not been an employer issue.'' 
Evidence from other localities has similarly found low costs to 
businesses and positive benefits for workers. As Secretary of Labor, in 
light of the research on the economic and health benefits of paid sick 
days, will you encourage or discourage other States and localities from 
adopting paid sick days laws? Would you support or oppose a national 
standard like the Healthy Families Act? Federal laws do not mandate 
paid annual leave, paid time off for illness or family care, or paid 
parental leave. The absence of such policies makes it difficult for 
employees to balance work and family, which can negatively impact 
productivity, inhibit the healthy development of children, and make 
recovery from major illnesses or injuries difficult. Would you propose 
any policies guaranteeing earned sick days or paid parental leave? What 
alternatives would you propose to support workers who need time off to 
care for themselves or their loved ones? What specifics would you like 
to see enshrined in law to help protect all workers, regardless of 
income? How do we guarantee that these policies will help all workers, 
not just wealthier ones who can take advantage of tax breaks? How do we 
incentivize all companies to provide these benefits, not just provide 
tax breaks for companies that are already doing the right thing?
    Answer 53. I would need to review any legislation or policies 
before I committed to supporting them. As I mentioned in the hearing, 
promoting workplace flexibility is something I support, particularly 
for working parents with young children. I recognize that many States 
and localities have implemented paid leave laws. I believe attempts to 
expand paid leave would require congressional action. If confirmed, I 
look forward to working with the President and Congress as discussions 
regarding paid leave occur.

    Question 54. Community-based organizations, advocacy groups for the 
working poor, and individual working people rely on the Department of 
Labor's Wage and Hour Division and their regional outreach specialists 
(CORPS specialists) as vital points of contact for reporting and 
recovering stolen wages. Will you commit to expanding the number of 
regional outreach specialists to ensure working people legal recourse 
to be paid for each and every hour they work?
    Answer 54. I would need to review any particular program before I 
committed to expanding it. If confirmed, I look forward to learning 
more about the program. That said, I certainly support using taxpayer 
resources effectively in pursuit of Wage and Hour's mission.

    Question 55. Fewer than 3 in 10 unemployed workers now receive 
unemployment benefits, which is a record low (in 13 States, including 
Florida, North Carolina, and Georgia, where lawmakers slashed the 
maximum duration of benefits by as much as half, fewer than one in five 
unemployed workers receives unemployment benefits). This has 
devastating consequences for the millions of workers currently locked 
out of the program and for those who will face major layoffs when the 
next recessions hits. Do you believe that a social insurance program 
designed to help the unemployed, and their families, maintain basic 
living standards while they search for another suitable job and to 
mitigate the immediate and long-term impacts of global financial crises 
on State and local economies is meeting its objectives if fewer than 15 
percent--or even 10 percent--of the unemployed in several States are 
receiving benefits?
    Answer 55. If confirmed, I expect to be briefed on the Department's 
programs and benefits for the unemployed so that I can understand which 
services and benefits are the most effective, and best assist workers 
in finding new careers and mitigating the challenges that come with job 
loss.

    Question 56. It has now been 7 years since the last recession 
officially ended, but as of early this year, only 18 States had enough 
reserves in their Unemployment Insurance trust funds to pay adequate 
benefits when the next recession hits. Given the critical role that the 
UI program plays in alleviating economic hardship, and boosting the 
economy, do you support Federal efforts to restore the solvency of the 
Federal and State UI trust funds, which are regulated by Federal law.
    Answer 56. If confirmed, I expect to be briefed on the UI trust 
funds, their solvency and how the Department and its resources can best 
position them to help the most Americans and best accomplish the 
Department's mission.

    Question 57. In 2012, Congress enacted the Layoff Prevention Act 
(sponsored by Senator Jack Reed), which provided financial incentives 
to States with work-sharing programs. To date, 28 States have enacted 
federally conforming work-sharing laws. The U.S. Department of Labor 
estimates that work-sharing saved over 160,000 jobs in 2009 alone and 
over half a million jobs since 2008. Do you believe that programs like 
work-sharing will be important to helping employers, especially 
manufacturers, withstand business downturns and any future recessions? 
Do you believe that work-sharing should be an option for employers in 
all 50 States?
    Answer 57. If confirmed as Secretary of Labor, I will look forward 
to reviewing the work-sharing program--which I understand is called the 
``short-time compensation (STC) program''--with the States currently 
operating the STC program, with employers, and also, with Department 
staff. If confirmed, I expect to be briefed on issues such as work 
sharing and other innovations in the workplace to understand how they 
impact employment and economic growth. I support allowing as much 
flexibility to States, employers and employees as possible under the 
law.

    Question 58. In recent years, ideologically diverse legislative and 
executive branches of both Federal and State governments have placed an 
increased emphasis on bipartisan criminal justice reform. The Labor 
Department's key initiative that supports criminal justice reform 
efforts is the Reentry Employment Opportunities (REO) program, which 
helps connect returning citizens to job training and employment. What 
is your position on REO? Would you work with Congress to ensure this 
important program receives the necessary funding and remains a priority 
for the Trump administration?
    Answer 58. If confirmed, I look forward to learning more about REO. 
Programs that help reintegrate citizens into the economy post-
incarceration are very important and of interest to me. I understand 
that the Department has several programs that focus in this area, and I 
look forward to being briefed on all of them. Thank you for making me 
aware of your appreciation of this program and this issue. I look 
forward to working with you and other members of the committee on 
efforts to help citizens reintegrate into the workforce post-
incarceration.

    Question 59. Over 30 million adult Americans lack even a high 
school degree or a GED--double the population of New York City, 
Chicago, and Los Angeles combined. These Americans include veterans and 
others with significant barriers to better employment. The challenge is 
multi-generational: half of their children will also fail to complete 
high school. As a result, our economy is hurt, our Nation is not as 
competitive as it should be, and people cannot advance in careers and 
life. As Secretary, how would you address this critical issue?
    Answer 59. Our workforce training system must be positioned to 
provide training and skills to the millions of workers who lack a post-
secondary education if they are to prosper in our modern and constantly 
changing economy. The worker training and apprenticeship programs under 
the Department's purview must position these workers with skills that 
meet the needs of growth industries and sectors.

    Question 60. The U.S. Department of Labor is required under the 
Trade and Development Act of 2000 (TDA) to submit an annual report to 
Congress on the efforts by countries that receive trade preference 
under the Generalized System of Preferences (GSP) to combat the worst 
forms of child labor. The Department currently assesses countries on 
their progress, identifies positive efforts and remaining challenges, 
and issues recommendations to address the identified challenges. This 
is a critical tool the Department uses to raise awareness about the 
problem of child labor and engage with other governments to address the 
issue. What will you do to ensure that the report is a useful tool for 
countries to combat the problem of child labor?
    Answer 60. Child labor is a truly troubling problem. I believe that 
the Department's Bureau of International Labor Affairs is assigned the 
duty described in your question, and if confirmed, I will work with 
that office to make certain that any reports in this area contain the 
information needed to help countries eliminate this problem.

    Question 61. The U.S. Department of Labor, in coordination with the 
Office of the U.S. Trade Representative, is responsible for the 
monitoring and enforcement of labor provisions of free trade 
agreements. A recent Government Accountability Office report concluded 
that there is an overall lack of effective monitoring and enforcement 
of the labor provisions in our trade agreements. How will you 
strengthen the efforts of the Department's Bureau of International 
Labor Affairs (ILAB) to effectively monitor and enforce labor 
provisions of free trade agreements--especially given the drastic cuts 
to ILAB proposed in the President's skinny budget?
    Answer 61. If confirmed, I look forward to working with ILAB, the 
Trade Representative and Congress on this important issue. While I have 
not been involved in the budget process as a nominee, it is worth 
noting that the President's budget ``[fo]cuses the Bureau of 
International Labor Affairs on ensuring that U.S. trade agreements are 
fair for American workers.''

    Question 62. Do you believe that enforcing the Fair Labor Standards 
Act and preventing wage theft improves the U.S. economy? Why or why 
not?
    Answer 62. If confirmed, I would be responsible for enforcing the 
Fair Labor Standards Act and will work to enforce this and other laws 
under the Department of Labor's jurisdiction fully and fairly. The 
protections provided by wage and hour laws provide a level of economic 
security to our Nation's workforce and help Americans to purchase goods 
and service to support their families, thereby also supporting 
America's businesses and improving the economy.

    Question 63. Do you believe government should regulate issues 
regarding wages?
    Answer 63. Yes, the government does in fact regulate wages and has 
for over 70 years.

    Question 64. For many decades, the Wage and Hour Division has 
focused its limited enforcement resources on the industries where wage 
theft and child labor are rampant. Do you support this type of 
strategic enforcement, in addition to responding to individual worker 
complaints?
    Answer 64. I support strategic enforcement alongside individual 
complaints. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly.

    Question 65. Because women are overrepresented in low-wage jobs, 
they are especially vulnerable to wage theft and exploitation, and are 
often reluctant to report violations for fear of retaliation. Do you 
commit that under your leadership the Wage and Hour Division will not 
scale back or limit its implementation and enforcement efforts, and 
that you will defend against any attempts to undermine the Division's 
ability to conduct robust investigation and enforcement activities, 
including defending against any budget cuts to the Division?
    Answer 65. As I noted at the hearing, if confirmed, I would enforce 
the law fully and fairly, including Wage and Hour Division 
responsibilities. Enforcement of these laws will be priority 
irrespective of the budget Congress ultimately enacts.

    Question 66. In addition to responding to individual complaints, 
recent enforcement strategy at the Wage and Hour Division has 
emphasized targeted investigations of industries with high numbers of 
wage and hour violations--including the fast food, restaurant, hotel, 
and garment manufacturing industries--which also employ significant 
numbers of low-wage workers and women. Under your leadership, will the 
Department of Labor continue to pursue proactive, targeted enforcement 
strategies to protect the workplace rights of large numbers of 
vulnerable workers in high-violation industries, and not rely primarily 
or solely on a complaint-driven enforcement strategy?
    Answer 66. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly. Strategic 
enforcement in high violation areas, alongside individual complaints, 
is a balanced enforcement strategy I support.

    Question 67. The Bush DOL had an enforcement philosophy that 
directed more significant resources than usual toward helping employers 
comply with the laws that DOL administers. While compliance assistance 
must be part of any DOL enforcement agenda, a 2009 GAO investigation 
and report revealed the flaws in a strategy that put so much emphasis 
on compliance assistance, to the utter detriment of enforcement. The 
GAO report documents how phone complaints were routinely ignored and 
how investigations were often pro forma at best. Without targeted 
enforcement in high violation industries, where workers are justifiably 
afraid to complain for fear of retaliation, there is very little chance 
that these employers will get caught. What is your plan for ensuring 
that the enforcement agencies at DOL vigorously enforce the laws they 
are charged with overseeing?
    Answer 67. As I noted at the hearing, if confirmed, I would enforce 
the law fully and fairly. Certainly, compliance assistance for small 
business particularly is a good way to help explain the laws to good 
employers who may not understand their responsibilities. Compliance 
assistance should not, however, be conducted at the expense of overall 
enforcement.

    Question 68. Congress and the Administration have taken several 
steps in the last 8 years to expand access to, and improve the quality 
of, training and employment programs that prepare workers for high-
skill, high-wage employment in jobs and occupations that exist right 
now. That progress includes bipartisan passage of the Workforce 
Innovation and Opportunity Act (WIOA), which authorizes the Nation's 
public workforce system, and new investments in job-driven training 
programs, including training programs designed to aid workers affected 
by global trade. These investments help workers build their skills and 
raise their wages, and help employers--particularly small- and mid-
sized employers that lack large H.R. and training budgets--find skilled 
workers. As Labor Secretary, will you continue to invest in worker 
training, and maintain or expand upon the current level of service and 
investment that the public workforce system provides to States and 
local workforce development areas? In your view, what is government's 
role in worker training?
    Answer 68. The Department of Labor, along with State and local 
governments, industry, and educational institutions, can partner to 
have substantial positive impact on America's workers. I believe it is 
important to view job training programs in terms of return on 
investment, to borrow a metric form the business world. For a modest 
investment in training, we can prepare a worker to land a good, safe 
job, to keep that job, to pay taxes--resulting in an overall net return 
on investment. If confirmed as Secretary of Labor, I will work to shift 
more responsibility for funding job training and employment services to 
those States, localities and employers that can demonstrate their 
effectiveness in addressing the needs of both employers and workers. I 
strongly believe it is important to invest in worker training. I look 
forward to working with you and Members of the committee to realize 
these stated goals.

    Question 69. In 2009, Senator Jeff Sessions, now the Attorney 
General, opposed the Lilly Ledbetter Fair Pay Act, which Congress 
passed to help women bring claims of pay disparity based on gender 
discrimination. He opposed the Paycheck Fairness Act, which has not 
passed yet, but would punish employers for retaliating against 
employees who share wage information and allow employees to sue for 
damages resulting from wage discrimination. Are you concerned that the 
Department of Justice may provide less assistance in combating 
violations of equal pay laws given Senator Sessions' record of opposing 
such laws? Will you continue to make enforcement of equal pay laws a 
priority, to the same extent as the previous administration?
    Answer 69. At his confirmation hearing, Attorney General Sessions 
pledged himself to equal justice under the law and I have no reason to 
question the Attorney General's commitments. If confirmed as Secretary 
of Labor, I am committed to enforcing all laws committed to the 
Department of Labor's care, including those relating to equal pay.

    Question 70. In order to crack down on violations of equal pay 
laws, the National Equal Pay Enforcement Task Force made several 
recommendations, including that the Equal Employment Opportunity 
Commission (``EEOC''), the Department of Justice (``DOJ''), the 
Department of Labor (``DOL''), and the Office of Personnel Management 
(``OPM'') coordinate the responsibilities of enforcing the laws 
prohibiting pay discrimination. Do you think interagency coordination 
and enforcement efforts including communication among the agencies, 
coordinating investigations and litigation, identifying areas in which 
they can issue joint guidance to employers and employees, and 
conducting joint training as appropriate have made a positive impact on 
enforcement of equal pay laws? Do you believe these efforts deserve 
more or less support through funding and staffing? Please include 
specific examples of where there should be more or less coordination 
between these agencies.
    Answer 70. I would need to look into the task force's 
accomplishments to make a determination on its effectiveness. As I 
noted at my hearing in the context of job training, it is generally 
important for government agencies to work together to increase 
efficiency and effectiveness.

    Question 71. An estimated 5.25 million young people ages 16 to 24 
are unattached to school or work. Known as disconnected youth, they 
make up nearly one-third of unemployed people. Youth disconnection is 
not a challenge confined to urban, suburban, or rural America. In fact, 
rates of disconnection are particularly high across the south. Given 
the opportunity to reconnect with the labor market, these young people 
offer a return of hundreds of billions of dollars in economic 
productivity and savings to taxpayers. For these reasons, dozens of 
employers including Walmart, Starbucks, JP Morgan, CVS, Fed Ex, Hilton 
and others have committed to creating 100,000 opportunities to 
reconnect these young people with productive and self-sustaining work. 
Would you support setting a broader goal of reconnecting 1 million 
opportunity youth? What role do you see for the Department of Labor in 
re-engaging youth who have left high school without earning a high 
school diploma? In connecting Opportunity Youth to jobs, workforce and 
training programs?
    Answer 71. I appreciate you raising this issue, and I agree it is 
vitally important. I share your belief that getting more young people 
involved in workforce training and apprenticeship programs is an 
important goal. There are numerous examples throughout the Nation of 
industry, local academic and training institutions and government 
partnering effectively to train and place workers in growth sectors. I 
believe that the Department of Labor, along with State and local 
governments, industry, and educational institutions, can partner to 
have a critical positive impact on American workers, especially young 
people who struggle with education and employment. I would be pleased 
to work with you and other Members of the committee to identify new 
ways to re-engage these youth and help them succeed in the labor force.

    Question 72. In August 2016, Time Magazine reported that President 
Trump contracted with a company that employed undocumented immigrants 
from Poland to work on the site of his flagship Trump Tower in New York 
City and had them work 12-hour shifts without paying them overtime. 
According to Time Magazine, when the people building the Trump Tower 
complained that he was stealing the wages they had earned, President 
Trump had his lawyer threaten to call immigration officials and get the 
people working on the site deported. While President Trump has denied 
some of these facts, it is indisputable that some corporations exploit 
undocumented immigrants who work for them and then threaten to call 
immigration authorities to silence whistleblowers. Not only does this 
put undocumented immigrants in an extremely vulnerable position, it 
ends any chance to ferret out unscrupulous corporations who disregard 
the law, do not pay overtime, put the people who work for them in 
dangerous working conditions, and even sexually abuse or traffic their 
employees. If whistleblowers are deported, after all, the government 
cannot investigate charges of exploitation or abuse. Will you ensure 
that DOL investigators protect whistleblowers from their boss making a 
retaliatory call to immigration authorities? Will you commit to working 
with the Department of Homeland Security to ensure that DHS does not 
initiate deportation proceedings against immigrants during on-going 
investigations over workplace labor law violations or for exercising 
their rights as workers in the United States? Will you train Department 
of Labor investigators to be aware that investigations into labor law 
violations should take precedence over immigration proceedings absent 
extraordinary circumstances, such as national security? Will you 
instruct Department of Labor investigators to de-conflict Department of 
Labor investigations with Department of Homeland Security enforcement 
activity to prevent a raid against a worksite at which a labor 
investigation or action is occurring? Will you work with Department of 
Homeland Security to ensure Department of Homeland Security officials 
know whom to call to determine if there is an open Department of Labor 
investigation before initiating a workplace immigration investigation?
    Answer 72. I believe that the Department has a longstanding 
commitment to ensuring that all workplace protections are enforced 
regardless of workers' immigration status. I have not reviewed it but I 
believe there is a Memorandum of Understanding between the two cabinet 
departments that is designed to avoid interfering in each other's 
enforcement responsibilities. If confirmed, I will discuss this issue 
with Department of Labor staff and ask them to work with Department of 
Homeland Security staff to help ensure that both agencies can continue 
to fulfill their responsibilities.

    Question 73. There are numerous press reports already about 
immigrant workers being afraid to go to DOL to pick up settlement 
checks for unpaid wages because they fear deportation. Similarly, the 
press is reporting that immigrant workers, even some that have 
documentation, now fear complaining about unsafe conditions or wage 
theft. Advocates report that this is the case as well. As you know 
well, we must vigorously enforce the employment rights of those workers 
most vulnerable to exploitation not only to protect their basic human 
rights, but also, so we don't allow unscrupulous employers to undercut 
the documented and citizen workforce by hiring and abusing undocumented 
workers. Indeed, the single best thing we can do to protect all 
American workers, is to protect all who work in America. These well-
founded fears threaten to sideline the DOL in these important matters, 
undercutting the rights of the entire low-wage workforce. If you are 
Secretary, what will you do to ensure that the DOL remains open to 
undocumented workers who are being exploited? Will you engage in 
targeted investigations in industries that tend to hire them and if so, 
what will you do to protect them from workplace raids? Will you 
vigorously enforce the current Memorandum of Understanding between DOL 
and DHS detailing how DHS must defer to DOL's investigations and 
enforcement actions? Will you fight to maintain this MOU if others want 
to abandon it?
    Answer 73. I believe that the Department has a longstanding 
commitment to ensuring that all workplace protections are enforced 
regardless of workers' immigration status. I support that longstanding 
practice. I have not studied the MOU you reference, but I believe it is 
important that both agencies avoid interfering in each other's 
responsibilities.

    Question 74. Your statements on immigration and immigrant workers 
are at odds with statements that President Trump has made. What 
policies would you like to see? How will you work with President Trump 
if you are in opposition to one another? What policies do you propose 
to welcome immigrants to the United States?
    Answer 74. As I noted at the hearing, I think there is a need to 
have immigration laws that are transparent and clear, and I do think 
that we have an issue of abuse with immigrant workers. I think when 
workers are not part of the system, the system can abuse them. I also 
think it's important that we enforce immigration laws. I don't see 
enforcement of immigration laws as separate from immigration reform. As 
the child of immigrants, I certainly support and appreciate the 
benefits of legal immigration and the opportunities my family has had. 
The best way to welcome legal immigrants is to have a growing economy 
that gives them the opportunity to contribute.

    Question 75. As reported by The Washington Post, President Trump is 
the president of a Charlottesville vineyard that has applied for H-2A 
workers for multiple years, including for 2017. The DOL plays a key 
role in implementing and enforcing the H-2A program, both as the 
regulatory agency that oversees the employer's application process and 
as the agency tasked with enforcing worker protections under the 
program. As President, Trump will be overseeing the very agency that 
will determine whether or not his business's request for foreign 
workers will be granted. Ethics experts cited in The Washington Post 
article described President Trump's interest in the H-2A program as a 
business owner and as the executive authority in charge of the H-2A 
program as ``a classic conflict of interest'' which would extend to his 
appointees. Given this clear conflict of interest, how will you be able 
to carry out the DOL's responsibilities under the H-2A program?
    Answer 75. As I noted in my hearing, if confirmed, I would enforce 
the laws Congress has written fully and fairly and I have done that 
throughout my career regardless of the individuals involved.

    Question 76. Do you believe that all working people, regardless of 
their immigration status, should be afforded the same health and safety 
protections and options for recourse if they are injured on the job?
    Answer 76. As I noted in my hearing, if confirmed, I would enforce 
the laws Congress has written fully and fairly, including health and 
safety protections, which apply regardless of immigration status.

    Question 77. Immigration enforcement is often used by exploitative 
employers as a tool to intimidate and retaliate against guest workers 
and other immigrant workers. This depresses wages and working 
conditions for all workers, and sometimes leads to forced labor and 
human trafficking on American soil. There have been numerous instances 
of Immigration and Customs Enforcement (ICE) agents impersonating OSHA 
officials in order to target immigrant workers, and the recent 
immigration enforcement surge has included worksite raids and the legal 
but problematic identification of ICE agents as police officers. The 
best way to prevent this misuse of ICE resources is to de-conflict and 
maintain a separation between immigration enforcement and labor 
enforcement.
    Do you agree with the principle that immigration and labor 
enforcement activities should be kept separate?
    If so, will you maintain or expand the interagency policy 
established with DHS to de-conflict worksite enforcement activities?
    Answer 77. If confirmed, I will fully and fairly enforce the law in 
this area. I believe it is important that ICE and all DOL agencies 
avoid interfering in each other's responsibilities.

    Question 78. The Labor Department during the Obama administration 
issued a number of rules to strengthen protections for working people--
their pay, their safety and health, their pensions, and many more. 
These protections were issued after public notice and a full 
opportunity for the public to submit comments. After reviewing all 
these comments, the Labor Department made a decision to issue the 
rules. Will you commit to following the law and providing a full 
opportunity for public notice and comment before modifying any of the 
Obama administration's regulations that have already been finalized and 
published?
    Answer 78. I will follow the requirements of the law in making 
changes to any regulations.

    Question 79. Data from the Bureau of Labor Statistics indicate that 
it takes older workers almost a year (about 40 weeks) to return to the 
workforce after losing their job. This is twice as long as it takes 
younger workers. Congress created and recently renewed their commitment 
to the Senior Community Service Employment Program (SCSEP) at the 
Department of Labor. This program has provided job training to millions 
of older Americans and has successfully moved them into permanent 
employment. While President Trump has claimed to be the champion of the 
American worker, his proposed budget calls to eliminate this employment 
program for low-income older workers. Should older workers who are 
unemployed but have the need, desire, and ability to work have access 
to temporary earn-and-learn training opportunities in their 
communities? How do you plan to assist the 67,000 unemployed older 
workers who will lose SCSEP service under the President's plan--
including the estimated 8 older workers from my State of Washington? 
Will you commit to work with Congress to ensure older workers who are 
unemployed have access to on-the-job training opportunities through 
SCSEP?
    Answer 79. I would need to review any particular program before I 
committed to supporting it. If confirmed, I look forward to learning 
more about SCSEP. As a nominee, I have not participated in the current 
budget discussions. I note that the President proposes a budget but it 
is ultimately Congress that will determine the funding levels. That 
said, I fully believe in assisting any worker, young or old, who seeks 
to rejoin the labor market but needs help developing in demand skills.

    Question 80. As you may know, since the enactment of the Energy 
Employees Occupational Illness Compensation Program Act (EEOICPA) and 
subsequent creation of the compensation Program, the Department of 
Labor and the Department of Energy have worked to process the claims of 
former employees and contractors who were exposed to radiation and 
toxins during their service at nuclear weapons facilities across the 
country. As a Senator from the State of Washington, this is a really 
important issue to me because we have thousands of workers and their 
families at the Hanford Nuclear Reservation located in the Tri-Cities 
who helped America win WWII and the cold war and continue to support a 
critical cleanup mission at Hanford. For years, I have been battling 
the slow and complex process that these heroes deal with in trying to 
secure the compensation and care promised them in a fair and timely 
manner. In addition, in 2005, I along with my colleagues worked to move 
this compensation program to the Department of Labor under the premise 
that it would do much better in processing claims. Yet, I still hear 
from workers that face a slow claims process, continuous program 
inefficiencies, endless obstacles to complete their process, and 
difficulties in receiving the health care and benefits they earned 
through their dedicated service to the United States. What steps will 
you take to improve this critical program? Would you commit to a 
comprehensive review of the operations of the Division of Energy 
Employees Occupational Illness Compensation (DEEOIC) and the Office of 
Workers' Compensation Program? And report to this committee its 
findings within 90 days?
    Answer 80. If confirmed, I will look into your concerns. I will 
need to consult with DOL staff in order to determine the proper scope 
of any review and the timelines.

    Question 81. As Secretary of Labor, you will serve as the Chairman 
of the Board of the Pension Benefit Guaranty Corporation (PBGC). The 
PBGC's multiemployer program reported in its fiscal year 2015 Annual 
Report that its deficit widened to $52.3 billion and it is likely to 
become insolvent in 2025.
    What do you think should be done to address the continuing solvency 
of the PBGC's multiemployer program?
    What do you think should be done to address the solvency issues for 
plans like Central States among other plans that applied to Treasury to 
cut benefits under the Multiemployer Pension Reform Act of 2014 (MPRA) 
and were rejected?
    Answer 81. If confirmed, I will be Chair of the Pension Benefit 
Guaranty Corporation's Board of Directors and expect to be briefed on 
the matter of underfunded multiemployer pension plans. As I noted in 
the hearing, I have not proposed a plan to address the issue of 
underfunded multiemployer plans and I wish there were an easy solution. 
These workers have worked hard for pensions they reasonably expect upon 
retirement, and I understand that. I look forward to working with 
Congress and the President as solutions are proposed.

    Question 82. During your confirmation hearing when questioned about 
the looming insolvency of Central States and the PBGC, you would not 
commit to maintaining pension benefits rather than taking the drastic 
measure of cutting them because ``if you expand it further to include 
city and State pension funds, you're talking about approximately a $2 
trillion price tag.''
    Could you please discuss what you believe your role as Secretary of 
Labor is in overseeing city and State pension funds and the authority 
for such role?
    Answer 82. If confirmed, I expect to be briefed on the matter of 
underfunded multiemployer pension plans and the PBGC's financial 
condition. I am aware that there are also concerns that many State and 
local government pension funds are substantially underfunded. Promoting 
retirement security is part of the Department's mission and good public 
policy. If confirmed, I look forward to working with Congress and the 
President as solutions are proposed to resolve pension funding concerns 
particularly as they relate to the PBGC.

    Question 83. Do you think that the PBGC should set its own premiums 
for its multiemployer and single-employer programs? Please explain why 
or why not.
    Answer 83. If confirmed, I look forward to a briefing regarding the 
PBGC's authority over premiums. I also look forward to working with 
Congress and the President as solutions are proposed, including 
proposals regarding PBGC premiums.

    Question 84. Do you think the current premiums for PBGC's single-
employer and multiemployer programs are sufficient? Please explain why 
or why not. Moreover, if you do not believe they are sufficient, please 
discuss what you believe a sufficient premium range would be.
    Answer 84. If confirmed, I look forward to working with Congress 
and the President as solutions are proposed, including proposals 
regarding PBGC premiums. The premiums charged need to take into account 
both the need for funding the PBGC's guaranty programs while also 
keeping pension costs low so that employers continue to sponsor 
retirement plans.

    Question 85. Do you believe that the current structure of the PBGC 
Board (the Secretaries of Commerce, Labor and Treasury) is the most 
effective management structure for the PBGC?
    Answer 85. It is certainly important that the interests of plan 
participants and beneficiaries be represented on the Board. If 
confirmed, I look forward to briefings on these issues, including the 
role of the Board of Directors in the management of PBGC and discussing 
any proposed reforms to the structure with Congress.

    Question 86. Do you believe that the PBGC should be given greater 
authority to work with distressed multiemployer and single-employer 
plans? If so, what authority do you think is needed?
    Answer 86. Supporting the ability of retirement plans to honor 
commitments made to working men and women is important. If confirmed, I 
expect to be briefed regarding the PBGC and ways to improve the 
prospects of distressed multiemployer and single employer plans, and I 
look forward to working with Congress and the President as solutions 
are proposed.

    Question 87. Do you believe every American who seeks professional 
investment advice regarding his or her retirement accounts deserves to 
receive advice that is solely in his or her best interest?
    Answer 87. It is important that the retirement savings of working 
Americans be protected. Working Americans deserve to have access to 
sound financial advice at fair and transparent prices, and the law 
requires those who are fiduciary advisers give advice that is solely in 
the interest of plans, their participants, and beneficiaries.

    Question 88. You stated in your confirmation hearing that the 
conflict of interest rule ``goes far beyond simply addressing the 
standard of conduct'' of investment advisers. If after your 
presidentially mandated review, you decide to rescind or significantly 
scale back the rule, what kinds of protections do you think need to be 
put in place to ensure that hardworking individuals and retirees 
receive advice that is solely in their best interest?
    Answer 88. Hardworking individuals and retirees should receive 
advice that is in their best interest. If confirmed, I expect to 
carefully examine the rule, pursuant to the executive memorandum. If 
repealed or scaled back, the basic protection articulated above would 
be important to address.

    Question 89. As part of the rulemaking process the Department of 
Labor undertook in completing the final conflict of interest rule, the 
Department prepared a 382-page regulatory impact analysis examining in 
great detail the expected economic impacts of the rule. This was the 
culmination of a roughly 6-year process that incorporated the feedback 
of thousands of public comments submitted to the Department in multiple 
comment periods. Included in the analysis were discussion of the exact 
issues the Administration seeks to study according to the new 
presidential memorandum directing the Department to study the rule. 
While you made it abundantly clear during your confirmation hearing 
that President Trump would be your boss and you would follow his 
direction until you couldn't, do you think it a good use of taxpayer 
dollars to conduct a study that has already been completed? What do you 
intend to do with the rule if and when the results of this new study 
are consistent with the previous study?
    Answer 89. The presidential memorandum addresses with specificity 
the fiduciary rule and details the Department of Labor's obligations to 
review the rule. If confirmed, I will conduct a review in accordance 
with the presidential memorandum. As Chairman Alexander noted, as a 
nominee it would be presumptuous to make any regulatory determinations 
at this time. Indeed, given that the comment period is still open on 
the questions raised as part of the evaluation, it would be improper 
for me to prejudge the rulemaking.

    Question 90. The Department of Labor's Employee Benefits Security 
Administration devotes substantial resources to protecting the 
contributions made by employees and the matching contributions promised 
by their employers to employer-sponsored benefit plans, including 
401(k)'s and health plans. Workers have had their contributions to 
their pension or health plans withheld from their paychecks without 
their employers depositing the money in the plans in a timely manner--
or even at all in some cases. Instead, these employers kept the 
workers' contributions and used them for their own purposes or for 
other unrelated purposes. What should the Department do to more 
effectively protect working people against employers' misuse of their 
retirement and health money?
    Answer 90. If confirmed, I expect to be briefed on matters related 
to the Employee Benefits Security Administration and will work to 
enforce the laws under the Department of Labor's jurisdiction fully and 
fairly, including taking vigorous enforcement action if employers are 
unlawfully withholding funding for employee pension and health 
benefits.

    Question 91. During your confirmation hearing, you stated that 
considering ``indirect control or even unexercised potential to control 
working conditions'' when analyzing joint employer status was an ``un-
traditional approach.'' The Restatement (Second) of Agency refers to a 
master as someone who ``controls or has the right to control'' another 
and refers to a servant as one who is ``controlled or is subject to the 
right to control.'' (emphasis added) Indeed, the Supreme Court's 
considerations are consistent with these principles, as the Court has 
pointed to whether one ``possessed sufficient control over the work of 
the employees to qualify as a joint employer.'' Boire v. Greyhound 
Corp., 376 U.S. 473 (1964) (emphasis added).
    The common law has long acknowledged that control may be indirect, 
and the Restatement of Employment Law, Section 1.04(b) (March 2017) 
states,

          ``An individual is an employee of two or more joint employers 
        if (i) the individual renders services to at least one of the 
        employers and (ii) that employer and the other joint employers 
        each control or supervise such rendering of services.''

    Do you believe that these common law principles are ``un-
traditional'' and should be ignored when considering joint employer 
status under labor and employment laws?
    Answer 91. If confirmed, I look forward to being briefed on these 
matters as we develop the Department's regulatory policies and 
priorities.

    Question 92. While you were Assistant Attorney General of the 
Department of Justice's Civil Rights Division, you chose to write a 
letter to an Ohio judge in defense of an Ohio voter challenger law just 
days before the 2004 general election. It is a departure from standard 
practice of the Justice Department to weigh in on cases involving 
issues of voters rights and access so close to an election. 
Furthermore, the Department of Justice had no role in the case.
    Why did you choose to write the letter?
    How do you explain your decision, given that the Department of 
Justice had no role in the case? What was the value in the Department 
weighing in?
    Did you weigh in on cases involving voter challenger laws or other 
laws relating to voter rights and access at the time? Were there 
controversies in other States in which the Department chose to involve 
itself?
    Answer 92. The Department of Justice has a long history of 
submitting its views of statutes committed to its enforcement. The 
Department of Justice is charged with enforcing both the Help America 
Vote Act of 2002 (``HAVA'') and the Voting Rights Act (``VRA''). At the 
time, HAVA was a relatively new statute. Because of this, there was 
value in bringing to Judge Dlott's attention key aspects of HAVA, i.e., 
that State and local election officials must permit any individual 
whose name does not appear on the official registration list or whose 
eligibility to vote is called into question to cast a provisional 
ballot even if they are unable to answer specific questions posed by 
election judges; that provisional ballots are part of a congressionally 
established balance between ballot access and ballot integrity; and 
that as a result, non-discriminatory challenge statutes are not 
prohibited on their face (although they can be prohibited as applied). 
Provisional ballots would mitigate the impact of the Ohio ``challenge 
statute'' at issue in that case, which otherwise may have resulted in 
the disqualification of some voters without any recourse to confirm 
their eligibility and to restore their vote. The letter alerting Judge 
Dlott to HAVA's requirements was consistent with the Civil Rights 
Division's many other efforts to raise awareness of and to enforce HAVA 
in several States during 2004. Importantly, the Department did not 
speak to the specific allegations raised by the plaintiffs in that 
suit, but limited its comments only to the statutes on their face.

    Question 93. In 2003, the Civil Rights Division's Voting Rights 
Section was tasked with reviewing a plan proposed by the Texas 
legislature to redraw the State's congressional districts. Under the 
Voting Rights Act, States with a history of discriminatory election 
practices had to receive approval from the Justice Department to make 
changes to their voting systems. This rule was designed to prohibit 
changes that would have harmed minority voters. The career attorneys in 
the Voting Rights Section found that the Texas redistricting plan would 
have had a discriminatory effect. Yet, senior political officials in 
the Department overruled the career attorneys and the Texas plan went 
into effect. The Supreme Court later found that the Texas redistricting 
plan had ``failed to protect minority voting rights.'' You chose to 
recuse yourself from this case and have refused to provide an 
explanation for your decision. In a congressional hearing in 2004, you 
stated,

          ``I do believe that my recusal was appropriate, that it was 
        the right thing for me to do. I have very able deputies, good 
        deputies, and I have full confidence in their decisionmaking 
        process.''

    Why did you choose to recuse yourself from this case? And based on 
the mistake made by political officials to override the correct 
decision by the section's career attorneys, do you regret your 
decision?
    Answer 93. Recusal is appropriate where an official has an actual 
conflict of interest, or where under the circumstances the official may 
reasonably appear to have a conflict of interest. As I mentioned at my 
hearing, I have a longstanding friendship with the then Solicitor 
General of Texas, Mr. Cruz, who was litigating this matter personally. 
I recused myself out of concern that this contact may be portrayed as a 
conflict of interest. I take recusal obligations very seriously. It is 
as important to recuse in cases where recusal is required as it is not 
to recuse in cases where recusal is not required. In this case I 
believe my decision to recuse from any involvement in the Department's 
deliberations and decisionmaking was appropriate.
                            senator sanders
                              minimum wage
    Question 1. On July 27, 2016, Donald Trump said at a press 
conference ``The minimum wage has to go up. At least $10. It has to go 
up.'' I believe we need to increase the minimum wage to $15 an hour. Do 
you believe that the Federal minimum wage of $7.25 an hour is a 
starvation wage? Do you believe someone can support a family on $7.25 
an hour? In your opinion, do you believe that Donald Trump was correct 
when he said that the minimum wage has to go up to at least $10 an 
hour?
    Answer 1. The minimum wage is set federally by Congress but also in 
States and localities by their respective governments. I recognize that 
cost-of-living and other economic factors vary greatly across the 
United States and that many States and localities have increased the 
minimum wage above the Federal floor.
                                pensions
    Question 2. A few years ago, the Republican Congress passed a law 
that allows companies to cut the earned pension benefits of millions of 
workers in multi-employer pension plans by as much as 60 percent. I am 
about to re-introduce legislation that would repeal this law and 
prohibit employers from cutting earned pension benefits. This 
legislation would be paid for by closing loopholes that allow 
millionaires to pay lower tax rates than their secretaries. Will you 
work with me on this legislation? What will you do to prevent the 
earned pension benefits of millions of Americans in multi-employer 
pension plans from being cut?
    Answer 2. If confirmed, I will be Chair of the Pension Benefit 
Guaranty Corporation's Board of Directors and expect to be briefed on 
the matter of underfunded multiemployer pension plans. As I noted in 
the hearing, I have not proposed a plan to address the issue of 
underfunded multiemployer plans and I wish there were an easy solution. 
These Americans have worked hard for pensions they reasonably expect 
upon retirement, and I understand that. I look forward to working with 
Congress and the President as solutions are proposed to address this 
important issue.
                       employee ownership (esops)
    Question 3. Employee stock ownership using the ESOP model has 
broad-based bi-partisan support in Congress. The data shows that 
employee-owned companies provide jobs that are more productive, 
competitive, and sustainable, especially in a time of economic 
downturns. Do you believe broad-based ownership by employees in the 
companies where they work is good policy for our Nation--for the 
employees, their companies, their communities? Will DOL work to 
encourage broad-based employee ownership? I have long believed that 
worker ownership is an economic model that we should be using to reduce 
income and wealth inequality. Studies have consistently shown that 
worker ownership increases wages, productivity, and benefits, and 
sharply reduces turnover and absenteeism.
    Answer 3. I strongly support empowering Americans in all aspects of 
their working endeavors. A well-run ESOP, like other employment-based 
retirement plans, can provide valuable benefits to participating 
workers, and I believe that Congress and the Department have a shared 
responsibility to take steps to make sure that ESOPs fulfill their 
important mission of providing benefits and enhancing employee 
ownership. If confirmed, I expect to be briefed on ESOPs and I look 
forward to working with Congress as we develop the Department's 
regulatory policies and priorities to expand opportunity.

    Question 4. I will be re-introducing legislation to allow the 
Department of Labor to provide grants to States and local government to 
educate workers and retiring business owners about the benefits of 
employee ownership. I will also be introducing legislation to create a 
U.S. Employee Ownership Bank to provide low-interest loans and 
financial assistance to workers who want to create worker-owned 
businesses. Will you work with me on those bills?
    Answer 4. As I expressed at my confirmation hearing, I look forward 
to working with you and all of the members of the committee on issues 
like the one you raise here. I share your interest in the benefits of 
employee ownership programs and look forward to learning more about the 
value they can provide to workers and businesses, if confirmed.
                           immigration/visa's
    Question 5. What specific actions will you take to prohibit U.S. 
workers from being replaced by guest workers through the H-1B program?
    Answer 5. As I noted in my testimony, I think that this is an 
important issue to review, particularly where Americans are being asked 
to train their foreign replacements. That is not the intent of the H-1B 
program. If confirmed, I look forward to working with the Department 
staff to look for ways to eliminate this problem. If legislation is 
needed, I look forward to working with you and the committee to help 
enact any needed changes.

    Question 6. Do you believe that businesses should be allowed to 
force U.S. workers to train their replacements who are here under the 
H-1B program in order to receive a severance package?
    Answer 6. I believe this is offensive to American workers. As I 
noted in my testimony, I think that this is an important issue to 
review. That is not the intent of the H-1B program. If confirmed, I 
look forward to working with the Department staff and Congress to look 
for ways to eliminate this problem. The only thing that I can think of 
that is worse than losing your job is being forced to train your 
replacement.

    Question 7. Currently, the H-2B program requires that the employer 
offer a wage that equals or exceeds the prevailing wage, or adheres to 
the local minimum wage. The program also requires recruitment 
displacement standards to protect similarly skilled U.S. workers. How 
do you intend to enforce these requirements?
    Answer 7. Protecting U.S. workers is my priority. If confirmed, I 
will enforce the laws in this area that are within the jurisdiction of 
the Department of Labor and direct my staff to work with other 
Departments involved to address any issues. If legislative changes are 
needed, I look forward to working with you and the committee to come up 
with a solution.

    Question 8. How will you make sure that H-2B guest workers are not 
exploited by unscrupulous employers?
    Answer 8. Certainly, guest workers on any program should be treated 
fairly in order to protect them and maintain U.S. working conditions. 
If confirmed, I will enforce the laws in this area that are within the 
jurisdiction of the Department and direct my staff to work with other 
Departments involved to address any issues. If legislative changes are 
needed, I look forward to working with you and the committee to come up 
with a solution in this area.

    Question 9. In your opinion, should companies be able to pay guest 
workers on a J-1 visa less than the minimum wage?
    Answer 9. Certainly, guest workers on any program should be treated 
fairly in order to protect them and maintain U.S. working conditions. 
If confirmed, I look forward to being briefed regarding the J-1 visa 
program, but I believe that program is enforced by the State 
Department, not the Department of Labor as it is considered a cultural 
or educational visa. If confirmed, I will work to enforce the laws 
under the Department of Labor's jurisdiction fully and fairly, 
including the Fair Labor Standards Act, and ask staff to assist the 
State Department in safeguarding these workers.

    Question 10. How would you interpret and enforce the Fair Labor 
Standards Act with respect to the J-1 visa au pair program?
    Answer 10. Certainly, guest workers in any program should be 
treated fairly in order to protect them and maintain U.S. working 
conditions. If confirmed, I look forward to being briefed regarding the 
J-1 visa program, but I believe that program is enforced by the State 
Department, not the Department of Labor, as it is considered a cultural 
or educational visa. If confirmed, I will work to enforce the laws 
under the Department of Labor's jurisdiction fully and fairly, 
including the Fair Labor Standards Act, and ask staff to assist the 
State Department in safeguarding these workers.

    Question 11. Are au pairs entitled to a State's minimum wage if 
that exceeds the Federal minimum wage? Are au pairs entitled to 
overtime under the Fair Labor Standards Act?
    Answer 11. If confirmed, I look forward to being briefed regarding 
the J-1 visa program, but I believe that program is enforced by the 
State Department, not the Department of Labor, as it is considered a 
cultural or educational visa. Certainly, guest workers in any program 
should be treated fairly in order to protect them and U.S. working 
conditions. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly, including the Fair 
Labor Standards Act, and ask staff to assist the State Department in 
safeguarding these workers.

    Question 12. In guest worker programs where employers are required 
to provide housing by statute, will you allow employers to deduct the 
cost of housing even if it would mean that the paycheck of the guest 
worker would be lower than the minimum wage?
    Answer 12. If confirmed, I will fully and fairly enforce all the 
laws that protect guest workers. Whether employers can deduct the cost 
of housing from employee wages depends on the guest worker statute. It 
would not be appropriate for an employer to deduct the cost of housing 
from the required wage where the guest worker statute requires the 
employer to pay for housing.

    Question 13. Should the Department of Labor protect guest workers 
from retaliation if they report problems with their working conditions?
    Answer 13. Anti-retaliation provisions are designed to ensure that 
workers can assert their rights and should be supported and enforced 
for that reason. To the extent Congress has given authority to the 
Department under guest worker statutes, if confirmed, I will fully and 
fairly enforce all the laws that prohibit illegal retaliation.
                       conflict of interest rule
    Question 14. The DOL estimated that Americans lose at least $17 
billion a year due to conflicted advice from their advisers. Do you 
think protecting investors from receiving bad, or conflicted advice, is 
good public policy that will help more Americans retire with financial 
security?
    Answer 14. It is important that the retirement savings of working 
Americans be protected. Working Americans deserve to have access to 
sound financial advice at fair and transparent prices, and the law 
requires those who are fiduciary advisers give advice that is solely in 
the interest of plans, their participants, and beneficiaries.

    Question 15. It is difficult for the average person to know who's 
who in giving them investment advice. Without the enactment of the 
conflict of interest rule, someone who is a ``registered investment 
advisor'' must provide advice in the best interest of their clients, 
while someone who calls themselves a ``financial advisor,'' or 
``retirement advisor'' has no such obligation. Do you believe the 
investment industry has a responsibility to make this clearer and 
easier to understand for average Americans, or does the burden in your 
view rest on the person investing?
    Answer 15. I believe that transparency with respect to obligations 
is important generally and in this context. Working Americans deserve 
to have access to sound financial advice at fair and transparent 
prices, and the law requires those who are fiduciary advisors give 
advice that is solely in the interest of plans, their participants, and 
beneficiaries.

    Question 16. When it developed the fiduciary rule, the DOL prepared 
an exhaustive economic analysis conservatively estimating that 
conflicted advice from advisers costs American savers at least $17 
billion a year. Yet the agency has just submitted a proposal to OMB to 
delay the rule pending another economic analysis. Every day that this 
rule is needlessly pushed back, countless hardworking Americans could 
lose critical parts of their retirement savings. What would you say to 
those investors?
    Answer 16. It is important that the retirement savings of working 
Americans be protected. I support empowering Americans to make their 
own financial decisions, to facilitate their ability to save for 
retirement and build the individual wealth necessary to afford typical 
lifetime expenses, such as buying a home and paying for college, and to 
withstand unexpected financial emergencies. There are concerns, 
however, that the fiduciary rule may adversely affect the ability of 
Americans, particularly those with smaller accounts, to gain access to 
retirement information and financial advice. As I noted at the hearing, 
a presidential memorandum addresses with specificity the fiduciary rule 
and details the Department of Labor's obligations to review the rule. 
If confirmed, I will conduct the review in accordance with the 
presidential memorandum, but with the underlying goal of ensuring the 
policy meets the President's and Congress mutual goal of safeguarding 
retirement security.
                           federal employees
    Question 17. The Federal Government continues to be American's 
largest low-wage job creator. On February 12, 2014, President Obama 
signed an Executive order establishing a $10.10 minimum wage for 
Federal contract workers. Do you support or oppose that Executive 
order? On September 7, 2015, President Obama signed an Executive order 
``establishing paid sick leave for Federal contractors.'' Do you 
support or oppose that Executive order?
    Answer 17. I believe that the vast majority of Federal contractors 
pay $10.10 minimum irrespective of the Executive order and many also 
provide paid sick leave. As I noted in my hearing, if confirmed, I 
would enforce the law fully and fairly, including Executive orders that 
apply to the Labor Department or give the Department additional 
enforcement responsibilities.

    Question 18. On July 21, 2014, President Obama signed an Executive 
order ``prohibiting discrimination based on sexual orientation and 
gender identity.'' Do you support or oppose that Executive order?
    Answer 18. I believe the White House has indicated its intent not 
to rescind this Executive order, and I support that decision. I am 
committed to enforcing anti-discrimination laws. I believe anti-
discrimination laws should prohibit workplace discrimination based on 
sexual orientation or gender identity, although I support religious 
entities' freedom to hire consistent with their faith.
                              civil rights
    Question 19. Mr. Acosta, according to the Lawyers' Committee for 
Civil Rights Under Law:

          ``[You] led the Civil Rights Division at a time that was 
        marked by stark politicization and other improper hiring and 
        personnel decisions that were fully laid to bare in a 2008 
        report issued by the Office of Inspector General (OIG). The OIG 
        found that actions taken during Mr. Acosta's tenure violated 
        Justice Department policy and Federal law. Political and 
        ideological affiliations were used as a litmus test to evaluate 
        job candidates and career attorneys, wreaking havoc on the work 
        of the Division. This egregious conduct played out under Mr. 
        Acosta's watch and undermined the integrity of the Civil Rights 
        Division. It is hard to believe that Mr. Acosta would now be 
        nominated to lead a Federal agency tasked with promoting lawful 
        hiring practices and safe workplaces.''

    Given your record at the Department of Justice, how can we trust 
you to fairly enforce our Nation's labor laws?
    Answer 19. As I indicated at my hearing before the committee, the 
conduct described in the OIG's report was wrong and should not have 
taken place. The OIG concluded that I was not aware of the misconduct. 
Nonetheless, it occurred on my watch as Assistant Attorney General. I 
am well aware of what happened, and committed to ensure it is not 
repeated. I am committed to enforcing the Nation's labor laws, fairly 
and fully.
                           voter suppression
    Question 20. All over this country there has been a massive effort 
by Republican legislatures and Governors to suppress the vote of 
African Americans, Latinos, and the poor. In 2004, the Ohio Republican 
Party announced its plan to deploy thousands of people across Ohio to 
challenge votes in mostly African American precincts. Many in the civil 
rights community called this plan nothing more than ``a vestige of Jim 
Crow laws'' which ``created the possibility of disenfranchising a voter 
without due process of law.'' Yet, you wrote a letter in defending this 
practice when you were at the Department of Justice. According to a 
2007 article by McClatchy,

          ``Former Justice Department civil rights officials and 
        election watchdog groups charge that [your letter] letter sided 
        with Republicans engaging in an illegal, racially motivated 
        tactic known as `vote-caging' in a State that would be pivotal 
        in delivering President Bush a second term in the White 
        House.''

    If you fought to suppress the vote of African Americans in Ohio, 
how can we trust you to enforce our Nation's anti-discrimination laws 
in the workplace?
    Answer 20. If confirmed as Secretary of Labor I will be committed 
to fairly and fully enforcing all laws entrusted to the Department of 
labor including workplace anti-discrimination laws.
                                general
    Question 21. Trump has been involved in at least 60 lawsuits 
involving employees and contractors alleging he did not pay them. 
According to DOL data, he has been cited for 24 violations of the Fair 
Labor Standards Act since 2005 for failing to pay overtime or minimum 
wage. Despite his campaign promises, his actions paint a portrait of a 
systemic culture to devalue workers. How do you plan on addressing this 
conflict of interest? Will you create policies that will have a direct 
impact on the President's pending labor investigations and lawsuits?
    Answer 21. As I noted in my hearing, if confirmed, I would enforce 
the laws Congress has written fully and fairly and I have done that 
throughout my career regardless of the individuals involved.
                                 budget
    Question 22. President Trump's proposed budget cuts the Labor 
Department by 21 percent, or $2.5 billion. Meanwhile, full-time workers 
are struggling to provide for their families and find good jobs. Do you 
know how many U.S. workers the Labor Department will have to turn away 
for job training and career services if the President's budget request 
to cut $2.5 billion from the Labor Department is enacted?
    Answer 22. As a nominee, I have not participated in the current 
budget discussions. If confirmed, one of my goals and responsibilities 
will be to use taxpayer resources wisely to provide the best job 
training and career services to all Americans in need of those 
resources.
                            youth employment
    Question 23. In a study of 98 of America's 100 most populous metro 
areas, which includes 66 percent of the U.S. population, Measure of 
America found that youth disconnection is not a spontaneously occurring 
phenomenon; it is an outcome years in the making. Disconnected young 
people tend to come from communities that are themselves disconnected 
from the mainstream by segregation and concentrated disadvantage, and 
young people's struggles with education and employment mirror those of 
their parents and neighbors. Under your leadership, would you direct 
discretionary funding to high-poverty urban, rural, and tribal areas/
communities?
    Answer 23. If confirmed, I look forward to working on this issue in 
order to find ways to better serve youth who confront the challenges 
you describe. I share your concerns about communities and individuals 
that feel disconnected from society, and expect to be briefed on what 
the Department is doing in this area, and how we can improve those 
efforts, if confirmed. The Department of Labor, along with local 
governments, industry, and educational institutions, can partner to 
have substantial positive impact on American workers, including young 
people who struggle with education and employment. If confirmed, I will 
work to maximize the impact of every taxpayer dollar directed to job 
training programs and ensure funds go to programs that work. I would 
add that efforts in these communities need to be coordinated with other 
Departments, including Housing and Urban Development and Education.

    Question 24. The taxpayer and social burden of a disconnected 16-
year-old young person during his or her lifetime is over $1,014,140. Do 
you believe there is a Federal role in supporting States and local 
areas to connect unemployed youth to the labor market? If so, what is 
that role?
    Answer 24. I believe that programs at the Department of Labor, most 
prominently those in the Employment and Training Administration, do 
play a role in helping to serve the communities you describe. As I 
mentioned previously, I share your concerns about communities and 
individuals that feel disconnected from society, and do believe that 
this Federal role is important in partnership with local government and 
private industry.

    Question 25. Youth and young adults in the United States face an 
unprecedented employment crisis. Seven years after the ``official'' end 
of the Great Recession, teen unemployment remains high at nearly 17 
percent. Will you make youth employment a top priority for your tenure 
as Secretary?
    Answer 25. Thank you for highlighting this important issue. Youth 
and young adult employment will be a priority that I plan to focus on, 
if confirmed.

    Question 26. For the middle class especially, the American dream of 
each generation doing better than the last is slipping out of reach. 
Today's young people are working just as hard as their parents did, and 
yet--due to stagnant wages and higher education costs--are less likely 
to out-earn their parents in their lifetimes. How will you restore and 
protect this generation's right to the American Dream?
    Answer 26. I share your concern about this generation struggling to 
experience greater successes than their parents. A strong belief in the 
American dream and a sense that it is achievable is important to our 
American identity and society. My family experienced the American dream 
first-hand, and I hope that if confirmed, I can bring those experiences 
to bear in order to support policies, initiatives and reforms that will 
provide the opportunity for this generation to realize greater success 
than did their parents.
                                  wioa
    Question 27. The Wagner-Peyser Act of 1933 established a State-
administered, federally funded national system of public labor exchange 
offices known as the U.S. Employment Service (ES). The Act most 
recently was amended in 2014 by the Workforce Innovation and 
Opportunity Act (WIOA). The Employment Service has for decades been 
providing job search assistance, job interview referrals, re-employment 
services to unemployment insurance claimants, and recruitment services 
for employers seeking to fill vacancies. It also specially meets the 
specific needs of youth, minorities, older workers, individuals with 
disabilities, and veterans. WIOA has expanded the Employment Service's 
mandate to provide more intensive, staff-assisted career counseling to 
job seekers, thus affirming ES's key role within American Job Centers. 
Will you fully support the work of the Employment Service through 
appropriations requests for adequate funding and other means?
    Answer 27. The Department of Labor, along with State and local 
governments, industry, and educational institutions, can partner to 
have substantial positive impact on America's workers. If confirmed as 
Secretary of Labor, I will work to maximize the impact of Federal 
taxpayer dollars directed to employment and job training programs and 
shift more responsibility for funding job training and employment 
services to States, localities and employers that can effectively 
address the needs of both employers and workers. I strongly believe it 
is important to invest in worker training. I look forward to working 
with you and Members of the committee to realize these stated goals.
    Question 28. The Workforce Innovation and Opportunity Act of 2014 
(WIOA) passed with virtually unanimous bipartisan support in Congress--
marking the first update to the Nation's core workforce training 
programs in 16 years. Since WIOA was enacted, the State and local 
workforce development system has worked to implement the law's changes 
to the Nation's employment, training, adult education, and vocational 
rehabilitation programs, including its emphasis on improving services 
to low-income adults and youth who have limited skills, lack work 
experience, and face other barriers to securing an education and 
getting a good job. In 2016, the Departments of Labor and Education 
published final rules implementing WIOA; relying on this regulatory 
framework, States have completed extensive stakeholder consultation 
processes and finalized their State workforce development plans. Will 
you commit to keeping these rules in place so that States and local 
areas can continue to implement their 4-year WIOA plans?
    Answer 28. If confirmed, I expect to be briefed on WIOA and all 
related programs and implementing regulations in order to understand 
stakeholder, State workforce agency and worker interests and concerns. 
So long as these rules are working well, I see no reason to disturb 
them; if improvement would be helpful, however, I believe changes 
should be considered.
                            whd enforcement
    Question 29. Do you believe that government should play an active 
role in protecting workers and policing misconduct on the part of 
employers? Examples of misconduct include practices that deny workers a 
fair wage, practices that reinforce discrimination against protected 
groups of workers, practices that make it difficult for employees to 
complain about such unfair and illegal conduct and that stack the deck 
against the employee and in favor of the employer when a complaint is 
made, and many others. If so, do you believe that this role cannot be 
effectively accomplished by any other entity?
    Answer 29. Government has an active role and responsibility to 
enforce laws that protect workers. If confirmed, I will work to enforce 
the laws under the Department of Labor's jurisdiction fully and fairly.

    Question 30. Do you support similar modern-day developments to 
ensure that working conditions are better and pay is better for average 
working people, including low-wage workers?
    Answer 30. I support improvements in working conditions and raising 
wages, and, if confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly, including laws 
pertaining to worker protections.

    Question 31. As the head of DOL, will you actively pursue new 
public protections to create a safer workplace environment?
    Answer 31. If confirmed, I look forward to reviewing the safety 
standards to help ensure the safety of all workers. The Occupational 
Safety and Health Act of 1970 requires OSHA to ensure safe and 
healthful working conditions and I am committed to carrying out this 
mission. Where necessary, OSHA will promulgate appropriate and feasible 
rules to address workplace hazards. OSHA has many other tools at its 
disposal to carry out the obligations of the Act and to address new 
workplace hazards as they emerge, including conducting training and 
education, and providing compliance assistance to employers and 
employees.

    Question 32. As the Nation's chief worker advocate, will you pursue 
increased wages for the middle class?
    Answer 32. Yes, I support increased wages for the middle class. A 
growing economy combined with improved job training for in demand 
skills is among the best ways to grow the middle class.

    Question 33. The Fair Labor Standards Act at 29 U.S.C. Sec. 201 
states, as ``congressional finding and declaration of policy'' as 
follows:

          ``The Congress finds that the existence, in industries 
        engaged in commerce or in the production of goods for commerce, 
        of labor conditions detrimental to the maintenance of the 
        minimum standard of living necessary for health, efficiency, 
        and general well-being of workers (1) causes commerce and the 
        channels and instrumentalities of commerce to be used to spread 
        and perpetuate such labor conditions among the workers of the 
        several States; (2) burdens commerce and the free flow of goods 
        in commerce; (3) constitutes an unfair method of competition in 
        commerce; (4) leads to labor disputes burdening and obstructing 
        commerce and the free flow of goods in commerce; and (5) 
        interferes with the orderly and fair marketing of goods in 
        commerce. That Congress further finds that the employment of 
        persons in domestic service in households affects commerce. It 
        is declared to be the policy of this chapter, through the 
        exercise by Congress of its power to regulate commerce among 
        the several States and with foreign nations, to correct and as 
        rapidly as practicable to eliminate the conditions above 
        referred to in such industries without substantially curtailing 
        employment or earning power.''

    The current WHD engages in targeted enforcement--looking 
specifically to industries which have high rates of violations and 
rather than waiting for complaints to come in, doing audits of 
businesses in those industries to drive higher rates of compliance with 
the FLSA across the board. Would you continue engaging in targeted 
enforcement in the industries we know have high rates of violations?
    Answer 33. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly. Strategic 
enforcement in high violation areas, alongside individual complaints, 
is a balanced enforcement strategy I support.

    Question 34. Do you believe your company's violation of WHD and 
OSHA regulations impairs your ability to oversee those programs as 
Labor Secretary?
    Answer 34. I am unaware of what company you reference. In my roles 
at the bank and Florida International University Law School, I have 
promoted full compliance with the law, including the Occupational 
Safety and Health Act and the Fair Labor Standards Act.
                 trade/outsourcing/international labor
    Question 35. The President has talked a lot about unfair trade 
agreements that have taken away American jobs. While I realize you are 
nominated for Secretary of Labor, not as our trade representative, what 
will you do as Secretary to help these dislocated workers impacted by 
trade to find new jobs at commensurate or better wages than they 
received before their job moved abroad? What changes need to be made in 
our trade agreements to better protect our workforce?
    Answer 35. The Department's Bureau of International Labor Affairs 
is assigned the duty to ensure the labor provisions in trade agreements 
are enforced fairly. If confirmed, I look forward to working with that 
office, the Trade Representative and Congress on this important issue. 
The overall best solution for preventing dislocations is to create an 
environment where there are few incentives to move jobs overseas. When 
there are displacements of workers because of trade, however, as I 
discussed at the hearing, we need to make better efforts to align job 
training with the skills the market demands today and in the future for 
those displaced workers.
                              minimum wage
    Question 36. This year, the Republican platform called for the 
Minimum wage to be handled at the State AND local level. Yet many red 
States are passing laws that prohibit localities (cities and counties 
from raising the minimum wage in their jurisdictions. Ohio is the 
latest State to do so. This is in direct contravention of the 
Republican party platform and you yourself have spoken about this being 
an issue that should be handled at the State and local level. What will 
you do as the SOL to discourage States from pre-empting their 
localities who wish to enact labor standards that comport with the 
needs of those who live and work in their jurisdictions?
    Answer 36. Thank you for bringing this issue to my attention. If 
confirmed, I will examine this matter more closely.
                             senator casey
    Question 1. During the Bush administration the Mine Safety and 
Health Administration failed to fulfill its statutory mandate under the 
Federal Mine Safety and Health Act to inspect every underground mine 4 
times per year, and every surface mine 2 times per year. This is known 
as the ``4s and 2s.'' In fact, MSHA's budget was cut so deep during the 
Bush administration that MSHA did not even have enough qualified 
inspectors to carry out these inspections. Will you commit to that MSHA 
will implement this mandate to carry out the 4s and 2s every year 
Please provide a yes or no response.
    Answer 1. As I noted in my hearing, if confirmed, I would enforce 
the laws Congress has written fully and fairly, including inspection 
obligations at the Mine Safety and Health Administration.

    Question 2. The Obama administration took a number of steps through 
rulemaking and enforcement that protected the health and safety of coal 
miners, including those in the Commonwealth of Pennsylvania. 
Previously, MSHA failed to implement the ``Pattern of Violations 
requirement'' included in the Federal Mine safety and Health Act to 
ensure that serial violators will face elevated sanctions if they 
repeatedly place miners in harm's way by violating mandatory safety 
standards. That was fixed by MSHA after the Upper Big Branch Mine 
Disaster which killed 29 miners in the worst coal mine disaster in the 
United States in 40 years. Will you commit to maintain, implement and 
enforce this rule and its implementing guidance? Please provide a yes 
or no response.
    Answer 2. I have no present reason to disturb this rule, and I 
certainly support strong and fair use of all of MSHA's enforcement 
tools, including elevated sanctions where appropriate. As I noted in my 
hearing, the President has directed each Cabinet officer to review all 
rules and to make determinations if any rules should be revised. If 
confirmed, I will have an obligation to comply with that directive. 
That said, Upper Big Branch was a terrible tragedy and I support all 
actions that effectively ensure the tragedy is not repeated.

    Question 3. The respirable dust rule implemented by MSHA and the 
industry will reduce the exposure of miners to coal dust that causes 
disabling lung diseases, like black lung. Will you commit to maintain 
this rule and fully enforce it? Please provide a yes or no response.
    Answer 3. I have no present reason to disturb this rule, and I 
support efforts to reduce black lung disease. As I noted in my hearing, 
the President has directed each Cabinet officer to review all rules and 
to make determinations if any rules should be revised. If confirmed, I 
will have an obligation to comply with that directive.

    Question 4. MSHA issued a rule to keep miners from being crushed by 
continuous mining machine. It is known as the Proximity Detection Rule, 
which requires operators to install equipment to automatically shut 
down the movement of the machine if a worker is caught in a zone where 
they can be crushed. Will you commit to maintain this rule and fully 
enforce it? Please provide a yes or no response.
    Answer 4. I have no present reason to disturb this rule, and I 
support using technology to improve miner safety. As I noted in my 
hearing, the President has directed each Cabinet officer to review all 
rules and to make determinations if any rules should be revised. If 
confirmed, I will have an obligation to comply with that directive.

    Question 5. The DOL issued a new Black Lung Benefits Act rule which 
improves the claims process to give black lung claimants better access 
to information and helps level the playing field. Will you commit to 
maintain and implement this rule? Please provide a yes or no response.
    Answer 5. I have no present reason to disturb this rule, and I 
support improving claims processes for injured workers generally and 
particularly those suffering from black lung disease. As I noted in my 
hearing, the President has directed each Cabinet officer to review all 
rules and to make determinations if any rules should be revised. If 
confirmed, I will have an obligation to comply with that directive.

    Question 6. President Trump has made deregulation a priority. He 
also proposed a 21 percent cut to the Department of Labor's budget. 
Will you pledge to continue tough enforcement of these laws and 
regulations to protect coal miners and commit to not gutting or undoing 
these regulations? How do you propose to have robust enforcement given 
these proposed budget cuts? Please provide a yes or no response.
    Answer 6. As a nominee, I have not participated in the current 
budget discussions. I note that the President proposes a budget but it 
is ultimately Congress that will determine the funding for MSHA. MSHA 
has an important responsibility to foster mine safety and an obligation 
to inspect facilities proactively. Regardless of Congress' decision, 
MSHA must use its personnel to the best of its ability to accomplish 
its mission and enforce important safety and health standards.

    Question 7. Will you advocate on behalf of coal miners and their 
health and pension benefits by pushing the Republican leadership in 
Congress and President Trump to pass and sign the Miners Protection 
Act?
    Answer 7. I have not reviewed that particular piece of legislation, 
but I look forward to working with you and the rest of the Congress on 
potential legislative changes.

    Question 8. Do you agree that when trading partners fail to enforce 
labor laws and do not uphold high-standard protections for workers, it 
can create a competitive disadvantage for U.S. workers, farmers, 
ranchers, and businesses?
    Answer 8. Yes, I agree. The Department's Bureau of International 
Labor Affairs is assigned the duty to ensure the labor provisions in 
trade agreements are enforced to protect America's interests, including 
workers, farmers, ranchers and businesses. If confirmed, I look forward 
to working with that office, the Trade Representative and Congress to 
safeguard American jobs.

    Question 9. If confirmed, will you vigorously investigate and 
enforce the labor obligations of our trading partners?
    Answer 9. The Department's Bureau of International Labor Affairs is 
assigned the duty to ensure the labor provisions in trade agreements 
are enforced. If confirmed, I look forward to working with that office, 
the Trade Representative and Congress to vigorously safeguard American 
jobs.

    Question 10. Do you agree that adopting or maintaining lax labor or 
human rights standards is not a legitimate way for governments to 
manufacture a competitive advantage for their exporters?
    Answer 10. Yes, I agree. If confirmed, I will consult with the 
Bureau staff on ways to help countries improve compliance with their 
commitments to uphold the standards applicable to them.

    Question 11. The Department of Labor is responsible for helping to 
enforce labor and human rights provisions of our trade agreements. In 
the past, DOL has provided direct technical assistance, particularly 
for significant problematic areas, such as anti-union discrimination, 
forced overtime, and sexual harassment of female workers. If confirmed, 
will you continue to provide robust technical assistance to countries 
that fall short of international standards, and hold our trading 
partners accountable when they violate obligations to protect worker 
rights?
    Answer 11. The Department's Bureau of International Labor Affairs 
is assigned the duty to ensure the labor provisions in trade agreements 
are enforced and to monitor compliance with minimum international labor 
standards. If confirmed, I look forward to working with that office, 
the Trade Representative and Congress to vigorously safeguard American 
jobs and promote our values.

    Question 12. Do you think women should be able to take time off 
work to take care of a sick child or parent?
    Answer 12. Most women have had to take time off work to take care 
of a sick child or spouse. Dependent on the specific facts, the Family 
and Medical Leave Act and/or a State equivalent may be applicable and 
would allow for leave to take care of a sick child or parent. As I 
mentioned in the hearing, promoting workplace flexibility is something 
I support.

    Question 13. Do you think men should be able to take time off work 
to take care of a sick spouse or child?
    Answer 13. Most men have had to take time off work to take care of 
a sick child or spouse. Dependent on the specific facts, the Family and 
Medical Leave Act and/or a State equivalent may be applicable and would 
allow for leave to take care of a sick child or parent. As I mentioned 
in the hearing, promoting workplace flexibility is something I support.

    Question 14. Do you think the right to take time off work to take 
care of a sick spouse or child should be different for same sex 
couples?
    Answer 14. The sexual orientation of a parent would be irrelevant 
to the coverage. Dependent on the specific facts, the Family and 
Medical Leave Act may be applicable and would allow for leave to take 
care of a sick spouse or child.

    Question 15. The Department of Labor has played an important role 
in enhancing protections for LGBT Americans. This includes the Wage and 
Hour Division's steps to interpret the Family and Medical Leave Act in 
a way that recognizes LGBT relationships. Can you assure us that, if 
confirmed, you will continue to enforce these orders and protect LGBT 
Americans?
    Answer 15. I am committed to enforcing anti-discrimination laws and 
the Family and Medical Leave Act. I believe anti-discrimination laws 
should prohibit workplace discrimination based on sexual orientation or 
gender identity, although I support religious entities' freedom to hire 
consistent with their faith.

    Question 16. Do you believe companies have the right to make hiring 
decisions based on pregnancy status or family plans?
    Answer 16. A person's decisions regarding starting a family should 
be a private matter. Dependent on the specific facts, the Pregnancy 
Discrimination Act would likely make such decisions illegal. The 
Pregnancy Discrimination Act, which amended title VII, prohibits an 
employer from discriminating against an applicant or employee because 
of or on the basis of pregnancy, childbirth, or related medical 
conditions.

    Question 17. Do you believe companies have the right to ask these 
questions related to pregnancy status or family plans during the hiring 
process?
    Answer 17. A person's decisions regarding starting a family should 
be a private matter. Dependent on the specific facts, the Pregnancy 
Discrimination Act would likely make such decisions illegal. The 
Pregnancy Discrimination Act, which amended title VII, prohibits an 
employer from discriminating against an applicant or employee because 
of or on the basis of pregnancy, childbirth, or related medical 
conditions.

    Question 18. If you are confirmed as the Secretary of Labor you 
will be expected

        ``to foster, promote, and develop the welfare of the wage 
        earners of the United States, to improve their working 
        conditions, and to advance their opportunities for profitable 
        employment''.

    Currently, 40 percent of workers experience sexual violence in the 
workplace at fast food restaurants, the national average for other 
occupations is also unconscionably high. If confirmed as the Secretary 
of Labor, will you commit to hosting a public forum with public and 
private stakeholders across the country to implement a national 
framework around gender-based violence in the workplace? Please provide 
a clear Yes or No response.
    Answer 18. If confirmed, I look forward to working with you to 
address this important issue and would need to consult with the 
Department to see what sort of resources and options would be 
available. This seems to be an area where other government agencies 
like the Department of Justice and EEOC as well as State governments 
would have an interest as well so I would want to solicit their input. 
As a general matter, I believe such forums are helpful as a mechanism 
to call attention to important issues.

    Question 19. One of the most important elements of economic 
security for the middle class is retirement security. Millions of 
Americans ask, ``Will I have enough money saved to retire and retire 
comfortably?'' As we have learned, the answer to that question for too 
many Americans is no. Yet, in one its first actions, the Trump 
administration has taken steps to roll back protections for retirement 
savers. So far this administration has demonstrated that it is working 
to help Trump's fellow corporate titans at a direct cost to working 
families and their financial and retirement security. Do you think it 
is fair that while Wall Street has recovered, many of the pensions that 
bore the brunt of the financial crash are struggling?
    Answer 19. It is important that the retirement savings of working 
Americans be protected. Struggling pension funds are a serious problem 
and, if confirmed I look forward to working with Congress as we develop 
the Department's regulatory policies and priorities to improve pension 
funding and security overall.

    Question 20. If confirmed as Labor Secretary, you will not only 
serve as Chair of the Board of the PBGC, which serves as the backstop 
for pension plans, but you will also be consulted on any applications 
to Treasury to cut benefits. Will you commit to a vigorous review of 
any application to cut pension benefits and be thoroughly engaged in 
the process in order to provide opinions and suggestions when called 
upon for consultation as required by law?
    Answer 20. As you note if confirmed I will be Chair of the Pension 
Benefit Guaranty Corporation's Board of Directors and expect to be 
briefed on the matter of underfunded multiemployer pension plans and 
the Secretary of Labor's role in the process you reference. I will 
commit to a thorough review of any such applications.

    Question 21. Do you support the use of apprenticeships to help give 
workers the skills they need and to give employers the skilled workers 
that they need? What specifically will you do to increase utilization 
of apprenticeships?
    Answer 21. I share your belief that quality apprenticeships play a 
vitally important role in closing the skills gap and providing workers 
with the skills they need to prosper in our economy. There are numerous 
examples throughout the Nation of industry, local academic and training 
institutions and government partnering effectively to train and place 
workers in growth sectors. If confirmed, I believe my role will be to 
make sure this model can be accessed in more communities and by 
displaced workers who will need to transition to new and growing 
industries.

    Question 22. What specifically will you do at the Department of 
Labor to help workers who have lost their jobs to technology or trade?
    Answer 22. The Trade Adjustment Assistance program and other 
efforts at the Department that focus on workers who have been displaced 
from employment are very important. If confirmed, I will examine which 
programs are effective, which need reform and whether or not resources 
are being deployed optimally. If confirmed as Secretary of Labor, I 
will work with States and localities to work with industry and trade 
associations to identify effective programs, including public/private 
partnerships, that support displaced and unemployed workers' re-entry 
into the workforce, including those who have lost their jobs to 
technology or trade. I will work with Congress and stakeholders to 
continue to advance the Department's goals to support economic growth 
by aligning job training for displaced workers with the skills demands 
of employers. The Department's goal should be to accelerate and improve 
employment outcomes for workers who need new skills and credentials to 
find their next jobs and stay employed.

    Question 23. Is collective bargaining an effective tool to increase 
income for workers and to grow the middle class?
    Answer 23. The right to collectively bargain is clearly established 
in law, as is the right of workers to decide whether to join a union or 
to refrain from joining a union. The decision of whether to join a 
union should be left to the individual. If they believe that joining 
together to bargain collectively will benefit their situation then they 
should do so.

    Question 24. How specifically will you ensure thorough 
investigation and enforcement of violations of the Fair Labor Standards 
Act?
    Answer 24. I support strategic enforcement alongside individual 
complaints. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly.

    Question 25. Given President Trump's proposed 21 percent budget 
cuts for the Department of Labor, how specifically do you propose to 
ensure vigorous enforcement of FLSA violations?
    Answer 25. If confirmed, one of my goals and responsibilities will 
be to use taxpayer resources wisely and I will work to enforce the laws 
under the Department of Labor's jurisdiction fully and fairly. I 
support strategic enforcement alongside individual complaints.

    Question 26. Following the criticism of your leadership of the 
Department of Justice Civil Rights Division, how has your leadership 
style changed?
    Answer 26. Senior leadership in government has to balance external 
and internal demands. I believe I am more hands-on, and more focused on 
internal matters. I have also learned to better oversee and monitor 
subordinates while not micromanaging their performance. As U.S. 
attorney, I walked around the office often in order to learn what AUSAs 
were doing. This day-to-day contact was important, and helped me better 
understand and monitor day-to-day AUSA activity.

    Question 27. How can the Department of Labor help economically 
disadvantaged areas attract new business investment and new jobs?
    Answer 27. Small businesses produce, depending on whose numbers you 
look at, between 7 and 8 out of 10 new jobs. A growing economy 
generally and encouragement for small business particularly will foster 
job creation. Regulatory burdens are acute problems sometimes for small 
businesses, however. As I noted at the hearing, the President has made 
clear that every Cabinet agency should review regulations for unneeded 
regulatory burden, and I think that would be a good first step.

    Question 28. Do you support increased OSHA penalties in order to 
provide a more effective deterrent to violations that jeopardize the 
health and well-being of workers?
    Answer 28. If confirmed, I look forward to discussing this and many 
other issues with the Department's OSHA staff, to help ensure the 
safety of all workers. If increased penalties are warranted, I look 
forward to working with you and the committee to help enact these 
changes.

    Question 29. Many law-abiding employers are at a disadvantage 
because they are being undercut by other companies that misclassify 
their workers as independent contractors. Do you agree this is a 
problem? What will you do to crack down on the misclassification of 
workers as independent contractors?
    Answer 29. An important role of the Department of Labor is to 
ensure that employers who want to do the right thing have clear 
compliance guidance from the Department. The use of independent 
contractors is a legal and valuable business practice. However, in some 
circumstances, when an employer incorrectly labels a worker as an 
independent contractor instead of an employee, the employer may not be 
abiding by their responsibilities to compensate the worker according to 
the requirements of the law. Employees incorrectly classified as 
independent contractors may be denied access to critical benefits and 
protections they are entitled to by law. This incorrect classification 
may also generate losses to the Federal Government and State 
governments in the form of lower tax revenues, as well as to State 
unemployment insurance and workers' compensation funds. Employers who 
deliberately misclassify workers undercut law-abiding employers who are 
making contributions to these systems and paying their workers 
properly. If confirmed, I look forward to being briefed on matters 
pertaining to the classification of employees and will work to enforce 
the laws under the Department of Labor's jurisdiction, including these 
employment laws, fully and fairly to ensure the protection of workers. 
If businesses are found to be incorrectly classifying workers in a way 
that violates the law, I will fully and fairly enforce the relevant 
laws.

    Question 30. The Department of Labor has provided support to many 
States, including Pennsylvania, to provide assistance in studying 
systems to provide paid family leave. Will you and the Department of 
Labor continue to provide financial and technical assistance to States 
seeking to implement paid family leave?
    Answer 30. If confirmed, I look forward to reviewing this issue 
with DOL staff, stakeholders and the committee. I certainly support the 
concept of providing technical assistance to States.

    Question 31. Will you pursue new rulemaking? If so, in what areas 
will you focus?
    Answer 31. If confirmed, I look forward to discussing the issue of 
any regulations that may need to be issued with DOL staff, stakeholders 
and the committee. If new public protections are needed, cost effective 
and legally allowed, they will be pursued.

    Question 32. Will you implement Trump administration policy even if 
it will harm American workers?
    Answer 32. I believe the Administration will work to benefit all 
Americans, including American workers.

    Question 33. How will you represent the interests of American 
workers if it conflicts with Trump administration policy?
    Answer 33. I believe the Administration will work to benefit all 
Americans, including American workers.

    Question 34. Do you support President Trump's proposed 21 percent 
cut to the Department of Labor funding?
    Answer 34. As a nominee, I have not participated in the current 
budget discussions. I note that the President proposes a budget but it 
is ultimately Congress that will determine the funding levels.

    Question 35. Do you support the proposal in President Trump's 
budget that: ``Decreases Federal support for job training?''
    Answer 35. As a nominee, I have not participated in the current 
budget discussions. I note that the President proposes a budget but it 
is ultimately Congress that will determine the funding levels.

    Question 36. Do you think that cutting Federal funding for job 
training will make workers better or worse prepared to find jobs to 
support their families?
    Answer 36. As a nominee, I have not participated in the current 
budget discussions. I believe job training is very important and may 
offer a substantial return on investment. I recognize as well that 
resources are limited. That said, if confirmed, I look forward to being 
briefed on the Department's budget in order to understand how to 
efficiently and effectively utilize taxpayer dollars in order to best 
accomplish the Department's mission.

    Question 37. Do you think that cutting Federal funding for job 
training will make it harder for employers to find workers with the 
skills they need?
    Answer 37. There is room for efficiencies in these programs, which 
may reduce the impact of budget cuts. Reducing this skills gap requires 
better alignment of job training with the skills that the market and 
employers demand. This requires a concerted effort working with 
industry, local governments, educational institutions and public-
private partnerships to have a substantial positive impact on the 
American workforce.

    Question 38. How do you propose to close the skills gap and help 
workers compete at home and abroad?
    Answer 38. We can and must work to reduce the skills gap. We need 
to make better efforts to align job training with the skills the market 
demands of its workers, especially as advancing technology changes the 
types of jobs available in our economy. The Department of Labor, along 
with local governments, industry, and educational institutions, can 
partner to have substantial positive impact on American workers. I 
believe that this is the vision of the Workforce Innovation and 
Opportunity Act (WIOA), of apprenticeship programs, of Job Corps and of 
many other programs at DOL. Closing the skills gap is a vitally 
important aspect of accomplishing the Department of Labor's mission. If 
confirmed, understanding the performance and needs of all Departmental 
programs can play a role in closing the skills will be one of my top 
priorities.

    Question 39. What role do schools play in career and technical 
education and preparing workers to enter the workforce?
    Answer 39. I believe that schools play a vitally important role in 
preparing workers to enter the workforce, from primary to post-
secondary education. I am particularly interested in how community 
colleges and technical and vocational education programs can best be 
positioned, supported and leveraged in order to best serve workers and 
industry.

    Question 40. Do you support the proposal in President Trump's 
budget that would eliminate the Senior Community Service Employment 
Program, a program designed to help older workers find employment?
    Answer 40. As a nominee, I have not participated in the current 
budget discussions. If confirmed, I look forward to participating in 
that process, so that I can understand the goals, performance and 
resource needs of programs such as this one in order to deliver the 
greatest value to the American people.

    Question 41. How will you make it easier for Americans to save for 
retirement?
    Answer 41. I believe it is important to make it easier for 
Americans to save for retirement, and also encourage Americans to do 
so. An expanding economy is key to growing the assets in retirement 
accounts for American workers, and relaxing burdens and costs as well 
as reducing taxes on businesses is one way to do that. If confirmed, I 
expect to be briefed on retirement issues and I look forward to working 
with Congress as we develop the Department's regulatory policies and 
priorities to support the goal of helping Americans save for 
retirement.

    Question 42. How will you fight sexual harassment and 
discrimination in the workplace?
    Answer 42. As I noted in my hearing, if confirmed, I would enforce 
the laws Congress has written fully and fairly, including sexual 
harassment and discrimination in the workplace laws.

    Question 43. The Department of Labor has provided competitive 
grants to successful programs at community colleges to train workers. 
Will you work to secure funding for similar competitive grants?
    Answer 43. If confirmed, I look forward to being briefed on the 
many training programs funded by the Department. I understand that many 
of these grants have provided a substantial return on investment. I 
expect to encourage Department staff to seek innovative solutions to 
training and employment challenges and opportunities, and I look 
forward to working with you and other members of the committee on such 
solutions and initiatives.

    Question 44. Will you make the enforcement of equal pay laws a 
priority?
    Answer 44. As I noted in my hearing, if confirmed, I would enforce 
the laws under the Department's jurisdiction fully and fairly, 
including those related to equal pay.

    Question 45. Do you think that the Department of Labor's past 
enforcement of equal pay laws have been beneficial to women and their 
families?
    Answer 45. Nondiscrimination is the law. The Department enforces 
the law to ensure the rights of all Americans are protected, including 
women and their families.

    Question 46. If you're confirmed as the Secretary of Labor, you 
will inherit a number of labor cases under our free trade agreements 
and trade preference programs, some of which were initially filed 
between 4-8 years ago. These cases cover workplace violations including 
discrimination, illegal firings, wage theft and unsafe working 
conditions. Will you commit to working toward resolving these issues in 
a timely manner to help level the playing field for U.S. companies and 
U.S. workers?
    Answer 46. The Department's Bureau of International Labor Affairs 
is assigned the duty to ensure the labor provisions in trade agreements 
are enforced. If confirmed, I look forward to finding out more and 
working with that office in resolving the cases you describe.

    Question 47. According to the Economic Policy Institute, from 1948 
to 1973 worker productivity rose by 96.7 percent and wages increased by 
91.3 percent; since then, however, worker productivity has increased 
73.4 percent while wages have gone up only 11.1 percent. Further, a 
2014 study by The Review of Economics and Statistics found that job 
displacement due to trade led to real wage losses of 12 to 17 percent 
from 1984 through 2002. Global companies have been known to tell their 
U.S. workers that they must take pay and benefit cuts to stay 
competitive, even as these companies report significant profits in 
their SEC filings.
    Do you believe this is just the nature of the economy and that 
American families should get used to it?
    If not, what is your plan, if confirmed, to change this pattern?
    Answer 47. A stagnant economy and wages harms Americans; a growing 
economy is the best solution to also grow wages. The President has made 
clear that he is committed to returning jobs to America. If confirmed, 
I will work to support that effort.

    Question 48. Will you continue to support the continued strong 
engagement by the United States at the ILO to encourage countries to 
adhere to international labor standards?
    Answer 48. The Department's Bureau of International Labor Affairs 
is assigned the duty to engage with the ILO. If confirmed, I look 
forward to working with that office and ensuring the United States has 
a strong voice at the ILO.

    Question 49. The Obama administration published an initial report 
on alleged labor violations in Colombia under the U.S.-Colombia FTA. 
Can you discuss your thoughts on the ongoing anti-union violence and 
workplace rights violations there. If confirmed, how do you plan to 
approach this problem that has included the murder of 2,500 trade 
unionists there in the past 20 years?
    Answer 49. The Department's Bureau of International Labor Affairs 
is assigned the duty to ensure the labor provisions in trade agreements 
are enforced. If confirmed, I will consult with the Bureau staff on 
this important issue.

    Question 50. What would you do differently than previous 
administrations to address violent suppression of working people which 
holds down wages, limits the growth of a middle class and by 
association, harms U.S. workers?
    Answer 50. Freedom of association is an important American right 
enshrined in the constitution, and something we should support 
internationally without the threat of violence for doing so. I believe 
that the Department's Bureau of International Labor Affairs is assigned 
the duty to address the issue you raise. If confirmed, I will consult 
with the Bureau staff on this important issue and ask them for insight 
into what has worked and what has not worked in prior administrations 
to address this issue.

    Question 51. If confirmed, part of your job as the Secretary of 
Labor will be to ensure that foreign countries uphold minimum 
international labor standards. As you know, when they do not, it 
undermines wages for U.S. families.
    How seriously will you take this responsibility?
    Can you explain how you will work to assure compliance with 
international labor standards?
    Answer 51. If confirmed, I will take this responsibility very 
seriously. The Department's Bureau of International Labor Affairs is 
assigned the duty to monitor compliance with minimum international 
labor standards and represent the United States in discussions on those 
topics at the International Labor Organization. If confirmed, I will 
consult with the Bureau staff on ways to help countries improve 
compliance with their commitments to uphold the standards applicable to 
them.
                            senator franken
                             dol management
    Question 1. The mission of the Department of Labor is to

        ``foster, promote, and develop the welfare of wage earners, job 
        seekers, and retirees of the United States; improve working 
        conditions; advance opportunities for profitable employment; 
        and assure work-related benefits and rights.''

    Do you believe this is the mission of the Department of Labor and 
should you be confirmed do you intend to change the Department's 
mission?
    Answer 1. I support the Department's longstanding mission statement 
and have no plans to change it if confirmed.

    Question 2. Under the previous Administration, the Department of 
Labor issued administrative interpretations to provide clarity when a 
statutes meaning was too plain or unambiguous. Under your leadership 
would the Department continue issuing administrative interpretations?
    Answer 2. I support giving guidance to the regulated community to 
ensure compliance with the law. The specific forms of such guidance may 
change over time and between administrations. As I noted at the 
hearing, for example, I think there's a particular value to opinion 
letters, and I think that value comes from the fact that they are 
grounded in a specific set of facts, and not in a broad legal premise.

    Question 3. Under your leadership would the Department re-instate 
the issuing of opinion letters? If so who would be permitted to request 
an opinion letter?
    Answer 3. As I noted at the hearing, I believe there's a value to 
opinion letters because they are grounded in a specific set of facts. 
There may be reasons an opinion letter should be delayed (for example, 
if parties are in active litigation), but generally I see no reason I 
would not support allowing any member of the public to request an 
opinion letter.

    Question 4. In 2011, the Department of Labor and the Department of 
Homeland Security entered into a Memorandum of Understanding to clarify 
the ways in which each department would work together to advance each 
agency's directives and avoid conflicts. Will the Department continue 
to honor the 2011 Memorandum of Understanding?
    Answer 4. I believe that the Department has a longstanding 
commitment to ensuring that all workplace protections are enforced 
regardless of workers' immigration status. I support that longstanding 
practice. I have not studied the Memorandum of Understanding you 
reference, but I believe it is important that both agencies avoid 
interfering in each other's responsibilities.
                  contracting/worker misclassification
    Question 5. Under your leadership will the Department of Labor 
focus on the fissured workforce and the need of employers to correctly 
classify their workers as traditional employees or contractors so 
workers and employers know their legal and tax obligations, and so 
businesses can compete on a level playing field?
    Answer 5. Employers who deliberately misclassify workers undercut 
law-abiding employers who are making contributions to these systems and 
paying their workers properly. If confirmed, I look forward to being 
briefed on matters pertaining to the classification of employees and 
will work to enforce the laws under the Department of Labor's 
jurisdiction, including these employment laws, fully and fairly to 
ensure the protection of all workers.

    Question 6. Worker misclassification is a growing problem that 
threatens workers and undercuts law-abiding employers. It is a 
significant problem in Minnesota, particularly in the construction 
industry. Why do you think worker misclassification is so prevalent?
    Answer 6. I am not sufficiently familiar with the circumstances in 
Minnesota to opine. Employers who deliberately misclassify workers 
undercut law-abiding employers who are making contributions to these 
systems and paying their workers properly. If confirmed, I look forward 
to being briefed on matters pertaining to the classification of 
employees and will work to enforce the laws under the Department of 
Labor's jurisdiction, including these employment laws, fully and fairly 
to ensure the protection of all workers.

    Question 7. Under your leadership how does the Department plan to 
address worker misclassification issues and how will you improve 
Federal efforts to deter worker misclassification?
    Answer 7. An important role of the Department of Labor is to ensure 
that employers who want to do the right thing have clear compliance 
guidance from the Department. If confirmed, I look forward to being 
briefed on matters pertaining to the classification of employees as we 
develop the Department's regulatory policies and priorities and will 
work to enforce the laws under the Department of Labor's jurisdiction, 
including these employment laws, fully and fairly to ensure the 
protection of all workers.

    Question 8. In 2015, the Wage and Hour division issued 
Administrative Interpretation No. 2015-1 to assist employers and 
workers by providing clarity as to when a worker is an employee or 
independent contractor. If confirmed, would you maintain this 
administrative interpretation?
    Answer 8. An important role of the Department of Labor is to ensure 
that employers who want to do the right thing have clear compliance 
guidance from the Department. Employers who deliberately misclassify 
workers undercut law-abiding employers who are making contributions to 
these systems and paying their workers properly. If confirmed, I look 
forward to being briefed on matters pertaining to the classification of 
employees, including this Administrative Interpretation, as we develop 
the Department's regulatory policies and priorities.

    Question 9. Over the past 8 years, the Wage and Hour Division has 
entered into a Memoranda of Understanding (MOU) with many States, as 
well as the Internal Revenue Service that facilitate joint efforts to 
combat misclassification. Some of these MOUs are set to expire in the 
coming years. Will you work to renew these MOUs? Please describe which, 
if any, you would renew and any changes you would seek.
    Answer 9. If confirmed, I look forward to being briefed on these 
Memoranda of Understandings. As a general matter, I support efforts to 
cooperate in enforcement matters, and such memoranda of understanding 
are helpful.
                                 wages
    Question 10. The current Federal minimum wage is $7.25 an hour 
($15,080 annually) has remained unchanged since 2009. President Trump 
has said that the current Federal minimum wage is too low, and 
suggested that Americans need a raise. Do you agree the current Federal 
minimum wage is too low and if so to what level should it be increased 
to?
    Answer 10. The minimum wage is set federally by Congress but also 
in States and localities by their respective governments. I recognize 
that cost-of-living and other economic factors vary greatly across the 
United States and that many States and localities have increased the 
minimum wage above the Federal floor.

    Question 11. In recent years, we have seen large amounts of growth 
in the ``gig'' economy? Workers in this economy are often treated as 
independent contractors and therefore do not receive employee 
protections such as overtime pay, minimum wage, health insurance, or 
retirement benefits. The courts are reviewing a number of cases across 
the country that question what defines an ``employee.'' If confirmed, 
how would you plan to use your regulatory authority to ensure that 
workers in the gig economy are not being denied basic worker rights or 
their ability to achieve basic economic security through their work?
    Answer 11. The use of independent contractors is a legal and 
valuable business practice. However, in some circumstances, when an 
employer incorrectly labels a worker as an independent contractor 
instead of an employee, the employer may not be abiding by their 
responsibilities to compensate the worker according to the requirements 
of the law. Employees incorrectly classified as independent contractors 
may be denied access to critical benefits and protections they are 
entitled to by law. An important role of the Department of Labor is to 
ensure that employers who want to do the right thing have clear 
compliance guidance from the Department. This is particularly important 
in the context of a rapidly changing economy.

    Question 12. Do you believe it is appropriate to have a Federal 
minimum wage?
    Answer 12. A Federal minimum wage is the law. I support it.

    Question 13. Do you believe the Federal minimum wage should be 
regularly adjusted for inflation so that workers ability to provide for 
their families keeps up with the rising costs of goods and services 
over time?
    Answer 13. The minimum wage is set federally by Congress but also 
in States and localities by their respective governments. I recognize 
that cost-of-living and other economic factors vary greatly across the 
United States and that many States and localities have increased the 
minimum wage above the Federal floor.

    Question 14. In Minnesota, employer-tipped credits against the 
minimum wage are not allowed. All tipped employees must be paid the 
State minimum wage of $9.50 per hour for larger employers, and $7.75 
per hour for smaller employers, for all hours worked. Beginning Jan. 1, 
2018 those wages will be indexed for inflation. Do you think the 
Federal-tipped minimum wage of $2.13 per hour paid to employees that 
receive at least $30 per month in tips is a living wage? Would you 
support an increase to the Federal-tipped minimum wage? To what level?
    Answer 14. The minimum wage and tip allowance is set federally by 
Congress but also in States and localities by their respective 
governments. I recognize that cost-of-living and other economic factors 
vary greatly across the United States and that many States and 
localities have increased the minimum wage and tip allowances above the 
Federal floor.

    Question 15. Do you believe gratuities provided by customers to 
tipped employees, whether their wage is based on the Federal tipped 
minimum of $2.13 per hour or other Federal or State wage levels, are 
the property of the employers or the employee?
    Answer 15. In its preamble to the final rule regarding this matter 
in 2011, the Department of Labor stated, ``[t]he Department agrees with 
the analysis in the comments that tips are the property of the employee 
. . .'' Updating Regulations Issued Under the Fair Labor Standards Act, 
76 Fed. Reg. 18,841 (April 5, 2011). I am informed that there is 
current litigation on aspects of the rule that touch on your question, 
including a pending petition for review by the U.S. Supreme Court.

    Question 16. Do you believe it is appropriate for a salary test to 
be one aspect of rules establishing exemptions to the Fair Labor 
Standards Act's overtime provisions for certain salaried executive, 
administrative, and professional employees? If so, and if a court 
determined a . . .
    Answer 16. This question is incomplete.
                           osha worker safety
    Question 17. The Occupational Safety and Health (OSH) Act was 
enacted in 1970, around the same time as the Clean Air Act and Clean 
Water Act. Research on our changing climate and the need to address 
those concerns have led to advancements in environmental laws and the 
penalties associated with breaking those laws. Unfortunately the OSH 
Act has not been significantly updated since its enactment. As a result 
the penalties associated with violating worker health and safety laws 
are so low that some unscrupulous businesses factor in those penalties 
as just a normal cost of doing business. Do you think the current 
penalty levels for OSHA are an appropriate deterrent to violating 
worker health and safety laws? If not what do you think is a more 
appropriate level? Should criminal penalties be considered for willful 
or repeat violations that lead to serious injury or fatality of a 
worker?
    Answer 17. If confirmed, I look forward to discussing this and many 
other issues with the Department's OSHA staff, and if legislative 
changes are needed I look forward to working with you and the committee 
to help ensure the safety of all workers. On November 2, 2015, Congress 
passed the Bipartisan Budget Act, which mandated OSHA to adjust their 
penalties to the rate of inflation. The legislation included a one-time 
catch up increase and an annual adjustment thereafter. In accordance 
with the legislation, on August 2, 2016, OSHA raised its maximum 
penalty 78 percent as a one-time adjustment and on January 15, 2017, 
adjusted the maximum penalties by 2 percent over the previous year.
    The OSH Act also includes criminal sanctions and an employer may be 
liable for criminal prosecution where there is a willful violation of a 
specific OSHA standard that causes the death of an employee. Over the 
years, OSHA has made referrals to the Department of Justice (DOJ) for 
cases that were deemed appropriate for criminal prosecution. In 
December 2015, OSHA signed a Memorandum of Understanding with DOJ that 
created enhanced procedures for OSHA to refer potential criminal cases 
for consideration by DOJ. I support criminal referrals in appropriate 
cases.

    Question 18. If confirmed as Secretary of Labor, do you commit that 
you would not reduce existing safety and health protections for 
workers? Further, do you commit to moving forward to develop and issue 
new rules to protect workers as the workplace develops and new hazards 
are identified?
    Answer 18. If confirmed, I look forward to reviewing the safety 
standards to help ensure the safety of all workers. The Occupational 
Safety and Health Act of 1970 requires OSHA to ensure safe and 
healthful working conditions and I am committed to carrying out this 
mission. Where necessary, OSHA will promulgate appropriate and feasible 
rules to address workplace hazards. OSHA has many other tools at its 
disposal to carry out the obligations of the Act and to address new 
workplace hazards as they emerge, including conducting training and 
education, and providing compliance assistance to employers and 
employees.

    Question 19. Will you support and defend OSHA's Whistleblower 
Protection Program? What steps, if any, will you take to ensure that 
whistleblower claims that should be referred to other agencies are 
promptly and appropriately referred? Do you believe OSHA's 
Whistleblower Protection Program currently has the resources needed to 
fulfill its mission? Will you advocate for appropriate resources for 
OSHA's whistleblower programs in the future? Do you agree with the 
Department of Labor's Inspector General that OSHA whistleblower 
investigator caseloads should be a maximum of 6 to 8 open cases per 
investigator? OSHA is currently charged with enforcing the 
whistleblower protection provisions of 22 different statutes. Do you 
believe it would be appropriate for Congress to consider consolidating 
these 22 provisions, to the extent possible, to provide stronger, more 
uniform rules for whistleblowers?
    Answer 19. If confirmed, I look forward to reviewing OSHA's 
Whistleblower Protection Program (WPP), including ensuring the 
appropriate and timely sharing of complaints with other agencies and 
having appropriate resources needed to fulfill the Program's mission. I 
am informed that OSHA has agreements with a number of agencies impacted 
by the Whistleblower statutes to ensure a basic exchange of information 
and facilitate referrals between each agency. If confirmed, I will 
direct the review of resource levels for the Whistleblower Protection 
Program to determine the necessary support for this important program, 
and evaluate the need for the consolidation of whistleblower laws. If 
changes are needed to the program, or if legislation is needed, I look 
forward to working with you and the committee to see that these changes 
are enacted to help protect the safety of all workers.
                                  misc
    Question 20. In your budgeting decisions, would you treat Trade 
Adjustment Assistance (TAA) in the same way you treat other workforce 
training programs that are subject to discretionary appropriations? Has 
the President proposed any cuts to programs subject to TAA? Do you 
support the level of funding for TAA programs authorized in the Trade 
Adjustment Assistance Reauthorization Act of 2015
    Answer 20. As a nominee, I have not participated in the current 
budget discussions. That said, if confirmed I look forward to being 
briefed on the TAA program to better understand its goals, performance 
and opportunities for improvement. Training programs that serve workers 
who have been displaced as a result of our trade agreements must 
provide participants with skills and support required to place them in 
permanent, well-paying jobs. As I understand it, the Trade Adjustment 
Assistance program is one of many entitlement programs with mandatory 
funding.

    Question 21. Minnesota is home to the Hubert Humphrey Job Corps 
Center, a site that since 1981 has helped prepare at-risk youth for 
meaningful careers in in-demand fields, yet the President's budget 
proposes cuts to the Job Corps program. Do you support continued 
funding for Job Corps sites like the one in my State?
    Answer 21. I believe the Department of Labor, along with local 
governments, industry, and educational institutions, can partner to 
have a tremendous positive impact on American workers, especially young 
people seeking to enter the workforce and get good paying jobs. If 
confirmed, I look forward to working closely with the committee to 
determine the best way to ensure the success of the Job Corps program 
and to identify other opportunities within our States that can be 
better utilized to help our young people succeed. I look forward to 
learning more about the center in your State that you mention as well 
as others and our focus will be on helping Job Corps centers best 
provide to students the services and training central to their core 
mission.

    Question 22. Youth apprenticeships have been proven to help young 
people succeed in their academics and put them on a clear pathway to 
meaningful work and careers. Will you continue to promote and expand 
the youth apprenticeship programs that DOL has seen increase during the 
Obama administration?
    Answer 22. I share your belief that quality apprenticeships are 
part of a clear pathway to meaningful work and careers. If confirmed, I 
expect to focus attention on understanding the Department's important 
role in increasing access to apprenticeships and facilitating high 
performance in apprenticeship programs.
                             senator bennet
    Question 1. Every year, my office hears from hundreds of Colorado 
employers that rely on the H-2A and H-2B visa program and who, year 
after year, run into difficulty obtaining visas for guest workers. 
Colorado is one of the top users of this program.
    The jobs they are trying to fill are critical for Colorado's 
economy. From landscape and construction companies that cannot find 
enough workers to meet demand, to farmers and ranchers who don't have 
enough hands to cultivate the crops, there is a gap in meeting our 
labor needs.
    I understand the concerns about potential exploitation of foreign 
workers and the desire for Americans to fill those jobs. I agree that 
there are worker protections that must be enforced. But Colorado 
employers lose millions of dollars every year due to the program's 
inefficiencies. They do all they can to comply with the law but cannot 
find American workers to fill those jobs.
    Do you recognize the significance of the H-2A and H-2B visa 
programs in meeting our labor needs?
    Where does the program fall within the Administration's priorities, 
particularly given the context of immigration reform?
    Answer 1. I recognize the difficulty that many employers face on 
this issue and the potential repercussions for vital industries across 
the country. I understand how important an adequate labor supply is for 
the Colorado industries you identify and look forward to working 
together to fix this issue if confirmed. As a nominee, I have not been 
involved in immigration-related discussions, but, if confirmed, my 
primary goal will be to protect the interests of American workers. 
Guest workers on any program should be treated fairly in order to 
protect them and maintain U.S. working conditions.

    Question 2. In his address to a joint session of Congress. 
President Trump said that his administration

        ``wants to work with members of both parties to make childcare 
        accessible and affordable, [and] to help ensure new parents 
        that they have paid family leave.''

    Paid family leave was also a major platform on President Trump's 
campaign.
    Have you discussed paid family leave with anyone within the Trump 
administration? Can you discuss in further detail the Administration's 
plans on paid family leave?
    Answer 2. I have not discussed this matter with the Administration. 
If confirmed, I will actively participate in these discussions.

    Question 3. During your confirmation hearing, we discussed public-
private partnerships as part of the Trump administration's plan to help 
dislocated workers find new jobs. Can you elaborate on the type of P3s 
the Administration envisions? Are there examples of successful 
partnerships that the Administration hopes to model? How will your 
Labor Department support partnerships between schools and businesses?
    Answer 3. There are numerous examples throughout the Nation of 
industry, local academic and training institutions and government 
partnering effectively to train and place workers in growth sectors. If 
confirmed to lead the Department of Labor, I expect to take a 
leadership role in compiling best practices and seeking out 
partnerships with the private sector, particularly partnerships with 
business and industry. We will work with employer associations, 
community colleges, and other organizations to encourage sector 
strategies and work-based approaches, including apprenticeship programs 
and other successful models carried out by States and in local 
communities across the country. Connecting dislocated workers to new 
jobs cannot just be the work of the Federal Government. Private-public 
partnerships with active employer engagement are essential.
    If confirmed, I believe my role will be to make sure this model can 
be accessed in more communities and by displaced workers who will need 
to transition to new and growing industries.
                           senator whitehouse
    Question 1. Please list all DOL regulations you would seek to 
delay, modify, or eliminate.
    Answer 1. As I noted in my hearing, the President has directed each 
Cabinet officer to review all rules and to make determinations if any 
rules should be revised. If confirmed, I will have an obligation to 
comply with that directive. In addition, there are a number of rules 
that are in litigation or that Congress may act on under the 
Congressional Review Act, which could require the Department to make 
revisions or eliminate those regulations.

    Question 2. Knowing what you know now about the violations of 
Department of Justice policies and Federal employment law that occurred 
during your tenure by your staff at the Department of Justice, what 
would you have done differently as a manager?
    Answer 2. With the benefit of perfect hindsight, I would not have 
assigned hiring responsibility in the manner I did and would have 
focused more closely on the activities of my deputies. I also learned 
the importance of ensuring that appointed personnel subordinate to you 
share your values.

    Question 3. Why do you think your management of your Deputy Bradley 
Schlozman in the Civil Rights Division at the Department of Justice was 
insufficient?
    Answer 3. Senior leadership in government has to balance external 
and internal demands. I believe I focused too much on external matters, 
i.e., communications with the public and the civil rights communities. 
I have since become more hands-on, and more focused on internal 
matters. I have also learned to better oversee and monitor subordinates 
while not micromanaging their performance. As U.S. attorney, I walked 
around the office often in order to learn what AUSAs were doing. This 
day-to-day contact was important, and helped me better understand and 
monitor day-to-day AUSA activity.

    Question 4. The Department of Justice Office of Inspector General 
and Office of Professional Responsibility's report that you had 
``sufficient information about Schlozman's conduct to have raised red 
flags warranting closer supervision of him,'' that you should have been 
alert to ``potential problems with Schlozman's conduct and judgment,'' 
and that you ``did not sufficiently supervise Schlozman.'' What steps 
will you take to ensure that your staff at DOL do not engage in the 
same sort of inappropriate behavior and illegal activities?
    Answer 4. While the OIG/OPR Report did reach the conclusion stated, 
the report failed to identify a single instance of anyone alerting me, 
or me otherwise being aware, of the improper consideration of political 
views in hiring career staff. None of the three instances on which the 
report based its conclusion involved such misconduct. That said, I am 
keenly aware of the laws and regulations prohibiting the consideration 
of politics in hiring career staff and, if confirmed, will make it 
abundantly clear to staff that such conduct will not be tolerated at 
all.

    Question 5. During your tenure at DOJ there was a ``significant'' 
drop in civil rights enforcement, according to a 2009 GAO report--
including a drop in lawsuits to enforce laws prohibiting race or sex 
discrimination in employment from about 11 per year to about 6 per year 
from the Clinton to Bush administration. What assurances can you give 
me that we will not see a similar drop-off in enforcement under your 
Department of Labor?
    Answer 5. As an initial matter, the GAO report covered the 2001-07 
period. As I was Assistant Attorney General for 2 of these years, I 
cannot comment on the premise of the question. I would note that in 
2004, the Division filed more pattern or practice employment 
discrimination cases than in several of the preceding years. Further, I 
would note that numbers of cases filed is not always reflective of 
enforcement outcomes. For example, a complex high-impact matter may 
require more resources than several low-impact cases. Yet, ``1'' high-
impact matter may have more positive enforcement outcomes than several 
smaller cases. I believe the Secretary of Labor should enforce Federal 
labor laws fully and fairly. As a prosecutor, I used government 
resources carefully to bring the best cases possible and get the best 
resolutions. I will follow that model at the Department if confirmed.

    Question 6. Your tenure at the Department of Justice was marred by 
conflicts between political appointees and career staff that reportedly 
led to an unusually large number of career attorneys to leave the 
Department. What steps will you take to retain career staff at DOL at 
similar levels under the previous Administration?
    Answer 6. The Department of Labor career staff is expert in their 
areas of responsibility, and critical to the Department's mission. 
Their knowledge would be difficult to replace. If confirmed, I hope to 
convey to the staff that I value their knowledge and expertise, and 
that I value them. I recognize, of course, that the appropriation 
levels will ultimately be set by Congress. Nonetheless, I will advocate 
for sufficient levels to ensure full and fair enforcement.

    Question 7. America Rising Squared, a 501(c)(4) organization that 
does not disclose its donors, recently launched a six-figure digital 
and TV advertising campaign in support of your nomination.
    Do you know who its donors are?
    Have you had any contact with America Rising Squared, its 
employees, or its donors?
    Do you believe there is a risk of a conflict of interest, or of an 
appearance of conflict, if funders of that effort have matters that 
come before the Department of Labor?
    Answer 7. I do not know who the donors to this organization are or 
who they employ. Thus, I do not know if I have had contact with either. 
I will assess conflict of interest questions on a case-by-case basis in 
consultation with the Department's career ethics officials as they may 
arise.

    Question 8. In April 2016, the Department of Labor released a final 
version of the Conflict of Interest Rule which holds brokers and 
advisers who work with tax-advantaged retirement savings to a 
``fiduciary'' standard. Do you believe that advisors providing advice 
regarding retirement accounts have a legal obligation to provide advice 
solely in the best interest of their clients? Why or why not?
    Answer 8. Hardworking individuals and retirees should receive 
advice that is in their best interest. If confirmed, I expect to 
carefully examine the rule, pursuant to the presidential memorandum. If 
repealed or scaled back, the basic protection articulated above would 
be important to address.

    Question 9. The Chamber of Commerce, SIFMA, ACLI and a number of 
other trade associations opposed to the DOL fiduciary rule have argued 
in court that they should not be held to a fiduciary standard because 
they are not ``advisers''. According to their testimony, they are mere 
salespeople engaged in arm's length transactions. Do you agree with 
that argument? Please explain why or why not, citing the legal basis 
for such conclusion.
    Answer 9. This matter is presently under review. If confirmed, I 
expect detailed briefings on this distinction, including the legal 
basis.

    Question 10. Apprenticeships are an important tool to train 
workers, and have been critical in Rhode Island. What will you do as 
Secretary of Labor to promote apprenticeships as a cost-effective tool 
for workforce training?
    Answer 10. Apprenticeships are part of a clear pathway to 
meaningful work and careers. If confirmed, I expect to focus attention 
on understanding the Department's important role in increasing access 
to quality apprenticeships and facilitating high performance in 
apprenticeship programs.

    Question 11. Rhode Island is the home to one of the Nation's most 
successful Job Corps sites, the Exeter Job Corps Center, which serves 
roughly almost 200 young people. For many in Job Corps, the training 
means the difference between success in getting a job or not. As 
Secretary of Labor will you commit to proposing a budget with at least 
level funding for Job Corps?
    Answer 11. I appreciate the conversations I have had with several 
Senators about the difference that Job Corps centers are making for the 
young people in their States. If confirmed, I will support the most 
efficient and effective use of every taxpayer dollar that Congress 
directs toward job training programs, including Job Corps. Under my 
leadership, the Department will continue its efforts to better align 
job training with the skills necessary to meet the market demands for 
workers, which I believe will improve the outcomes for Job Corps 
graduates. If confirmed, I expect to be briefed on the Job Corps 
program and the performance of each of the more than 100 Job Corps 
centers. I look forward to learning more about the center in your State 
that you mention as well as others and our focus will be on helping Job 
Corps centers best provide to students the services and training 
central to their core mission.

    Question 12. Since 1994, YouthBuild has helped over 150,000 at-risk 
youth break the cycle of poverty by rebuilding their communities while 
also learning key skills. Each year I hear from Rhode Islanders whose 
lives were turned around through YouthBuild. As Secretary of Labor, 
will you commit to proposing a budget with at least level funding for 
YouthBuild?
    Answer 12. As a nominee, I have not participated in the current 
budget discussions. If confirmed, I do look forward to being briefed on 
the proposed budget and programs like Youthbuild, so that I can better 
understand their mission, their performance and their resource needs. I 
will work to maximize the impact of every taxpayer dollar directed to 
YouthBuild and other job training programs. I look forward to engaging 
with the committee and private and public stakeholders in a discussion 
about how to improve the employment outcomes of young people in a time 
of resource constraints.

    Question 13. According to the Census, as of March 2016, there are 
over 25 million adult Americans who do not have either a high school 
diploma or a GED. According to the Bureau of Labor Statistics, the 
unemployment rate of these workers is 8 percent. Do you consider this a 
problem? If so, please outline your proposal for actions the DOL would 
take on this matter, if you are confirmed.
    Answer 13. Our workforce training system must be positioned to 
provide training and skills to the millions of workers who lack a post-
secondary education if they are to prosper in our modern and constantly 
changing economy. The worker training and apprenticeship programs under 
the Department's purview must position these workers with skills that 
meet the needs of growth industries and sectors.

    Question 14. The Obama administration took a number of steps over 
the last several years to expand the anti-discrimination provisions in 
Federal programs. Executive Order 13627 strengthened anti-trafficking 
protections in Federal contracts. Executive Order 13548 directed 
Federal departments to increase employment of workers with 
disabilities. Executive Order 13583 directed departments and agencies 
to implement human resource strategies that emphasize diversity and 
inclusion. The Department of Labor also issued complementary guidelines 
updating the Sex Discrimination and Ethnicity Discrimination rules. 
These guidelines specifically addressed the needs of populations that 
traditionally have been marginalized but who form a growing population 
of the workforce. If confirmed, do you promise not to weaken or delay 
these protections?
    Answer 14. The decision as to whether to maintain, amend or rescind 
Executive orders belongs to the President. As I noted in my hearing, if 
confirmed, I would enforce the law fully and fairly, including 
Executive orders that apply to the Labor Department or give the 
Department additional enforcement responsibilities.

    Question 15. Each year, thousands of workers lose their jobs simply 
because they need to take a day to recover from illness or care for a 
sick family member. Under Executive Order 13706 issued by President 
Obama, more than one million workers who are employed by Federal 
contractors gained the right to take paid, job-protected sick days. Do 
you support ensuring workers employed by Federal contractors having 
access to paid sick days?
    Answer 15. The decision as to whether to maintain, amend or rescind 
Executive orders belongs to the President. As I noted in my hearing, if 
confirmed, I would enforce the law fully and fairly, including 
Executive orders that apply to the Labor Department or give the 
Department additional enforcement responsibilities.

    Question 16. Please name which of President Obama's DOL policies 
you would like to see continued?
    Answer 16. The vast majority of Department policies are continued 
from Administration to Administration. Executive order 13672 is one 
example. There are many others.

    Question 17. Studies have shown large majorities of women in the 
construction industry reporting either overt discrimination or on-the-
job sexual harassment, and the percentage of constructions jobs held by 
women remains very low. Do you believe this is a problem? Can we expect 
you to enforce anti-harassment protections to ensure that construction 
projects funded by Federal dollars provide real opportunities for 
women?
    Answer 17. Overt discrimination and sexual harassment are illegal, 
and as I noted in my hearing, if confirmed, I would enforce the law 
fully and fairly. OFCCP has a substantial compliance assistance program 
on large construction projects designed to expand the opportunity for 
women and minorities. I look forward to learning more about that 
program and assuming it is successfully and efficiently expanding equal 
employment opportunity, supporting it.

    Question 18. According to BLS data as of December 2016, only 20 
percent of all Americans with disabilities ages 18-64 were employed. 
One of the key roles of the Department of Labor, particularly the 
Office of Disability Employment Policy (ODEP), is to implement programs 
that help increase the labor force participation rate of these 
individuals and help them lead successful and self-sustaining lives. If 
confirmed, will you commit to supporting ODEP programming including the 
START-UP program? Can you commit that any budget you prepare will not 
eliminate funding for this department?
    Answer 18. I would need to review any particular program before I 
committed to supporting it, but I certainly support increasing the 
labor force participation rate of disabled individuals and helping them 
lead successful and self-sustaining lives. I am informed that ODEP 
works with the Office of Federal Contract Compliance Programs to help 
Federal contractors meet important goals of employing disabled 
Americans on Federal contracts. As to funding, I expect that any budget 
I help prepare would include support to increase the labor force 
participation rate of disabled workers.

    Question 19. At your confirmation hearing you said you would look 
into the FLSA 14(c) certificate issue. Have you looked into this? What 
have you learned about this issue?
    Answer 19. I understand the Fair Labor Standards Act 14(c) 
exemption is statutory and is an area of concern and interest for many 
Members of Congress. If confirmed, I want ensure that individuals with 
disabilities who might not otherwise have a job, have access to a good 
job and are trained for that job. While I would need to thoroughly 
review any particular program or statutory exemption before I committed 
to supporting or opposing it, I certainly support increasing the labor 
force participation rate of disabled individuals and helping these 
individuals lead successful and self-sustaining lives.

    Question 20. In 2008, the Mental Health Parity and Addiction Equity 
Act passed with overwhelming bipartisan support. This law requires that 
all health plans (including employee-sponsored plans) have the same 
limits on mental health benefits that they do for medical or surgical 
benefits. MHPAEA violations can result in a breach of fiduciary duty 
under the Employee Retirement Income Security Act (ERISA) and an IRS 
excise tax of $100 per covered individual per day. As Secretary of 
Labor, you will be responsible for performing audits to ensure 
compliance by employer-sponsored health plans. If confirmed, will you 
commit to publishing the de-identified results of the audits?
    Answer 20. Treatment for mental health issues and addiction can 
save lives, and I support enhancing affordability and access to those 
services. As noted at my hearing, if confirmed, I will work to enforce 
the laws under the Department of Labor's jurisdiction fully and fairly, 
including as to mental health and addiction coverage. If confirmed, I 
look forward to learning more about the Mental Health Parity and 
Addiction Equity Act and the Department's responsibilities pursuant to 
the Act and working with you on this important matter.

    Question 21. After the election, immigrant communities have become 
concerned about the potential for mass deportations. The President has 
exacerbated these fears by stating that there will be ``no amnesty'' 
for immigrants who came into this country illegally.
    What role do you envision for DOL should policies like this come to 
pass?
    Answer 21. I do not believe that the Department has a role in 
deportation issues.

    Question 22. Immigrants fill not just high skilled roles in the 
United States, but also fill technical and manual skill jobs. A 2010 
study by the Federal Reserve Bank of San Francisco concluded that 
immigration helps companies expand, and allows more U.S.-born employees 
to assume managerial and leadership positions. In particular, 
immigrants play a key role in startups. Between 2006 and 2012, 33 
percent of venture-backed companies that went public were founded by 
immigrant entrepreneurs, according to a study from the National Venture 
Capital Association. If confirmed, your Department will have a key role 
in overseeing companies that seek to hire legal foreign workers. How 
will you use this oversight role to incentivize companies to hire legal 
foreign workers? How will you support foreign innovators who want to 
build new companies in the United States that employ American workers?
    Answer 22. I recognize the role that immigration has played and 
continues to play in our Nation. I also recognize that abuse of the 
visa process costs Americans jobs. This is a difficult balance and one 
that I will study carefully.

    Question 23. If confirmed as Secretary, do you commit to having 
your Department maintain the 2011 Memorandum of Understanding between 
the labor agencies and DHS, which reiterates the policy goal that 
immigration enforcement will not interfere with employment and labor 
rights in the workplace? Do you believe that threats of deportation and 
or ICE raids should not be used to intimidate those seeking to exercise 
their right to organize, collectively bargain, or otherwise seek to 
improve their workplaces?
    Answer 23. I am informed that the Department has a longstanding 
commitment to ensuring that all workplace protections are enforced 
regardless of workers' immigration status. I have not reviewed it but I 
believe there is a Memorandum of Understanding between the two cabinet 
departments that is designed to avoid interfering in each other's 
enforcement responsibilities. If confirmed, I will discuss this issue 
with Department of Labor staff and ask them to work with Department of 
Homeland Security staff to help ensure that both agencies can continue 
to fulfill their responsibilities.

    Question 24. Although human trafficking spans all demographics, 
there are some circumstances that lead individuals to become more 
susceptible to victimization. Foreign nationals who come to the United 
States on temporary work visas are a particularly vulnerable group. 
Many have paid large recruitment and travel fees to labor recruiters 
and become highly indebted. Traffickers control and manipulate these 
individuals by leveraging the non-portability of many temporary visas 
as well as the victims' lack of familiarity with surroundings, laws and 
rights, language fluency, and cultural understanding. Do you commit to 
prioritizing efforts to ensure foreign nationals on temporary work 
visas are not trafficked? Will you support increasing the ability of 
workers on temporary visas to change jobs, in order to remove a tool 
traffickers use to exploit victims?
    Answer 24. Eliminating human trafficking is one of the most 
important issues upon which we should focus. If confirmed, I will work 
to use all tools at the Department's disposal to end this horrific 
practice.

    Question 25. Do you support the use of mandatory arbitration 
clauses in employee contracts?
    Answer 25. There is a preference for allowing the use of 
arbitration generally under the Federal Arbitration Act, and the 
Supreme Court has upheld that preference. If Congress were to change 
that preference and disallow arbitration clauses, I would follow the 
law.

    Question 26. How do you view the ``contingent workforce'' and 
``gig'' economy jobs, in the context of the broad definitions of 
``employee'' found in the Fair Labor Standards Act? How will you 
approach enforcement in this area?
    Answer 26. The use of independent contractors is a legal and 
valuable business practice. However, in some circumstances, when an 
employer incorrectly labels a worker as an independent contractor 
instead of an employee, the employer may not be abiding by their 
responsibilities to compensate the worker according to the requirements 
of the law. Employees incorrectly classified as independent contractors 
may be denied access to critical benefits and protections they are 
entitled to by law. An important role of the Department of Labor is to 
ensure that employers who want to do the right thing have clear 
compliance guidance from the Department. If confirmed, I will work to 
enforce the laws under the Department of Labor's jurisdiction, 
including these employment laws, fully and fairly to ensure the 
protection of workers.

    Question 27. According to the Bureau of Labor Statistics, 18 
percent of low-income American workers do not have access to paid 
leave. Is that acceptable? If confirmed, will you promote policies that 
increase access to paid leave for workers?
    Answer 27. I recognize that many States and localities have 
implemented paid leave laws. I believe attempts to expand paid leave 
would require congressional action. As I mentioned in the hearing, 
promoting workplace flexibility is something I support, particularly 
for working parents with young children. If confirmed, I look forward 
to working with the President and Congress as discussions regarding 
paid leave occur.

    Question 28. In recent years, there has been interest in bipartisan 
criminal justice reform. An important DOL initiative supporting 
criminal justice reform efforts is the Reentry Employment Opportunities 
(REO) program. REO helps connect returning citizens to job training and 
employment. What is your position on REO? Would you work with Congress 
to ensure this important program receives at least level funding from 
the previous Administration?
    Answer 28. Reintegrating citizens into the economy after they have 
been involved with the criminal justice system is something I believe 
is of great importance, providing individual, societal and economic 
benefit. If confirmed, I look forward to being briefed on this 
important program in order to better understand its goals, its 
performance and its resource needs. I will work to maximize the impact 
of every taxpayer dollar directed to job training programs to improve 
the employment outcomes for America's workers, including offenders 
transitioning back into their communities, and build a skilled 
workforce that meets employer needs. I will also continue to buildupon 
the body of evidence of what works to improve outcomes for individuals 
who have been part of the criminal justice system, and I look forward 
to working with Congress and your committee to achieve this goal.

    Question 29. Congress recently repealed the DOL rule outlining the 
limited circumstances that a State may drug-test individuals applying 
for Unemployment Insurance. Do you support or oppose policies requiring 
applicants for Unemployment Insurance be drug-tested? Do you believe 
such policies are cost-effective? If so, what evidence do you have to 
support your view?
    Answer 29. If confirmed, I look forward to being briefed on this 
matter so as to understand the impact such policies would have on cost 
and program effectiveness. Helping the unemployed reenter the workforce 
is central to the Department's mission, as is the Department's 
obligation to ensure that its budget dollars and policies deliver on 
that mission. I will work to ensure implementation of the provisions 
set out in law as envisioned by Congress and to ensure the benefits of 
the important UI program are provided to individuals meeting its 
eligibility requirements, including being able to work and available to 
work.

    Question 30. A significant body of research finds that providing 
comprehensive reemployment services through job centers can help UI 
recipients become re-employed faster and ultimately reduce State UI 
benefit payments overall. Federal funding for these services--through 
Wagner-Peyser grants to States--has fallen by 61 percent in real terms 
since 1984. At the same time, workers today face a higher probability 
of permanent displacement and extended unemployment than they did a few 
decades ago. Are you concerned that the Federal Government is 
disinvesting in these cost-effective services? Do you believe such 
proven programs are worth increased funding given current labor 
participation rates and the costs and risks associated with 
unemployment?
    Answer 30. As a general matter, I believe job training programs and 
quality apprenticeships can offer a substantial return on investment. I 
look forward to being briefed on the entire universe of dislocated 
worker and job training programs at the Department, if confirmed. 
Understanding the intersection between UI and job training and 
dislocated worker programs will be a major focus. I look forward to 
understanding the budgets for these programs in order to make sure tax 
payer dollars are being used effectively and to ensure the programs 
have the resources needed to be effective.

    Question 31. If confirmed, you might have occasion to work on the 
Deferred Action for Childhood Arrivals (DACA) program. I hope you share 
my concern for innocent youths in any transition away from DACA. These 
young people are looking to better themselves by going to school and 
are contributing to our economy. They are following the rules and have 
often overcome incredibly difficult personal circumstances. A key 
component of DACA is being able to work, and having work authorizations 
to do so. DOL will likely have a say in how the Administration might 
address work authorizations for DACA recipients. Do you agree that 
young individuals protected under the DACA program deserve care and 
consideration when developing our priorities and policies? Would you 
commit to giving these young people the extra consideration they 
deserve when developing future DOL policy?
    Answer 31. To the extent that the Department has a role to play 
regarding these issues, if confirmed I will work to ensure that due 
care and consideration are taken when developing policy in this area.
                            senator baldwin
    Question 1. Mr. Acosta, as you may know, there is strong support 
among many members of this committee for employee ownership and ESOP 
(employee stock ownership plan) companies. S corporation ESOPs in 
particular lead to greater firm longevity and higher wages, wage 
growth, job stability, retirement plan contributions, employment and 
sales. It is a model that is working and that we should do more to 
promote and encourage so that more hardworking Americans can own a 
piece of the rock. Will the Department of Labor commit to working with 
Congress to promote employee ownership and ESOPs?
    Answer. I strongly support empowering Americans in all aspects of 
their working endeavors. A well-run ESOP, like other employment-based 
retirement plans, can provide valuable benefits to participating 
workers, and I believe that Congress and the Department have a shared 
responsibility to take steps to make sure that ESOPs fulfill their 
important mission of providing benefits and enhancing employee 
ownership. If confirmed, I expect to be briefed on ESOPs and I look 
forward to working with Congress as we develop the Department's 
regulatory policies and priorities to expand opportunity.
                             senator murphy
    Question 1. Today's economy demands Federal investment in a highly 
qualified workforce. This is critical to ensure the United States to 
remain competitive. A recent study by the National Science Foundation 
found that women continue to lag behind men in obtaining STEM jobs, 
despite earning an increasing number of STEM graduate degrees. At a 
time when our Nation faces a serious shortage of highly skilled 
employees in the STEM disciplines, what action items do you intend to 
implement that will increase recruitment and retention, specifically of 
women and minorities, in STEM jobs? How do you plan to ensure States 
are meeting performance measures and are taking steps to increase 
enrollment and completion in ``nontraditional careers''?
    Answer 1. I have stated that helping Americans find good jobs, safe 
jobs, should not be a partisan issue. A labor force with the science, 
technology, engineering and mathematics knowledge and skill that can 
meet the needs of business and industry and help grow and sustain 
healthy regional economies is important, as is a diverse and inclusive 
workforce. If confirmed as Secretary of Labor, I hope to have the 
benefit of an ongoing dialog with you and Members of the committee 
about how best to advance these goals within the context of a dynamic, 
global economy that is changing more rapidly with each passing year, 
and within the constraints of limited resources. If confirmed, I also 
expect to be briefed on efforts being conducted by both the Department 
of Labor and Department of Education to encourage all Americans to 
succeed in STEM jobs. I hope to hear from Federal, State and private 
sector stakeholders on how we can ensure that performance measures are 
met and exceeded.

    Question 2. Last year, I spent a week walking across my State 
talking to people who would not normally interact with my office. I 
kept hearing from people who were working at a full-time job, but were 
still not able to make financial ends meet. In light of that, do you 
agree with the following statement, ``No one who works full-time should 
have to live in poverty? ''
    Answer 2. I hear the same concerns. That is one reason that skills 
training is important, as it can provide access to better jobs. Too 
many have difficulty finding good, safe jobs. As I said at the hearing, 
I know every member of the HELP committee wants Americans to find jobs, 
good jobs, safe jobs, even if there is a difference of opinion as to 
how. If confirmed, I hope to benefit from an ongoing dialog with the 
committee as to how we can advance that goal.

    Question 3. Major employers across the Nation, many States 
including Connecticut, and over 150 cities have embraced ``ban the 
box'' and other fair chance hiring strategies that help reduce the 
stigma associated with a criminal record in the hiring process. Do you 
support bi-partisan legislation, such as the Fair Chance Act, that 
would help advance employment opportunities for people with records?
    Answer 3. I have not reviewed that particular piece of legislation, 
but I look forward to working with you and the rest of the Congress to 
advance employment opportunities for all Americans. I fully believe in 
giving a second chance to those who have been convicted of a crime but 
have paid their debts to society. I find too often that a youthful, 
minor offense carries an inappropriate stigma.

    Question 4. WIOA emphasizes career pathways as a proven practice. 
Since the enactment of WIOA, the Departments of Education and Labor 
have worked to improve coordination in order to promote and support the 
expansion of this innovation. Under your leadership, would the 
Department of Labor continue that work? In what other ways might the 
coordination between the Departments of Education and Labor be 
improved?
    Answer 4. As I mentioned in my hearing, I believe that effective 
coordination between these two closely linked departments is vital. I 
look forward to working closely with the Department of Education on 
WIOA and other matters, and I will strive to improve coordination 
whenever possible.

    Question 5. Under administrations led by both Republican and 
Democratic presidents, the Department of Labor has funded competitive 
grants for workforce training programs at post-secondary education 
institutions (especially community colleges). In Connecticut, these job 
training activities are funded from Trade Adjustment Assistance 
Community College and Career Training (TAACCCT) grants. Will you 
dedicate new funding for focused investments in community college-based 
workforce training programs? If so, how will you ensure that low-income 
students can affordably access the training offered under these 
programs?
    Answer 5. As a nominee, I have not participated in the current 
budget discussions. If confirmed, I look forward to participating in 
that process so that I can understand the goals, performance and 
resource needs of programs such as this one in order to deliver the 
greatest value to the American people. Serving low-income workers and 
workers displaced by trade are both very important responsibilities of 
the Department.

    Question 6. As you know, Congress recently passed a major mental 
health bill as part of the 21st Century Cures Act. Among these are 
provisions designed to improve enforcement and compliance with the 
Mental Health Parity and Addiction Equity Act.
    Among other things, the new law directs the Secretary of the 
Department of Labor to:

    <bullet> issue new Federal guidance on compliance with mental 
health and substance use disorder parity requirements;
    <bullet> convene a public meeting to produce an action plan to 
improve Federal and State coordination related to the enforcement of 
parity;
    <bullet> audit plans that have violated mental health parity at 
least 5 times; and
    <bullet> release an annual report for 5 years summarizing the 
results of all closed Federal investigations of alleged parity 
violations.

    Will you commit that the Department of Labor will meet these 
specific statutory obligations to improve mental health parity 
compliance? Also, will you commit to have the department collaborate 
with the Department of Health and Human Services to ensure that parity 
compliance improves significantly from where it is now?
    Additionally, the White House Task Force on Parity, after 
investigation and input from all stakeholders, issued a report in 
October 2016 making several recommendations to improve enforcement of 
the Mental Health Parity and Addiction Equity Act and its implementing 
regulations. For example, the report recommended increased funding for 
staff to audit health plans for parity compliance and allowing the 
department to assess civil monetary penalties for parity violations.
    Do you support these two specific recommendations? Which other 
recommendations are you prepared to support and which are you not 
prepared to support?
    Answer 6. Treatment for mental health issues and addiction can save 
lives, and I support enhancing affordability and access to those 
services. If confirmed, I look forward to learning more about the 
Mental Health Parity and Addiction Equity Act and the 21st Century 
Cures Act and the Department's responsibilities pursuant to those Acts. 
As I stated at my hearing, I will follow the laws that Congress has 
passed, including any statutory obligations. I also support 
coordination with other cabinet agencies to ensure the government is 
effective and efficient in its actions. I would need to review any 
recommendations on this issue and consult with staff at DOL before I 
could commit to them.
                             senator warren
                         conflicts of interests
    Question 1. Do you believe President Trump should fully divest from 
The Trump Organization in order to prevent conflicts of interest for 
you and other Federal Government agencies?
    Answer 1. I have no personal knowledge of these issues, which are 
outside the scope of the Department of Labor's responsibilities. With 
regard to me personally, if confirmed, I will regularly consult with 
the Department's ethics counsel to avoid conflicts of interests.

    Question 2. Will you commit to enforce wage and hour and 
occupational health and safety regulations against The Trump 
Organization if the company violates these laws and harms its 
employees?
    Answer 2. As I noted at the hearing, if confirmed, I would enforce 
the law fully and fairly with respect to all organizations, including 
the Trump Organization.

    Question 3. What is your specific plan for insulating yourself and 
DOL from conflicts of interest related to DOL actions that may impact 
the Trump Organization?
    Answer 3. I worked with the career ethics staff at the Department 
of Labor and the Office of Government Ethics to ensure any possible 
conflicts of interest were addressed as part of my ethics clearance. If 
confirmed, I would continue to work with ethics staff to address 
conflicts of interest.

    Question 4a. Will you commit to closing the revolving door and 
preventing Labor Department employees from personally profiting from 
their activities at the Department?
    Will you prevent Labor Department employees from working on issues 
that directly impact a previous employer?
    Answer 4a. I am committed to seeing that employees of the 
Department of Labor fully comply with all ethics laws and regulations, 
including the restrictions contained in 18 U.S.C. 208 and 5 C.F.R. 
2635.502. Non-career employees are also subject to additional 
restrictions contained in Executive Order 13770 (``Ethics Commitments 
by executive branch Appointees''), which includes a requirement that 
they sign an ethics pledge.

    Question 4b. Will you demand that, prior to appointment, political 
appointees pledge that they will not work in industries related to or 
significantly subject to Labor Department regulation for 3 or more 
years upon leaving Federal service?
    Answer 4b. As discussed above, upon appointment all non-career 
employees are required to sign the ethics pledge set forth in Executive 
Order 13770. By signing this pledge, the non-career employee commits to

        ``. . . not, within 5 years after the termination of my 
        employment as an appointee in any executive agency in which I 
        am appointed to serve, engage in any lobbying activities with 
        respect to that agency.''

    All employees, including non-career appointees, are also subject to 
the applicable post-employment conflict-of-interest provisions in 18 
U.S.C. 207.

    Question 5a. On January 28, President Trump issued the Ethics 
Commitments by Executive Branch Employees Executive order, which 
prohibits executive branch appointees from participating

        ``in any particular matter involving specific parties that is 
        directly and substantially related to [their] former employer 
        or former clients, including regulations and contracts''

for ``a period of 2 years from the date of my appointment.''\1\ The 
beachhead team at the Department of Labor, however, includes 
individuals who have previously lobbied on issues in DOL's 
jurisdiction, including the Davis-Bacon Act and the Conflict of 
Interest Rule.\2\
---------------------------------------------------------------------------
    \1\ https://www.whitehouse.gov/the-press-office/2017/01/28/
executive-order-ethics-commit-
ments-executive-branch-appointees.
    \2\ https://www.propublica.org/article/labor-department-hire-could-
presage-collision-trump-construction-unions; https://
projects.propublica.org/graphics/beachhead.
---------------------------------------------------------------------------
    Will you commit that, if confirmed, you and all of your 
subordinates at the Department of Labor will follow this ``lobbying 
ban''?
    Answer 5a. I am committed to complying with the quoted provision, 
and ensuring that my subordinates do as well.

    Question 5b. Will you commit to firing anyone on the DOL beachhead 
team who does not meet the terms of this rule?
    Answer 5b. I am committed to seeing that anyone who is found to 
have violated the provisions of Executive Order 13770 will be 
disciplined appropriately in accordance with applicable personnel 
procedures.
             politicization of doj's civil rights division
    Question 6. Do you agree with the DOJ Inspector General in 2008 
that, as Assistant Attorney General for Civil Rights, you failed to 
appropriately supervise your staff?
    If so, to what do you attribute this failure?
    What lessons did you learn from this incident?
    Answer 6. As I indicated at my hearing before the committee, the 
conduct described in the OIG's report was wrong and should not have 
taken place. The OIG concluded that I was not aware of the misconduct. 
Nonetheless, it occurred on my watch as Assistant Attorney General. I 
am well aware of what happened, and committed to ensure it is not 
repeated. Since then, I am a more hands-on manager. I have also learned 
to better oversee and monitor subordinates while not micromanaging 
their performance. As U.S. attorney, I walked around the office often 
in order to learn what AUSAs were doing. This day-to-day contact was 
important, and helped me better understand and monitor day-to-day AUSA 
activity.

    Question 7. During your confirmation hearing for your DOJ position, 
Senator Kennedy asked you about preventing a politicized hiring 
process. You answered by saying:

          ``I would hope that the hiring process looks for the best 
        qualified individuals-- by ensuring that those who are 
        participating in the process, those who do the interviewing 
        understand what the role is and what the role is not. That's 
        something I think should be emphasized to all participants in 
        the hiring process, and certainly if confirmed I would do 
        that.''\3\
---------------------------------------------------------------------------
    \3\ U.S. Senate, Committee on the Judiciary, July 2003. Online at 
https://www.gpo.gov/fdsys/pkg/CHRG-108shrg91833/pdf/CHRG-
108shrg91833.pdf.

    Given your explicit commitment to Senator Kennedy, how did you let 
the DOJ politicized hiring scandal happen under your watch?
    Answer 7. As I indicated in my previous answer, the conduct 
described in the OIG's report was wrong and should not have taken 
place. The OIG concluded that I was not aware of the misconduct. 
Nonetheless, it occurred on my watch as Assistant Attorney General. If 
confirmed, I will make it abundantly clear that such conduct will not 
be tolerated.

    Question 8. If you are confirmed as Secretary, will you commit to 
preventing politicization of DOL? How will you do so?
    Answer 8. If confirmed, I will make it abundantly clear that such 
conduct will not be tolerated. If I learn of inappropriate conduct I 
will take appropriate disciplinary action, including dismissal.

    Question 9. During Mr. Trump's campaign, there were reports that 
even volunteers were required to sign non-disclosure agreements. And 
following his election, there were also reports that transition 
officials were requesting information about career employees who worked 
on issues such as climate change at the Energy Department or women's 
issues at the State Department.\4\ Any implication that people who 
worked on advancing policies that the new President disagrees with may 
be targeted or retaliated against could create a chilling effect on 
non-political Federal employees simply trying to do their jobs.
---------------------------------------------------------------------------
    \4\ https://www.washingtonpost.com/news/josh-rogin/wp/2016/12/22/
trump-team-asked-state
-department-for-info-on-womens-issues-programs-stoking-fears-of-
another-witch-hunt/?utm_term
=.50b42eb8cf86.
---------------------------------------------------------------------------
    If you are confirmed, will you commit to protect the rights of all 
civil servants in the Department of Labor?
    Those rights include the right for civil servants to communicate 
with Congress, and in fact it is against the law to deny or interfere 
with their right to do so.\5\ If you are confirmed, do you commit to 
protect this fundamental right for government employees?
---------------------------------------------------------------------------
    \5\ 5 U.S.C. Sec. 7211.
---------------------------------------------------------------------------
    How will you do so?
    Answer 9. Civil servants have many protections under the law and I 
would follow the law. If I learn of inappropriate conduct I will take 
appropriate disciplinary action. If confirmed, I commit to protect the 
rights of all civil servants in the Department.
                                 budget
    Question 10. President Trump's preliminary 2018 budget proposal 
includes a 21 percent cut to the Department of Labor's budget.
    Will you commit to advocating against large cuts to the 
Department's budget?
    If so, how specifically will you do so?
    What level of spending on the Department as a whole do you believe 
is necessary to fulfill its mission?
    Answer 10. I note that the President proposes a budget but it is 
ultimately Congress that will determine the funding for the Department. 
If confirmed, I look forward to participating in that process so that I 
can understand the goals, performance and resource needs of programs in 
order to deliver the greatest value to the American people. As I noted 
at the hearing, I think the principles that need to be used to guide 
spending are how successful is the program and does the program address 
particular needs.

    Question 11. How do you believe that a 21 percent cut to the 
Department of Labor would affect the agency?
    How many career staff do you expect would lose their jobs?
    Which programs do you expect would be eliminated or significantly 
cut?
    Answer 11. As a nominee, I have not participated in the current 
budget discussions. The publicly available Labor Department chapter is 
all the information I have. The labor department chapter details some 
proposed cuts and eliminations and is available at page 31 here: 
www.gov/sites/whitehouse.gov/files/omb/budget/fy2018/
2018_blueprint.pdf. I have insufficient data to answer the question 
more specifically.

    Question 12. President Trump's budget proposes completely 
eliminating the Senior Community Service Employment Program, which 
helps low-income seniors seeking employment.\6\
---------------------------------------------------------------------------
    \6\ https://www.whitehouse.gov/sites/whitehouse.gov/files/omb/
budget/fy2018/2018_blue
print.pdf; https://www.washingtonpost.com/business/economy/labor-dept-
cuts-target-job-training-programs-for-seniors-disadvantaged-youths/
2017/03/15/4aba0966-0999-11e7-93dc-00f9bdd
74ed1_story.html.
---------------------------------------------------------------------------
    Do you believe that eliminating or significantly reducing funding 
to the Senior Community Service Employment Program would be a wise 
decision?
    If so, why?
    If not, will you commit to aggressively advocating for funding for 
the Senior Community Service Employment Program?
    Answer 12. As a nominee, I have not participated in the current 
budget discussions. If confirmed, I look forward to participating in 
that process, so that I can understand the goals, performance and 
resource needs of programs such as this one in order to deliver the 
greatest value to the American people. I do believe older Americans 
encounter difficulty finding jobs and that quality programs for this 
community are important.

    Question 13. President Trump's budget proposes significant cuts to 
Job Corps, a DOL program that helps disadvantaged youth enter the 
workforce.\7\
---------------------------------------------------------------------------
    \7\ Id.
---------------------------------------------------------------------------
    Do you believe that making large cuts to Job Corps would be a wise 
decision?
    If so, why?
    If not, will you commit to aggressively advocating for Job Corps 
funding?
    Answer 13. If confirmed, I expect to be briefed on the Job Corps 
program and the performance of each of the more than 100 Job Corps 
centers. I look forward to learning more about the centers in each 
State. I expect our focus will be on helping Job Corps centers best 
provide to students the services and training central to their core 
mission. If I conclude that a center is the best way to train a 
particular population, I will advocate to fund it.

    Question 14. President Trump's budget proposes significant cuts to 
the Office of Disability Employment Policy, which helps people with 
disabilities succeed in the workplace.\8\
---------------------------------------------------------------------------
    \8\ Id.
---------------------------------------------------------------------------
    Do you believe that making large cuts to the Office of Disability 
Employment Policy would be a wise decision?
    If so, why?
    If not, will you commit to aggressively advocating for funding for 
the Office of Disability Employment Policy?
    Answer 14. I certainly support increasing the labor force 
participation rate of disabled individuals and helping them lead 
successful and self-sustaining lives. The President, however, proposes 
the budget and it is ultimately Congress that determines the budget.

    Question 15. Do you support President Trump's proposed elimination 
of the OSHA-funded small grant programs that provide workers in 
dangerous jobs with life-saving information such as how to protect 
themselves from chemical hazards, prevent falls, and guard themselves 
against dangerous machines?
    If so, why?
    If not, will you commit to aggressively advocating for funding for 
these programs?
    Answer 15. As a nominee, I have not participated in the current 
budget discussions. That said, if confirmed I look forward to being 
briefed on all aspects of the Department's budget and will work to 
ensure that workers are protected while the taxpayers' dollars are 
spent in the most effective ways possible. If, after review, I believe 
this program offers the most efficient use of funds to encourage safety 
then I will advocate for it.
                  voter supression and discrimination
    Question 16. When you were the head of the DOJ's Civil Rights 
Division the Texas State Legislature proposed a redistricting plan that 
the U.S. Supreme Court found ``failed to protect minority rights,'' you 
recused yourself with no explanation. Your deputy overruled several 
career attorneys and analysts and allowed the redistricting plan to 
proceed.
    To your knowledge, why did your office overrule DOJ career 
appointees' recommendations with regard to the Texas voting rights 
cases?
    Why did you recuse yourself from that case?
    Answer 16. Recusal is appropriate where an official has an actual 
conflict of interest, or where under the circumstances the official may 
reasonably appear to have a conflict of interest. As I mentioned at my 
hearing, I have a longstanding friendship with the then-Solicitor 
General of Texas, Mr. Cruz, who was litigating this matter personally. 
I recused myself out of concern that this contact may be portrayed as a 
conflict of interest. I take recusal obligations very seriously. It is 
as important to recuse in cases where recusal is required as it is not 
to recuse in cases where recusal is not required. In this case I 
believe my decision to recuse from any involvement in the Department's 
deliberations and decisionmaking was appropriate. Because I was recused 
from the matter I was not privy to the decisionmaking process.

    Question 17. Will you commit to respect the policy findings and 
conclusions of DOL experts and career staff?
    Answer 17. If confirmed, I will certainly need the advice of career 
staff to ensure I am fully informed about issues. I respect their 
expertise. Policy decisions are ultimately for the leadership of the 
Department.

    Question 18. In 2004, while you were the head of the DOJ's Civil 
Rights Division, you defensed an Ohio voter challenge law that 
disproportionately disenfranchised African American voters. Despite 
there being no formal intervention in the case by your office, you 
submitted a letter-brief to the judge arguing in favor of the voter 
challenge law, just 4 days before the 2004 presidential election.
    Why did you submit a letter-brief in that case?
    In how many other voting rights cases in which DOJ did not formally 
intervene nor submit an amicus brief did you submit a letter-brief?
    Answer 18. The Department of Justice has a long history of 
submitting its views of statutes committed to its enforcement. The 
Department of Justice is charged with enforcing both the Help America 
Vote Act of 2002 (``HAVA'') and the Voting Rights Act (``VRA''). At the 
time, HAVA was a relatively new statute. Because of this, there was 
value in bringing to Judge Dlott's attention key aspects of HAVA, i.e., 
that State and local election officials must permit any individual 
whose name does not appear on the official registration list or whose 
eligibility to vote is called into question to cast a provision ballot 
even if they are unable to answer specific questions posed by election 
judges; that provisional ballots are part of a congressionally 
established balance between ballot access and ballot integrity; and 
that as a result, non-discriminatory challenge statutes are not 
prohibited on their face (although they can be prohibited as applied). 
Provisional ballots would mitigate the impact of the Ohio ``challenge 
statute'' at issue in that case, which otherwise may have resulted in 
the disqualification of some voters without any recourse to confirm 
their eligibility and to restore their vote. The letter alerting Judge 
Dlott to HAVA's requirements was consistent with the Civil Rights 
Division's many other efforts to raise awareness of and to enforce HAVA 
in several States during 2004, and although I recall full amici briefs, 
I do not recall other less-impactful letter briefs. Importantly, the 
Department did not speak to the specific allegations raised by the 
plaintiffs in that suit, but limited its comments only to the statutes 
on their face.

    Question 19. What key challenges do you see in enforcing labor laws 
that protect workers' civil rights? Which areas of enforcement will you 
prioritize?
    Answer 19. The Department shares responsibilities for labor and 
civil rights enforcement with a number of other agencies. If confirmed, 
I would consult with career staff to identify the areas of greatest 
need and direct available resources to address those areas, but I would 
also want to make sure that the Department was coordinating with the 
other agencies that share the same responsibility.
    At the Department of Labor, I would work with the agencies involved 
in civil rights to ensure that their efforts have the greatest benefit 
for those who are discriminated against, serve as a deterrent by 
example for those who accidentally or purposely discriminate, and 
increase overall compliance.

    Question 20. What metrics will you use to determine whether DOL is 
fulfilling its role in protecting workers' rights and stamping out 
discrimination?
    Answer 20. I believe results matter and need to be quantified, but 
it can be hard to measure reductions in discrimination. For example, 
one high impact case can reduce discrimination more than several lower 
impact matters. As a prosecutor, I used government resources carefully 
to bring the best cases possible and get the best resolutions for the 
largest number of victims. I also brought smaller individual cases. I 
will follow that model at the Department if confirmed.

    Question 21. What key challenges do you see in enforcing labor laws 
that protect workers against discrimination? Which areas of enforcement 
will you prioritize?
    Answer 21. If confirmed, I would consult with career staff to 
identify the areas of greatest need and direct available resources to 
address those areas, and I would also want to make sure that the 
Department was coordinating with the other agencies that share the same 
responsibility.

    Question 22. Which workers do you believe are at greatest risk of 
discrimination? What specific actions will you take to protect them?
    Answer 22. If confirmed, I would consult with career staff to 
identify the areas of greatest need and direct available resources to 
address those areas, and I would also want to make sure that the 
Department was coordinating with the other agencies that share the same 
responsibility for discrimination prevention. I note that there may 
very well be different issues dependent on wage rates, industries, and 
regions of the country.
            enforcement and regulation of wage and hour laws
    Question 23. Will you commit to continuing enforcement of DOL wage 
and hour and workplace safety standards?
    Answer 23. Yes.

    Question 24. What metrics will you use to assess the effectiveness 
of your enforcement efforts?
    Answer 24. Each enforcement agency may have different metrics 
because of the nature of their responsibilities and legal authorities. 
Increased compliance with the law is a great metric to consider but can 
be hard to measure. For example, one high impact case can reduce 
violations more than several lower impact matters. As a prosecutor, I 
used government resources carefully to bring the best cases possible 
and get the best resolutions for the largest number of victims. I also 
brought smaller individual cases. I will follow that model at the 
Department if confirmed,

    Question 25. If President Trump's 20.7 percent proposed budget cut 
is enacted, it will be virtually impossible to maintain the level of 
enforcement the previous administration obtained. How will you 
prioritize enforcement activities and investigations in the Wage and 
Hour Division if this budget is enacted?
    Answer 25. As budgets are reduced, high impact cases become more 
important as they tend to offer more impact per dollar. It is 
important, however, to bring smaller individualized cases as well.

    Question 26. President Trump has expressed criticism of the DOL 
Overtime Rule. Will you commit to defending the Rule, which would 
extend overtime protections for millions of American workers, in court, 
starting by appealing the injunction that is currently in place 
preventing implementation of this rule?
    If not, what are your specific plans for updating regulations so 
that only bona fide executives, rather than low-income workers, are 
exempt from overtime protections, as the FLSA requires?
    Answer 26. As I noted at my hearing, I am sensitive to the fact 
that the overtime rule has not been updated since 2004. If confirmed, 
this is an issue I will look at very closely and commit to examining 
the rule and the legal basis of the judge's decision.

    Question 27. I am concerned about DOL's duty to ensure that all 
employers are held accountable for abuses of their employees--including 
large corporations that try to shirk responsibility through franchises, 
over whose policies and balance sheets they maintain significant 
control. Will you hold parent companies responsible for violations of 
the minimum wage or overtime laws of the workers in their franchises 
where the parent company is legally culpable?
    Answer 27. This answer would be dependent on a specific set of 
facts. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly.

    Question 28. What are your specific plans to protect the rights of 
workers of franchised companies?
    Answer 28. If confirmed, I look forward to receiving input from the 
Department of Labor staff and Congress to improve the working 
conditions and opportunities for all Americans.

    Question 29. Workers' ability to collect back wages is a crucial 
part of the enforcement of Wage and Hour Laws. Yet recent reports 
indicate that some workers are turning down back pay because they fear 
deportation in light of President Trump's anti-immigrant policy and 
rhetoric.\9\
---------------------------------------------------------------------------
    \9\ https://www.bna.com/workers-turn-down-n57982084889/.
---------------------------------------------------------------------------
    If confirmed, will you commit to investigating this phenomenon to 
determine whether workers are declining back pay because they fear 
deportation?
    If you find that this is taking place, what is your plan for 
ensuring that all workers who experience wage theft are able to access 
back wages, regardless of immigration status?
    Answer 29. The Department of Labor's Wage and Hour Division 
enforces the Fair Labor Standards Act, and other laws in its purview, 
without regard to immigration status. If confirmed, I look forward to 
being briefed by DOL staff and learning more about these concerns and I 
will work to enforce the laws under the Department of Labor's 
jurisdiction fully and fairly, including wage and hour laws, to protect 
all workers' rights.

    Question 30. What will you do to improve the implementation and 
enforcement of Federal labor law and ensure that all American workers 
can work in a safe and healthy environment, achieve financial security, 
and retire in old age?
    Answer 30. As I noted at the hearing, if confirmed, I will enforce 
the law fully and fairly. I also look forward to working with Congress 
to further improve safety, security, and retirement of workers.

    Question 31. Some employers misclassify their employees as 
independent contractors in order to avoid wage and hour laws and other 
basic worker protections, paying taxes, and fair competition with other 
employers. In what specific ways should the Department of Labor improve 
its efforts to (a) identify mis-classified workers and (b) conduct 
enforcement actions against employers that misclassify them?
    Answer 31. An important role of the Department of Labor is to 
ensure that employers who want to do the right thing have clear 
compliance guidance from the Department. The use of independent 
contractors is a legal and valuable business practice. However, in some 
circumstances, when an employer incorrectly labels a worker as an 
independent contractor instead of an employee, the employer may not be 
abiding by their responsibilities to compensate the worker according to 
the requirements of the law. Employees incorrectly classified as 
independent contractors may be denied access to critical benefits and 
protections they are entitled to by law. This incorrect classification 
may also generate losses to the Federal Government and State 
governments in the form of lower tax revenues, as well as to State 
unemployment insurance and workers' compensation funds. Employers who 
deliberately misclassify workers undercut law-abiding employers who are 
making contributions to these systems and paying their workers 
properly. If confirmed, I look forward to being briefed on matters 
pertaining to the classification of employees and will work to enforce 
the laws under the Department of Labor's jurisdiction, including these 
employment laws, fully and fairly to ensure the protection of workers. 
If businesses are found to be incorrectly classifying workers in a way 
that violates the law, I will fully and fairly enforce the relevant 
laws.
  wells fargo, restaurant associates, and other ongoing investigations
    Question 32. Will you continue all ongoing investigations at the 
Wage and Hour Division of DOL to ensure that workers will not suffer 
setbacks in their effort to recover lost wages as a result of the 
change in leadership?
    Answer 32. As a nominee, I do not have specific knowledge of 
investigations in which the Department of Labor is engaged. As a 
general matter, I will enforce the law fully and fairly, and I expect 
investigations to go forward.

    Question 33. Will you continue with debarment proceedings of 
Restaurant Associates to ensure that the workers who feed Federal 
workers and Senate employees aren't cheated out of their wages and to 
ensure that Federal taxpayer dollars are being used responsibly?
    Answer 33. As a nominee, I do not have specific knowledge of this 
matter. As a general matter, I will enforce the law fully and fairly, 
and I expect ongoing enforcement to go forward.

    Question 34. Will you continue with any other ongoing debarment 
proceedings?
    Answer 34. As a nominee, I do not have specific knowledge of other 
ongoing debarment proceedings. As a general matter, I will enforce the 
law fully and fairly, and I expect ongoing enforcement to go forward.

    Question 35. Will you promise to continue the Department's ongoing 
investigation of wage and hour violations at Wells Fargo?
    Answer 35. As a nominee, I do not have specific knowledge of this 
matter. As a general matter, I will enforce the law fully and fairly, 
and I expect investigations to go forward.
              implementing dol's conflict of interest rule
    Question 36. The memorandum President Trump issued on February 3 
requires you to conduct a new economic and legal analysis of the 
Conflict of Interest Rule, and, depending on the results of this 
analysis, publish a new rule or rescind the rule. DOL has already asked 
for public comment on this analysis. Additionally, DOL has closed the 
comment period on a proposed 60-day delay of the April 10 applicability 
date of the rule.
    (a) Did the President or anyone in the White House, on the 
transition team, or at DOL consult you about the contents of his 
memorandum? If so, please list the names of all parties you consulted 
with and send any correspondence on this topic.
    (b) If you are confirmed before the 60-day delay of the fiduciary 
rule is finalized, will you stop the delay?
    (c) Do you think the costs to investors of the delay are justified? 
If so, please explain how you have calculated the benefits of the delay 
and please identify the parties that would benefit from the delay under 
your analysis.
    (d) Do you agree with President Trump's decision to call for 
additional analysis of the Conflict of Interest Rule?
    (e) What information will you review as part of this assessment?
    (f) Will you commit to only reviewing information that is 
independent and is not funded or otherwise compromised by financial 
industry players with a vested interest in the findings?
    (g) Please identify all political staff at DOL that will conduct 
the analysis.
    (h) Do you have any reason to believe that the findings of the new 
analysis will be any different from the detailed, multi-year analysis 
of the costs and benefits of the rule that was already conducted by DOL 
before the proposed rule was issued or in the extensive Regulatory 
Impact Analysis that was issued at the time the rule was finalized? If 
so, why?
    (i) The memorandum asks you to consider litigation costs and 
possible disruptions to the financial services sector in your economic 
and legal analysis, Will you also consider the full benefits of the 
rule for retirees and consumers in addition to any potential costs for 
the financial industry? Will you consider the costs to financial 
advisers who have already invested in complying with the rule?
    (j) The DOL finalized the Conflict of Interest Rule after a long 
process of extensive public comment periods, meetings with 
stakeholders, and days of public hearings. Will you commit to following 
the same process before finalizing any new change of the Rule, in order 
to allow the public to comment on the DOL's new analysis?
    (k) Big banks that make huge sums of money from selling high-fee, 
high-commission products to investors have made it very clear in 
Washington that they do not support the Conflict of Interest Rule, to 
the point of drowning out the voices of thousands of Americans who have 
lost a large portion of their retirement savings because of bad advice 
from someone with conflicted interests. Before you make any final 
decisions on the Rule, will you commit to soliciting input from the 
victims of bad retirement investment advice?
    (l) Will you refrain from taking any additional action to delay or 
limit the rule until your analysis is complete?
    (m) Will you commit to informing Congress on an ongoing basis of 
the status of this analysis?
    Answers 36(a) and (g). As a nominee, I did not participate in 
discussions regarding the presidential memorandum and do not know who 
will handle the analysis at the Department of Labor.
    Answers 36(b)-(f), and (h)-(l). As I noted at the hearing, the 
presidential memorandum addresses with specificity the fiduciary rule 
and details the Department of Labor's obligations to review the rule. 
If confirmed, I will conduct the review in accordance with the 
presidential memorandum. Under the Administrative Procedure Act, all 
stakeholders may comment and their views must be considered by the 
Department. As Chairman Alexander noted, as a nominee it would be 
presumptuous to make any further regulatory determinations at this 
time. With that said, it is important that the retirement savings of 
working Americans be protected. I support empowering Americans to make 
their own financial decisions, to facilitate their ability to save for 
retirement and build the individual wealth necessary to afford typical 
lifetime expenses, such as buying a home and paying for college, and to 
withstand unexpected financial emergencies.
    Answer 36(m). If confirmed, I look forward to working with Congress 
as we develop the Department's regulatory policies and priorities to 
safeguard retirement security.

    Question 37. On February 14, I sent a letter to the White House and 
DOL asking about reported involvement by a Financial Services 
Roundtable lobbyist in the development and drafting of President 
Trump's memorandum. I have not heard back from either the White House 
or DOL.\10\
---------------------------------------------------------------------------
    \10\ Elizabeth. ``Warren Questions White House, Labor, Financial 
Services Roundtable on Report that Wall Street Lobbyist Reviewed Drafts 
of Trump Executive Orders and Memorandums.'' Online at: https://
www.warren.senate.gov/?p=press_release&id=1451.
---------------------------------------------------------------------------
    Will you commit to responding to the questions I asked in that 
letter about the potential involvement by a Wall Street lobbyist from a 
leading advocacy organization for the financial services industry?
    Answer 37. I have not received a copy of your letter, and without 
knowing the contents of the letter it would be inappropriate for me to 
make specific commitments.

    Question 38. My office has issued two reports on kickbacks like 
lavish vacations, tropical cruises, and other prizes that are offered 
as incentives to salespersons in the annuities industry.\11\ Do you 
believe that these incentives could encourage a salesperson to 
recommend a product that is not in the best interest of the customer?
---------------------------------------------------------------------------
    \11\ Elizabeth Warren. ``Villas, Castles, and Vacations: How Perks 
and Giveaways Create Conflicts of Interest in the Annuity Industry.'' 
Online at: http://www.warren.senate.gov/files/documents/2015-10-
27_Senator_Warren_Report_on_Annuity_Industry.pdf.
---------------------------------------------------------------------------
    Answer 38. It is important that the retirement savings of working 
Americans be protected, and certainly there are individuals that may 
put their personal interests ahead of their clients in many industries 
where that is potentially unethical and illegal.

    Question 39. If a family member or personal friend were to ask you 
about how to pick a financial adviser, would you recommend that he or 
she pick an adviser with a fiduciary duty to their client, or not?
    Answer 39. If asked, I would recommend to my friend someone who I 
knew and trusted. I would also advise that in my experience the best 
advisors in professional fields are transparent about their fees and 
products, including in regards to compensation structure.

    Question 40. In your confirmation hearing, you refused to offer 
your personal views on or commit to implementing the Conflict of 
Interest Rule. You said that, if confirmed as Secretary of Labor, you 
would work for the President, which is troubling in light of President 
Trump's anti-worker statement and policies.
    Will you commit to expressing disagreement with President Trump if 
and when his rhetoric or policy proposals, including Executive orders, 
conflict with the DOL's mission to promote the welfare of wage earners, 
job seekers, and retirees?
    To the extent they conflict, will you commit to relying on the 
expertise of the DOL career staff rather than the political interests 
of the White House in making decisions about the Conflict of Interest 
Rule and other policies on which hundreds of millions of workers and 
retirees are relying?
    Will you commit to following the Administrative Procedure Act, 
which governs the rulemaking process, in all rulemakings you 
participate in if confirmed?
    Will you do so even if the President asks you to do otherwise?
    Answer 40. All Cabinet officers work for the President. That does 
not mean, however, that one cannot express disagreement on particular 
matters. As I stated, if confirmed, I will advocate for the mission of 
DOL. This includes disagreement regarding priorities or implementation. 
Once a decision by the President is made, however, I have an obligation 
to implement it or to resign. I certainly respect the expertise of 
staff. At all times, I will follow the law as I understand it. No one, 
including the President of the United States, is above the law, 
including the APA.
                 protecting workers from discrimination
    Question 41. On June 14, 2016, the Office of Federal Contract 
Compliance Programs (OFCCP) at DOL issued a final rule, Discrimination 
on the Basis of Sex, which updated OFCCP's sex discrimination 
regulations to explicitly include ``the protections against 
compensation discrimination; sexually hostile work environments; 
discrimination based on pregnancy, childbirth or related medical 
conditions; and discrimination based on unlawful sex stereotypes, 
gender identity, and transgender status.''\12\
---------------------------------------------------------------------------
    \12\ U.S. Department of Labor, ``U.S. Labor Department Announces 
Updated Sex Discrimination Regulations for Federal Contractors'' (June 
14, 20160 (online at https://www.dol.gov/newsroom/releases/ofccp/
ofccp20160614).
---------------------------------------------------------------------------
    Would you commit to fully enforcing this rule, should you be 
confirmed as Labor Secretary?
    Please describe the specific steps you would take to improve 
enforcement of this rule, and the specific metrics you will use to 
measure the effectiveness of the rule and its enforcement by DOL.
    Answer 21. The President, through an executive action, has directed 
all Cabinet secretaries to review all rules within each Cabinet agency. 
If confirmed, this responsibility will fall to me, including for this 
rule. With that said, I strongly support equal employment opportunity 
and, if confirmed, I will apply the law fully and fairly to prevent sex 
discrimination in areas under authority of the Secretary of Labor.

    Question 42. DOL's Civil Rights Center ``oversees EEO in programs 
and activities receiving Federal financial assistance'' from DOL. The 
Office of Federal Contract Compliance Programs, meanwhile, oversees EEO 
programs among ``employers holding Federal contracts and 
subcontracts.''\13\
---------------------------------------------------------------------------
    \13\ U.S. Department of Labor, ``Equal Employment Opportunity'' 
(online at https://www.dol
.gov/general/topic/discrimination).
---------------------------------------------------------------------------
    a. Will you ensure that DOL's Civil Rights Center is fully funded, 
so that Americans are protected from discrimination on the basis of 
race, religion, sex, national origin, disability, or genetic 
information?

         (i)  If confirmed, will you commit to continuing the Civil 
        Rights Center's work?
        (ii)  What metrics will you use to evaluate its success or 
        failure?

    b. Will you ensure that DOL's Office of Federal Contract Compliance 
Programs is fully funded, so that employees of Federal contractors are 
protected from discrimination on the basis of race, religion, sex, 
national origin, disability, or genetic information?

         (i)  If confirmed, will you commit to continuing the Office of 
        Federal Contract Compliance Programs' work?
        (ii)  What metrics will you use to evaluate its success or 
        failure?

    Answer 42. As a nominee, I have not participated in the current 
budget discussions. I note that the President proposes a budget but it 
is ultimately Congress that will determine the funding for the 
Department's agencies. Although the level of budget reductions have not 
yet been approved by Congress, some reduction is likely. I cannot 
commit to insulate any one program from some reduction. Each 
enforcement agency may have different metrics because of the nature of 
their responsibilities and legal authorities. I am aware that each 
Federal agency has developed comprehensive metrics and reports on them 
regularly. If confirmed, I will consult with staff and review the 
performance metrics DOL enforcement agencies have been using to see if 
there might need to be changes and then evaluate the agencies 
accordingly. The missions of both of these offices are important and I 
would work to ensure they can perform their responsibilities.
                          federal contractors
    Question 43. Now that congressional Republicans and President Trump 
have rescinded the Fair Pay and Safe Workplaces Executive order, what 
authorities does DOL have to ensure that contracting agencies have 
access to and can consider prior labor violations in procurement 
decisions (as Federal law and acquisition regulation requires)?\14\
---------------------------------------------------------------------------
    \14\ 41 U.S.C. Sec. 6706; 41 U.S.C. Sec. 6504; 41 U.S.C. Sec. 3144; 
Manuel, K. ``Responsibility Determinations Under the Federal 
Acquisition Regulation: Legal Standards and Procedures.'' Congressional 
Research Service (January 4, 2013). Online at: https://fas.org/sgp/crs/
misc/R40633.pdf.
---------------------------------------------------------------------------
    Will you implement these authorities?
    Answer 43. I understand that government agencies have suspension 
and debarment authorities and that the Department of Labor has existing 
capacity in the context of some of its statutes, including the service 
contract act. For example, I am informed that for certain contracts, 
the contracting officer at a Federal agency would be required to check 
if the potential contractor had received a recent review by OFCCP 
before awarding a contract. I am committed to providing agencies this 
data so they can make an informed decision.

    Question 44. The Establishing Paid Sick Leave for Federal 
Contractors Executive order (Executive Order 13706) requires Federal 
contractors to offer covered employees up to 7 days of paid sick leave 
each year, giving sick leave to around 1.15 million workers.\15\
---------------------------------------------------------------------------
    \15\ ``Final Rule: Executive Order 13706, Establishing a Paid Sick 
Leave for Federal Contractors.'' Wage and Hour Division, United States 
Department of Labor. Online at: https://www.dol.gov/whd/govcontracts/
eo13706/.
---------------------------------------------------------------------------
    Would you advise President Trump to retain this Executive order?
    Will you commit to enforcing this Executive order?
    Answer 44. The decision as to whether to maintain, amend or rescind 
Executive orders belongs to the President. As I noted in my hearing, if 
confirmed, I would enforce the law fully and fairly, including 
Executive orders that apply to the Labor Department or give the 
Department additional enforcement responsibilities.

    Question 45. The Establishing a Minimum Wage for Contractors 
Executive Order (Executive Order 13658) gives 200,000 workers raises by 
setting the minimum wage for Federal contractors at $10.10, with modest 
cost-of-living increases going forward.\16\
---------------------------------------------------------------------------
    \16\ ``Fact Sheet: Final Rule to Implement Executive Order 13658, 
Establishing a Minimum Wage for Contractors.'' Wage and Hour Division, 
United States Department of Labor. Online at: https://www.dol.gov/whd/
flsa/eo13658/fr-factsheet.htm.
---------------------------------------------------------------------------
    Would you advise President Trump to retain this Executive order?
    Will you commit to enforcing this Executive order?
    Answer 45. I believe that the vast majority of Federal contractors 
pay this wage irrespective of the Executive order. The decision as to 
whether to maintain, amend or rescind Executive orders belongs to the 
President. As I noted in my hearing, if confirmed, I would enforce the 
law fully and fairly, including Executive orders that apply to the 
Labor Department or give the Department additional enforcement 
responsibilities.

    Question 46. The Sex Discrimination Regulations Executive order 
(Executive Order 11246) prohibits discrimination on the basis of 
pregnancy and childbirth, gender identity, and sexual orientation, and 
updated guidelines on fair pay and sexual harassment for 
contractors.\17\
---------------------------------------------------------------------------
    \17\ ``OFCCP's Sex Discrimination Final Rule, Fact Sheet.'' United 
States Department of Labor. Online at: https://www.dol.gov/ofccp/
SexDiscrimination/SexDiscrimFinalRuleFactSheet_
JRFQA508c.pdf.
---------------------------------------------------------------------------
    Would you advise President Trump to retain this Executive order?
    Will you commit to enforcing this Executive order?
    Answer 46. The decision as to whether to maintain, amend or rescind 
Executive orders belongs to the President. As I noted in my hearing, if 
confirmed, I would enforce the law fully and fairly, including 
Executive orders that apply to the Labor Department or give the 
Department additional enforcement responsibilities.

    Question 47. In addition to the Executive orders described above, 
what are your specific plans to address the widespread labor law 
violations by contractors of the Federal Government? If confirmed as 
Labor Secretary, what will you do to ensure that taxpayer dollars are 
spent more responsibly?
    Answer 47. I understand that government agencies have general 
suspension and debarment authorities and that the Department of Labor 
uses a similar authority in the context of some of its statutes, 
including the service contract act. If confirmed, I would need to 
discuss this issue with DOL staff to better understand your concerns 
and what additional authorities DOL may have in this area.
                      workplace health and safety
    Question 48. Will you commit to pursue all penalties allowed by law 
for employers who put their workers in harm's way?
    Will you commit to pursuing criminal penalties, including jail 
time, for employers who willfully violate OSHA and cause the death of 
an employee?
    Answer 48. If confirmed, I look forward to discussing this and many 
other issues with the Department's OSHA staff, to help ensure the 
safety of all workers. I support the use of all of OSHA's penalties. If 
criminal penalties are warranted in a given situation they will be 
pursued. When the evidence demonstrates a willful violation of a 
specific OSHA standard that causes the death of an employee, an 
employer may be liable for criminal sanctions. In such cases, if 
confirmed, I will direct OSHA to continue to refer potential criminal 
matters for consideration by Department of Justice (DOJ) pursuant to 
established procedures, including the recently executed Memorandum of 
Understanding between OSHA and DOJ in 2015.

    Question 49. Will you commit to ensuring that OSHA is fully funded 
so that it can continue its inspection and enforcement efforts?
    Answer 49. As a nominee, I have not participated in the current 
budget discussions. I note that the President proposes a budget but it 
is ultimately Congress that will determine the funding for the 
Department's agencies. Although the level of budget reductions have not 
yet been approved by Congress, some reduction is likely. I cannot 
commit to insulate any one program from some reduction. Each 
enforcement agency may have different metrics because of the nature of 
their responsibilities and legal authorities. I am aware that each 
Federal agency has developed comprehensive metrics and reports on them 
regularly. If confirmed, I will consult with staff and review the 
performance metrics DOL enforcement agencies have been using to see if 
there might need to be changes and then evaluate the agencies 
accordingly.

    Question 50. Even when OSHA is fully funded, it can't inspect every 
workplace every year. What types of inspections will be the highest 
priority to the agency, and what industries will you prioritize for 
inspections?
    Answer 50. If confirmed, I look forward to discussing this and many 
other issues with the Department's OSHA staff and working with them to 
make certain that the appropriate prioritizations for inspections are 
in place to help ensure the safety of all workers. As specified in the 
OSH Act, OSHA operates a balanced program of enforcement, compliance 
assistance, training, outreach and voluntary collaborative programs to 
maximize its effectiveness. OSHA cannot inspect all 8 million 
workplaces it covers, and as such prioritizations are required. The 
industries with the highest hazards will receive top priority.

    Question 51. In June, OSHA's new Silica Rule, which will save 
hundreds of lives by protecting the 2.3 million workers exposed to 
silica in their workplaces from diseases like silicosis and lung 
cancer, went into effect.\18\
---------------------------------------------------------------------------
    \18\ ``OSHA's Final Rule to Protect Workers from Exposure to 
Respirable Crystalline Silica.'' Occupational Safety and Health 
Administration. United States Department of Labor. Online at: https://
www.osha.gov/silica/factsheets/OSHA_FS-3683_Silica_Overview.html.
---------------------------------------------------------------------------
    In your hearing, you would not commit to enforcing the silica rule 
because the President's January 20 memorandum asks agency heads to 
delay rules that are not yet in effect by 60 days. But the silica rule 
is already in effect. Will you commit to ensuring that the upcoming 
compliance dates for industry are implemented as currently set forth in 
the final rule?
    Will you commit to enforcing this rule and inspecting workplaces to 
ensure that this rule is being properly implemented?
    Will you defend the rule against any ongoing legal challenges in 
the courts?
    Answer 51. The President, through an executive action, has directed 
all Cabinet secretaries to review all rules within each Cabinet agency. 
If confirmed, this responsibility will fall to me. As part of that 
responsibility I look forward to discussing this and many other issues 
with the staff of the Department's Occupational Safety and Health 
Administration.

    Question 52. Will you enforce the beryllium rule if you are 
confirmed?
    Will you commit to adhere to the currently scheduled compliance 
dates and not delay of the effective date of this life-saving rule any 
further?
    Answer 52. The President, through an executive action, has directed 
all Cabinet secretaries to review all rules within each Cabinet agency. 
If confirmed, this responsibility will fall to me. As part of that 
responsibility I look forward to discussing this and many other issues 
with the staff of the Department's Occupational Safety and Health 
Administration.

    Question 53. On February 22, just hours after your nomination 
hearing, the Senate repealed OSHA's ``Volks Rule'' using a resolution 
of disapproval under the congressional Review Act. The rule clarifies 
OSHA's authority to hold employers accountable for their continuing 
obligation to maintain accurate injury and illness records for 5 years. 
As a result, underreporting of workplace injuries and illnesses will 
skyrocket and the odds that a worker is increased on the job will 
increase.
    How will the Department of Labor enforce OSHA's recordkeeping 
requirements in the absence of this important rule?
    How will you ensure that the DOL's statistics on workplace injury 
rates remain accurate, considering that employers will not be required 
to maintain accurate records after 6 months?
    Answer 53. I believe the Occupational Safety and Health Act still 
requires employers to maintain records for 5 years and that the DC 
Circuit overturned an attempt to apply a continuing violation 
previously given the Act's 6-month statute of limitations. If 
confirmed, however, I look forward to discussing these and many other 
issues with the Department's OSHA staff to make certain that employers 
comply with the law regarding the recording of injuries and illnesses 
in the workplace in order to ensure that all workers are protected.
                      fair scheduling legislation
    Question 54. As Secretary of Labor, what specific steps would you 
take to improve the working conditions of low-wage workers in the food 
service, retail, and cleaning sectors?
    Answer 54. If confirmed, I look forward to receiving input from DOL 
staff and Congress to improve the working conditions and opportunities 
for all Americans, and particularly those in low-wage sectors.

    Question 55. Will you support the passage of the Schedules that 
Work Act, which would help workers address unstable and unpredictable 
schedules?\19\
---------------------------------------------------------------------------
    \19\ https://www.warren.senate.gov/?p=press_release&id=896.
---------------------------------------------------------------------------
    If not, what are your plans for introducing fairness into work 
schedules so that workers are able to arrange for childcare, juggle a 
second job, or go back to school?
    Answer 55. I would need to thoroughly review that legislation 
before I committed to supporting it. As I mentioned in the hearing in 
the context of the gig economy, promoting workplace flexibility is 
something I support, particularly for working parents with young 
children.
                         workforce development
    Question 56. Will you commit to fully implementing the Workforce 
Innovation and Opportunity Act (WIOA)?
    Answer 56. As you know, WIOA was enacted in 2014 and many 
implementing regulations have been promulgated. If confirmed as 
Secretary of Labor, I also will work to maximize the impact of every 
Federal taxpayer dollar directed to job training programs and 
employment service formula grants while discussing shared 
responsibility for these grants by States, localities and employers. I 
do support and commit to fully implementing the Workforce Innovation 
and Opportunity Act.

    Question 57. Will you commit to aggressively advocating for any and 
all funding that is needed to implement WIOA?
    Answer 57. As a nominee, I have not participated in the current 
budget discussions. If confirmed, I look forward to participating in 
that process, so that I can understand the goals, performance and 
resource needs of programs such as this one in order to deliver the 
greatest value to the American people. Further, I believe that job 
training can offer substantial positive returns on tax payer dollars 
and do commit to aggressively advocate for it.

    Question 58. In light of the importance of summer jobs programs for 
disadvantaged youth, will you commit to expanding the summer jobs 
program for youth so that every young person who could benefit from a 
summer job will have access to one?
    Answer 58. If confirmed, I look forward to being briefed on the 
Department's activities and programs related to providing summer jobs 
for disadvantaged youth.

    Question 59. Important Workforce Innovation and Opportunity Act 
(WIOA) programs are designed to connect people with disabilities to 
employment opportunities. How will your administration ensure that 
State and local workforce plans and boards use these programs and 
related funding streams to improve employment outcomes for people with 
disabilities?
    Answer 59. If confirmed, I expect to be briefed on WIOA and all 
related programs and implementing regulations, so that I can understand 
the goals, performance and resource needs of programs such as this one. 
Taxpayer dollars are scarce and it is important that we ensure that 
State and local workforce plans and boards use these programs and 
related funding streams to improve employment outcomes for people with 
disabilities. I believe metrics should be used to measure outcomes 
success.

    Question 60. What will you do as Secretary to encourage self-
employment and entrepreneurship among Americans with disabilities?
    Will you support the Office of Disability Employment Policy's 
START-UP program, which provides technical assistance and training to 
States to promote entrepreneurship among Americans with disabilities?
    Answer 60. I would need to review any particular program before I 
committed to supporting it, but I certainly favor increasing the labor 
force participation rate of disabled individuals and helping them lead 
successful and self-sustaining lives.
                            labor statistics
    Question 61. Do you have doubts about the non-partisan objectivity 
of the Bureau of Labor Statistics?
    If so, what evidence do you have to support those doubts?
    If not, do you believe it is appropriate for the President to 
attack the credibility and objectivity of an independent government 
agency like the BLS?
    Answer 61. As I noted at the hearing, the Bureau of Labor 
Statistics has kept statistics for decades. It has a transparent 
procedure that makes clear how they calculate statistics. I think that 
procedure is very important because BLS keeps data that is used not 
just for today but for the future. BLS provides several measures of 
unemployment. There is, however, legitimate disagreement as to which 
particular BLS measurement for the unemployment rate tells the true 
story of the economy.

    Question 62. If confirmed, will you commit to defending the 
independence of the Bureau of Labor Statistics?
    Answer 62. Yes. As I noted at the hearing, the Bureau of Labor 
Statistics has kept statistics for decades. It has a transparent 
procedure that makes clear how they calculate things. And I think that 
procedure is very important because BLS keeps data that is used not 
just for today but for the future.

    Question 63. What steps will you take to ensure that the BLS's 
professional staff continue to collect and report employment and 
related data free from any political interference?
    Answer 63. BLS must be viewed as a reliable collector of data. If 
confirmed, I will insist that BLS continue its tradition of being 
insulated from political interference.

    Question 64. If confirmed, will you commit to aggressively advocate 
for full funding of the Bureau of Labor Statistics?
    Answer 64. As a nominee, I have not participated in the current 
budget discussions. I note that the President proposes a budget but it 
is ultimately Congress that will determine the funding for the 
Department's agencies. Although the level of budget reductions have not 
yet been approved by Congress, some reduction is likely. I cannot 
commit to insulate any one program from some reduction. That said, as I 
mentioned at the hearing, I certainly understand the value of BLS and 
support its mission.

    Question 65. The Department of Labor announced last year that it 
would conduct a survey on contingent and alternative employment as part 
of the May 2017 Current Population Survey, after collecting no such 
data since 2005, with the intention of continuing the CPS supplement on 
alternative work arrangements every 2 years going forward.\20\
---------------------------------------------------------------------------
    \20\ https://blog.dol.gov/2016/03/05/measuring-gig-work.
---------------------------------------------------------------------------
    Will you advocate for continued funding to conduct the contingent 
worker supplement to the CPS?
    Will you commit to conducting the supplement at regular intervals 
in the future and to communicating the results of that survey to 
Congress and the public?
    What steps will you take to ensure that DOL regulation, compliance, 
and enforcement policy adapts to the results of this survey and the 
changing nature of the workplace and safety net in the United States?
    Answer 65. I would need to review any particular program before I 
committed to supporting it. That said, as I mentioned at the hearing, I 
certainly understand the value of BLS data and the ``gig'' economy is 
something that the Department of Labor needs to address. Data from such 
a BLS survey may be helpful, and I would support its collection. One 
reason for this is that the data will assist DOL in adapting to the 
changing nature of the workplace.
                             senator kaine
    Question 1. Through Federal support and States encouraging 
apprenticeship models, the number of registered apprenticeships has 
increased. This includes the extension of the apprenticeship model 
beyond the construction and mechanical trades, into industries such as 
information technology, insurance, and health care. However, the 
average age of an apprentice still remains high at around 30, which 
suggests we're not doing a sufficient job of routing young people into 
these pathways. Will you support expanding pre-apprenticeship programs 
in order to create on-ramps and more seamless pathways for youth into 
apprenticeships and middle-skill jobs?
    Answer 1. I appreciate you raising this issue that I agree is 
vitally important. I share your belief that getting more young people 
involved in apprenticeship programs is an important goal. There are 
numerous examples throughout the Nation of industry, local academic and 
training institutions and government partnering effectively to train 
and place workers in growth sectors. I understand that encouraging 
quality pre-apprenticeship programs is part of the Department of 
Labor's apprenticeship expansion strategy. If confirmed as Secretary of 
Labor, I expect to examine the Department's options for providing 
quality pre-apprenticeship programs with States and others interested 
in developing this important on-ramp to careers. If confirmed, I 
believe my role will be to make sure this model can be accessed in more 
communities and by displaced workers who will need to transition to new 
and growing industries.

    Question 2. The Secretary of Labor chairs the Board of the Pension 
Benefit Guaranty Corporation.
    Do you believe there is a retirement crisis in this country?
    Will you propose a plan to Congress to address the insolvency 
issues at the PBGC and large multiemployer pension plans before they 
fail?
    Answer 2. If confirmed, I will be chair of the Pension Benefit 
Guaranty Corporation's Board of Directors and expect to be briefed on 
the matter of underfunded multiemployer pension plans. I believe our 
system of private pensions and retirement savings is working well for 
many Americans. Yet, too many workers are saving too little to ensure 
their financial security in old age. In addition, we must grapple with 
the legacy of pension promises that were made but not fully funded. As 
I noted in the hearing, I have not proposed a plan to address the issue 
of underfunded multiemployer plans and I wish there were an easy 
solution. These workers have worked hard for pensions they expect upon 
retirement, I understand that. I look forward to working with Congress 
and the President as solutions are proposed.

    Question 3. The Department's conflict of interest rule was 
finalized after extensive public comment periods, including multiple 
meetings with stakeholders and 4 days of public hearings.
    Will you commit to following that same transparent process and 
allow members of the public to comment fully on the Department's new 
analysis before it is finalized?
    Would a delay of this rule a month before its applicability date 
create additional uncertainty for savers and the financial institutions 
that have spent considerable sums of money to comply with this rule?
    Answer 3. I understand the Administrative Procedure Act (APA) 
governs the rulemaking process and if confirmed I will abide by the 
requirements of the APA. As I noted at the hearing, a presidential 
memorandum addresses with specificity the fiduciary rule and details 
the Department of Labor's obligations to review the rule. If confirmed, 
I will conduct the review in accordance with the presidential 
memorandum. I believe part of the inquiry the Department is conducting 
addresses the issues of the effects of investor uncertainty and 
expenditures to meet the rule's requirements.

    Question 4. What will you do as Secretary to encourage self-
employment and entrepreneurship among Americans with disabilities? Will 
you support the Office of Disability Employment Policy's START-UP 
program providing technical assistance and training to States to 
promote disability entrepreneurship? How will you partner with the 
Department of Commerce and the Small Business Administration to support 
people with disabilities who want to launch their small businesses or 
become entrepreneurs? Furthermore, how do you plan to include business-
owners with disabilities in the competitions to obtain government 
contracts?
    Answer 4. I would need to review any particular program before I 
committed to supporting it, but I certainly support increasing the 
labor force participation rate of disabled individuals and helping them 
lead successful and self-sustaining lives. As I noted at my hearing, I 
believe it is important for the Department to break down silos between 
governmental agencies to improve efficiency, and if confirmed, I will 
ask Department staff to look into interagency cooperation with Commerce 
and the Small Business Administration on this issue. I believe it would 
be illegal to discriminate against disabled business-owners in awarding 
Federal Government contracts, and I expect that they would be 
encouraged to compete for contracts by all government agencies.

    Question 5. Immigrants fill not just high-skilled roles in the 
United States, but also fill technical and manual skill jobs. A 2010 
study by the Federal Reserve Bank of San Francisco concluded that this 
helps companies expand, and allows more U.S.-born employees to assume 
managerial and leadership positions. What role can the Department of 
Labor play in ensuring that employers have access to sufficient workers 
to perform roles needed for expansion, including access to immigrants 
to perform technical and manual skill jobs if needed?
    Answer 5. I recognize the role that immigration has played and 
continues to play in our Nation. I also recognize that abuse of the 
visa process costs Americans jobs. This is a difficult balance and one 
that I will study carefully.

    Question 6. I am a strong supporter of DOL's job training and 
workforce programs. I am very worried that President Trump's budget 
cuts to job training programs are a direct attack on the programs 
necessary to help put Americans back to work. Will you commit to 
fighting these cuts and defending the proven job training, 
apprenticeship, Job Corps, and career pathway programs at DOL?
    Answer 6. I share your belief that job training programs can offer 
substantial returns on investment. The bi-partisan enactment of WIOA 
made advances based on evidence, lessons learned, and promising 
practices, such as increasing strategic alignment of investments in 
these programs and enhancing employer leadership and engagement. If 
confirmed, I will work to continue to advance goals like these within 
the reality of our constrained resources. I share your sense of how 
important these programs are and I pledge to focus on making them as 
effective and successful as possible.

    Question 7. The U.S. Labor Department plays a critical leadership 
role in shaping Federal policy to help the one in three adults in the 
United States (over 70 million) who have a criminal record to navigate 
the challenging employment landscape, and the 700,000 Americans who are 
released from prison every year and seek out employment in their 
communities. For example, DOL is the lead agency that funds reentry 
training and job placement services, which are funded by WIOA, the 
Second Chance Act and other critical programs, and promotes the 
business hiring incentives made available by the Work Opportunity Tax 
Credit and the Federal Bonding Program. Probably most importantly, 
working with other Federal agencies, the Secretary of Labor is in a 
unique position to engage the business community to recruit and hire 
people with records building on the remarkable momentum generated by 
business leaders on this issue over the past several years. Federal 
funding of job training, job placement and reentry services is a 
critical component of the national strategy to help move people with 
records back into the labor market. As Secretary of Labor, would you 
prioritize support for WIOA, the Second Chance Act, and other critical 
reentry programs?
    Answer 7. I share your belief that job training programs can offer 
substantial returns on investment. The bi-partisan enactment of WIOA 
made advances based on evidence, lessons learned, and promising 
practices, such as increasing strategic alignment of investments in 
these programs and enhancing employer leadership and engagement. If 
confirmed, I will work to continue to advance goals like these within 
the reality of our constrained resources. I share your sense of how 
important these programs are and I pledge to focus on making them as 
effective and successful as possible.

    Question 8. We know that fair workplaces are good for business and 
good for the economy. Ninety-two percent of Fortune 500 companies have 
adopted nondiscrimination provisions protecting lesbian, gay, and 
bisexual workers and 82 percent have adopted protections for 
transgender workers. These protections are essential. Recent studies 
have shown that more than one in five LGBTQ workers experience 
discrimination on the job. Transgender workers face even greater 
obstacles. As Secretary, you will be charged with furthering the 
mission of the Department of Labor, which includes advancing 
opportunities for all workers. What steps are you prepared to take to 
ensure that the Department continues to protect the rights of all 
workers, including ensuring the Department is proactively taking steps 
to combat discrimination against LGBTQ workers?
    Answer 8. As I noted in my hearing, if confirmed, I would enforce 
the Department's laws fully and fairly. This includes efforts to combat 
discrimination against LGBTQ workers.

    Question 9. The majority of minimum wage workers are women and over 
one-quarter have children to support. In Virginia, women earn 80 cents 
to every dollar that men earn. This information is concerning, but 
specifically for those of us who want to see women thrive and not be 
held back. Women make up two-thirds of the minimum wage workforce. And 
women are the sole or co-breadwinner in half of families with children. 
Do you believe gender pay discrimination exists?
    Answer 9. Discrimination based on gender, including as to pay, is 
illegal. Though unfortunate, it does exist. As I noted in my hearing, 
if confirmed, I would enforce the Department's laws fully and fairly.

    Question 10. If confirmed, will you take action to address and 
prevent pay discrimination?
    Answer 10. Discrimination based on gender, including as to pay, is 
illegal. As I noted in my hearing, if confirmed, I would enforce the 
Department's laws fully and fairly.

    Question 11. What do you believe is a fair minimum wage? In your 
view, do you believe that raising the minimum wage is a way to close 
the gender pay gap between men and women?
    Answer 11. The minimum wage is set federally by Congress but also 
in States and localities by their respective governments. I am unaware 
if raising the minimum wage would have any effect on any variance in 
wage rates paid to men and women respectively, but discrimination based 
on gender, including as to pay, is illegal.
                             senator hassan
    Question 1. Low-income older Americans have an unemployment rate 
three times greater than other workers. Will you continue to support 
funding of the Senior Community Service Employment Program, the only 
Federal workforce program targeted to serve older workers?
    Answer 1. As a nominee, I have not participated in the current 
budget discussions. If confirmed, I look forward to participating in 
that process, so that I can understand the goals, performance and 
resource needs of programs such as this one in order to deliver the 
greatest value to the American people.

    Question 2. Do you believe registered apprenticeship programs--
whether union or non-union affiliated--are beneficial to training 
workers to become better and more skilled employees? Why or why not?
    Answer 2. As I mentioned during the confirmation hearing, I believe 
that quality apprenticeship programs are an important part of workforce 
development and training and are often a vital pathway to skills 
attainment and a prosperous career. Earn while you learn programs like 
Registered Apprenticeship represent work-based learning experiences 
that create real opportunities to develop a workforce that is capable 
of meeting employers' skill needs regardless of union affiliation. 
Apprenticeship sponsors that meet national or State standards include a 
range of organizations, including employers, industry associations, 
joint labor-management organizations, government and the military. If 
confirmed, I hope to learn more about apprenticeship programs and will 
look for every opportunity to help position such programs to best serve 
workers and the economy.

    Question 3. In 2014, a national goal was set to double the number 
of Registered Apprenticeships--``earn and learn'' on-the-job training 
programs--within 5 years. Apprentices earn, on average, $60,000 after 
completing an apprenticeship program, and recent research shows that 
the benefits to employers, employees and taxpayers outweigh the costs. 
Congress has increased investments to expand apprenticeships, helping 
to create tens of thousands of new apprenticeships across the country, 
in traditional industries like construction, as well as non-traditional 
industries like health care, advanced manufacturing, and information 
technology. Importantly, those funds are also aimed at ensuring greater 
racial and gender diversity in apprenticeship. As labor secretary, will 
you continue to work toward a goal of doubling the number of registered 
apprentices in the United States? If so, how will you proceed?
    Answer 3. I am told that a study of U.S.-Registered Apprenticeship 
programs found a return of nearly $28 in public benefits for every 
dollar of public funds invested in the program, and that these programs 
leverage significant private investment, estimated at $1 billion, to 
maximize the impact of every taxpayer dollar Congress directs toward 
this job training program. The Department supports this public-private 
partnership where both employers and workers win, and if confirmed as 
Secretary of Labor, I will work with the Department team to support 
States in their efforts to expand apprenticeships and work to reduce 
barriers to employer participation.

    Question 4. A Georgetown study titled America's Divided Recovery 
recently found that 99 percent of the jobs created since the end of the 
Great Recession, 11.5 of 11.6 million jobs, went to workers with some 
post-secondary education. These trends seem likely to be only 
exacerbated by technological changes related to the automation of low-
skill work. As a result workers in this country that lack some post-
secondary education, whether through an apprenticeship, industry-
recognized credential, a certificate or a college degree, will 
increasingly find it difficult to secure gainful employment. Do you 
believe the Department has a responsibility to help every American gain 
the skills, particularly the post-secondary training, they require to 
be competitive in the labor market?
    Answer 4. Post-secondary training--whether it be 4-year college, 
community college, apprenticeship or industry-recognized credential--
are vital in positioning job seekers to survive in our modern economy, 
as you point out. If confirmed, creating viable pathways that will 
provide more workers with this sort of education and training will be a 
priority for the Department under my leadership.

    Question 5. Do you think collective bargaining is an appropriate 
means of increasing the share of the Nation's wealth that goes to 
middle-class Americans?
    Answer 5. The right to collectively bargain is clearly established 
in law, as is the right of workers to decide whether to join a union or 
to refrain from joining a union. The decision of whether to join a 
union should be left to the individual. If they believe that joining 
together to bargain collectively will increase their share of the 
Nation's wealth then they should do so.

    Question 6. Do you support executive actions like Executive Order 
13548, that President Obama issued to mark the 20th anniversary of the 
signing of the Americans with Disabilities Act and committed the 
executive branch to being a model employer of people who experience 
disabilities, including hiring an additional 100,000 employees with 
disabilities?
    Answer 6. I support actions that uphold the Federal Government as a 
model employer.

    Question 7. In light of the budget proposal stating it will 
eliminate ``less critical technical assistance grants'' within the 
Office of Disability Employment Policy, will you commit to providing 
this office with the support it needs within the Department? Yes, or 
no?
    Answer 7. As a nominee, I have not participated in the current 
budget discussions. If confirmed, I expect to be briefed on this and 
other programs to understand how they are succeeding in accomplishing 
their mission. Serving Disabled Americans in search of employment is a 
particularly important part of the Department's mission. If confirmed 
as Secretary of Labor, I will focus the expertise and resources of the 
Office of Disability Employment Policy on the areas where it can be 
most effective.

    Question 8. Will you continue to direct the Department of Labor to 
work with the Office Personnel Management to assist executive 
departments and agencies to recruit, hire, and retain employees with 
disabilities?
    Answer 8. I certainly support increasing the labor force 
participation rate of disabled individuals and helping them lead 
successful and self-sustaining lives. Such efforts contribute to our 
economy, and as important, to individual self-esteem. If confirmed, I 
expect to be briefed on programs at the Department that serve the 
disabled in order to understand how they are succeeding in 
accomplishing their mission.

    Question 9. According to a recent report from the previous 
administration, students with disabilities graduate high school at the 
lowest rates of any minority population. Nationally about 83 percent of 
all students graduated in 2014-15. Students with disabilities graduated 
at a rate of nearly 65 percent. How will you partner with the 
Department of Education to ensure that youth with disabilities get the 
education and training they need to enter the workforce? What will you 
do through the Employment and Training Administration to ensure that 
youth with disabilities can gain the skills needed to compete in the 
21st century economy?
    Answer 9. I certainly support increasing the labor force 
participation rate of disabled individuals and helping them lead 
successful and self-sustaining lives. Such efforts contribute to our 
economy, and as important, to individual self-esteem. If confirmed, I 
expect to be briefed on programs at the Department that serve the 
disabled in order to understand how they are succeeding in 
accomplishing their mission. As I mentioned in my hearing, I believe 
that effective coordination between the Labor and Education departments 
is vital. I look forward to working closely with the Department of 
Education on disabled employment and training and other matters and I 
will strive to improve coordination whenever possible.

    Question 10. Under Section 503 of the Rehabilitation Act, new rules 
mandate that all Federal contractors must take affirmative action to 
recruit, hire, promote, and retain individuals with disabilities. The 
new rules established a 7 percent utilization goal for individuals with 
disabilities. They also required increased data collection and record 
keeping to improve employer accountability. This is an important part 
of solving the unemployment and under-employment of people with 
disabilities. Will you commit to enforcing this regulation, which is 
under the Department of Labor's jurisdiction?
    Answer 10. I certainly support expanding opportunity for the 
unemployed and under-employed generally, including particularly 
Americans with disabilities. If confirmed, I will comply with that 
directive. As I noted in my hearing, if confirmed, I will work to 
enforce the laws under the Department of Labor's jurisdiction fully and 
fairly, including regulations requiring contractors to improve their 
equal employment opportunities for disabled Americans.

    Question 11. What steps will you commit to take to continue to 
vigorously enforce the Fair Labor Standards Act, including violations 
relating to wage theft, and ensure that there is no political 
interference with the Wage and Hour career staff?
    Answer 11. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly, without regard to 
political pressure, and would expect the same commitment from all 
Department of Labor staff.

    Question 12. Can you ensure that hiring made by the Department of 
Labor remains strictly non-politicized?
    Answer 12. As I noted at the hearing, political views in the hiring 
of career attorneys or staff should not be used, and, if confirmed, I 
will not allow it. The Federal Government has merit selection processes 
that should be followed in hiring career staff.

    Question 13. Will you take steps as Secretary of Labor to ensure 
that decisionmaking about case selection and litigation strategy to 
enforce labor and employment protections is free from improper 
political influence? What specific steps will you take?
    Answer 13. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly, without regard to 
improper political influence. I will make this clear to all staff.

    Question 14. What did you learn from the DOJ hiring scandal that 
will change the way you manage personnel decisions at the Department of 
Labor?
    Answer 14. Senior leadership in government has to balance external 
and internal demands. I believe I am more hands-on, and more focused on 
internal matters. I have also learned to better oversee and monitor 
subordinates while not micromanaging their performance. As U.S. 
attorney, I walked around the office often in order to learn what AUSAs 
were doing. This day-to-day contact was important, and helped me better 
understand and monitor day-to-day AUSA activity.

    Question 15. Do you think employers should be responsible for 
providing health benefits to their employees?
    Answer 15. Many Americans get their health care coverage through 
their employers and value that benefit. If confirmed, I expect to be 
briefed on health benefit issues in the Department of Labor's 
jurisdiction and I look forward to working with Congress as we develop 
the Department's regulatory policies and priorities to promote greater 
access to health care.

    Question 16. At the end of the Obama administration, the 
unemployment rate hit a 9-year low of 4.6 percent. How do you propose 
continuing this trend? How will you make sure that, if jobs are 
created, they pay a living wage? Which of President Obama's policies 
would you like to see sustained?
    Answer 16. Ensuring that all workers are positioned to find a good 
job and possess the skills needed to succeed and meet the needs of a 
changing economy will be a major priority of mine, if confirmed. Many 
Americans have left the workforce or are under-employed or discouraged. 
We must restore their faith in the American Dream and create the 
conditions for them to believe they can be more prosperous than their 
parents, as was the case in so many previous generations.

    Question 17. What do you believe an appropriate minimum wage should 
be? Do you believe that the minimum wage should provide employees a 
path to the middle class?
    Answer 17. The minimum wage is set federally by Congress but also 
in States and localities by their respective governments. I recognize 
that cost-of-living and other economic factors vary greatly across the 
United States and that many States and localities have increased the 
minimum wage above the Federal floor.

    Question 18. Survivors of domestic violence, sexual assault and 
stalking are present in workplaces of all kinds across the United 
States. Do you believe that domestic violence and sexual assault 
survivors should be able to take paid time off at work in order to seek 
medical attention, participate in legal proceedings, and seek other 
services related to their victimization?
    Answer 18. Violence of all forms, including gender-based violence, 
is wrong. Further, gender-based violence can cause psychological issues 
that impact the employment. I believe expanding job-protected leave 
would require congressional action and, if confirmed, I look forward to 
working with the President and Congress as discussions regarding leave 
occur.

    Question 19. Should workers come to work with the flu? Doesn't 
coming to work sick risk spreading the illness to coworkers? Should 
workers in this country be guaranteed paid sick leave? Which is a 
better way for a company to spend five million dollars: paid sick leave 
for all workers or executive bonuses?
    Answer 19. I recognize that many States and localities have 
implemented paid leave laws. I believe attempts to expand paid leave 
beyond Federal contractors would require congressional action. If 
confirmed, I look forward to working with the President and Congress as 
discussions regarding paid leave occur.

    Question 20. Is sexual harassment in the workplace an issue you 
could decisively oppose and how would you demonstrate your opposition?
    Answer 20. Sexual harassment in the workplace is illegal and wrong. 
If confirmed, I will enforce the laws against sexual harassment that 
are within DOL's jurisdiction.

    Question 21a. As Secretary of Labor, would you enforce the Lilly 
Ledbetter Fair Pay Act?
    Answer 21a. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly, including those 
portions of the Lilly Ledbetter Fair Pay Act that fall within DOL (as 
opposed to EEOC) jurisdiction.

    Question 21b. What role will the Department of Labor play under 
your leadership in addressing violations of equal pay laws so that 
women and people of color get equal pay for an equal day's work?
    Answer 21b. Employment discrimination on the basis of sex and race 
are illegal and wrong. The Equal Employment Opportunity Commission, 
instead of the Department of Labor, is generally tasked with 
enforcement of discrimination laws. The Department's Office of Federal 
Contract Compliance Programs enforces presidential Executive Order 
11246, which prohibits sex discrimination in employment by Federal 
contractors. If confirmed, I will work to enforce the laws under the 
Department of Labor's jurisdiction fully and fairly.

    Qiestion 21c. U.S. businesses say they can't find the qualified 
workers they need; skills attainment is vital to our country's economic 
competitiveness. Today's manufacturing jobs require skills that were 
not necessary even 5 years ago. As Secretary, how would you enhance 
America's competitiveness by upskilling our workforce?
    Answer 21c. As our economy innovates and changes, the training we 
provide must do likewise. If confirmed, I expect to be briefed on what 
the Department is doing to respond to the needs of a rapidly changing 
economy, and will focus my attention on ensuring that the taxpayer 
dollars that we invest in such programs are being used effectively, 
efficiently and with a focus on the future of our workforce. Closing 
the skills gap by matching training and employment services to growth 
industries, and expanding access to quality apprenticeships are steps I 
believe would be a major part of enhancing our competitiveness.

    Question 22. Under your leadership, how would intermediary 
organizations like nonprofits help deliver workforce training and 
connect Americans to employment and career advancement?
    Answer 22. Intermediary organizations currently help deliver 
workforce training and connect Americans to employment and career 
advancement as recipients of DOL grant funds. If confirmed as 
Secretary, I will review all workforce programs to maximize the impact 
of every taxpayer dollar Congress directs toward employment and job 
training programs, and I am open to maintaining the role of 
intermediary organizations in this effort if they are doing the best 
job. Furthermore, if confirmed, I look forward to being briefed on how 
such programs and partnerships can be leveraged in order to train more 
workers and place more Americans in prosperous employment.

    Question 23. WIOA Title I prioritizes services to out-of-school 
youth. Under your leadership, will the Department of Labor provide 
timely technical assistance and guidance to States and local 
communities on effective practice and strategies?
    Answer 23. If confirmed, I believe the Department should strive to 
be a clearinghouse of best practices and guidance to States and local 
communities in this area. The Department of Labor should take a 
leadership role in identifying and compiling promising practices and 
evidence-based approaches to improve youth services under the Workforce 
Innovation and Opportunity Act. If confirmed as Secretary of Labor, I 
will work with the Department of Labor staff to continue to identify 
and disseminate to States and localities these practices and approaches 
to serving out-of-school youth to make maximum use of Federal taxpayer 
resources. I expect to be briefed on such existing efforts and look 
forward to working to make sure that programs and practices that are 
most effective are shared and replicated far and wide.

    Question 24. Do you consider it a form of theft when an employer 
fails to pay a worker the wages that worker is entitled to by law? If 
so, would you therefore agree that the Department of Labor should hold 
employers accountable for such theft? How should the Department of 
Labor hold such employers accountable?
    Answer 24. As I noted at the hearing, if confirmed I will work to 
enforce the laws under the Department of Labor's jurisdiction fully and 
fairly, including wage and hour laws.

    Question 25. Do you think an employer should be able to take 
punitive action against a woman because of her reproductive health 
decisions? Yes or No?
    Answer 25. A person's decisions regarding starting a family should 
be a private matter. Dependent on the specific facts, the Pregnancy 
Discrimination Act would likely make such decisions illegal. The 
Pregnancy Discrimination Act, which amended title VII, prohibits an 
employer from discriminating against an applicant or employee because 
of or on the basis of pregnancy, childbirth, or related medical 
conditions.

    Question 26. Do you think an employer should be able to deny a 
woman insurance coverage of birth control? Yes or No?
    Answer 26. The issue of whether contraceptive coverage is required 
is a matter that I understand is subject to litigation and was part of 
the Affordable Care Act and its regulations.

    Question 27. Do you think an employer should be able to ask a 
female job applicant about whether she intends to become pregnant? Yes 
or No?
    Answer 27. A person's decisions regarding starting a family should 
be a private matter. Dependent on the specific facts, the Pregnancy 
Discrimination Act would likely make such decisions illegal. The 
Pregnancy Discrimination Act, which amended title VII, prohibits an 
employer from discriminating against an applicant or employee because 
of or on the basis of pregnancy, childbirth, or related medical 
conditions.

    Question 28. Do you think an employer should be able to fire, 
demote or otherwise take a punitive employment action against, an 
unmarried woman who becomes pregnant? Yes or No?
    Answer 28. A person's decisions regarding starting a family should 
be a private matter. Dependent on the specific facts, the Pregnancy 
Discrimination Act would likely make such decisions illegal. The 
Pregnancy Discrimination Act, which amended title VII, prohibits an 
employer from discriminating against an applicant or employee because 
of or on the basis of pregnancy, childbirth, or related medical 
conditions. There are some instances where the law allows religious 
organizations to require fidelity to tenets of the faith as a condition 
of employment.

    Question 29. Can you tell me your opinion on electronic delivery 
and what changes you would make to any rules and processes, if any and 
how so?
    Answer 29. I am not clear as to what kind of electronic delivery or 
Departmental program or initiative your question references, so I am 
unable to answer this question without additional information.

    [Whereupon, at 11:44 a.m., the hearing was adjourned.]

                                   

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
